<html>
<title> - CROSS-BORDER TRUCKING WITH MEXICO</title>
<body><pre>[Senate Hearing 110-283]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-283
 
                   CROSS-BORDER TRUCKING WITH MEXICO

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                     MARCH 8, 2007--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                    U.S. GOVERNMENT PRINTING OFFICE
37-649                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LEMAR ALEXANDER, Tennessee

                    Charles Kieffer, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

 Subcommittee on Transportation and Housing and Urban Development, and 
                            Related Agencies

                   PATTY MURRAY, Washington, Chairman
ROBERT C. BYRD, West Virginia        CHRISTOPHER S. BOND, Missouri
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 ARLEN SPECTER, Pennsylvania
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
PATRICK J. LEAHY, Vermont            SAM BROWNBACK, Kansas
TOM HARKIN, Iowa                     TED STEVENS, Alaska
DIANNE FEINSTEIN, California         PETE V. DOMENICI, New Mexico
TIM JOHNSON, South Dakota            LAMAR ALEXANDER, Tennessee
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
                                     THAD COCHRAN, Mississippi (ex 
                                         officio)

                           Professional Staff

                              Peter Rogoff
                            William Simpson
                          Meaghan L. McCarthy
                             Rachel Milberg
                         Jon Kamarck (Minority)
                      Matthew McCardle (Minority)
                        Ellen Beares (Minority)

                         Administrative Support
                              Teri Curtin

                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Patty Murray........................     1
Opening Statement of Senator Christopher S. Bond.................     4
Statement of Senator Wayne Allard................................     6
Statement of Hon. Mary E. Peters, Secretary, Department of 
  Transportation.................................................     7
John H. Hill, Administrator, Federal Motor Carrier Safety 
  Administration, Department of Transportation...................     7
Prepared Statement of Hon. Mary E. Peters........................     9
Background.......................................................     9
Demonstration Project............................................    10
Safety...........................................................    10
Security and Environment.........................................    12
Statement of Hon. Calvin L. Scovel III, Inspector General, 
  Department of Transportation...................................    13
IG Role..........................................................    13
Progress in Border Safety........................................    14
Concerns About Data on Traffic Convictions.......................    14
Observations on Pilot Program....................................    14
Bus Inspections..................................................    15
Prepared Statement of Calvin L. Scovel III.......................    15
Status of Safety Requirements for Cross-border Trucking With 
  Mexico Under NAFTA.............................................    15
Significant Progress Has Been Made in Border Safety..............    16
Two Section 350 Criteria Require Additional Attention............    18
Two Non-Section 350 Issues Not Specified in the Act Also Need 
  Continued Attention............................................    19
The Pilot Program................................................    20
Prior Audit Coverage by the Department of Transportation's Office 
  of Inspector General...........................................    21
Statement of Jayson P. Ahern, Assistant Commissioner, Office of 
  Field Operations, Customs and Border Protection, Department of 
  Homeland Security..............................................    22
    Prepared Statement...........................................    24
Process for Mexican Drivers Taken Out of Service in the United 
  States.........................................................    31
Documentation for Admission Into the United States and Biometric 
  Enrollment.....................................................    35
Large Scale X-ray Systems and Radiation Portal-Monitors at the 
  Border.........................................................    36
Process for Anomalies Found by Large Scale X-ray Systems.........    36
Methamphetamine at the Border....................................    36
Statement of James P. (Phil) Worthington, President, Con-Way 
  Freight-Southern, on Behalf of the American Trucking 
  Association, Alexandria, Virginia..............................    44
    Prepared Statement...........................................    46
Introduction.....................................................    46
Background.......................................................    46
Implementation of NAFTA Pilot....................................    47
Statement of James P. Hoffa, General President, International 
  Brotherhood of Teamsters, Washington, DC.......................    48
    Prepared Statement...........................................    50
Attachment.--The NAFTA Trucker--Holding The Line.................    53
Professional Secrets.............................................    54
Dangerous Drivers................................................    54
``Dust in the Air''..............................................    55
No Sleep at All..................................................    55
Pawns in a Game..................................................    55
La Santisima.....................................................    56
Fighting for Safe Borders........................................    56
False Promises, Lost Jobs........................................    56
The Murray-Shelby Amendment......................................    57
Statement of John B. Ficker, President and CEO, National 
  Industrial Transportation League, Arlington, Virginia..........    57
    Prepared Statement...........................................    59
Statement of Charles Parfrey, Member, Board of Directors, Owner-
  Operator Independent Drivers Association, Grain Valley, 
  Missouri.......................................................    60
    Prepared Statement...........................................    61
Cross Border Trucking with Mexico................................    61
Safety...........................................................    63
Statement of Joan Claybrook, President, Public Citizen, 
  Washington, DC.................................................    68
Advocates for Highway and Auto Safety............................    69
FOIA Request.....................................................    69
Questions from Joan Claybrook....................................    70
Prepared Statement of Joan Claybrook.............................    72
Summary of Recommended Actions...................................    73
Background--The Border Zone and NAFTA............................    74
Section 350 has Been Essential in Advancing Motor Carrier Safety.    75
Mexico-Domiciled Motor Carrier Safety is Still Dangerously 
  Deficient......................................................    76
FMCSA has a Poor Record of Ensuring the Safety of all Truck and 
  Bus Operations in the United States, Including Mexico-Domiciled 
  Motor Carriers in the Border Zone..............................    76
Several Major Areas of Mexico-Domiciled Motor Carrier Safety and 
  Oversight Remain Seriously Defective and Jeopardize Safety for 
  Everyone.......................................................    77
Any Pilot Program Permitting Mexico-Domiciled Motor Carriers to 
  Operate Nationwide Must Comply With Section 4007 of TEA-21.....    83
Cross Border Truck Safety Inspection Program.....................    84
Ready to Deliver Long-Distance Cross-Border Trucking.............    84
Committee on Commerce, Science, and Transportation--Nominaton 
  Hearing, September 20, 2006....................................    85
Nomination of Mary E. Peters.....................................    85
Making the Highways Less Safe....................................    98
As Trucking Rules are Eased, a Debate on Safety Intensifies......    99
An Industry's Influence..........................................   100
Rewriting the Rules..............................................   102
A Family's Lawsuit...............................................   103
Drivers Bypass Weigh Stations; Lobbyists Help Keep it Legal......   104
Heavy Loads......................................................   104
One-Eye Rule.....................................................   105
A Flawed Issue...................................................   106
Chile Pepper Law.................................................   106
Influence Brokers................................................   107
Truckers' Long Hours, High Stress Take Toll......................   109
Industry's Pressures Lead Many Drivers to an Early Grave While 
  Endangering Others on the Road.................................   109
Deadly Profession................................................   109
Illness, Fatigue.................................................   110
Whistleblowers...................................................   111
Reviews Make Roads Safer But Rarely Happen.......................   111
An Underused Weapon..............................................   111
Too Few Inspectors...............................................   112
Targeting the Problem............................................   112
Safety Reviews...................................................   113
Doing it Better..................................................   114
Penny-Wise, Pound Foolish........................................   114
TXI Trucks Involved in 31 Accidents Over the Last 2 Years........   115
In Wise County, Truck Accidents Killed 56 People in 6 Years......   115
Important Industry...............................................   116
Spot Inspections.................................................   117
A Weighty Exception..............................................   117
Pay by the Load..................................................   118
Federal Motor Carrier Safety Administration (FMCSA)..............   119
Legislated Rulemaking Actions and Studies, and Additional Agency 
  Actions........................................................   119
Truck and Bus Safety and Regulatory Reform Act of 1988...........   119
Hazardous Materials Transportation Uniform Safety Act of 1990....   119
Intermodal Surface Transportation Efficiency Act of 1991.........   120
Hazardous Materials Transportation Authorization Act of 1994.....   121
Interstate Commerce Commission Termination Act of 1995...........   122
Transportation Equity Act for the Twenty-First Century (TEA-21)..   123
Motor Carrier Safety Improvement Act of 1999 (MCSIA).............   124
Uniting and Strengthening America by Providing Appropriate Tools 
  Required to Intercept and Obstruct Terrorism (USA Patriot Act) 
  Act of 2001....................................................   126
Department of Transportation and Related Agencies Appropriations 
  Act
  2002...........................................................   127
Safe, Accountable, Flexible, Efficient Transportation Equity Act: 
  a Legacy for Users 2005 (SAFETEA-LU)...........................   128
Other Rulemaking Actions.........................................   134
Prepared Statement of the American Insurance Association.........   143
Important Safety Concerns Remain Unresolved......................   143
Significant Data Issues Remain...................................   143
The Pilot Test Raises Many Questions.............................   144
Prepared Statement of the U.S. Chamber of Commerce...............   144
The Story So Far.................................................   144
Cross-Border Trucking............................................   145
Safety: A Vital Issue............................................   145
Additional Committee Questions...................................   146
Questions Submitted to Hon. Mary E. Peters.......................   146
Questions Submitted by Senator Patty Murray......................   146
Questions Submitted by Senator Byron L. Dorgan...................   149
Questions Submitted by Senator Richard C. Shelby.................   150
Questions Submitted by Senator Pete V. Domenici..................   152
Questions Submitted to Hon. Calvin L. Scovel III.................   153
Questions Submitted by Senator Patty Murray......................   153


                   CROSS-BORDER TRUCKING WITH MEXICO

                              ----------                              


                        THURSDAY, MARCH 8, 2007

                           U.S. Senate,    
 Subcommittee on Transportation and Housing
       and Urban Development, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:15 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Patty Murray (chairman) presiding.
    Present: Senators Murray, Lautenberg, Bond, Bennett, and 
Allard.


               OPENING STATEMENT OF SENATOR PATTY MURRAY


    Senator Murray. The subcommittee will come to order.
    Today we are examining the cross-border long-haul trucking 
with Mexico, and I want to thank all of our witnesses for 
sharing their insights with us here this morning.
    I'm disappointed that one of our scheduled witnesses is not 
here today. The Transportation Undersecretary of Mexico will 
not be testifying this morning. The Mexican Government has now 
decided his appearance would not be appropriate. That's 
unfortunate, because I believe he could have provided some 
important insights this morning. The Government of Mexico has 
offered to make the Undersecretary available for private 
meetings with Senators on this topic, at some future time.
    This subcommittee has a long history with this issue, as 
does the full Senate. When we debated the 2002 Transportation 
Appropriations bill, the entire Senate was tied up with this 
issue for almost half a month.
    I want to offer some quick background on how we got here, 
and what I hope that we will learn today. Back in 2001, after a 
ruling by a NAFTA panel, the Bush administration announced its 
plan to implement the cross-border trucking provisions of 
NAFTA, and to open our southern border to Mexican trucks to 
travel anywhere within the United States. The Bush 
administration took this stand despite numerous findings by the 
Government Accountability Office, the DOT Inspector General, 
and others that there were numerous and significant safety 
risks that needed to be addressed.
    Those safety risks included findings that the DOT did not 
have an adequate plan for inspecting Mexican trucks coming 
across the border. The DOT did not have an adequate number of 
safety inspectors, and the inspectors they did have were not 
adequately trained. There was not adequate property at the 
southern border to allow DOT inspectors to place Mexican trucks 
out-of-service for any safety deficiencies. There was no 
mechanism in place to insure that Mexican truckers were 
complying with U.S. hours-of-service laws. There was no way to 
validate whether the commercial drivers licenses used by 
Mexican truckers were authentic and up to date. There were not 
adequate facilities at the Mexican border for the DOT to 
conduct an adequate number of truck inspections. There were not 
scales at the Mexican border to determine whether Mexican 
trucks were adhering to U.S. truck weight limits. There was not 
adequate data available to inspectors to determine whether 
Mexican trucking companies crossing the border had an 
acceptable safety record. And the Federal Motor Carrier Safety 
Administration was years behind in publishing numerous rules 
that were absolutely essential, if an adequate safety regime 
was ever going to be enforced.
    In the wake of the Bush administration's announcement, the 
House of Representatives, which was then under Republican 
control, voted by a 2 to 1 margin to place an amendment on the 
Transportation Appropriations bill that prohibited any long-
haul Mexican trucks from coming across the border. President 
Bush quickly threatened to veto that bill. So in the wake of 
President Bush's veto threat, Senator Shelby and I drafted a 
very comprehensive provision to address the many critical 
safety concerns surrounding Mexican trucks, without including 
an outright prohibition on Mexican trucks entering our country.
    Our provision included dozens of reasonable safety 
requirements that the DOT and the Mexican authorities would 
have to meet, before long-haul Mexican trucks could have access 
to our entire interstate highway system. We sought to address 
each of the many concerns raised by the DOT Inspector General, 
the Government Accountability Office, and others. We were on 
the Senate floor for 2 weeks. During that time, the Senate took 
four clouture votes and voted on eight separate amendments 
dealing with the issue of Mexican trucks.
    In the end, we succeeded in getting the Murray-Shelby 
compromise off the Senate floor, because our provision was 
balanced and addressed the problems head-on. Rarely has the 
Senate debated an aspect of Senate Transportation 
Appropriations bill so thoroughly.
    Tragically, just weeks after our bill got off the Senate 
floor, the Nation experienced another event that would greatly 
inform our debate. We experienced the horror of September 11, 
2001. When we got to conference much later that year, our 
compromise was included with slight modification as section 350 
of the final Transportation Appropriations bill. And from that 
day forward the Department of Transportation and the Mexican 
authorities began working to comply with each of those 
provisions in section 350.
    Two weeks ago, the Bush administration announced that, in 
their view, they have now fulfilled every aspect of section 350 
and they were ready to open the southern border to long-haul 
cross-border trucking. However, they did not announce that they 
would be opening the border to each and every Mexican 
commercial vehicle seeking to operate throughout the United 
States. Instead, they announced a 1-year pilot project with 
special restrictions. Under their pilot project, certain safety 
precautions would be even more stringent than those required 
under section 350. Certain commercial vehicles, namely, buses 
and trucks carrying hazardous materials would not be allowed to 
participate.
    Now, as I look at how this pilot project is structured, I'm 
very concerned that DOT may be deliberately allowing only the 
top Mexican truck companies to participate in a pilot project, 
simply to skew the results so the outcomes looks better. If 
you're only looking at the best of the best, you might not get 
an accurate picture of what full cross-border trucking will 
look like. That makes me wonder if this pilot project is really 
just designed to produce a preordained conclusion.
    It also excludes some categories of motor carriers, like 
buses and trucks carrying hazardous materials. We need to hear 
exactly how DOT eventually plans to ensure the safety of those 
cross-border vehicles, as well.
    A meaningful discussion of safety and security cannot begin 
and end with section 350. That legislation was written more 
than 5 years ago. In our new post-9/11 world, we have learned a 
lot more about terrorist threats, and how to prevent them. 
We've also learned a lot more about illegal immigration, and 
the methods used to smuggle citizens into the United States.
    For example, in May 2003, 70 illegal immigrants were 
stuffed inside a tractor trailer and were being transported to 
Houston. Nineteen of the 70 people suffocated. Less than 3 
weeks ago, 40 people were discovered in the back of a tractor 
trailer in Texas. Thankfully, they were all alive.
    This morning's hearing will also focus on the economics of 
cross-border trucking. We need to explore why U.S. trucking 
firms are facing delays in accessing Mexico. We are told that 
Mexican firms will have full access to the United States market 
in just a few weeks, but that U.S. firms will have to wait 
until half of the year-long project is over before they can 
enter Mexico. That does not sound like equal access to me.
    Perhaps the most important question we need to address is 
this: What happens after the administration's proposed 1-year 
pilot project? Should we assume that after 1 year the border 
will be open to all long-haul Mexican trucks? Is 1 year an 
adequate period of time to determine whether there has or has 
not been unacceptable safety risks?
    The Federal Motor Carrier Safety Administration is not 
famous for doing anything quickly. Is that the agency that will 
be evaluating the success of this pilot program? If so, what 
criteria will they be using? There's certainly reason to 
question whether this Agency can adequately evaluate a 1-year 
pilot project when you consider the fact that certain 
requirements of section 350 do not kick in until 18 months 
after the first truck crosses the border.
    In the course of learning more about the administration's 
pilot project, I received a copy of the official record of 
discussion that was initiated by both Mexican and U.S. 
authorities. It spells out broad parameters of the anticipated 
pilot project, and there's one very revealing section, which 
makes it crystal clear that the new agreement anticipates that 
after 1 full year, cross-border trucking without any 
restrictions will commence.
    If the purpose of the pilot project is to determine if we 
can do this safely, why is the result already agreed to by both 
governments? Again, it leads me to wonder if the demonstration 
project is more show, than scrutiny.
    While some witnesses today might like to keep us focused 
just on the administration's so-called 1-year pilot project, 
this subcommittee needs to get the full picture of what happens 
1 year from now, when this border is fully opened. I will be 
asking some detailed questions about this document and what the 
administration intends to do after the pilot project is 
completed, and I expect to hear complete answers.
    I, like many of my colleagues in the Senate, voted for 
NAFTA. I believe in the economic benefits that expanded trade 
can provide for our country. I see those benefits first-hand 
every day in my home State of Washington. I know how trade 
supports and creates jobs, but I also know that safety must 
never take a back seat to economic prosperity. When we first 
debated this issue in the Senate back in 2001, I argued that we 
could have both safety and economic growth. Today's hearing 
will hopefully reveal whether the Bush administration, and 
Mexican officials, have done what they need to do to make that 
possible.
    And now I'd like to turn to my ranking member, Senator 
Bond.


            OPENING STATEMENT OF SENATOR CHRISTOPHER S. BOND


    Senator Bond. Thank you very much, Madame Chair.
    And thank you very much, Madame Secretary. We welcome you 
and the other members of the panel appearing to testify before 
us this morning.
    Obviously we're here today to talk about a very contentious 
and interesting proposal to open up our borders to allow 
Mexican carriers to deliver international cargo throughout the 
United States. The administration proposal, as the chair has 
indicated, would allow Mexican trucks to haul freight into and 
throughout the United States, beyond the exiting 25-mile 
commercial zone, so there are legitimate concerns.
    As part of this proposal, however, American trucks are 
supposed to enjoy reciprocal hauling rights throughout Mexico. 
You may have noticed in this current Congress, there is a 
minimum amount of high enthusiasm towards the promotion of free 
trade, economic expansion, and keeping up with globalization. 
And I'm sure many of you will recall the uproar surrounding, 
and the opposition expressed, to the sale of U.S. terminal 
operations to a United Arab Emirates company, Dubai World 
Ports.
    I happen to think that was one of the worst things that 
Congress did last year because of several impacts. But, 
obviously I was not in the majority on that. The actions that 
Congress took to undercut and oppose that deal resulted in the 
undermining of our international trade and economic leadership 
throughout the world. It even sent a very bad message to a 
great ally, and said to the Muslim world that we do not 
distinguish between a few terrorists, and the moderate Muslims 
who must be our friends.
    I believe that open trade is critical to our ability to 
increase investment, to create jobs, to promote economic 
opportunity, and to provide a better lifestyle for our 
consumers in the United States.
    The simple fact remains that NAFTA passed in 1993 and as 
Members of Congress, we have the responsibility to uphold the 
law, and to assure that we take no deliberate action to violate 
it. As a matter of fact, this trucking concept is not as new as 
we think. Nine trucking companies were originally grandfathered 
in to the NAFTA agreement and had been operating under the 
previous terms already. In the case of Mexico, opening up our 
transportation system is vital to both our nations' economic 
and open-border policies, and would allow for easier and 
expanded trade. It should promote strong economic growth on 
both sides of the border.
    I know there are concerns, and I share legitimate concerns 
about opening our borders. Congress has a responsibility to 
ensure these concerns are identified and fully resolved. For 
example, would our roads be safer? I would expect this 
demonstration to meet that goal. I do know that I have seen no 
evidence that Mexican long-haul trucks and their drivers are 
less safe than their U.S. counterparts. I understand that the 
latest data shows the safety records of the United States and 
Mexico are comparable.
    Can we, and should we, do more? The answer is yes. But, we 
can not let the perfect stand in the way of the practical. I do 
question how we can spare sending inspectors to Mexico, when 
only a small percentage of U.S. trucking companies are 
inspected each year. I want to be certain there will be no 
shortage of U.S. inspectors available for accomplishing their 
already existing U.S. duties, especially before we allocate 
U.S. inspectors for inspection of Mexican companies, trucks, 
and drivers.
    The demo also calls for all Mexican entrants to meet more 
strenuous requirements than what is currently required of both 
U.S. carriers and our Canadian partners. From full truck 
safety, inspections, driver's license and health inspections 
for drug, alcohol, and physical questions, and obtaining 
adequate insurance for every vehicle on the road while in the 
United States.
    Consequently, American drivers should be able to be assured 
that they will not be hit with higher insurance premiums to 
make up for uninsured drivers from South of the border. I'm 
curious to hear more about what the insurance companies are 
saying, and if there are any problems or outstanding concerns 
with regard to issuing insurance policies to the Mexican 
companies selected under this demo project.
    Another of, I think, all of our concerns should be 
congestion and the resulting pollution. A prohibition on 
Mexican trucks traveling beyond the regulated commercial zone 
of the United States has resulted in much more congestion and a 
high degree of pollution at the borders.
    It's important to us to keep border traffic flowing, and 
that the proper documentation of the companies and drivers be 
captured prior to reaching our borders. Providing these 
vehicles full access to the United States will streamline the 
process and reduce cost. As this process becomes more familiar 
with officials at the borders and the trucking companies, I 
anticipate a reduction in the use of drayage companies, which 
many believe have caused the problem, as we move toward long-
haul carriers leaving Mexico, and delivering products at final 
destinations in the United States.
    I also look forward to hearing more about the application 
process, to ensure that the selection of Mexican companies have 
been vetted with the assurance that all companies will meet 
U.S. safety and performance requirement, as well as all 
Homeland Security requirements. I also hope the U.S. trucking 
companies will receive the same fair and reciprocal treatment 
in Mexico, as to applications and other requirements that we 
expect to provide to Mexican truckers in the United States 
under the demonstration. Let us emphasize that nothing less 
will be acceptable.
    Madame Secretary, I anticipate your testimony on these 
issues and a commitment by DOT that all Mexican and U.S. 
truckers be treated fairly and equitably under the 
demonstration. I also expect DOT to work with the Department of 
Homeland Security to ensure complete safety of the United 
States and all U.S. citizens under this demonstration. While I 
support the overall concept of the demonstration, I also expect 
to understand exactly how we will monitor it as a whole. And 
I'm confident that you, Madame Secretary, and your team will do 
what is required under this demo program in a manner consistent 
with the agreement and U.S. requirements.
    And put quite simply, we have made a treaty commitment. 
This subcommittee and the Congress have established safety 
conditions to be met. We need to keep our part of the bargain 
and want to hear from you on how the legislative conditions and 
the other safety requirements are being met. I'm sure we'll be 
hearing more about this later on, but Madame Secretary, I look 
forward to hearing your testimony, as well as that of the other 
members on the panel.
    And I thank you, Madame Chair.
    Senator Murray. Thank you, Senator Bond.
    Senator Allard.


                   STATEMENT OF SENATOR WAYNE ALLARD


    Senator Allard. Well, thank you, Madame Chairman for 
convening today's hearing on cross-border trucking with Mexico. 
Congress has followed the issue closely for many years, and so 
I appreciate the opportunity to get more information on the 
administration's recent announcement of the cross-border 
trucking pilot program.
    In my view, America has grown based on international trade. 
Christopher Columbus wasn't simply on a pleasure cruise, he was 
looking for new trading partners when he discovered America. 
And England supported the American colonies, not out of 
paternalistic loyalty, but because of the trading opportunities 
they presented. Modern-day America has grown and prospered, 
because of our international trading opportunities, although 
the mode of transportation used in trading has changed, 
international trading has been good for America.
    I strongly believe in the benefits of trade, thus I'm a 
strong proponent of free trade. I supported NAFTA, and believe 
that it has been very good for Colorado. I regret that it's 
taken so to implement this particular provision of NAFTA. 
Cross-border trucking has the potential to eliminate delays and 
unnecessary cost in trade with our neighbors to the south. It 
will be good for both Mexico, and the United States.
    I look forward to working with the administration to see 
that the pilot program is implemented quickly and successfully. 
Today's hearing will be an excellent opportunity to learn more 
about those plans. I'd also like to encourage the Department of 
Transportation to keep us informed on the progress of the pilot 
program. Although a 1-year pilot program sounds like a long 
time, it's actually quite short. The program will have to be 
evaluated and decisions about the future of cross-border 
trucking will have to be made before the year is concluded.
    We have a number of distinguished witnesses, and I would 
like to thank them for being here today. Their testimony will 
help this committee and myself understand the matter better and 
should prove very helpful.
    Thank you.
    Senator Murray. Thank you, Senator Allard.
    We do have a number of witnesses today, three on the first 
panel, we'll be speaking with five on the second panel. So, I'm 
going to ask witnesses to keep their remarks to 5 minutes. We 
do have your written testimony. All committee members will have 
that available. So please bear with me if I try to shorten your 
remarks, if you go over, I will try and give you a little bit 
of warning, but I would ask that each of you try and keep your 
remarks to 5 minutes.
    On our first panel, we will be hearing from Secretary of 
the Department of Transportation, Mary Peters. We will then 
hear from Calvin Scovel, who's the Inspector General for the 
Department of Transportation, and then from Jayson Ahern, 
Assistant Commissioner with the Department of Homeland 
Security.
    Secretary Peters, we'll begin with you.

STATEMENT OF HON. MARY E. PETERS, SECRETARY, DEPARTMENT 
            OF TRANSPORTATION
ACCOMPANIED BY JOHN H. HILL, ADMINISTRATOR, FEDERAL MOTOR CARRIER 
            SAFETY ADMINISTRATION, DEPARTMENT OF TRANSPORTATION

    Secretary Peters. Madame Chairman, thank you so much for 
the opportunity to be here today. Ranking member Bond, and 
other members of the subcommittee. We appreciate the 
opportunity to discuss the Department of Transportation's 
demonstration project, to implement the trucking provisions of 
the North American Free Trade Agreement.
    I am pleased to describe to you what the Department has 
done to implement the Murray-Shelby Amendment, section 350 of 
fiscal year 2002 appropriations act. And the additional steps 
that we have taken to ensure that we safeguard the safety, and 
the security, of our transportation network, even as we 
strengthen trade with a close neighbor and important trading 
partner.
    As we announced on February 23, the U.S. and Mexican 
Governments have agreed to implement a limited, 1-year 
demonstration project, to authorize up to 100 Mexican trucking 
companies to perform long-haul and international operations 
within the United States, for 100 U.S. companies to do the same 
in Mexico for the first time ever. These companies will be 
limited to transporting international freight and will not be 
authorized to make domestic deliveries between U.S. cities.
    It is also important to note that the demonstration 
project, there will be no trucks authorized to transport 
hazardous materials, nor any bus transportation of passengers. 
And no authority to operate longer combination vehicles, or any 
vehicles that exceed the size and weight limitations.
    The program will meet, and in some case exceed, the safety 
requirements that Congress included in section 350. For 
example, section 350 requires the Federal Motor Carrier Safety 
Administration to perform 50 percent of all pre-authority 
safety audits of Mexican companies at the company's 
headquarters, in Mexico. In fact, for the duration of this 
demonstration program, FMCSA will perform 100 percent of these 
audits on site.
    That means that U.S. inspectors will have eyes on, hands 
on, access to all of the company's records, equipment, and 
personnel as we determine whether that company has the systems 
in place to meet the section 350 requirements. And the members 
of the subcommittee know very well that section 350 includes a 
very comprehensive, a very thoughtful set of requirements to 
ensure that long-haul Mexican trucks, and drivers, operate 
safely in the United States.
    For example, section 350 requires all Mexican drivers to 
have a valid commercial driver's license, proof of medical 
fitness, and verification of compliance with hours-of-service 
rules. They must be able to understand, and respond, in 
English, to directions and questions from U.S. inspectors. They 
must undergo drug and alcohol testing and can not, of course, 
be under the influence of drugs or alcohol. All trucks must be 
insured by a U.S. licensed insurance company, and must undergo 
a 37-point safety inspection at least once every 90 days.
    Section 350 also requires all long-haul Mexican trucks to 
have a distinct DOT number, so that they will be easily 
identified by customs and border protection services, FMCSA, 
State inspectors, and more than 500,000 State and local law 
enforcement officials. We are working very closely with our 
partners in the States to ensure that they understand the 
parameters of the program, and are able to enforce the law 
effectively.
    Finally, in addition to the Federal requirements, the 
Mexican trucks operating in this demonstration project will be 
required to adhere to the same State requirements as U.S. 
trucks, including size and weight requirements, and pay all 
applicable fuel taxes and registration fees. We appreciate the 
thoughtful safety-related requirements established by this 
committee in 2001, for 5 years, our employees have been working 
diligently to implement these requirements. Because we fully 
agree with you that protecting Americans on our highways is our 
most important responsibility.
    It is also important for us to bear in mind that trucks 
from Mexico have always been allowed to cross our Southern 
border into the commercial-zone areas. In fact, every day 
drivers from Mexico operate safely on roads in major U.S. 
cities like San Diego, El Paso, Laredo, and Brownsville. Every 
day Federal and State inspectors ensure trucks are safe to 
travel on our roads, and our records show that Mexican trucks 
currently operating in the commercial zone, are as safe as 
trucks operated by companies here in the United States.
    We have developed this limited program to demonstrate to 
you, to the Congress, to the American people, that we will be 
able to implement section 350, to allow Mexican trucks to 
operate safely beyond the commercial zone.


                           PREPARED STATEMENT


    Madame Chairman, thank you for the opportunity to appear 
before the subcommittee today. I look forward to working with 
you to create new opportunities, new hope, and new jobs, both 
north and south of America's borders while continuing to ensure 
the safety of America's roadways. Administrator Hill and I 
would be pleased to answer your questions at the appropriate 
time.
    Thank you.
    [The statement follows:]

               Prepared Statement of Hon. Mary E. Peters

    Chairman Murray, Ranking Member Bond, and members of the 
subcommittee, thank you for inviting me today to discuss the Department 
of Transportation's (DOT's) demonstration project to implement the 
long-delayed trucking provisions of the North American Free Trade 
Agreement (NAFTA). I am pleased to describe to you what the department 
has done to implement section 350 of the fiscal year 2002 
Transportation and Related Agencies Appropriations Act (Public Law 107-
87; 115 Stat. 833, 864) and the additional steps we have taken to 
ensure that we safeguard the safety and security of our transportation 
network even as we strengthen trade with a close neighbor and important 
partner.
    Fourteen years ago, the United States pledged to allow the free 
flow of commerce across the North American continent. Three U.S. 
Presidents and the Congress have considered and ultimately supported 
NAFTA's trucking provisions and the Supreme Court has rejected 
unanimously a challenge to the Department's implementation of those 
provisions, allowing us to make that pledge a reality. Unfortunately, 
the delay in fully implementing NAFTA's trucking provisions has impeded 
the efficient movement of goods to the markets on both sides of the 
southern border to the detriment of the Nation's economy. This 
demonstration project begins a process that will remove this 
impediment, creating new opportunities, new hope, and new jobs north 
and south of the border.

                               BACKGROUND

    President George H.W. Bush signed NAFTA in 1992, it was enacted by 
Congress and signed into law by President William J. Clinton in 1993, 
and it became effective on January 1, 1994. Now, 13 years after we 
began implementing the agreement, its economic benefits are clear. U.S. 
merchandise exports to NAFTA partners have grown more rapidly than our 
exports to the rest of the world. Real Gross National Product Growth 
for NAFTA partners for the period 1993 to 2005 has been 48 percent for 
the United States, 49 percent for Canada, and 40 percent for Mexico. 
Over that 13-year period, U.S. goods exports to Mexico and Canada have 
increased nearly twice as fast as our exports to the rest of the world.
    Americans are reaping the benefits of this success. Each day, 
nearly 2.4 billion dollars in trade flows among the United States, 
Mexico, and Canada, offering consumers greater choices and 
strengthening trade and investment ties with two democratic nations and 
longtime allies. U.S. employment has increased substantially as well, 
rising from 112.2 million in December 1993 to 134.8 million in February 
2006. The jobs these exports support are particularly valuable to 
American workers, as they pay between 13 and 18 percent more than the 
U.S. national average. All of this helps to explain why, between 1993 
and 2006, the Nation's real Gross Domestic Product has nearly doubled. 
This record demonstrates that we must move forward to fully implement 
NAFTA.
    One of the agreement's few remaining provisions to be implemented 
is the cross-border trucking provision. Originally planned to commence 
in December 1995 with transportation between Mexico and the four Border 
States (Arizona, California, New Mexico, and Texas), it was to have 
been fully implemented by January 1, 2000. In December 1995, 
Transportation Secretary Pena announced an indefinite delay in 
``opening'' the border to long-haul Mexican commercial trucks to 
address legitimate concerns about the safety of Mexican trucks that 
would be traveling on our highways.
    Twelve years later these concerns have been addressed and, now that 
safety and security programs are in place, the time has come for us to 
move forward on a long-standing promise with Mexico and Canada by 
taking the trucking provisions of the North American Free Trade 
Agreement off hold.

                         DEMONSTRATION PROJECT

    Over the last 12 years, there has been a long, on-going 
conversation about the safety, security, environmental, and economic 
issues involved with allowing trucks from Mexico to operate in the 
United States beyond the border zones. This conversation has occurred 
between DOT and Mexico's Ministry of Communications and Transport; it 
has occurred between the Presidents of our nations; it has occurred in 
the House and Senate chambers; it has occurred in the media; it has 
occurred in front of a NAFTA dispute settlement panel, a U.S. Court of 
Appeals, and even the United States Supreme Court. What this 
conversation made clear is that there were a number of important and 
difficult issues that had to be addressed before we could move forward 
with a graduated border opening.
    For that reason, the administration is implementing a limited 1-
year demonstration project to authorize up to 100 Mexican trucking 
companies to perform long-haul operations within the United States. 
These companies will be limited to transporting international freight 
and will not be authorized to make domestic deliveries between U.S. 
cities. Likewise, under this program, Mexico will grant authority to an 
equivalent number of U.S. companies to make deliveries between the 
United States and Mexico. This will be the first time that American 
trucks have been allowed to make deliveries in Mexico in over 25 years. 
The U.S. and Mexican governments have established two groups to provide 
oversight for the demonstration project. The first, a bi-national 
group, will provide continuous monitoring of the project and identify 
and resolve any implementation issues as they arise. The second, an 
evaluation group composed only of U.S. representatives knowledgeable 
with the issue, will be tasked with measuring and evaluating the 
results of the demonstration project. We believe that this combination 
of monitoring and oversight will both provide the means for addressing 
implementation issues in a timely fashion and also an independent means 
for objective evaluation of the project once it is complete.
    By granting authority to a limited number of Mexican carriers and 
monitoring them closely throughout the duration of the project, we will 
be able to monitor and evaluate the adequacy of the safety systems we 
have developed to address the concerns raised since 1995.
    There are no exceptions to safety regulations for trucks from 
Mexico. Mexico's trucks and drivers must meet all U.S. safety 
requirements before they cross the border now, and before they will be 
allowed to drive beyond the border region. All drivers must have a 
valid commercial driver's license, proof of medical fitness, and 
verification of compliance with hours-of-services rules. They must be 
able to understand and respond to questions and directions from U.S. 
inspectors, undergo drug and alcohol testing, and cannot be under the 
influence of drugs or alcohol. All trucks must be insured by a U.S. 
licensed insurance company and meet U.S. safety standards.
    Let me put the magnitude of this demonstration project in context. 
Today, over 700,000 interstate trucking companies and approximately 
400,000 intrastate companies are registered to operate in the United 
States. Over 8 million large trucks are registered in the United 
States. We expect that the 100 Mexican trucking companies in this 
program will operate approximately 1,000 trucks in the United States.
    It is also important to note in the demonstration project there 
will be no trucks authorized to transport hazardous materials, no bus 
transportation of passengers, and no authority to operate longer 
combination vehicles on U.S. highways.

                                 SAFETY

    Safety is at the heart of all we do at DOT and it has been foremost 
in our thoughts as we prepared to change the way trucks from Mexico 
operate in the United States. We appreciate this subcommittee's 
guidance and commitment to highway safety by enacting provisions to 
ensure safe operation of vehicles involved in cross-border trucking. 
Development of our safety programs has been guided by, but not limited 
to, the 22 requirements that Congress included in the 2002 Act. I can 
assure you that the Federal Motor Carrier Safety Administration (FMCSA) 
has addressed each of these requirements and I have attached to my 
written testimony a table of these requirements and the actions FMCSA 
has taken to satisfy them.
    Two weeks ago, I traveled to Monterrey, Mexico, to visit a Mexican 
trucking company. There, I witnessed FMCSA personnel conducting a pre-
authorization safety audit required by section 350 on the motor 
carrier. Under the law, 50 percent of these audits must take place at 
the carrier's place of business in Mexico. For this demonstration 
project, FMCSA will conduct 100 percent of pre-authorization safety 
audits in Mexico. These audits ensure that Mexican carriers wishing to 
operate in the United States beyond the border zones have systems in 
place to comply with all DOT regulations, including driver 
qualification, drug and alcohol testing, hours-of-service, vehicle 
maintenance, and insurance.
    During the pre-authority safety audit, FMCSA inspectors also 
conduct vehicle inspections of trucks a company wishes to use in the 
United States. The inspection is a comprehensive 37-step process that 
involves checking the vehicle from front to back and top to bottom. At 
the conclusion of this inspection, if no defects are discovered, the 
vehicle is issued a 90-day Commercial Vehicle Safety Alliance (CVSA) 
safety decal. All trucks operating in the test program will be required 
to display a current decal at all times while operating in the United 
States, which means they will be inspected at least once every 90 days.
    This safety audit is merely the beginning of the Department's 
oversight. All Mexican trucks operating beyond the border zones will 
have a unique identifier, an X at the end of the DOT number marked on 
the vehicle. This is so it is easily visible to FMCSA and State 
inspectors. When these trucks reach the border, they will be subjected 
to additional vehicle inspections and license checks. Under section 
350, FMCSA is required to check the validity of licenses for 50 percent 
of the drivers entering the country.
    Since 1995, FMCSA has spent more than $500 million to improve 
border inspection stations and hire more than 600 new Federal and State 
inspectors to enforce truck safety on the border. FMCSA has deployed 
125 inspectors and an additional 149 auditors and investigators along 
the Southern Border at all truck crossings. Our State partners in 
Arizona, California, New Mexico, and Texas have deployed an additional 
349 inspectors. These safety professionals oversee the safety of 
Mexican trucks providing transportation in the existing border 
commercial zones and have made noteworthy progress in establishing the 
safety foundation for this demonstration project. These inspectors 
conducted more than 210,000 driver and vehicle inspections of Mexico-
domiciled carriers in the commercial zone during fiscal year 2006 and 
performed over 250,000 automated, real-time, checks of Mexican drivers' 
licenses. Their efforts are paying off. Ten years ago, the out-of-
service rate for Mexican trucks was 59 percent. Since the increased 
enforcement that resulted from hiring the additional FMCSA and State 
staff, the rate dropped to 21 percent last year, which is comparable to 
the out-of-service rate we typically observe when we select U.S. trucks 
for inspection.
    I also want to highlight that while these inspectors have been 
effective and will assist the Department in satisfying its 
congressional requirements, we are already looking toward more 
comprehensive and effective screening methods for the future. FMCSA is 
working with Customs and Border Protection (CBP) to have motor carrier 
safety integrated into the International Trade Data System, or ITDS, 
which is part of the Automated Commercial Environment development 
effort. When this initiative becomes fully operational, every Mexican 
company will have its authority and insurance checked and every Mexican 
driver will have his or her license checked each time the driver 
crosses the border, whether the vehicle is operating within the 
commercial zone or involved in long-haul transportation. In fact, since 
these computer checks occur prior to a carrier's arrival at the 
Southern Border, if we discover a problem, we will actually send notice 
back to the company or broker entering the information so issues can be 
addressed before the truck even reaches our Southern Border points of 
entry. If the truck does arrive at the Border, the CBP agent will 
receive notice that there is an issue with the truck and direct it for 
further inspection by FMCSA or our State partners.
    While in the United States, the performance of these Mexican 
carriers will be closely monitored. We have established, through 
rulemaking, a list of seven safety problems related to driver 
licensing, operating unsafe vehicles, drug and alcohol testing and 
insurance--we call them the seven deadly sins--which would lead to 
action by FMCSA up to and including revocation of a carrier's 
provisional authority if not promptly addressed.
    FMCSA has worked with State and local law enforcement officials so 
they can assist in ensuring Mexican trucks operate safely and within 
the limits of their authority. In 2002, FMCSA established regulations 
prohibiting all carriers from operating beyond the scope of their 
authority. Since that time, every State has adopted and begun enforcing 
these provisions. The Commercial Vehicle Safety Alliance (CVSA) has 
incorporated this violation into its Out-of-Service criteria, meaning 
that a Mexican truck discovered operating beyond the scope of its 
authority will be stopped and not allowed to continue. FMCSA 
incorporated these new regulations into the training it gives to all 
commercial vehicle inspectors.
    FMCSA and the International Association of Chiefs of Police have 
developed a commercial motor vehicle awareness training program. We 
have trained over 200 law enforcement officers to instruct other law 
enforcement officials about how to identify a Mexican motor carrier, 
how to verify the validity of a Mexican driver's commercial license, 
how to determine the carrier is operating within its authority, and who 
to call if they need additional assistance with truck-specific issues. 
Through this program, we are reaching out to the more than 500,000 
State and local law enforcement officers in the United States.
    In addition to the Federal safety requirements, the Mexican trucks 
operated in this demonstration project will be required to adhere to 
the same State requirements as U.S. trucks, including size and weight 
requirements and paying the applicable fuel taxes and registration 
fees. In preparation for this project, FMCSA has worked with the four 
Border States to develop the capability for these States to register 
Mexican trucks in the International Registration Plan and International 
Fuel Tax Agreement.

                        SECURITY AND ENVIRONMENT

    While safety is the highest priority, the issues involved in this 
demonstration project are not limited to safety. For this reason, the 
Department has coordinated closely with other Executive Branch 
agencies, particularly with the Department of Homeland Security (DHS) 
on border security matters and with the Environmental Protection Agency 
(EPA) to address environmental issues. While these agencies can better 
speak to their programs in detail, let me share with you an overview of 
what is being done to address these areas.
    The majority of vehicles Mexican trucking companies will use for 
long-haul operations have been manufactured to meet both U.S. and 
Mexican emission standards. In fact, most commercial motor vehicles now 
entering the United States from Mexico were manufactured in the United 
States or Canada, meaning that they were manufactured to U.S. emissions 
standards. As breakdowns are costly for shippers, we expect that the 
fleet of trucks used for long-haul cross-border transportation will be 
newer and cleaner. We anticipate that Mexican companies will maintain 
or expand their use of equipment that is manufactured to meet U.S. 
standards. Mexico has also upgraded its domestic vehicle emission 
requirements in the last 3 years and now has regulations similar to 
those currently in effect in the United States. EPA is working with the 
Mexican government to encourage full adoption of new U.S. truck and 
fuel standards.
    On a yearly basis, CBP processes about 4.5 million trucks through 
the U.S.-Mexico Border. It is estimated that the 100 carriers in this 
demonstration project will account for approximately 1,000 trucks, a 
very small percentage of the CBP workload. Implementing this 
demonstration project will not change our border security or 
immigration security posture.

Current Processing
    All commercial truck cross-border traffic must stop at a designated 
border crossing. As required by statute and regulation, each truck will 
be processed at the border, using automated systems to assist in 
determining whether the cargo, truck, and driver are admissible and 
whether any of the elements pose a security, immigration, agriculture, 
or smuggling risk.
    If the CBP officer determines that further inspection is necessary, 
the driver, truck, and cargo are referred for a secondary inspection. 
In a secondary inspection, CBP officers have many inspection tools at 
their disposal, including access to commercial, criminal and law 
enforcement databases, forensic document equipment, agricultural 
experts, and large scale scanning systems.
    If the CBP officer performing primary or secondary inspections 
determines that the driver, truck, and cargo are admissible and do not 
pose a risk, then the driver is allowed to proceed into the United 
States. The Mexican carrier is then able deliver the cargo to a 
location within the commercial border zone, which can range up to 25 
miles from the border (or 75 miles from the border within Arizona). The 
cargo remains within the commercial zone until it can be picked up by a 
U.S. driver and truck.
    Current CBP inspections are in addition and separate from motor 
carrier inspections. The current CBP inspections and the current motor 
carrier inspections will continue under the demonstration project.

Demonstration Project
    Under the demonstration project, processing of Mexican nationals 
and commercial trucks will continue according to CBP guidelines. All 
cross-border commercial truck traffic will continue to be required to 
stop at a designated border crossing. Mexican drivers will be required 
to present an entry document, and if traveling outside the 25-mile 
commercial zone (or 75-mile limit within the State of Arizona), the 
drivers will be issued a Form I-94 pursuant to regulations and in 
accordance with US VISIT procedures that include biometric and security 
requirements.
    CBP processing of drivers, cargo, and conveyances for security 
screening and trade enforcement will remain consistent for truck 
carriers participating in this demonstration project. Participants will 
continue to provide advanced cargo information as required under the 
Trade Act of 2002. Participants will remain subject to immigration 
entry requirements for the driver and crew and to the import 
requirements of other government agencies in order to gain entry into 
United States commerce.
    DOT and DHS will continue to partner in this effort to ensure 
safety and security requirements are completely addressed and satisfied 
prior to a carrier being allowed to proceed to an interior location in 
the United States.

                               CONCLUSION

    Trucks from Mexico have always been allowed to cross the U.S. 
border. Until 1982, they could travel anywhere in the United States. 
For the last 24 years they have been restricted to specific border 
areas in Arizona, California, New Mexico, and Texas. Every day, 
thousands of trucks from Mexico enter the United States. Every day, 
drivers from Mexico operate safely on roads in major U.S. cities like 
San Diego, El Paso, Laredo, and Brownsville. And every day, Federal and 
State inspectors ensure trucks are safe to travel on our roads.
    We have developed a limited program to demonstrate the 
effectiveness of the systems we have deployed to satisfy section 350 of 
the 2002 Appropriations Act and to ensure the safety of the U.S. 
traveling public. And now, we are ready to change the way trucks from 
Mexico operate in the United States.
    Thank you for the opportunity to appear before you today. I look 
forward to working with this committee and the transportation community 
to ensure a safe transportation system for the citizens of the United 
States and to strengthen our trade with Mexico.

    Senator Murray. Thank you Madame Secretary. Mr. Scovel.

STATEMENT OF HON. CALVIN L. SCOVEL III, INSPECTOR 
            GENERAL, DEPARTMENT OF TRANSPORTATION

    Mr. Scovel. Thank you.
    Madame Chairman, ranking member Bond, and members of the 
subcommittee, thank you for the opportunity to testify today, 
as you evaluate the safety of cross-border trucking with Mexico 
under the provisions of NAFTA.
    I'm joined at the witness table this morning by Mr. Joseph 
Come from my staff. While I'm relatively new in office, Mr. 
Come has worked these issues for a number of years for us.

                                IG ROLE

    Our role, as established in fiscal year 2002 Transportation 
Appropriations Act, is to review eight specific criteria and 
provide the results to the Secretary to use in determining 
whether Mexican carriers granted operating authority by FMCSA, 
they provide, they proceed beyond the commercial zone of the 
border States without posing an unacceptable safety risk to the 
American public. There's also mandated by the act--we have 
continued to perform substantial audit work on issues 
surrounding border safety. We've issued seven reports since 
1998, and we'll issue our eighth report shortly.

                       PROGRESS IN BORDER SAFETY

    Today, I would like to address four key issues concerning 
cross-border trucking with Mexico. First, we have seen 
significant progress in border safety in recent years. We have 
visited 27 large and small border crossings in Texas, New 
Mexico, Arizona, and California, some multiple times. We found 
that FMCSA had in place the staff, facilities, equipment, and 
procedures necessary to substantially meet the criteria set 
forth in the act.
    For example, the number of Federal Motor Carrier 
enforcement personnel, including inspectors, has jumped almost 
20-fold since 1998, from 13 to 254. In addition, the number of 
Mexican trucks taken out-of-service after inspection declined 
by about half, from 44 percent to 20 percent, a rate comparable 
to that of American trucks. Further, all States can now take 
enforcement action when necessary against Mexican trucking 
companies, a significant improvement over 2003, when only 2 
States had this capability.

               CONCERNS ABOUT DATA ON TRAFFIC CONVICTIONS

    Second, we have concerns about the completeness of the data 
in the so-called 52nd State system. This is a data repository 
set up by FMCSA, for traffic convictions of Mexican commercial 
drivers while operating in the United States, which is needed 
to allow U.S. officials to bar Mexican drivers from operating 
here for the same offenses that would bar American drivers. We 
have found reporting problems and other inconsistencies with 
this system, at the four border States.
    In one example, data reported by Texas, showed a steep 
decline in traffic convictions between January and May 2006. 
When we brought this to FMCSA's attention, it turned out that 
Texas had stopped reporting this data. After developing an 
action plan with FMCSA, Texas subsequently eliminated the 
backlog of some 40,000 Mexican commercial traffic convictions.
    To its credit, FMCSA has acted quickly to work with the 
States to correct these issues. Strong follow-up action, or 
interim solutions will be required, however, especially as 
Mexican carriers begin to operate more extensively beyond the 
border States.

                     OBSERVATIONS ON PILOT PROGRAM

    Third, regarding FMCSA's just-announced pilot program 
expanding cross-border trucking with Mexico, we have two 
observations based on our past and current work. One, FMCSA 
will need to ensure that it has effective screening mechanisms 
at border crossings. Hundreds of trucks enter the country from 
Mexico each day, at large volume crossings. While the law 
requires 50 percent of Mexican driver's licenses to be checked, 
FMCSA has announced the standard of ``every truck, every 
time.'' This will not always be easy.
    The driver must first be identified, in this case, by an 
``X'' appearing after the DOT number that is present on the 
side of all interstate trucks. The driver is then taken out of 
line for the license check. This process could be streamlined 
if FMCSA enforcement personnel worked collaboratively with 
Customs and Border Protection Service.
    No. 2, FMCSA will need clear objectives and measures of 
success. In order to assess performance and risk, the Agency 
must have meaningful criteria, especially if it wants to 
consider opening the border to a greater number of carriers in 
the future. To date, we have seen no details on how the 
programs success will be evaluated.

                            BUS INSPECTIONS

    Finally, we see the need for additional action concerning 
border inspections of Mexican buses. In 2005, we recommended 
action to improve coverage of bus inspections. FMCSA has taken 
some steps to accomplish this, but additional issues need to be 
addressed, especially if Mexican passenger carriers are granted 
long-haul authority to operate beyond the commercial zone.

                           PREPARED STATEMENT

    Madame Chairman, I'm almost out of time. If I may ask for 1 
more minute, I will complete my statement.
    Senator Murray. If you could sum up for us, I would 
appreciate it.
    Mr. Scovel. Indeed.
    In summary, Madame Chairman, based on our work over the 
past 8 years, we see continual improvement in the border safety 
program along with the willingness by the parties involved to 
solve problems, once identified. Some areas need, and are 
receiving, the proper attention. We will continue to audit the 
cross-border trucking program and report on its progress.
    This completes my statement. I'd be happy to answer any 
questions that you, or other members of the subcommittee, may 
have.
    [The statement follows:]

               Prepared Statement of Calvin L. Scovel III

  STATUS OF SAFETY REQUIREMENTS FOR CROSS-BORDER TRUCKING WITH MEXICO 
                              UNDER NAFTA

    Chairman Murray, Ranking Member Bond, and members of the 
subcommittee, we appreciate the opportunity to testify today as you 
evaluate the status of safety requirements for cross-border trucking 
with Mexico under the provisions of the North American Free Trade 
Agreement. The pilot program announced by the administration to allow a 
select group of Mexican trucking companies to operate beyond the 
commercial zones along the southwest border has refocused attention on 
this area.
    Since 1998 we have issued seven reports and testified twice before 
Congress on our findings and recommendations on the Department's 
efforts to improve cross-border trucking safety and meet requirements 
established, in large part, by this subcommittee. We expect to issue 
our eighth report shortly, and this work will be the basis for my 
testimony today.
    As you know, the Department of Transportation's (DOT) fiscal year 
2002 Transportation Appropriations Act (section 350) \1\ established a 
number of safety requirements and preconditions before the Federal 
Motor Carrier Safety Administration (FMCSA) may process applications 
from Mexican motor carriers for operating beyond the commercial zones. 
In addition, before Mexican motor carriers can operate under authority 
granted by FMCSA, the Inspector General (IG) must review eight specific 
criteria, as shown in the table.
---------------------------------------------------------------------------
    \1\ Public Law 107-87.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    After this review, Mexican carriers that have been granted 
operating authority by FMCSA may proceed to operate beyond the 
commercial zones, provided the Secretary of Transportation certifies, 
in a manner addressing the IG's findings, that such operation does not 
pose an unacceptable risk to the American public. Our initial review of 
the 8 criteria was completed in June 2002 and the Secretary's 
certification followed in November 2002. We have continued to review 
border operations, as required by Congress.

          SIGNIFICANT PROGRESS HAS BEEN MADE IN BORDER SAFETY

    Data from our current review and earlier reports point to continual 
improvement in the border safety program. For example, FMCSA has hired 
and trained the inspectors, as required by the Act, thus the average 
number of inspections per Mexican motor carrier has increased over 
time. As a result, both the number of FMCSA inspectors at the border 
and the percentage of Mexican trucks taken out of service after 
inspection have improved dramatically. In 1998 we reported that FMCSA 
had only 13 Federal inspectors at the southern border, and that 44 
percent of Mexican trucks inspected in fiscal year 1997 were removed 
from service because of safety violations. By contrast, as shown in the 
figure, audit work now underway found 254 FMCSA enforcement personnel 
at the border (which includes 128 inspectors), and the percentage of 
Mexican trucks placed out of service following inspections had dropped 
to 20 percent in fiscal year 2005, a figure comparable to the out-of-
service rate for U.S. trucks. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Our current work also assessed FMCSA's actions in response to our 
last report to the Department, issued in January 2005.\2\ In that 
report we found that FMCSA had in place the staff, facilities, 
equipment, and procedures necessary to substantially meet the eight 
specific criteria. The report made four recommendations for 
improvement, which addressed actions relevant to the eight criteria. Of 
the four issues, two have been adequately addressed.
---------------------------------------------------------------------------
    \2\ OIG Report Number MH-2005-032, ``Follow-up Audit of the 
Implementation of the North American Free Trade Agreement's (NAFTA) 
Cross Border Trucking Provisions'', January 3, 2005. OIG reports are 
available on our web site: www.oig.dot.gov.
---------------------------------------------------------------------------
    FMCSA and the States have made significant progress in resolving 
problems associated with making sure all States can take effective 
enforcement action against Mexican motor carriers.--One of the criteria 
\3\ subject to IG review calls for measures in place to ensure 
``effective enforcement'' and monitoring of Mexican motor carrier 
licensing. The five States, which had not yet done so at the time of 
our last report, have adopted a rule requiring enforcement action 
against Mexican motor carriers or others operating without proper 
authority from FMCSA. Thus, all States can now place vehicles out of 
service or take equivalent action for operating authority violations. 
State officials also reported they are experiencing less difficulty in 
implementing these rules due to changes in the Commercial Vehicle 
Safety Alliance \4\ criteria and training provided by both the Alliance 
and FMCSA.
---------------------------------------------------------------------------
    \3\ Section 350(c)(1)(H).
    \4\ The Commercial Vehicle Safety Alliance is an organization of 
Federal, State, and provincial government agencies and representatives 
from private industry in the United States, Canada, and Mexico, 
dedicated to improving commercial safety.
---------------------------------------------------------------------------
    A remaining concern we have based on contacts with officials in 
three States outside the border region involves procedures for 
obtaining information on the status of a carrier's operating authority. 
For example, officials at two States contacted noted difficulties with 
determining operating authority because the police cars did not have 
Internet access for checking the status of carriers. However, the two 
officials did not know about the 800 number from FMCSA that could be 
used for that purpose. At another State, the official contacted was 
aware of the 800 number but said few of the cars had cell phones to 
call FMCSA's 800 number. In our view, these examples illustrate how 
important it is for FMCSA to provide continued training on the topic 
and to maintain a good information support system so that motor carrier 
enforcement officials have the information they need to identify 
carriers operating without proper authority. We will continue to 
monitor this issue as part of our annual reviews.
    FMCSA has also taken action needed to make certain weighing scales 
are fully operational \5\.--Our 2005 report found that while weigh-in-
motion scales were in place at the 10 highest-volume crossings, at the 
time of our visits, the scales were not working at 4 Texas facilities. 
In response to our recommendation to identify actions needed to make 
all weigh-in-motion scales fully operable, FMCSA said it would require 
each of the three border States (Arizona, California, and Texas) having 
weigh-in-motion scales to have a maintenance program included in their 
commercial vehicle safety plans. Our current review verified that the 
plans do include this requirement, and we confirmed through visits or 
FMCSA documentation that all weigh-in-motion scales are operable.
---------------------------------------------------------------------------
    \5\ This action complies with the Section 350(a) requirement that 
weigh-in-motion scales be in place at the 10 highest-volume southern 
border commercial crossings, and with the Section 350(c)(1)(F) criteria 
that those border crossings have the capacity to conduct meaningful 
motor carrier inspections.
---------------------------------------------------------------------------
         TWO SECTION 350 CRITERIA REQUIRE ADDITIONAL ATTENTION

    Despite the progress that FMCSA has made, additional improvements 
are needed in 2 of the 8 section 350(c) criteria subject to OIG review.
  --Improving the quality of the data used to monitor Mexican 
        commercial driver traffic convictions in the United States.
  --Ensuring adequate capacity to inspect buses.
    I will discuss each of these issues in-depth, along with 2 that are 
outside the specific requirements of section 350 but which FMCSA and 
the Department should continue to address.
  --Full implementation of a FMCSA policy on compliance with Federal 
        motor vehicle manufacturing safety standards.
  --Continued attention needed on drug and alcohol testing issues.
    Finally, I will conclude today with preliminary observations about 
the announced pilot program.

Three Systems Are in Place to Monitor Mexican Carriers and Drivers, but 
        Data for One of the Three Systems Were Incomplete
    One criteria of the Act \6\ calls for an accessible database 
containing ``sufficiently comprehensive data'' for monitoring all 
Mexican motor carriers and their drivers that apply for authority to 
operate beyond the municipal and commercial zones on the United States-
Mexico border. Three systems have been established to meet this 
requirement.
---------------------------------------------------------------------------
    \6\ Section 350(c)(1)(G).
---------------------------------------------------------------------------
    The first system monitors Mexican carriers in the United States 
granted long-haul authority. It is designed to identify carriers 
requiring compliance reviews, generate letters on corrective actions, 
and create a history of violations and corrective dates. Our prior 
audit work has verified that the system is operational.
    The second system, Mexico's Licencia Federal Information System 
(LIFIS), contains records showing Mexican motor carrier commercial 
drivers with valid, disqualified, or expired licenses. Our work 
indicates that LIFIS is being accessed for enforcement purposes and the 
data were sufficient.
    The third system, which is called the 52nd State System, contains 
records of traffic violations Mexican commercial drivers commit in the 
United States. Our current work found the system's data were 
incomplete. I will now discuss this issue in more detail.

52nd State System is Operational but Data Issues Require Continued 
        Attention
    The 52nd State System is needed to ensure that U.S. officials can 
disqualify Mexican commercial drivers operating in the United States 
for the same offenses that would lead to the disqualification of a U.S. 
commercial driver. We found that 49 States and the District of Columbia 
can electronically record convictions into the 52nd State System.\7\ 
However, the data also show that inconsistencies and reporting problems 
found previously at the border States with the 52nd State System still 
require continued action and monitoring. For instance:
---------------------------------------------------------------------------
    \7\ The remaining State, Oregon, has committed to completing a test 
of its system by September 2008 and continues to submit its data on 
U.S. and Mexican violations manually to the 52nd State System.
---------------------------------------------------------------------------
  --Data that Texas reported in the database showed a dramatic decline 
        in the number of traffic convictions for Mexican-licensed 
        drivers from January through May 2006. When we brought this 
        anomaly to FMCSA's attention in July 2006, it investigated the 
        situation and found that Texas had stopped providing conviction 
        information to the database. Subsequently, after developing an 
        action plan with the State, FMCSA reported that Texas has 
        eliminated a backlog of some 40,000 Mexican commercial driver's 
        license tickets. We do not know how long it took for the 
        backlog to develop. The period could go back to well before 
        2006. According to FMCSA, Texas has the ability to provide 
        information to the database electronically but it is currently 
        providing information to the database using a manual process 
        pending development of a new computer system this year.
  --Our current review also found that New Mexico stopped reporting 
        traffic convictions for Mexican commercial drivers to the 
        database after July 2005. A subsequent review by FMCSA found 
        that the problem was due to incorrect computer programming, 
        which was to be corrected by the end of July 2006.
  --Arizona and California also experienced problems that prevented 
        some traffic convictions of Mexican commercial drivers from 
        being properly recorded into the database. California was 
        scheduled to make a change to correct the issue by October 
        2006. Arizona was implementing a manual procedure to address 
        the problem and was scheduled to begin a change in the computer 
        system this month.
    To its credit, FMCSA took quick action during our current review to 
work with the four border States to develop corrective action plans 
addressing these issues. But strong follow-up action by FMCSA will be 
necessary to ensure that these plans are implemented. Alternatively, 
interim solutions should be implemented if the plans cannot be 
completed in a timely fashion. We also recommend that FMCSA develop a 
process that ensures performance of a quarterly inspection of the 
database, notification to States of data inconsistencies, and assurance 
that States take immediate steps to correct inconsistencies. The 
process must also ensure that this monitoring extends beyond the border 
States to identify problems that develop if Mexican carriers operate 
more extensively outside the border States during the pilot program.

Positive Action Taken to Improve Bus Inspection Coverage, but 
        Additional Issues Should Be Addressed
    As I previously mentioned, further improvements are needed to 
support border inspections of Mexican buses. However, at this time, DOT 
does not plan to include commercial buses in the pilot program for 
cross-border trucking.
    The Act's criteria\8\ call for adequate capacity at crossings to 
conduct a sufficient number of vehicle inspections and driver licensing 
checks; these criteria apply to buses as well as trucks. The Act 
provides no specific guidance distinguishing commercial buses from 
commercial trucks, although buses operate differently from commercial 
trucks at the border. Buses are permitted to enter the United States at 
separate border crossings and at times when commercial trucks are 
restricted. While our January 2005 report identified no issues specific 
to truck inspections, we found that sufficient staff were not available 
at some designated bus crossings to meet the Act's requirements for 
verifying the driver's commercial license and inspecting vehicles.
---------------------------------------------------------------------------
    \8\ Section 350(c)(1)(F).
---------------------------------------------------------------------------
    Our 2005 report recommended that FMCSA revise polices, procedures, 
staffing, and facility plans to make Mexican bus coverage consistent 
with FMCSA policy on vehicle and driver inspections for commercial 
trucks that are granted long-haul authority. In response to our report, 
FMCSA worked with the U.S. Customs and Border Protection Service to 
identify mutually acceptable procedures. FMCSA in February 2006 issued 
a Southern Border Commercial Bus Inspection Plan identifying ports of 
entry for commercial buses in each southern border State, along with a 
description of their respective bus inspection issues and the planned 
strategies for addressing those issues.
    The bus inspection plan represents a positive step, but our current 
work identified additional bus inspection issues that should be 
addressed in the FMCSA plan. For example, as part of our September 2006 
audit work at the Lincoln-Juarez crossing in Laredo, Texas, we 
identified physical space and capacity issues that prevented FMCSA and 
the State motor carrier inspectors from conducting bus inspections 
during high volume holiday periods. This important issue was not 
identified in FMCSA's Southern Border Commercial Bus Inspection Plan. 
Additional potential issues with bus inspections, such as the lack of a 
ramp on which to conduct inspections, were brought to our attention 
during contacts with inspectors at other, randomly selected border 
crossings.
    These issues could affect the implementation of the Act's 
requirements for bus inspections if Mexican passenger carriers are 
granted long-haul authority to operate beyond the commercial zone.

TWO NON-SECTION 350 ISSUES NOT SPECIFIED IN THE ACT ALSO NEED CONTINUED 
                               ATTENTION

    Action is needed on implementing FMCSA's policy from 2005 on 
compliance with motor vehicle safety manufacturing standards.--Our 2005 
report discussed a pending rule that would have required all carriers 
operating in the United States, including Mexican motor carriers, to 
display a label that the vehicle was certified by the manufacturer as 
meeting all applicable Federal motor vehicle safety standards. In 
August 2005, FMCSA subsequently withdrew the rule based on its 
determination that it could effectively ensure compliance with the 
Federal motor vehicle safety standards through effective enforcement of 
the current motor carrier safety regulations and policies. At the same 
time it issued internal policy to its staff on compliance with motor 
vehicle safety standards, which included instructions on how inspectors 
could use vehicle identification numbers to make this determination. 
FMCSA reported that certain procedures in the policy had been 
implemented; however, the policy noted that further guidance would be 
forthcoming before the policy would go into effect. To date, no 
additional guidance has been provided although FMCSA reported that they 
were reassessing whether future guidance is necessary.
    Prompt resolution of the issue and full implementation of this 
policy on compliance with motor vehicle safety standards will help 
ensure that inspectors are able to identify vehicles not meeting the 
requirements established for Mexican-domiciled carriers. FMCSA has 
issued a policy requiring Mexican-domiciled carriers applying to 
operate in the United States to certify that their vehicles were 
manufactured or retrofitted in compliance with Federal motor vehicle 
standards applicable at the time they were built, and plans to confirm 
that certification during the pre-authority safety audit and subsequent 
inspections. If FMCSA or State inspectors determine, through vehicle 
inspections or during a pre-authority safety audit, that Mexican motor 
carriers are operating vehicles that do not comply with the safety 
standards, FMCSA may use this information to deny, suspend, or revoke a 
carrier's operating authority or certificate of registration, or issue 
penalties for the falsification.
    Further, SAFETEA-LU \9\ charged the Administrator of FMCSA with 
conducting a review to determine the degree to which Canadian and 
Mexican commercial motor vehicles comply with Federal motor vehicle 
safety standards. This review was to have been completed within 1 year 
of enactment--by August 2006. The review has not yet been released by 
the Department.
---------------------------------------------------------------------------
    \9\ Safe, Accountable, Flexible, Efficient Transportation Equity 
Act: A Legacy for Users (Public Law 109-59, August 10, 2005).
---------------------------------------------------------------------------
    Continued attention is needed on drug and alcohol testing issues.--
FMCSA has issued a policy as required under the Act regarding drug and 
alcohol testing. However, issues noted in our last report on this topic 
but not included in the Act's requirements need continued attention. In 
our 2005 report, we noted that Mexico lacked a certified drug-testing 
laboratory, but that drug and alcohol test-collection facilities in 
Mexico were sending specimens to certified labs in the United States. 
In a 1998 memorandum of understanding between DOT and its Mexican 
equivalent, the Mexican authorities agreed to follow collection 
procedures equivalent to those used by DOT. In 2005, we recommended 
that FMCSA establish milestones to ensure Mexican motor carrier drug 
and alcohol testing issues--such as the adequacy of controls at 
collection sites--are addressed. Our current work shows that FMCSA has 
continued to meet with officials on these matters. Given the 
announcement of the new pilot program, FMCSA should continue to work, 
in conjunction with other appropriate offices, to ensure that drug and 
alcohol procedures, such as the establishment of sufficient controls at 
collection sites, are adequate.

                           THE PILOT PROGRAM

    I would now like to turn to the just-announced pilot program. While 
our current audit did not include an assessment of this program, we 
would offer the following two immediate observations based on current 
and past work:
  --FMCSA will need to establish good screening mechanisms at the 
        border crossings, in cooperation with the U.S. Customs and 
        Border Protection Service, to ensure that long-haul trucks 
        participating in the pilot program are identified for required 
        licensing checks and inspections from among the large number of 
        commercial trucks entering the United States daily at each 
        commercial crossing.--FMCSA's Cross-Border Truck Safety Program 
        states that ``every truck that crosses the border as part of 
        the pilot will be checked--every truck, every time.'' This 
        could be problematic. Some 4.6 million commercial trucks 
        entered the United States from Mexico in fiscal year 2005. To 
        screen out pilot program participants from among this high 
        volume of traffic, it will need to simultaneously screen 
        vehicles participating in the pilot program from among all 
        commercial traffic crossing the border while also continuing to 
        inspect vehicles and check drivers. Screening carriers 
        participating in the pilot may very well require close 
        coordination with Customs and Border Protection agents, who 
        have initial interaction with these motor carriers. Our 
        observations at one high-volume border crossing illustrate the 
        challenge posed in screening pilot program participants.
    Hundreds of vehicles entered the United States at the high-volume 
        crossing each day; FMCSA selected vehicles for inspection from 
        the line of trucks waiting to exit the border crossing. 
        However, once the vehicles were diverted, no FMCSA personnel 
        remained at the screening point to monitor carrier traffic. 
        Unless this practice is changed, or other procedures for 
        screening are developed in conjunction with U.S. Customs and 
        Border Protection Service for the pilot program, FMCSA's 
        commitment to check every truck, every time, could be at risk.
  --FMCSA needs to establish clear objectives, milestones, and measures 
        of success.--The pilot program could provide a good opportunity 
        to test FMCSA's preparations, evaluate the agency's 
        performance, and assess the risks, if any, posed by opening the 
        border. However, the agency should establish meaningful 
        criteria for measuring the pilot program's success and for 
        determining whether to open the border to a greater number of 
        Mexican carriers at its conclusion. Information provided to us 
        to date does not include details of how the pilot program's 
        success will be evaluated.
    This concludes my statement. Attached to my statement is additional 
information on our prior audit reports. I would be pleased to answer 
any questions that you may have at this time.

 PRIOR AUDIT COVERAGE BY THE DEPARTMENT OF TRANSPORTATION'S OFFICE OF 
                           INSPECTOR GENERAL

OIG Report Number MH-2005-032, ``Follow-up Audit of the Implementation 
        of the North American Free Trade Agreement's Cross-Border 
        Trucking Provisions,'' January 3, 2005
    We reported that FMCSA has sufficient staff, facilities, equipment, 
and procedures in place to substantially meet the 8 section 350 safety 
provisions subject to OIG review in the fiscal year 2002 Transportation 
and Related Agencies Appropriations Act (the fiscal year 2002 act). 
However, until an agreement or other understandings related to on-site 
safety reviews is reached with Mexico, FMCSA cannot, in our view, grant 
long-haul operating authority to any Mexican motor carrier. 
Additionally, given new background requirements for U.S. drivers 
applying for hazardous materials endorsements, an agreement will need 
to be in place with Mexico to cover similar background requirements for 
vehicles owned or leased by Mexican motor carriers hauling hazardous 
materials. While negotiations are being carried out with Mexico on 
these 2 issues, which are preconditions to opening the border, FMCSA 
should close remaining gaps in reaching full compliance with section 
350 requirements related to bus coverage, enforcement authority, Weigh-
in-Motion Systems, and the comprehensiveness of the data system used to 
monitor Mexican driver records in the United States.

OIG Report Number MH-2003-041, ``Follow-up Audit on the Implementation 
        of Commercial Vehicle Safety Requirements at the U.S.-Mexico 
        Border,'' May 16, 2003
    We reported that FMCSA had substantially completed the actions 
necessary to meet section 350 requirements, although the report noted 
several incomplete items in need of action. Specifically, FMCSA needed 
to fill 3 enforcement personnel vacancies to reach the target of 274, 
complete an agreement at one of 25 border crossings to permit detaining 
of commercial vehicles, and ensure States adopt FMCSA's rule 
authorizing their enforcement personnel to take action when 
encountering a vehicle operating without authority.

OIG Report Number MH-2002-094, ``Implementation of Commercial Vehicle 
        Safety Requirements at the U.S.-Mexico Border,'' June 25, 2002
    We reported that FMCSA made substantial progress toward meeting the 
fiscal year 2002 Act requirements to hire and train inspectors, 
establish inspection facilities, and develop safety processes and 
procedures for Mexican long-haul carriers. FMCSA proposed to complete 
within 60 days those actions that were in process and planned to meet 
the Act's requirements, except the hiring and training of safety 
investigators and training supervisors.

OIG Report Number MH-2001-096, ``Motor Carrier Safety at the U.S.-
        Mexico Border,'' September 21, 2001
    Our audit recommended that FMCSA strengthen safety controls at the 
border in the areas of staffing, safety reviews and inspections, 
enforcement, facilities, rulemakings, and outreach.

OIG Report Number MH-2001-059, ``Interim Report on Status of 
        Implementing the North American Free Trade Agreement's Cross-
        Border Trucking Provisions,'' May 8, 2001
    Our audit found that: (1) the percentage of Mexican trucks removed 
from service because of serious safety violations declined from 44 
percent in fiscal year 1997 to 36 percent in fiscal year 2000; (2) 
FMCSA increased the authorized number of inspectors at the southern 
border from 13 in fiscal year 1998 to 60 in fiscal year 2001, and 
requested 80 additional enforcement personnel in its fiscal year 2002 
budget request; and (3) there had been few needed improvements to 
inspection facilities used by Federal and State commercial vehicle 
inspectors at border crossings.

OIG Report Number TR-2000-013, ``Mexico-Domiciled Motor Carriers,'' 
        November 4, 1999
    We found that Mexico-domiciled motor carriers were operating 
improperly in the United States and violating U.S. statutes either by 
not obtaining operating authority or by operating beyond the scope of 
their authority.

OIG Report Number TR-1999-034, ``Motor Carrier Safety Program for 
        Commercial Trucks at U.S. Borders,'' December 28, 1998
    We reported that the actions in preparation for opening the U.S.-
Mexico border to Mexican long-haul trucks did not provide reasonable 
assurance in the near term that trucks entering the United States would 
comply with U.S. safety regulations. With the exception of California, 
neither the Federal Highway Administration nor the States' plans 
provided for an adequate presence of inspectors at border crossings for 
trucks currently operating in the commercial zones.

    Senator Murray. Thank you very much. Mr. Ahern.

STATEMENT OF JAYSON P. AHERN, ASSISTANT COMMISSIONER, 
            OFFICE OF FIELD OPERATIONS, CUSTOMS AND 
            BORDER PROTECTION, DEPARTMENT OF HOMELAND 
            SECURITY
    Mr. Ahern. Madame Chairman, Senator Bond, Senator Allard, 
thank you very much for the opportunity to be here this morning 
with my colleagues from the Department of Transportation and 
the Federal Motor Carrier Safety Administration to speak 
briefly in the role that the Department of Homeland Security, 
and specifically, U.S. Customs and Border Protection, plays in 
protecting our Nation, and our involvement in this ongoing 
demonstration project.
    U.S. Customs and Border Protection operates at the nexus of 
national security, along our Nation's borders. We employ over 
43,000 employees to manage, control, and protect our Nation's 
borders, at and between the official ports of entry, as well as 
in many foreign locations. In order to accomplish our mission 
of securing America's borders and facilitating trade, CBP has 
developed a layered enforcement strategy, as part of our 
philosophy of a smart and extended border strategy designed to 
protect our country and also the economic growth of the global 
supply chain.
    On the southwest border, CBP specifically utilizes advanced 
cargo information, automated targeting and screening, private-
public sector partnerships, and cutting-edge technology to meet 
our mission and gain operational control. While we do this, we 
make sure to balance our enforcement and security requirements 
against economic growth and prosperity.
    Please allow me to briefly talk about the advance cargo 
information as required by the Trade Act of 2002. We're 
required, for every truck coming into this country, to get 
electronic information received 60 minutes in advance of its 
arrival. If they're involved with one of our Trusted Trader 
Programs or Free and Secure Trade Program, known as FAST, we 
get that information electronically, 30 minutes in advance.
    Certainly our automated commercial environment has been an 
evolving process for us, to get better information for 
screening and targeting. A key feature of this is the 
involvement of the Department of Transportation in the 
International Trade Data System, known as ITDS, which provides 
a single portal of information for U.S. Government agencies to 
provide all of the relevant data for us to execute our 
missions.
    We then take a lot of this information and put it through 
an Automated Targeting System, known as ATS. It's our principal 
tool for using risk management on the available information for 
commercial shipping, integrating intelligence and information, 
and expert rule-based algorithms.
    CBP also utilizes private sector partnerships; we think 
it's essential that we conduct our mission at the border, by 
engaging with carriers, importers, exporters, and all of the 
people that are involved with the trade. We've developed two 
programs: the Free and Secure Trade Program, in which we have a 
driver that goes through a very rigorous background process; 
and also our Custom Trade Partnership Against Terrorism, which 
has over 6,000 certified members.
    I will talk about these layers, because I think it's 
important to note that the universe of trucks that is coming 
across the border today, which includes approximately 5 million 
trucks a year from Mexico into the United States, is not going 
to change with this demonstration project ongoing. More 
importantly, our role at the border within the Department of 
Homeland Security and Customs and Border Protection is not 
going to change for these trucks either.
    We're going to continue to use these layers in enforcement 
on the driver and the carrier, as well as use our large-scale 
X-ray technology and our radiation portal-monitors. Currently, 
we have 96 percent of the trucks go through radiation portal-
monitors to make sure there's not an illicit nuclear or 
radiological device that could be imported into the United 
States through these trucks. None of our security features will 
be diminished one bit as a result of this demonstration project 
on the universe of trucks that will continue to be coming 
across our Nation's borders.
    I think it's also important to note, as I begin to wrap up 
at this point, that the essential piece, beyond the technology 
and the layered enforcement, is our front-line officers. We 
will continue to interview every truck driver coming across the 
border, making sure they're admissible to the United States. In 
fact, there will be an additional feature that will be provided 
on drivers that will be enrolled with this program. They will 
actually have to get permission to leave the border zone, which 
is 25 miles for most of the border with the exception of 
Arizona which is 75 miles.
    They'll have to go through an interview with an officer and 
be biometrically-enrolled with the US VISIT program; we 
actually have an opportunity to do a biographic, as well as a 
biometric, check of the individual before they're granted 
permission to leave the border zone.

                           PREPARED STATEMENT

    At this point, I will summarize by saying we have been a 
very strong partner since the onset of this demonstration 
project. I think it's important as we move forward, to continue 
that partnership and collaboration, and that we align a lot of 
our programs as we go forward, so that we can have a good 
evaluation at the end of the demonstration cycle.
    Thank you very much.
    [The statement follows:]

                 Prepared Statement of Jayson P. Ahern

    Madam Chairman Murray, members of the subcommittee, thank you for 
the opportunity to be here this morning with my colleagues from the 
Department of Transportation and the Federal Motor Carrier Safety 
Administration, to speak briefly on the role that U.S. Customs and 
Border Protection plays in protecting our Nation, and on CBP's 
involvement with the Cross Border Trucking Demonstration Project. U.S. 
Customs and Border Protection operates at the nexus of national 
security and American economic security. CBP includes more than 43,000 
employees to manage, control and protect the Nation's borders, at and 
between the official ports of entry.
    In order to accomplish our mission of securing America's borders 
and facilitating trade, CBP has developed a layered enforcement 
strategy, part of CBP's philosophy of a smart and extended border 
security strategy designed to protect our country and the global supply 
chain. On the Southwest border, CBP utilizes in combination, Advance 
Cargo Information, Automated Targeting and Screening, Private and 
Public Partnerships and Cutting Edge Technology, as well as nearly 
5,000 Officers in order to gain operational control to provide the 
level of security needed to protect the Homeland. All the while, 
recognizing the need to balance our enforcement with the facilitation 
of legitimate travel and trade.
    Advance Electronic Cargo Information.--As required by the Trade Act 
of 2002, advance cargo information must be provided through the CBP-
approved automated data interchange. For truck cargo, the Automated 
Commercial Environment (ACE) is the approved system and information 
must be provided 1 hour prior to the arrival of the truck at the border 
crossing for non-Free and Secure Trade (FAST) shipments or 30 minutes 
prior to arrival for FAST shipments. ACE has made electronic risk 
management far more effective by allowing full security screening by 
the Automated Commercial System (ACS) Selectivity module and the 
Automated Targeting System (ATS). Additionally, DOT is a full 
participating agency in the International Trade Data System (ITDS), 
which provides a single portal for the trade community to provide 
required data to all government agencies.
  --Automated Targeting System.--CBP uses ATS to identify cargo that 
        may pose a threat. Using risk management techniques CBP 
        evaluates people and goods to identify a suspicious individual 
        or shipment before it can reach our borders. To broaden the 
        scope of targeting, CBP works with other DHS components, the 
        Intel community, law enforcement agencies and the private 
        sector, to expand its knowledge to better accommodate the ever-
        increasing demands for tactical information to continue 
        developing and refining more sophisticated targeting tools.
  --Public and Private Partnerships.--CBP has developed several 
        partnerships with industry to enhance security and facilitate 
        trade. Foremost among these are Free and Secure Trade (FAST) 
        and the Customs-Trade Partnership Against Terrorism (C-TPAT). 
        The FAST program, which is operational on both our northern and 
        southern borders, establishes bilateral initiatives between the 
        United States and NAFTA partners designed to ensure security as 
        well as safety while enhancing the economic prosperity of 
        partner countries. In developing this program, Mexico and the 
        United States have agreed to coordinate to the maximum extent 
        possible, their commercial processes for clearance of 
        commercial shipments at the border. This promotes security and 
        prosperity by using common risk-management principles, supply 
        chain security, industry partnership, and advanced technology 
        to improve the efficient screening and release of commercial 
        traffic at our shared border. FAST is a harmonized clearance 
        process for shipments of known compliant importers. Thus, any 
        truck using FAST lane processing must be a Customs-Trade 
        Partnership Against Terrorism (C-TPAT) approved carrier, 
        carrying qualifying goods from a C-TPAT approved manufacturer, 
        for a C-TPAT approved importer, and the driver must possess a 
        valid FAST-Commercial Driver Card. C-TPAT is a voluntary 
        government-business initiative to build cooperative 
        relationships that strengthen and improve overall international 
        supply chain and U.S. border security. The C-TPAT program also 
        has a strong enforcement side. CBP suspends and removes members 
        from the program when security measures weaken and allow the 
        supply chain to be breached.
  --Use of Cutting-Edge Technology.--Given the magnitude of CBP's 
        responsibility the development and deployment of sophisticated 
        detection technology is essential. Deployment of Non-Intrusive 
        Inspection (NII) technology continues to increase and is viewed 
        as a ``force multiplier'' that enables CBP Officers to screen a 
        larger portion of the commercial traffic. CBP is currently 
        utilizing large-scale X-ray and gamma ray machines, along with 
        radiation detection devices to screen cargo. As of March 2007, 
        183 large-scale NII systems have been deployed, 74 of which are 
        on the Southern Border with Mexico. Last year, CBP examined, 
        either through a physical inspection or by using NII equipment, 
        over 26 percent of the cargo arriving from Mexico. 
        Additionally, 963 Radiation Portal Monitors (RPMs) have been 
        deployed nationwide with the ultimate goal of scanning 100 
        percent of containerized cargo and conveyances for illicit 
        materials. These RPMs permit CBP to scan for illicit nuclear or 
        radiological materials for 96 percent of all truck cargo and 91 
        percent of all personally owned vehicles arriving from Mexico.
    In summary, the layered enforcement strategy I just mentioned will 
continue to be employed under this demonstration project, and security 
at our borders will not be diminished whatsoever. CBP will continue to 
review advanced data submitted by each and every truck prior to arrival 
at the port. We will continue to make a risk assessment on every truck 
based on this data and upon our officer's questioning of the driver. 
Each of these trucks will pass through a radiation portal monitor, and 
when any risk is present, we will use our full array of non-intrusive 
inspection equipment and K-9 assets to ensure that no illicit 
materials, contraband or illegal goods are being carried in the 
conveyance. Security at the border will remain paramount during this 
project, and will not be diminished.
    Madam Chairman Murray, members of the subcommittee, I have briefly 
addressed CBP's initiatives that help CBP protect America against 
terrorists and the instruments of terror, while at the same time 
enforcing the laws of the United States and fostering the Nation's 
economic security through lawful travel and trade. As the DOT and FMCSA 
move forward with implementing this demonstration project, CBP will be 
a strong partner and will ensure that the twin goals of security and 
trade facilitation continue to be balanced at our SWB ports of entry. 
CBP has been, and will continue to be, an active partner in the 
development of this project. Throughout its implementation, we will 
continue to align our programs even further and ensure that the 
collaboration continues as the project progresses forward.
    In closing, with the continued support of the President, DHS, and 
the Congress, CBP will succeed in meeting the challenges posed by the 
ongoing terrorist threat and the need to facilitate ever-increasing 
numbers of legitimate travel and trade.
    Thank you again for this opportunity to testify. I will be happy to 
answer any of your questions.

    Senator Murray. Thank you, Mr. Ahern.
    And again, everyone's testimony will become part of the 
record, all members have access to it, so I appreciate your 
brevity this morning.
    Secretary Peters, let me start with you.
    According to the formal record of discussions that was 
initialed by both the U.S. and Mexican authorities, U.S. 
carriers will not be granted access to Mexico until the second 
half of your 1-year pilot project. We are told that it would 
take a couple of months for the Mexican authorities to develop 
an application process, so U.S. carriers can apply to carry 
cargo into Mexico.
    Given all the time and attention and resources that both 
governments have given this issue over the last several years, 
can you tell us why it is that the United States trucking firms 
now have to wait 6 months to get access to Mexico markets, 
while Mexican trucking firms can enter the United States under 
your pilot program in the next couple of weeks?
    Secretary Peters. Madame Chairman, I'd be happy to answer 
that question.
    Last fall, at the time that the record of discussions was 
put into place, it was the decision of the then-Fox 
administration and the United States, not to proceed with a 
program, a demonstration program at that time. The Bush 
administration resumed negotiations with the new Calderon 
administration after the President was elected, and as you may 
recall there was some dissention about the result of that 
election, he was not cleared immediately to proceed.
    However, since that time, and since Secretary Tellez has 
been appointed as the Secretary of Communications and 
Transportation of Mexico, we have renewed discussions. However, 
because of their very new administrations, they're not yet 
ready to have all of the procedures in place that would allow 
U.S. trucks into Mexico. It is, however, their intent to do 
that, as quickly as possible.
    Senator Murray. Well will you insist on seeing the 
application procedures that are going to be established for 
U.S. carriers from the Mexican government, before you start 
allowing Mexican carriers into the United States?
    Secretary Peters. Madame Chairman, we will likely not see 
those procedures before, but certainly soon after. I certainly 
will exercise every option to have the Mexican officials 
expedite that process.
    Senator Murray. So we may not see those, what they're going 
to require of us, and still allow their trucks into our 
country?
    Secretary Peters. Madame Chairman, I hope that we will, but 
we have not had that specific timeline discussion with the 
Mexican officials. I will engage in that discussion with them, 
and get back to you as soon as possible.
    Senator Murray. You pointed out in your testimony, we've 
waited 14 years for the NAFTA cross-border trucking provisions 
to come into effect. What would be the harm in waiting another 
half-year so we could be sure that U.S. firms and Mexican firms 
are truly gaining equal access to each others' markets, 
simultaneously?
    Secretary Peters. Madame Chairwoman, it is absolutely 
important for us to proceed with that. However, this 
demonstration program, by exercising it at this time it will 
eliminate the very constant, very cumbersome, costly, outdated 
system of moving freight across the border with Mexico, and 
replace it with a safe and efficient process. We believe that 
we have the process in place in the United States now to comply 
with those requirements, and it is prudent to move forward with 
that process. The other fact----
    Senator Murray. But you're not going to wait until we have 
equal access, and know those documents are in place, until you 
proceed forward?
    Secretary Peters. Madame Chairman, we would like to see 
those documents, certainly, and we will work with Mexico to do 
that. However, again, we, right now we have more than 800, I 
believe, that Administrator Hill can verify, applications from 
Mexican carriers who do want to access the United States. There 
are less than 10 applications from U.S. carriers who want to 
access Mexico at this time. So we do feel that we can proceed 
with the first part, the first phase of the process.
    Senator Murray. But, what if the procedures aren't equal, 
once you see their application procedures?
    Secretary Peters. Madame Chairman, we can at any time 
revoke the provisional authority that allows us to move forward 
with allowing Mexican trucks into the United States. And if we 
are not timely in doing so, we'd certainly be prepared to 
exercise that option. However, in my discussions with Secretary 
Tellez, he is very committed to moving as quickly as possible, 
to allow the reciprocal arrangement to occur.
    Senator Murray. In your formal testimony, you talked about 
your 1-year demonstration program extensively, but you don't 
say anything about what happens at the end of the pilot 
project.
    As I talked about in my opening statement, your own Under 
Secretary as well as the U.S. trade representative, and their 
counterparts in the Mexican Government, they initialed the 
document less than 4.5 months ago that laid out some of the 
details of your pilot project. And that document stated, and I 
want to read it, it says, ``Third stage that commences at the 
end of the 12-month period, in which a full and permanent 
opening of the border is foreseen, and new carrier application 
is being incorporated in the normal operating authority 
procedures of each country, without quantitative 
restrictions.''
    Does that document still reflect accurately the formal 
positions of the United States Government?
    Secretary Peters. Madame Chairman, it does not. We want 
this pilot program to be substantive, as you pointed out 
earlier, not just for show. We will set up two monitoring 
groups.
    One is a bi-national group between Mexico with the 
Secretary of Communication and Transportation, as well as U.S. 
Department of Transportation. This bi-national group will 
largely deal with technical issues that may come up in the 
process. However, they will also establish performance 
measurements and criteria that we will use to determine the 
success of the demonstration program.
    Further, we plan to put together an advisory group of 
independent, outside experts who have familiarity with these 
issues to help us determine that we do have the right 
performance measures, the right criteria, and, Madame Chairman, 
we will report back to you periodically, so that you do not 
have to wait for the full year to get information. We, and you, 
will have information on the progress, on the measurements, on 
the criteria as we proceed.
    Senator Murray. So you're renouncing that document that was 
initialed?
    Secretary Peters. Madame Chairman, this document, it's my 
understanding--and it was done before I had the opportunity to 
be in this position--records discussions dated December 29, 
2006, but it was just that--a record of the discussions between 
the then-Fox administration and the Bush administration, to 
that point.
    The document was created because the two sides had 
concluded not to proceed with any kind of pilot or 
demonstration program during the remainder of the Fox 
administration. It does not reflect accurately the negotiations 
and discussions that have occurred subsequently, with the new 
Calderon administration.
    Senator Murray. Can you give me some specific examples of 
what you might find in your demonstration project that would 
cause you to close this project down?
    Secretary Peters. Absolutely, Madame Chairman.
    One of those issues might be if we have--see a significant 
peak in out-of-service rates of vehicles that are allowed into 
the United States during the demonstration program. We will 
evaluate crashes. We will evaluate whether or not drivers are 
presenting themselves, having met all of the requirements that 
they will be expected to meet coming into the United States.
    We had hoped, Madame Chairman, after this committee hearing 
today--so that we have benefit of your input on this--to 
develop drafts of what those criteria would be, and to get back 
to you. I can relate to you my personal experience, having 
grown up in Arizona, and spent much time south of the border in 
Mexico both for recreational purposes when I was younger, but 
for professional purposes, during the time that I was Secretary 
of Transportation in Arizona. I have seen a significant 
improvement in both the vehicles and the drivers.
    And by the way, Arizona Department of Transportation was 
responsible for all commercial vehicle inspections on a State-
basis. So, I had first-hand knowledge of what was going on, and 
I am convinced that we have a situation that can be implemented 
safely on a demonstration basis.
    Senator Murray. The Inspector General, in his remarks, said 
that your agency needs to establish clear objectives, 
milestones, and measures of success for your pilot program. 
You're saying that those have not yet been established?
    Secretary Peters. Madame Chairman, they have not yet been 
established. As I indicated, we have talked about, and have 
some idea of what those might be, but we wanted benefit of this 
committee hearing, as well as the opportunity to discuss this 
further with the Inspector General--who, by the way, will be 
asked to be part of the ongoing monitoring process, as well--
before locking us in.
    Senator Murray. Part of the oversight groups? Because you 
also talked about two groups to provide oversight for the----
    Secretary Peters. Correct.
    Senator Murray. All right. You said, those panels will 
consist only of U.S. representatives knowledgeable with this 
issue. When were those groups established, and who is serving 
on them? It is, Mr. Scovel, or--who else is on that?
    Secretary Peters. Madame Chairman, we have not yet 
established the full membership, there are several people that 
we have talked about putting on that, we want bipartisan 
representation. We want representation of people who do have 
knowledge of the issues, both in working with Congress, and 
working with the various agencies.
    So, we will--as soon as we do that, we will get back to you 
and let you know who those individuals are, but again, we 
prefer to have benefit of this hearing, and to understand fully 
any concerns that you might have, before committing 
specifically to those individuals.
    Senator Murray. Just so I understand, this pilot project 
may open up in just a few weeks, and yet, we still haven't 
established a criteria, or put people on those committees?
    Secretary Peters. Madame Chairman, this pilot project will 
commence in approximately 60 days. And during that time--and I 
will ask the Administrator--to detail what other processes have 
to occur within that approximate 60 days. But before any truck 
crosses the border on this demonstration program, we will have 
to you the specific names of those who will be monitoring this 
process, in addition to those at the SCT in Mexico, and USDOT 
in America, to include the Inspector General. And, we are 
looking at some former Members of Congress, we're looking at 
members of prior administrations, so that we do look at people 
who have a very good knowledge of these issues, and background 
on these issues.
    But again, Madame Chairman, no truck will cross the border 
until we have come back to you with those specifics.
    And John, if you would please talk about the notice 
requirements?
    Mr. Hill. Thank you, Madame Chairman.
    The requirements at this time are for Mexican carriers that 
are interested in the pilot to apply for operating authority. 
That authority is provisional, and before we're ever allowed to 
grant provisional authority, we must go and do an on-site 
safety audit. That on-site safety audit is something that is 
required in section 350, and we have inspectors and auditors in 
place to do that.
    Once the inspection, or the audit process, is completed, we 
then will bring that information back, make an assessment to 
make sure it complies with the requirements you've established, 
and what our safety regulations require, and then we will make 
a posting in our FMCSA register, as we do for all operating 
authority applications. There will be an opportunity for a 
comment from the public, and then we will make a decision about 
whether to grant provisional authority. That is the 60-day 
period the Secretary was referring to that we believe it will 
take to complete all of that activity.
    Senator Murray. Mr. Scovel, you've worked with--in this 
area for a long time, or your office has. Do you think that the 
DOT can make a determination on the performance of this pilot 
project in a year?
    Mr. Scovel. They may well be able to, Madame Chairman, that 
is an overarching concern of ours, however. Looking forward 
over the next year, whatever objectives and measures and 
milestones the Department might set for itself in evaluating 
the program, we would need to--need a full opportunity to 
examine those, and to conduct our own independent and accurate 
and objective evaluation in order to provide this committee, as 
well as the Secretary, with the benefit of our recommendations.
    I'd like to return to something that the Secretary 
mentioned in her last answer to one of your questions, Madame 
Chairman, and it had to do with the role of the Inspector 
General on the evaluation group that the Department is setting 
up.
    We have, indeed, been asked to participate in that, I have 
expressed my tentative agreement. I want to make clear, though, 
to you and to the committee, that one of my concerns is that we 
remain in an ex officio capacity, if you will. I do not want to 
compromise the ability of my office to perform an independent 
and objective evaluation of the process. That might, 
conceivably, occur if we were so involved in the policy 
formulation concerning how the program is to be evaluated.
    Mr. Come, who is sitting with me at the table, may well be 
our representative on the Department's evaluation group. He 
brings a wealth of experience to this endeavor. But we know we 
are going to be called on during the next year, and certainly 
at the end of the pilot project to render, again----
    Senator Murray. I'm certain you will.
    Mr. Scovel [continuing]. An independent and objective 
assessment. And we will not compromise our ability to do that.
    Senator Murray. Thank you very much for that response, I 
appreciate it.
    Senator Bond, I will turn to you.
    Senator Bond. Thank you very much, Madame Chair, and I 
share the Chair's concern about ensuring the U.S. trucks have 
access to Mexico. That's a very important part of the bargain 
that we want to see kept.
    Mr. Scovel, we appreciate the attention and the healthy 
dose of skepticism the IG brings to this process. You are the 
first line of help in making sure we oversee this project.
    Madame Chairman, might I ask somebody to advise me when 5 
minutes is up? I see our timer, our timer has gone kaput. It 
operates like our elevators in the United States Senate.
    Let me get right to the subject: do you think, Madame 
Secretary, there's a sufficient amount of funding to assure the 
proper level of enforcement to ensure that Mexican carriers who 
don't have the appropriate details, and have not gone through 
the proper channels are not on our roads, outside the 
commercial zone?
    Secretary Peters. Yes, we do believe that we have 
sufficient resources, both in terms of funding, and in terms of 
the auditors and inspectors that are available at the border, 
dedicated to this provision of the NAFTA treaty.
    Senator Bond. Who will enforce the cabotage laws to prevent 
point-to-point movements of cargo within the United States 
after the international load has been delivered?
    Secretary Peters. Senator Bond, that's a very important 
consideration.
    Both Federal inspectors, as well as State and local 
inspectors and law enforcement have been trained, and will 
enforce the cabotage issues.
    Senator Bond. According to the IG, all States have now 
adopted operating authority rules--I can't imagine all States 
have come up equally in capability, but what's your assessment 
of the ability of the States to enforce the safety standards? 
What obstacles remain in assuring adequate State participation?
    Secretary Peters. Senator Bond, if I may defer to the 
Administrator on this issue, he can give you the very specifics 
of our extensive work with chiefs of police and others to 
ensure that they are trained.
    Senator Bond. I don't need the whole document, I would 
appreciate an overview, and if you can give us--maybe if you 
have a submission for the record, you might summarize it.
    Mr. Hill. Sure, I'd just simply say to you that there are 
approximately 12,000-13,000 inspectors trained across the 
Nation to do commercial vehicle inspections. We also are 
working with the International Association of Chiefs of Police 
to train local law enforcement and State enforcement that are 
not regularly doing commercial vehicle enforcement.
    Senator Bond. Might I ask also about insurance--do you 
think the same insurance companies who insure American trucking 
countries will provide adequate coverage for Mexican carriers? 
And, are there other insurance companies which might be 
providing that insurance, if so, how will recovery work in the 
case that there is an accident in which the Mexican driver is 
liable? Can that judgment be executed and enforced?
    Secretary Peters. Senator Bond, yes it can.
    Each Mexican carrier that is selected to participate in 
this program will be required to carry insurance from a U.S. 
insurance company authorized to write that insurance, as well 
as the same limits that U.S. carriers are required to carry in 
terms of liability.
    We met with one of those companies, Southwest Insurance, 
when we visited Monterrey, Mexico recently, at the Olympias 
Trucking Company, and this insurer did indicate to us that they 
are well-prepared, as are many of his competitors, to write 
that insurance.
    Senator Bond. The Inspector General mentioned there needs 
to be stated objectives, milestones, measurements of success--
that those milestones and indicators are being developed, so 
they are not yet ready, but will they be ready in 60 days, do I 
understand that?
    Secretary Peters. Senator Bond, absolutely, yes.
    As I indicated to Madame Chairman, there will be no truck 
cross the Mexico border until that process is in place, and we 
contemplate doing that during this 60-day period.

 PROCESS FOR MEXICAN DRIVERS TAKEN OUT OF SERVICE IN THE UNITED STATES

    Senator Bond. Let me ask a practical question--what happens 
if a Mexican driver tests positive in a post-accident testing 
scenario in the United States? I know he's taken out-of-
service, but if he happens to be in Missouri on our NAFTA 
corridor I-35, of which we're proud, how do we get him back to 
Mexico, what happens to the load? As a practical matter, what 
happens?
    Secretary Peters. Sir, I'm going to speak to the truck 
first, and then ask the Commissioner to speak specifically to 
the individual.
    As you indicated, that individual driver would be taken 
out-of-service, as would the vehicle. It would be the 
responsibility of the carrier to move that cargo, to send a 
qualified driver to re-locate that cargo, or perhaps a U.S. 
driver to re-locate that cargo. But again, if I may defer to 
Commissioner Ahern in terms of what would happen to the 
individual.
    Mr. Ahern. Certainly. If an alien coming to the United 
States has permission to come into the interior of the United 
States, whether it's a driver in this process or somebody 
flying in internationally at an airport and staying in our 
country for a period of time, if they're out of status in any 
way and arrested for a violation here in the United States, an 
immigration detainer is put on their police record. When they 
serve time, they are then deported, and put in removal 
proceedings immediately after.
    Depending on the gravity of the charges as placed, the 
person would be out of status, removed from the United States, 
and in most circumstances, and we'd have to evaluate each one 
and certainly on their own set of facts, they would be 
excludable from re-admission.
    Senator Bond. One final question, I think I've about run 
out of time, but I mentioned in this statement that the 
restriction to the commercial zones, Mexican drayage trucks 
seem to have been a cause, not only of congestion, but 
pollution. Are you looking forward to the diminishing of 
pollution, and what kind of safety impacts will this have on 
traffic within what has been the commercial zone, in which 
drayage trucks could operate?
    Secretary Peters. Senator, you're correct, it's been very 
congested in the border areas with these drayage trucks. We 
contemplate that there will be fewer drayage trucks used as 
these drivers are authorized to take their loads onto their 
ultimate destination.
    We also contemplate and believe, based on our discussions 
with the Mexican officials, and Mexican trucking companies, 
that these will be better trucks, newer trucks, that also will 
have less of an ability to provide any kind of air-quality 
concerns within the border areas.
    We have talked to the individuals who will be participating 
in these, or applying, rather, to participate in these 
projects, and we are comfortable that we will have an improved 
situation after.
    If I might, Senator, I also wanted to add to--address the 
concern that we would pick the ``cream of the crop,'' so to 
speak, just look at the top trucking companies and hand-pick, 
or cherry-pick those that we felt were the best--that will not 
be the case. The selection of firms to participate in this 
pilot will be a broad representation, from size, from 
geographical diversity, and from other factors, so that we make 
sure that whatever trucks are involved in the demonstration 
program would be a good representation of what the universe 
would be, should we move forward to full implementation.
    Senator Bond. Thank you very much, Madame Secretary.
    Senator Murray. Thank you, Senator Bond.
    Senator Lautenberg.
    Senator Lautenberg. Thanks very much, Madame Chairman, and 
I appreciate your interest in keeping our roads safe.
    In 2005, 43,200 Americans died in traffic crashes, 
according to the National Highway Transportation Traffic Safety 
Administration. Five thousand of them were killed in crashes 
involving a truck.
    The Bush administration has made almost no attempt to 
change that grim picture, and to save American lives with 
tougher safety laws and regulations. Instead, we've gone in 
reverse, by letting truck drivers stay on the road for longer 
periods before they rest, and by proposing to put more trucks 
on the road, trucks that will be harder to regulate for safety.
    The Department of Transportation claims that their new 
agreement will ensure that Mexican trucks on American roads are 
as safe as American trucks.
    I'm chairman of the Commerce Committee's Subcommittee on 
Surface Transportation and I want to focus on the question of 
safety. Our highways are not the place to conduct experiments 
by allowing potentially unsafe trucks on the road. And we don't 
know how many hours these truck drivers have been behind the 
wheel before they cross the border. We don't know whether truck 
driver drug and alcohol testing in Mexico is adequate. We'll 
have a hard time confirming whether the truck itself meets the 
U.S. equipment safety standard.
    So, yes, we want to grow our economy, and complete the 
trade opportunities that exist. But, the safety of our people 
on American roads must be the first concern.
    And so, Madame Secretary, I want to ask you this question. 
Less than 6 months ago, during your confirmation hearing in the 
Senate Commerce Committee you said that there were, and I quote 
you, ``No immediate plans for a pilot program involving long-
haul trucks from Mexico.'' Well, there is a conflict between 
your testimony at your confirmation hearing, and the Department 
of Transportation's fact sheet. As a matter of fact, the fact 
sheet from DOT says, ``U.S. DOT began working immediately with 
its Mexican counterparts to develop a NAFTA trucking pilot 
program.'' How do we square that?
    Secretary Peters. Senator Lautenberg, thank you for the 
opportunity to answer that question.
    You are correct, that in September, I testified last year, 
in response to a question by Senator Pryor that there were no 
immediate plans to open the border. That was the truth.
    The Record of Discussion that is dated September 29, 2006, 
was just that--it was a record of discussions between the then-
Fox administration, and the Bush administration. My 
understanding of that document--of which I was not aware when I 
testified that day--that it was written before I was confirmed, 
was created because the two sides had agreed at that point not 
to proceed with any kind of a pilot or demonstration program.
    Once the Calderon administration was in place, we did, 
then, begin discussions with the Calderon administration about 
advancing the ability to implement the trucking provisions.
    Senator Lautenberg. I'm sure there were reasons that you 
did that, but it's not very comforting to not get the facts out 
there when you're testifying in front of a committee, and 
that's what gives us case to pause here, is that we're not 
sure.
    Inspector Scovel, General Scovel--are there driver drug and 
alcohol testing programs in place for Mexican trucking 
companies that compare to the programs that we have for, that 
we demand for U.S. trucking companies?
    Mr. Scovel. Thank you, Senator Lautenberg, I can address 
that question, generally.
    Mexican motor carriers are required to submit urine samples 
from their drivers for laboratory testing. It's my 
understanding that Mexico does not currently have a lab--
anywhere in the country--that meets the United States 
standards, consequently, those specimens are being submitted to 
a United States lab for testing.
    One of our concerns focuses not so much on the laboratory 
testing, but the collection procedures. From long experience 
with U.S. military drug prevention and detection efforts, I can 
say that we rarely had problems with our testing facilities. We 
often had problems, however, with our collection processes, and 
it was there that service members sometimes sought to subvert 
or to avoid detection by engaging in any number of ingenious 
schemes.
    Without the opportunity for my office to examine carefully 
the collection procedures that the Mexican Government agreed to 
in a 1998 memorandum of understanding, would be equivalent to 
those in the United States, I could not, in good faith, tell 
this committee that they are, indeed, equivalent.
    Senator Lautenberg. Yes, and that's the question. We can 
put in the language what it is that we'd like to see done, but 
if it isn't done, whatever, wherever the problem exists in the 
process doesn't matter. The fact of the matter is that the 
assurance that there are people behind the wheel, equipment 
that is safe, and the condition of the driver is that which we 
think is appropriate or necessary for driving a truck in the 
United States----
    Secretary Peters. Senator Lautenberg, if I may, because 
that is an issue that we have addressed.
    And, the way that we have addressed that issue is that the 
Mexican Government, the Secretary of Communications and 
Transportation officials have been trained in the proper 
control and protocol involving taking and handling specimens, 
and those specimens will be tested in a U.S.-certified 
laboratory.
    Senator Lautenberg. Well, if as the Inspector General said, 
that the problem is in the collection, it's not easy to 
guarantee that what you think you have is what you really have. 
And, so that precedes the question about whether or not we can 
do the testing properly. I think that's a heck of a lot easier 
than it is to be assured that what you want to have is 
available in the form that you can truly test it.
    My time is up? Time flies when you're having fun.
    Senator Murray. We'll have one more round of questioning 
when we're done with the Senators that are here.
    Senator Allard.
    Senator Allard. Thank you, Madame Chairman.
    In 1982, or prior to 1982, Mexican drivers could go 
anywhere in the United States, and then we imposed the 20/25, I 
guess in Arizona, the 75-mile limit--what effect did that have 
on security and safety?
    Secretary Peters. Senator Allard, that had an effect of 
closing the border, if you will, except within the commercial 
zone.
    But I wanted to address, specifically, the effect that it 
had on safety--we have not had higher incidents of crime, or 
issues of violations of safety within the border areas. As you 
indicated, in Arizona, that border extends to approximately, an 
area called Rio Rico, where there are a number of produce 
houses who receive agricultural products from Mexico, and then 
transfer those to U.S. carriers.
    Both my experience as Secretary of Transportation in 
Arizona, and my experience at U.S. DOT is that there have not 
been significant safety concerns with the way the procedure has 
been allowed to happen within the commercial zones. And we have 
taken additional steps, as have been outlined, to ensure that 
those trucks are safe, as they proceed under the demonstration 
program.

   DOCUMENTATION FOR ADMISSION INTO THE UNITED STATES AND BIOMETRIC 
                               ENROLLMENT

    Senator Allard. One of the things, I think, we have to be 
ever-vigilant on is the possibility of terrorists entering this 
country. How do we go about identification verification? I 
understand the Mexican government has birth certificates, but 
they don't have a paper trail like we do, so how do we go about 
assuring proper identification? Is a biometric system being 
placed on that?
    Secretary Peters. Senator, that's an excellent question. 
And we work cooperatively with DHS, and I would like 
Commissioner Ahern to address that question, since that is 
under their responsibility.
    Mr. Ahern. Thank you very much. I think it is important to 
restate that for this demonstration project there won't be any 
changes as far as the introduction and admissibility of 
individuals who are not citizens or residents of this country.
    The three primary documents that an individual would 
present for admission would be: their passport, a laser visa, 
or the border crossing card. To be able to go outside the 25- 
or the 75-mile zone, they have to go in and go through an 
interview with a customs or border protection officer.
    They are then enrolled in the US VISIT system, where we 
actually do the biometric enrollment, match them biometrically 
against their identity, and do biographic checks of their name 
to make sure they're not involved in any watch list or any 
previous criminal or smuggling history coming across the 
border. That doesn't change at all during this process; that is 
something which they keep in place.
    Senator Allard. The printing office here was under the 
legislative branch on appropriations when I was chairman, and I 
think they helped put together the biometric system for visas 
and what-not, and it was being applied on a limited basis, and 
I think was being applied on situations like the border--am I 
correct on that? And is that working?
    Mr. Ahern. It is working very well. One thing I would give 
you for statistical purposes, is that we capture over 8,000 
fugitives coming into this country each year through just 
biographic checks. Since we've added the biographic feature, 
we've approached close to 2,000 additional individuals who were 
coming under different identities. Certainly that biometric 
check is something that's working very rigorously. It's used 
all the time in an airport environment, and certainly in a 
seaport environment. It's used for individuals looking to gain 
entry beyond that 25- and 75-mile zone in the border area.
    One of the things Secretary Chertoff is challenging us to 
do as we move forward over the next year, is actually move 
beyond the current finger scans through the biometric US VISIT 
program, to do full 10-print for people coming into this 
country, to have even additional security.
    Senator Allard. That's good news, as far as I'm concerned. 
I'm glad to hear that it's improved our security, as far as the 
border's concerned.

 LARGE SCALE X-RAY SYSTEMS AND RADIATION PORTAL-MONITORS AT THE BORDER

    I've been to the ports, where we have the ships coming in, 
and we use an X-ray machine to scan the cargo. A car or truck 
just drives by with the machine, and you can see on a video 
screen what's in the truck. Do we have a similar system that 
we're using down on our border for trucks?
    Mr. Ahern. I'd be happy to answer that question for you 
also. First off, the large-scale X-ray systems and gamma 
imaging systems are things that have been used, beginning in 
our land border environments. We have, currently, out of our 
183 systems, 74 large-scale X-rays, deployed on the Southwest 
border; and we currently have a 26 percent scanning rate of all 
trucks coming across the border. That's good news for us.
    I think the additional feature that I just want to restate 
again is, post-9/11, we've also deployed close to 1,000 
radiation portal-monitors along our Southwest border, our 
northern border with Canada, and our Nation's sea ports. 
Ninety-six percent of the trucks coming across the border will 
go through a radiation portal-monitor to make sure they're not 
bringing any radiological or nuclear devices into the country. 
We're at 89 percent of sea ports, and 91 percent at the 
northern border; we'll be at 98 percent at all locations by the 
end of this calendar year.
    Senator Allard. And through that, if you see a suspicious 
area in the cargo, what happens?

        PROCESS FOR ANOMALIES FOUND BY LARGE SCALE X-RAY SYSTEMS

    Mr. Ahern. If we see any kind of an anomaly through the 
large-scale X-ray, it gets automatically referred for a full 
inspection until we can resolve what that issue is.
    Senator Allard. So you unload the truck on the spot?
    Mr. Ahern. Absolutely. And if there's any kind of a 
spectro-read from the radiation spectra, we then follow up 
through a very elaborate protocol, even reporting it back here 
to the D.C. area, so our laboratory and scientific services 
people can resolve the issue, and tell us what type of isotope 
is causing that radiation portal-monitor to alarm.

                     METHAMPHETAMINE AT THE BORDER

    Senator Allard. Now, law enforcement in the State of 
Colorado tells me that methamphetamine problem has moved from 
the homelands to large lands just south of the border. What are 
you doing to check for methamphetamine, are you using dogs, or 
what?
    Mr. Ahern. We are.
    As for protecting the borders, we're looking for anomalies 
and smuggling compartments. To us, it's not a matter of whether 
it's heroine, cocaine, methamphetamine, marijuana, or a weapon 
of mass effect or destruction. When we're using the large-scale 
X-ray, we're looking for anomalies. We're not looking whether 
it's meth or cocaine. That's the good use of that technology.
    There are a couple of programs that we are doing with the 
Drug Enforcement Administration to actually look at precursors 
and other transportation movements that help us even focus more 
specifically on the methamphetamine. Because we've seen, over 
the last 2 years, our seizures on the Southwest border, going 
up exponentially. We're very much focused on that. The dogs 
still have the same capability to alert to that commodity, as 
well as the other hard narcotics.
    Senator Allard. Thank you.
    Madame Chairman, I see my time is expired.
    Senator Murray. Thank you, Senator Allard.
    Senator Bennett.
    Senator Bennett. Thank you very much, Madame Chairman.
    As I understand it, you have a pilot project that began in 
February 2007, that will run for 1 year, examining all of the 
trucks.
    Secretary Peters. Senator Bennett, with a clarification, 
please.
    The 1-year demonstration program will not start until the 
procedures are in place, to know that we have the monitoring 
process, the individuals, as well as the safety audits 
completed in Mexico, at the location of the trucking companies 
that will be selected to participate.
    Senator Bennett. It was scheduled to begin in February, but 
it will not begin until everything is place, is that----
    Secretary Peters. Senator, that is correct. And that is 
something that is very important to clarify.
    When Secretary Tellez and I visited the border areas, and 
announced that we had reached agreement that would allow U.S. 
inspectors and auditors into Mexico to investigate these firms 
at the site of their business, we indicated that there were 
several additional steps that we had to take before the 1-year 
demonstration program would start. Those were outlined by the 
Administrator, so yes, sir, the clock does not start on the 1 
year until these procedures are in place, and the first truck, 
if you will, rolls across the border.
    Senator Bennett. Okay, do you have any idea when the clock 
will start?
    Secretary Peters. We expect, sir, that it will take 
approximately 60 days.
    Senator Bennett. Okay.
    Secretary Peters. During that 60-day period, we will be 
doing the selection of the trucking firms, so we have a good 
representative sample, conducting audits at those trucking 
firms, and putting into place the monitoring procedures and 
measurements that we will use to determine whether or not the 
demonstration program is successful.
    Senator Bennett. Okay, so it will start in about 60 days 
from now?
    Secretary Peters. That's correct, sir.
    Senator Bennett. Now, outline for me how it's going to 
work, while you're focusing on the pilot project which, as I 
understand, will examine every single truck, according to a 
whole series of specific regulations. At the same time, 
monitoring that commerce that is coming that is not part of the 
pilot project. In other words, you're running two systems 
simultaneously--outline for me how that's going to work. 
Focusing on the pilot project, and getting the information, 
setting the parameters for that, and presumably getting the 
data that will be used for the whole system, after the pilot 
project's over, and at the same time, making sure that the rest 
of the commerce that's coming in independent of the pilot 
project, goes forward in a logical fashion.
    Secretary Peters. Senator, very good question. We have 
dedicated inspectors, we also have a specific identifier on all 
trucks that will be chosen to participate in the demonstration 
program, so that we can segregate those from the other traffic 
that is occurring in our border areas.
    If I might, I'd like to ask the Administrator to add any 
additional detail that's important.
    Mr. Hill. Senator, thank you. A couple of things, first of 
all, I think what Mr. Ahern said earlier is applicable, that a 
lot of trucks are still going through the border every day, and 
we still have inspectors who are going to be there, looking at 
those commercial zone vehicles that will be needed to 
inspected, as we now do.
    So, what we anticipate is 100 carriers, we haven't defined 
the number yet, because as we do the audits, what we're finding 
is that trucking companies are identifying how many of their 
vehicles they actually want to dedicate to coming in the United 
States.
    For example, last week we did an audit on one of these 
companies, and he has 37 power units, but he's only dedicating 
5 to the U.S. operation. So, we're going to have to see how 
large of a vehicle fleet this is. But, we believe that we can 
dedicate the resources to both--continue the commercial zone 
activity and these long-haul vehicles without diminishing our 
safety requirements.
    Senator Bennett. Assuming the pilot project gives you the 
information that you need to make changes, once it's over, will 
commercial vehicles be able to go beyond the 25-mile limit, and 
anywhere in the United States?
    Mr. Hill. This demonstration project will allow vehicles to 
move beyond those limits, and the reason we're doing this with 
100 carriers--we want to do it in a very measured way.
    Senator Bennett. Sure.
    Mr. Hill. We want to make sure that it's safe. So, there 
will be careful analysis and discussion, as the Secretary 
indicated in her earlier remarks, with this independent 
advisory panel, to make sure that we are assessing safety 
properly, and we're not diminishing it with the resources that 
Congress has given us.
    Senator Bennett. Okay, and getting to the result, then, at 
the end of the year, it's my understanding that the present 
practice of transferring goods from a Mexican carrier into, to 
an American carrier, costs the American consumer about $400 
million a year, and presumably that savings will occur as these 
folks can go to the ultimate destination, instead of having to 
off-load. Is that an accurate understanding of why we're doing 
this?
    Secretary Peters. Senator, yes, that is an absolutely 
accurate understanding of why we're doing this.
    The current process is costly, it's cumbersome, it's 
outdated, and as you indicated, it does add additional costs to 
those goods that are moved. We, of course, will never, ever 
compromise safety just to implement the trucking provisions of 
NAFTA, but we believe that we have arrived at a way to test 
this process, through a demonstration program of 1 year, 
determine what changes we may need to make, or how we might 
strengthen the program further, before full implementation.
    Senator Bennett. Okay, in other words, Madame Chairman, I 
would expect in this same hearing a year from now, the 
Department should be prepared to say, ``This is what we've 
learned, and this is what we're prepared to recommend for a 
long-term policy.''
    Secretary Peters. Senator, I would just add one additional 
step--we will apprise members of this committee, as well as 
Members of Congress as this demonstration project progresses. 
So, we're not going to wait until the end of the year to 
communicate back with you. We will provide you periodic updates 
as we monitor this process.
    And I think the Inspector General added a very important 
point--we want benefit of their involvement in terms of making 
sure that we are measuring the right things, looking at the 
right criteria, but we absolutely must protect their 
objectivity to be able to audit this process. So, I would defer 
to the Inspector General about his reporting issues with you, 
but we will, as the agency, report to you periodically as the 
demonstration program progresses.
    Senator Bennett. Okay. Thank you very much.
    Senator Murray. Thank you, Senator Bennett.
    Let me follow up on a line of questioning Senator Bennett 
was talking about, having the two different programs running at 
the same time, and how are you going to do that.
    Mr. Scovel, I'd like you to comment, because in your 
testimony, you called into question whether or not DOT could 
fulfill its promise of checking every truck, every time during 
this pilot project. Could you comment on that?
    Mr. Scovel. Yes, Senator, that is a concern of ours--
screening mechanisms at the border.
    Long-haul trucks participating in the pilot program have to 
be identified for license checks and inspections from among the 
large number of commercial vehicles entering the United States 
every day, at each commercial crossing.
    The Commissioner mentioned a figure of 5 million commercial 
vehicles entering the country, each year, from Mexico--the 
Department has stated that it intends to check every truck, 
every time, from among those participating in the pilot 
program. But, if we have 5 million a year, the ability of FMCSA 
inspectors, or State inspectors who may be on the ground at the 
border crossing point, to identify, single out, segregate, and 
then inspect every participant in the pilot program, will be 
sorely tested. It will require very close coordination with 
agents from Customs and Border Patrol. That will require inter-
agency agreements, sometimes those can be difficult to obtain, 
to negotiate--it will certainly be a watch item for my auditors 
as we go South to inspect the process and the promise of every 
truck, every time.
    Senator Murray. Secretary Peters, have you initiated a 
process to put in place those inter-agency agreements that are 
necessary?
    Secretary Peters. Madame Chairman, I'm going to defer to 
the Administrator in terms of the specific agreements, but I do 
know, as I visited the border and observed the traffic that 
goes along across the border in three locations just 2 weeks 
ago, we did talk specifically with the others who jointly 
perform operations with us, at our border stations, that the 
identifier that we have on the truck will allow us to pull that 
truck out of line, and that driver out of line, so that we can 
conduct this every truck, every time process.
    John, if you would, please address the agreements?
    Mr. Hill. Madame Chairman, to answer your specific 
question, the agreements are not in place, however, we are 
working with DHS, as we have been for over 2 years, to develop 
the International Trade Data System, ITDS, as referenced by the 
Commissioner, and we are a pilot, we're the first agency in the 
Federal Government to test that pilot, so we are committed to 
doing that, which will give us advance notice of the vehicles 
coming into the country.
    But, in a practical sense, we're going to have to have 
someone positioned in place, at these locations, to observe 
these vehicles.
    Senator Murray. So there's a pilot in the pilot?
    Mr. Hill. No.
    Senator Murray. Okay.
    Mr. Hill. You're talking about the ITDS? No, that's been 
ongoing for 2 to 3 years.
    Senator Murray. You called it a pilot project.
    Mr. Hill. Well, the first phase of it was, yes, I did.
    The pre-clearance is something that we're doing with DHS to 
make sure that we have the automated information in the system, 
so that when DHS reads the screen, we actually know whether or 
not that carrier is one of the carriers that's been identified 
as part of the demonstration project.
    Senator Murray. Well, if it makes sense for DOT to check 
every truck, every time during the pilot project, covering the 
best--as you said--the best Mexican carriers, why would it make 
sense to conduct less frequent inspections when the border's 
open to all eligible Mexican applicants after this project is 
over?
    Mr. Hill. We are, as you mentioned in your earlier remarks 
about section 350, the requirement there was for us to check 50 
percent, and we believe for determining the efficacy of safety 
protocols at the border, that we believe that we should go 
beyond that for these 100 carriers. And so, we are committed to 
doing that for this demonstration project.
    Senator Murray. What happens after the demonstration 
project?
    Mr. Hill. Well, we're going to have to see what the 
evaluation of the program takes place, and see what kind of 
recommendations are made to us. But, we fully are committed to 
meeting the requirements that you've established on this 
committee in terms of the 50 percent, and even exceeding that 
for verification.
    Senator Murray. The pilot project you're saying, every 
truck, every time, we'll look at that for 1 year, and then all 
of a sudden, we're going to open it up to everybody, without 
every truck, every time.
    Secretary Peters. Madame Chairman, you raise an important 
point. We want to do 100 percent inspection during this 
demonstration period so that we know what the data looks like. 
We will evaluate that data and determine, should we go to full 
implementation later, how many of these trucks we will need to 
investigate, it may well be that we come back and say we need 
to look at all of them, but it may not. That's the data that 
the demonstration program will help us arrive at.
    Senator Murray. Mr. Scovel, can you share with us--I'm a 
little worried about the fact that only the best Mexican 
carriers are going to be in this pilot project. There were 800, 
I think we--you said you are going to select 100 of those. Some 
of them are going to be de-selected because of, maybe, a prior 
safety evaluation, or whatever--how can we evaluate a pilot 
project if we're not looking at across the board, which is what 
we will have, apparently, 1 year from now?
    Mr. Scovel. Senator, that will be a point that we'll have 
to raise in our audit, and in our report of the pilot program.
    I'll--I don't want to pre-judge the results of what our 
audit may reveal. But, it certainly may be a point worth 
considering, it may be a point that, for instance, our 
statisticians on my staff will take into account when they 
evaluate the fidelity, if you will, of the ground rules that 
the Department has laid out for its pilot program.
    Senator Murray. Okay, let me ask one other question and 
I'll turn to Senator Bond. I do have a number of questions I 
will submit for the record, and I would like each one of you to 
make sure you respond to those in a timely manner.
    But, Mr. Scovel, I wanted to ask you--in prior IG audits, 
your office observed that not all of the States had the 
necessary laws, and data, and training, or even the desire to 
enforce Federal rules when it came to requirements for trucks 
to have Federal operating authority. Secretary Peters claimed 
that all of the States are now ready to enforce the Federal 
operating authority rule, and yet, in your own agency's budget 
documents, you say that your Department has a strategic goal to 
get 25 States to fully enforce these rules in 2007, and 30 
States in 2008--which, are 50 States fully informed, equipped, 
trained, and ready to enforce the Federal rules today? Or is it 
25?
    Mr. Scovel. Senator, I don't have the exact number, my 
staff tells me that all States are equipped at the current 
time, are ready to enforce operating authority rules. However, 
the audit work in preparation for our current report, indicated 
through anecdotal evidence from officials in three States, that 
they had essentially communication problems in determining 
whether--they anticipated communication problems in determining 
whether a particular truck was indeed, had indeed, correct 
operating authority.
    They pointed out to us that their law enforcement vehicles, 
some of them don't have internet capability, and that's one 
method for law enforcement on the side of the road to check a 
vehicle's operating authority. An official in another State 
pointed out that their law enforcement vehicles do not have 
telephones, they rely on radios, and some of their law 
enforcement officers don't even have cell phones, with which to 
call FMCSA's toll-free number, which is an alternative method 
to the internet to determine a vehicle's operating authority.
    Those are practical problems, of course, communication 
problems. In our report, on our current audit, we will 
recommend to FMCSA that it continue thorough training of 
officials in every State to enable them to determine a Mexican-
domiciled motor carrier's operating authority.
    Senator Murray. Secretary Peters, do you want to comment?
    Secretary Peters. Yes, Madame Chairman, based on the 
recommendations that we received from the Auditor General in 
the last report, we have taken extensive steps to ensure that 
we are communicating well, and have trained local law 
enforcement officers.
    I'd like to defer to Administrator Hill to give you the 
specifics of that, and just as a reminder, Administrator Hill's 
background is, he was one of those officers, in the State of 
Indiana, prior to joining Federal Motor Carriers. So, perhaps 
he can give you both what has happened, as well as his personal 
experience.
    Mr. Hill. Madame Chairman, thank you for the question. 
There are two things, I think, that need to be pointed out.
    First of all, the Commercial Vehicle Safety Alliance, which 
is the group that has the safety regime that all three 
countries--Mexico, Canada and the United States--follow for the 
inspection process, develops the out-of-service criteria. A 
very important development is that they added that to their 
out-of-service criteria in the last year, so, when a vehicle 
now is found to be operating out of authority, they can be 
placed out-of-service at that time.
    The second thing I would say to the Inspector General is 
that when we do have these communication issues that come up, 
but every police officer is out there, has a police radio. And 
they call their dispatch, and dispatch, then, can call the 800 
number, or our telephone number, and verify out-of-service, or 
I'm sorry, or operating authority status with our agency. So, 
we've tried to put in place, remedies for those people who 
don't have internet-access capability at the roadside, and also 
who do not have cell phones.
    Senator Murray. Okay, I'm confused, Madame Secretary, 
because your strategic goal is to have 25 States to have 
Federal--who are ready to enforce Federal operating authority. 
If only half of the States are ready, how is this going to 
work?
    Secretary Peters. Madame Chairman, my understanding is that 
the States are ready, not just half of the States. I will ask 
the Administrator to speak specifically to the budget issue.
    Senator Murray. Yeah, your budget states 25 States.
    Mr. Hill. Okay, is this--I don't have that in front of me, 
but are you talking about operating authority, or the PRISM 
program that, putting vehicles, putting companies out-of-
service?
    Senator Murray. We are talking about the PRISM program.
    Mr. Hill. Okay, the PRISM program is a different set of 
circumstances. That is, when we find safety-related defects, 
the States can, under their authority, place the carrier out-
of-service for non-compliance with our safety regulations. It's 
a different program than the operating out-of-service, that 
every motor carrier is required to follow when they're 
operating on the highway.
    Secretary Peters. Madame Chairman, if I could add, also, we 
have the same process in place, and has been operating with 
Canada for some time now. So that, what we have learned there 
is that we do have these communication capabilities with the 
law enforcement personnel.
    Senator Murray. All right, well. You know, we have to make 
sure that the conditions of section 350 are met. And, if only 
half of the States are capable of enforcing it, it makes an 
issue for us, so--
    Senator Murray. I will have more questions on this topic, 
and others, that I will have you answer and submit for the 
record, and turn it to the Senator Bond for any final 
questions.
    Senator Bond. Thank you, Madame Chair, just one quick 
question that I think we ought to clear up here, and I want to 
save the rest of my questions for the record, because I do want 
to hear the second panel.
    But, Secretary Peters, you mentioned--you added a comment 
in the answer to one of my questions about the ``cream of the 
crop,'' and you said this is not a cream of the crop, how are 
you going to assure that you get a representative sample? 
Because I think--if it is, if it's just the best of the best, 
that doesn't tell us what the rest of the West would be, if we 
let them all in. How do you assure that you're getting, truly, 
a representative sample?
    Secretary Peters. Senator, it's a very good question, and 
it is absolutely our intent to have this be a substantive 
pilot, that looks at a representation of the--all of the 
potential trucks that could be involved in cross-border 
trucking. To do that, we will work with the Mexican officials 
to look at the entire universe of trucking companies, those 
that would potentially participate in cross-border trucking, 
and ensure that our 100 firms selected are representative of 
the whole.
    Senator Bond. How do you know they won't steer you to their 
best, their best stars? Have we got good intelligence to know 
who's been naughty, and who's been nice?
    Secretary Peters. We do. John, please.
    Mr. Hill. One of the things that we're finding already, 
Senator, is we're sending down--because of State Department 
requirements to give advance notice before our inspectors go 
into the country--we give them notice that we're coming, and we 
arrange for the carriers to be aware that we're en route.
    We've already sent down 16 carrier names, and we're already 
noticing self-selecting occurring. Four of the carriers have 
already dropped out for various reasons. We're going to be 
looking into why they're dropping out--is it because of the 
safety concerns, that they don't want to fulfill the 
requirement, or is it because they've got a different operation 
now, that is not really conducive to long-haul--so we're going 
to be making that assessment.
    The answer to your question is, we have been having these 
applications on hold for a number of years. So, we're now just 
going back through, vetting the names in order of what we got 
them, and making sure that we have information that is current, 
and then we'll find out whether the carriers are still wanting 
to participate.
    Senator Bond. Thank you very much.
    Thank you, Madame Chair.
    Senator Murray. Thank you very much to all of the panelists 
on the first panel. We appreciate your time today.
    And we are now going to turn to our second panelists, if 
they would join us at the table. We will make a quick 
transition, I will introduce them in the order that they are 
going to speak as we are making this transition.
    We have James Worthington, who is President of Con-way 
Freight-Southern on behalf of the American Trucking 
Association. We have Mr. James Hoffa, who is the General 
President of the International Brotherhood of Teamsters. We 
have Mr. John Ficker, who is President of the National 
Industrial Transportation league. Mr. Charles Parfrey, Member 
of the Board of Directors of the Owner Operator Independent 
Drivers Association. And Ms. Joan Claybrook, who is President 
of Public Citizen.
    We will be starting with James Worthington, and as they 
make their transition up here, we will pause for just a minute 
to let that happen.
    Again, I'd like to thank all of the witnesses of the second 
panel for being here with us today. If we could have the rest 
of the hearing room silent, so we can begin this. We've had a 
long hearing so far, we want to give everybody a chance to give 
their testimony today.
    I would like all of our witnesses to know that we have an 
unfortunate clock problem here today, so I'm going to have to 
be sort of rude, and give you a 1-minute verbal warning as you 
give your testimony. We do want everyone to keep to 5 minutes, 
because there are five of you, and we have--I want to make sure 
we have time for a few questions afterwards as well, and the 
morning is moving along.
    I want each of you to know that your testimony that has 
been given to this committee will be submitted in the record, 
and all members will receive it. So, please excuse me if I 
appear rude when I give you a 1-minute verbal signal, but we 
will have to do that today.
    Mr. Worthington, we are going to begin with you if you 
would like to open with your remarks.

STATEMENT OF JAMES P. (PHIL) WORTHINGTON, PRESIDENT, 
            CON-WAY FREIGHT-SOUTHERN, ON BEHALF OF THE 
            AMERICAN TRUCKING ASSOCIATION, ALEXANDRIA, 
            VIRGINIA
    Mr. Worthington. Good morning, Madame Chairman, members of 
the committee. My name is Phil Worthington, I'm President of 
Con-way Freight-Southern, a regional less than truckload 
carrier with operations in 12 Southern States, Puerto Rico and 
Mexico.
    Con-way Freight-Southern is a division of Con-way, a market 
leader in the supply chain management industry. My comments 
today are also on behalf of the American Trucking Association.
    This morning, I would like to talk about an issue of great 
importance to the overall success of NAFTA, which is the 
development of an efficient and safe trucking system that meets 
the transportation needs of our expanding trade relationships.
    Specifically, I'll talk about three things: what NAFTA 
means to trucking, what impact NAFTA's trucking provisions 
have, and what is allowed, and what is not allowed, under 
NAFTA.
    ATA supports NAFTA, because NAFTA has resulted in increased 
trade flows among Canada, Mexico, and the United States. This 
growth in trade has generated more business for the trucking 
industry. When measured by value, trucks move 80 percent of the 
U.S.-Mexican trade, and move 65 percent of the U.S.-Canada 
trade.
    Today, there are roughly 14 million truck crossings on the 
U.S.-Canadian border, and about 9 million truck crossings on 
the U.S.-Mexican border. In order to better understand why 
NAFTA is good for trucking, it's important to look at a 
snapshot of trucking at the border today.
    NAFTA's access provisions for trucking have delayed, for 
now almost 12 years. Since NAFTA was signed and ratified, U.S.-
Mexican trade has grown by 400 percent. In other words, though 
trade has grown significantly between our two countries, we 
continue to have a cumbersome, cross-border trucking process in 
place along our border.
    Through inter-line relationships, freight is handled on the 
U.S. side by a U.S. carrier, on the Mexican side by a Mexican 
carrier, with a middle man, or drayage carrier, hauling loads 
back and forth across the border to freight yards, or for 
subsequent, final delivery.
    This results in one shipment requiring at least three 
drivers, and at least three tractors to perform a single, 
international freight movement. This process also involves 
freight forwarders, custom brokers, as well as the official 
processing handled by government inspectors and enforcement 
officials.
    According to a recent estimate by the U.S. Department of 
Transportation, this cross-border drayage process increased 
costs by roughly $400 million annually, without including other 
related costs.
    NAFTA ultimately should facilitate the movement of freight 
across the U.S.-Mexican border, by allowing a U.S.-Canadian or 
Mexican carrier to transport freight from one point of origin 
to another point on international shipments.
    Cross-border operations will not change overnight, once 
NAFTA's trucking provisions are implemented. NAFTA is just one 
piece of the puzzle, in improving the efficiency at the border. 
Other business practices, clearance procedures, and efficiency 
issues must also be improved.
    It's important to note that NAFTA allows four motor 
carriers to transport international cargo. That is cargo which 
either has an international origin, or an international 
destination. NAFTA does not allow foreign motor carriers to 
transport domestic freight. Again, domestic freight is off-
limits to Mexican motor carriers.
    Another important requirement is that a foreign carrier 
operating in the United States must comply with all of the 
regulations and requirements that apply to U.S. carriers. We 
support this 100 percent. As it relates to the pilot--there are 
two issues that ATA and its members are following closely.
    Senator Murray. You have 1 minute.
    Mr. Worthington. First, we expect an opportunity soon to 
review the Mexican government's final application process. 
Second, we have expressed concern about the pilot's 6-month 
long lag time. We are seeking more information on both issues.

                           PREPARED STATEMENT

    To conclude, our expectation is that once the trucking 
provisions are implemented, over time we will begin to 
recognize the full benefits of increased trade amongst the 
NAFTA partners. With the pilot in place, we can focus our 
efforts on the many business and very practical issues that 
will arise from cross-border integration.
    Thank you for your attention.
    [The statement follows:]

           Prepared Statement of James P. (Phil) Worthington

                              INTRODUCTION

    Con-way Freight-Southern Inc. is part of the North American network 
of less-than-truckload (LTL) operations of Con-way, Inc. a market 
leader in the supply chain management industry. Con-way's principal 
component companies--Con-way Transportation Services, Menlo Worldwide 
and Road Systems, operate in regional trucking, ground expedite, 
truckload brokerage, air freight forwarding, regional asset based 
truckload, global logistics management, e-commerce fulfillment and 
trailer manufacturing.
    The Con-way name has been in the market for over 20 years, provides 
transportation services to some 400,000 customers, has over 440 North 
American service centers, and employs over 20,000 people. Con-way 
Freight Southern provides LTL freight services in 12 States in the 
southern United States, Puerto Rico, and Mexico.
    Con-way, Inc. is a member of American Trucking Associations, Inc. 
(ATA). These comments are made on behalf of ATA. With offices located 
at 2200 Mill Road, Alexandria, Virginia 22314-4677, ATA is the national 
trade association of the trucking industry. Through its affiliated 
trucking associations, and their over 30,000 motor carrier members, 
affiliated conferences, and other organizations, ATA represents every 
type and class of motor carrier in the country.

                               BACKGROUND

    The U.S. trucking industry has long viewed free trade as an 
important tool in improving our country's economic growth. Because of 
the North American Free Trade Agreement (NAFTA), trade between the 
United States and Mexico has grown by more than 400 percent from $81 
billion in 1993 to $336 billion in 2006. During the same period, trade 
with Canada has grown from $211 billion to $536 billion.\1\
---------------------------------------------------------------------------
    \1\ Source: International Trade Administration, U.S. Department of 
Commerce.
---------------------------------------------------------------------------
    Motor carriers play a critical role in the success of NAFTA. In 
2006, trucks transported $219.4 billion worth of goods, representing 
over 80 percent of the value of U.S.-Mexico surface trade. Trucks 
transported $314.2 billion worth of goods, or roughly 65 percent of 
U.S.-Canada surface trade by value.\2\ Trucking companies have 
benefited from the growing trade volumes among the NAFTA partners, 
considering that higher trade flows have resulted in more business for 
motor carriers in all three nations.
---------------------------------------------------------------------------
    \2\ Source: Bureau of Transportation Statistics, U.S. Department of 
Transportation.
---------------------------------------------------------------------------
    Based on these facts, ATA policy supports the implementation of the 
trucking provisions established under the North American Free Trade 
Agreement (NAFTA), both in the areas of investment and cross-border 
access.
    However, motor carries have not had an opportunity to seize NAFTA's 
full promise of improved transportation efficiencies to handle the 
increasing trade flows. Today, a shipment traveling from the United 
States to Mexico, or vice-versa, requires no less than three drivers 
and three tractors to perform a single international freight movement. 
Through interline partnerships, freight is handled on the U.S. side by 
a U.S. carrier and on the Mexican side by a Mexican carrier, with a 
``drayage'' truck transporting trailers and freight across the border. 
The drayage truck ferries loads back and forth across the border to 
warehouses or freight yards for pickup or subsequent final delivery.
    In addition to requiring two long-haul carriers and the drayage 
carrier, the process includes freight forwarders, customs brokers, as 
well as the processing by government inspectors and enforcement 
officials. This process results in extra trucks on the road, 
congestion, delays and ``over handling'' of shipments which invariably 
leads to increased costs. The U.S. Department of Transportation (USDOT) 
recently estimated that the present drayage system results in $400 
million in additional costs. ATA surmises that this figure was reached 
by multiplying the number of truck crossings taking place on the 
southern border by an estimated $100 dollar fee for the drayage 
operation. If this is correct, there are additional costs related to 
warehousing, delays, and other harder to quantify costs that were not 
likely included in that $400 million figure.
    The NAFTA trucking provisions were negotiated and established to 
eliminate this cumbersome and costly process for transporting cargo and 
trailers across the U.S. Mexico border, and establish a more seamless 
process such as we already have on the U.S.-Canada border.

                     IMPLEMENTATION OF NAFTA PILOT

    In general terms, ATA supports the pilot program announced by 
Secretary Mary Peters and her Mexican counterpart, Secretary Luis 
Tellez, to begin the process to allow motor carriers from both sides of 
the border to apply for operating authority to move cargo directly 
across the border. ATA believes that the USDOT has established a strong 
array of safety procedures to ensure that Mexican motor carriers 
operating under this pilot, and potentially beyond, are in compliance 
with all applicable U.S. regulatory requirements. This process and its 
capabilities has been verified by the USDOT Inspector General and 
certified by the Secretary of Transportation. These steps, mandated by 
Congress in 2001, include an array of documentation, inspections, 
certifications and audits that go well beyond any such requirements 
imposed on new entries into the U.S. trucking industry or of Canadian 
motor carries operating in the United States.
    ATA fully supports rigorous enforcement of all U.S. standards for 
all carriers operating in this country, be they U.S.- or foreign-based 
motor carriers. For the pilot, only Mexican carriers who successfully 
apply with USDOT, pass a comprehensive safety audit and demonstrate 
compliance with U.S. standards will be given temporary U.S. operating 
authority. Once they have successfully operated under their temporary 
authority, and had their vehicles inspected and drivers assessed every 
time they cross the border, Mexican motor carriers must successfully 
undergo and pass a safety compliance review to gain permanent operating 
authority.
    ATA believes that the process mandated by Congress, and as 
implemented by USDOT, will succeed in ensuring compliance by Mexican 
motor carriers with U.S. requirements.
    However, there are 2 concerns that ATA and its members have 
expressed in regards to the pilot program as announced on February 23:
  --ATA is unaware if Mexico's Secretaria de Comunicaciones y 
        Transportes (SCT) has finalized an application form for U.S. 
        motor carries to apply for operating authority to begin cross-
        border operations into Mexico; and,
  --ATA does not support the need for a 6-month delay in implementing 
        the pilot for U.S. motor carriers interested in operating into 
        Mexico.
    It is essential that SCT finalize and make available the 
application form and process for U.S. carriers to apply for operating 
authority in Mexico for cross-border operations, and that this form and 
process be clear and transparent.
    In relation to the 6-month delay, ATA believes that this interval 
should be eliminated so that U.S. motor carriers can process the 
application form with SCT and begin cross-border operations into Mexico 
at the same time as Mexican motor carriers begin to cross the border 
into the United States.

                               CONCLUSION

    Implementation of NAFTA's trucking provisions will eliminate a 
cumbersome, outdated and costly system of moving freight across the 
border, and replace it with an efficient, transparent and safe cross-
border trucking process. ATA does not expect the full implementation of 
NAFTA's trucking provisions to bring about revolutionary changes 
overnight in cross-border trucking operations. This change will be an 
evolutionary process, taking time for trucking companies and their 
customers to structure their operations in light of the new process. 
The NAFTA provisions are but a single component in the cross-border 
process that involves many other parties, such as freight forwarders, 
customs brokers, and government procedures and inspections that play a 
critical role in the transportation of cargo across the U.S.-Mexico 
border.
    ATA strongly believes that motor carriers operating in the United 
States, no matter what their nationality, must abide by U.S. safety 
standards. ATA is concerned that attacks on our Mexican counterparts 
are based on an incomplete understanding of motor carrier safety and 
prejudice towards Mexican carriers, instead of being based on hard 
facts related to safety. More importantly, ATA is also concerned with 
U.S. motor carriers being afforded a reasonable and transparent process 
by SCT to begin cross-border operations into Mexico. This process 
should be initiated on the same timeline as announced on February 23 
for Mexican motor carriers.
    ATA is committed to ensuring that cross-border trucking operations 
remain on a level playing field and that all motor carriers, 
notwithstanding their national origin, abide by all U.S. standards and 
requirements mandated for U.S. motor carriers. The bottom line is that 
every trucking company, every truck and every driver entering the 
United States will be required to meet each and every U.S. safety 
requirement only after undergoing a comprehensive review of their 
ability to meet those standards.
    In addition, it is essential to recognize and remember that NAFTA's 
access trucking provisions allow only for the transportation of 
international cargo by Mexican motor carriers operating in the United 
States. The transportation of domestic cargo is strictly prohibited.
    Once NAFTA's trucking provisions are fully implemented, our 
countries can begin to recognize the full benefits of NAFTA and 
increased trade between the United States and Mexico. Then, we can 
focus our efforts on the many business and practical issues that will 
arise from the cross-border integration process, which can only be 
tackled with the goodwill of committed trading partners.

    Senator Murray. Thank you, Mr. Worthington.
    Mr. Hoffa.

STATEMENT OF JAMES P. HOFFA, GENERAL PRESIDENT, 
            INTERNATIONAL BROTHERHOOD OF TEAMSTERS, 
            WASHINGTON, DC

    Mr. Hoffa. Madame Chairperson, Senator Bond, it's great to 
be here, and thank you for your invitation to speak, and give 
us our views.
    My name is Jim Hoffa, and I am General President of the 
International Brotherhood of Teamsters. Today, I appear before 
you on behalf of the 3 million members of the Teamsters Union, 
their families, and retirees.
    More than 600,000 of our members earn their living every 
day working on the American highways. Like every working 
American, they deserve safe American highways.
    First, I would be remiss if I didn't say thank you, to you 
and Senator Shelby for the great job that you did in 2001 when 
you passed the Murray-Shelby bill, because you pointed out all 
of the deficiencies with regard to the rush to judgment that 
happened back then to stop unsafe conditions, and identify 
unsafe conditions that existed between Mexico and the United 
States.
    I'm alarmed that the DOT is moving forward with this 
dangerous pilot program that leaves so many questions 
unanswered. I have outlined my questions and concern in my 
written testimony, which I would like to have be part of the 
record.
    I would like to point out that the Bush administration, I 
believe, is playing Russian Roulette with our national highway 
safety, and national security. The DOT does not really know 
what's going on with the thousands of trucks that are coming 
across the border. It's been identified that there are 5 
million trucks, in the testimony today, crossing the border. We 
know that very, very few of those are ever inspected. And now 
they want us to believe that they're going to inspect, you 
know, maybe 1,000 trucks that are going to come across the 
border.
    The Mexican government has had 15 years under NAFTA to 
address the issue of truck safety, and they have failed 
miserably. The have had 15 years to implement a computer 
system, which they still don't have. They have had 15 years to 
create driver training and safety programs, and they have not 
done that, in 15 years. They have had 15 years to create a 
driver protocol for drug testing and physicals, and we heard 
today that after 15 years, there isn't one lab in Mexico that 
can do the testing for drugs. I think that's just absolutely 
amazing.
    Mexican drivers are underpaid, untrained and overworked. 
They are often forced to work, and drive, 24 hours at a time 
without sleep. This is not the fault of the Mexican worker. The 
sole responsibility for meeting the standards required by NAFTA 
and Murray-Shelby, lie with the Mexican and U.S. governments.
    I'd like to tell the subcommittee what the Teamsters have 
learned about Mexican trucking. I provided, in earlier 
testimony, a copy of an investigative report that we 
commissioned when we had reporters go down to Mexico. I want to 
have that made part of the record.
    This is a story by investigative reporter, Charles Bowden 
who, in 1999, wrote a similar story about spending several 
weeks with Mexican truck drivers. In 1999, he told of 
exploited, exhausted Mexican truck drivers, pushed to the limit 
by their employer. And guess what? Seven years later, he found 
that nothing had changed.
    Let me read a few excerpts from the truckers, and what the 
interviews he did with many of the Mexican truckers. ``The 
longest distance I drive,'' said one driver, ``Is from Encenada 
to Cancun, 2,700 miles, 5 days and 6 nights. The company won't 
pay for a second driver.'' According to Bowden, they are all 
family men who run the highways at least 25 days a month, and 
they are adamant about two things. That nobody can make these 
long runs without cocaine and crystal meth, and then they use 
marijuana to come down from the high.
    One driver said, ``We make almost nothing. We make less 
than $300 a week. We work 48 hours, non-stop, and drive 1,500 
miles per trip, without a turnaround.'' According to Bowden, 
the drivers agree that the biggest problem in Mexico is the 
Mexican police. One driver said, ``If you drive to Mexico City, 
you're robbed, and you're robbed by the police.''
    These drivers are victims of a system that the United 
States will depend on to enforce drug and alcohol testing.
    Senator Murray. You have 1 minute remaining.
    Mr. Hoffa. And hours of service regulation, in this so-
called pilot program. What kind of confidence can we have in 
such a program?
    And, we don't really know who these drivers are--isn't it 
amazing that after 15 years, they don't have a computer system? 
And, we're also worried about the fact that they really don't 
need passports. If you and I want to go to Mexico, we have to 
carry a passport, if you want to go to Acapulco. Guess what? 
When they come over here, they just show a CDL, and we know you 
can get a CDL, they're a dime a dozen, anywhere you go in 
Mexico.
    And how will these drivers be tracked, once they're in the 
United States? If we don't have a computer system, how do we 
know who they are? How do we know what their record is? How do 
we know how many wrecks they have? Were they arrested for drunk 
driving? Did they have a fatal accident? There's absolutely no 
record with regard to who these people are, when they come over 
across the border, and yet they say, ``Trust us.''
    I don't think we should trust the administration with 
regard to the representations that we've heard here today.

                           PREPARED STATEMENT

    And, isn't it amazing that we remember, a short time ago, 
when Secretary Mineta said, ``Everything is fine on the 
border.'' The Inspector General went down there in 2005 from 
the DOT, and he found out that nothing was right, and that the 
Mexican trucks do not meet our standards. That was in 2005. Now 
they say, 2 years later, ``Everything's fixed.'' Well, that's 
really amazing.
    Senator Murray. Mr. Hoffa, unfortunately your time has 
expired, but we will, we do have your testimony, and we'll have 
an opportunity to ask questions as well.
    Mr. Hoffa. Okay.
    [The statement follows:]

                  Prepared Statement of James P. Hoffa

    Madam Chairwoman, Ranking Member Bond, and members of the 
subcommittee, my name is Jim Hoffa, General President of the 
International Brotherhood of Teamsters. I am here representing 1.4 
million Teamster members and their families who travel our Nation's 
highways every day. Over 600,000 of our members earn their livelihood 
driving on our roads and city streets delivering goods and services to 
the American public. They deserve a workplace as safe as any factory or 
construction worker, but I am fearful that this proposed pilot program 
to permit Mexican trucks to travel beyond the currently permitted 
commercial zones will put our members, their families and the traveling 
public in danger. This action is reminiscent of the Dubai Port debacle, 
where the Bush administration is willing to risk our national security 
by giving unfettered access to America's transportation infrastructure 
to foreign companies and their government sponsors and ignoring the 
safety and security of the American people.
    We have many questions about how this plan will be implemented to 
ensure the safety of our highways and protect our homeland security, 
and I will outline our concerns to you in my testimony that follows. 
However, before I do that, I would be remiss, Madam Chairwoman and 
Senator Shelby, if I did not take a minute to thank you both publicly 
for your work in passing the Murray-Shelby safety provisions back in 
2001 that put the spotlight on the lack of safety measures on both 
sides of the border that existed at the time. I realize that some 
progress has been made in the requirements outlined in your 
legislation, but I am alarmed that the Department of Transportation 
(DOT) is moving forward with a pilot program when so many questions 
remained unanswered.
    My first concern is the mystery and contradiction surrounding this 
pilot program. Secretary Peters was asked at her confirmation hearing 
about it and said she ``had asked the question and there are no 
immediate plans to do so.'' The Secretary went on to say ``. . . and if 
confirmed, would look forward to getting to the bottom of the so-called 
rumors in addressing the issue.'' This contradicts DOT's own fact sheet 
(Cross Border Truck Safety Inspection Program) on its website which 
states that following the U.S. Supreme Court's decision in 2004 to 
reverse the U.S. Ninth Circuit Court of Appeals ruling that barred 
implementation of the NAFTA treaty's trucking provision, and I quote, 
``USDOT began working immediately with its Mexican counterparts to 
develop a NAFTA trucking pilot program.'' So essentially, this pilot 
program has been in the works since 2004, but apparently Secretary 
Peters was not briefed about it before her confirmation hearing.
    I also believe there is reason to question whether this pilot 
program conforms to all of the requirements of section 350 of the 2002 
Transportation Appropriations Act (Public Law 107-87), whether there is 
statutory authority to actually initiate a pilot program for Mexican 
trucks, and whether this is indeed a true pilot program. The statutory 
language of section 350 is very clear there are 12 requirements that 
DOT must comply with, and 8 additional obligations that DOT's Inspector 
General must verify. While DOT may argue that it has complied with its 
12 requirements, the recent Briefing to Congressional Staff on Audit 
Work Regarding Implementation of the North American Free Trade 
Agreement's NAFTA Cross Border Trucking Provisions (March 1, 2007) by 
the IG cites 2 issues, requirements for monitoring Mexican drivers and 
conducting bus inspections, where additional improvements are needed. 
While buses are not part of the pilot program, the fact that the 
statute requires the IG to verify these requirements before ``any 
vehicle owned or leased by a Mexican motor carrier may be permitted to 
operate beyond United States municipalities and commercial zones'' begs 
the question as to whether the DOT has acted prematurely and without 
proper authority to conduct this pilot program.
    With regard to the pilot program itself, my guess is that the DOT 
will select the ``cream of the crop'' of Mexican carriers, whether they 
be large or small, to slant the data on violations, crashes and other 
compliance issues and proclaim the program successful, wherein, it will 
announce a full blown opening of the border at the end of the 1-year 
period. What criteria will be used to disqualify a carrier from the 
program? How will data be gathered on carriers and drivers 
participating in the program? This type of sham program does not serve 
the interests of highway safety and should be outright rejected from 
the start. Furthermore, to conform to section 4007 of TEA-21 true pilot 
programs are required to be noticed in the Federal Register for review 
and comment by stakeholders and the public. What is DOT's justification 
for not following this process? It's certainly not coincidental that 
the announcement of this program was made late on a Friday afternoon, 
during a Congressional recess.
    While DOT has laid out an impressive public relations campaign to 
assure the American public that Mexican trucks and drivers will meet 
all U.S. safety requirements, there will be no ``meeting'' of those 
requirements without adequate enforcement and oversight, and this is 
where I am convinced that neither the United States nor the Mexican 
governments have the resources to carry out an aggressive oversight and 
enforcement program. Let me tell this subcommittee what the Teamsters 
Union has learned about the current state of the Mexican trucking 
industry. If you have not had the opportunity to read an investigative 
report, ``Holding the Line'' that appeared in our August 2006 Teamster 
magazine I suggest that you do so. Madam Chairwoman, I would request 
that this article be made part of the hearing record. This is a story 
by investigative reporter, Charles Bowden, who in 1999 wrote a similar 
story after spending several weeks with Mexican drivers. Back then he 
told of exploited, exhausted Mexican truck drivers, pushed to the limit 
by their employers. And guess what, 7 years later, he found nothing had 
changed. He found the same conditions within the industry in 2006 that 
existed in 1999. Let me read you a few excerpts from truckers who were 
interviewed by Mr. Bowden:

    `` `The longest distance I drive,' said a driver about 30 in a 
black T-shirt, `is from Ensenada to Cancun, 4,500 kilometers. Five days 
and six nights alone. Tomatoes. The company won't pay for a second 
driver.' Ah, but how can a man stay awake and drive for five straight 
days? The table erupts in laughter. The man facing the empty liter of 
beer smiles and says `Professional secret.' The younger man in the 
black T-shirt offers one phrase, `Magic dust.' There are more smiles 
and mention of `special chemicals.' They are all family men who run the 
highways at least 25 days a month and they are adamant about two 
things--that nobody can run these long hauls without cocaine and 
crystal meth, and now and then some marijuana to level out the rush.
    ``The man with the empty beer explains. `We make almost nothing--
less than $300 a week. I work 48 hours non-stop. I drive 2,400 
kilometers per trip and get no time for turnarounds.'
    ``And every man at the table agrees on their biggest problem--the 
government. And by that they mean the police, especially the federal 
police, who they say rob them at will. One said, `If you drive to 
Mexico City, you are robbed, for sure. Police are the first to rob you. 
If you report a robbery, the police try to make you the guilty person.' 
''

    These drivers are victims--victims of a system that we, the United 
States, will depend on to enforce drug and alcohol testing and hours-
of-service regulations of drivers in this pilot program. What kind of 
confidence level does this give you?
    I thought it important that the subcommittee hear these stories 
because I want to talk further about hours-of-service enforcement and 
drug and alcohol testing. Again, without sufficient enforcement on the 
Mexican side of the border that establishes a strong no-tolerance 
policy, Mexican truck drivers will arrive at the U.S. border without 
the benefit of government and industry practices that deter this kind 
of behavior.
    Let's peel back the layers a bit--first on hours-of-service. As I 
understand it, there has not been any real enforcement of any hours-of-
service (HOS) regulations in Mexico, beyond the recent requirement of 
drivers having to carry log books, and those participating in the pilot 
program, having to produce a record-of-duty-status (RODS) at the border 
for the last 8 days of work. Apparently there is a general prohibition 
against working more than 8 hours a day, which I am told is ignored in 
most cases because it is not enforced. In fact, according to the 
Federal Motor Carrier Safety Administration, more than 15 percent of 
Mexican drivers in the commercial zone were placed out of service for 
not having a paper logbook to record their hours worked. To think then 
that all of a sudden, these Mexican drivers will change their habits 
overnight and adhere to U.S. HOS requirements when they cross the 
border is a leap of faith that does not give me great comfort for the 
safety of those motorists that will share the road with these 
potentially fatigued drivers. I have no confidence that the 8-day 
logbook that the Mexican driver produces at the border crossing will be 
indicative of his driving record for those past 8 days, primarily 
because there will be no rigorous enforcement of HOS on the Mexican 
side of the border. You can demand all the paper records you want, but 
without enforcement those records are suspect.
    The requirement of a drug and alcohol-testing program for Mexican 
drivers is of course necessary, but the need for carriers to simply 
provide proof that the drug and alcohol testing programs are in 
compliance with U.S. requirements is not enough. Aside from ``paper'' 
programs, I fail to see an effective way for the FMCSA to ensure 
compliance. To comply with U.S. standards, there needs to be 
scientifically valid random testing; a chain of custody; trained 
collectors and requirements for collection facilities; requirements for 
collection kits; and use of the same technology for testing, including 
two-part testing. When a U.S. driver tests positive, the driver has to 
attend and complete an education program and/or rehabilitation, and 
have a post treatment evaluation by a substance abuse professional. The 
driver must then have a return-to-duty test before returning to work. 
He can be subject to unannounced follow-up tests for 1 year to 5 years. 
Can we be assured that this is the type of program that the Mexican DOT 
will implement?
    What happens to a Mexican driver who may test positive in a post-
accident testing scenario in the United States? I know he is taken out 
of service, but if he's in Illinois, for example, how does he get back 
to Mexico? What happens to the load? What happens in a situation where 
a Mexican driver is in the United States for an extended period of 
time, but is selected for random drug testing? How will a driver be 
notified in the United States? Will the carrier simply wait until the 
driver returns to his/her domicile (wherever that may be)? What happens 
if the driver returns after the testing cycle has expired? It may 
create an opportunity for these drivers to fall through the cracks and 
virtually never be tested. What happens if a carrier is found to be 
liable in a crash? Do U.S. legal remedies apply? These are questions 
that must be answered before any Mexican trucks are permitted to travel 
beyond the commercial zones.
    Another area of concern is driver compliance with medical 
qualifications. In FMCSA's recent Notice of Proposed Rulemaking for 
combining the medical qualifications with the Commercial Drivers 
License (CDL) process, the FMCSA indicated that there is no agreement 
between the United States and Mexico concerning the medical 
qualifications for drivers, although such an agreement exists between 
the United States and Canada. While the United States and Mexico signed 
a Memorandum of Understanding that recognized the Licencia Federal de 
Conductor to be equivalent to the U.S. CDL, there is little known about 
the physical and medical criteria used to qualify truck drivers in 
Mexico. We need to know how their system of evaluating drivers stacks 
up to ours.
    The DOT Inspector General, in its recent congressional briefing on 
the pilot program, indicated that FMCSA should correct inconsistencies 
or reporting problems in the border States. FMCSA reported that it had 
taken action to see that Texas eliminated a backlog of Mexican 
commercial driver license tickets that had not been entered into the 
database. FMCSA stated the other border States needed to take 
corrective action as well, and the FMCSA was encouraged to proactively 
monitor future reporting by the States. This leads to another issue 
that needs examination. Under the Motor Carrier Safety Improvement Act 
of 1999, U.S. drivers are subject to CDL disqualification for certain 
serious driving violations occurring in their personal vehicle. At the 
time the implementing regulations took effect, the International 
Brotherhood of Teamsters argued that in fairness, this same regulatory 
scheme should apply to Mexican drivers operating in the United States. 
The FMCSA dismissed our suggestion, but this situation creates a severe 
gap in equal treatment of drivers and could allow Mexican drivers, with 
what would be disqualifying offenses that sideline U.S. drivers, to 
operate in the United States.
    This issue of accuracy and population of the Mexican driver 
database is a great concern, and perhaps can be best illustrated in 
light of the decision that the Transportation Security Administration 
took with regard to the Mexican criminal data base in issuing 
regulations to administer the Free and Secure Trade (FAST) commercial 
driver card. The subcommittee should know that when asked by 
congressional staff how it would perform criminal background checks on 
Mexican drivers who haul hazardous materials into the United States, 
the TSA responded that it would check Mexican drivers against the U.S. 
criminal database. When asked why, the agency responded that the 
Mexican criminal database was incomplete and not easily accessible. How 
confident can we be in safety data of Mexican carriers and drivers, if 
the Mexican government's criminal database is suspect? I would venture 
to guess that hazardous materials transport was not included in this 
pilot program because of the questions it would raise with regard to 
the Mexican driver background check. How can checking a foreign driver 
against another country's criminal database provide a similar 
background check, as the law requires?
    While the transport of hazardous materials is not to be a part of 
this program, the Teamsters Union still has enforcement concerns in 
this area. It has been well documented that hazmat loads from Mexico 
crossing into the commercial zones have not been properly placarded 
(not reflective of the hazmat contained in the load) or placarded at 
all. What assurances do we have that trailers carrying hazmat will be 
stopped inside the commercial zones?
    Other homeland security issues need to be examined as well. Will 
Mexican drivers be subject to threat assessments against the terrorist 
watch lists? The DOT's website has a list entitled U.S. Safety and 
Security Requirements Await Trucks From Mexico. It states, ``all trucks 
and drivers entering the United States are screened by U.S. Customs and 
Border Protection Officers, which could include radiation portal 
monitoring and X-ray inspections of high risk cargo''. What does 
``could,'' mean in terms of the frequency rate of monitoring for 
radiation and X-ray inspections? What does it mean that drivers must 
meet immigration entry requirements? Since 9/11, we have strengthened 
our borders to protect our country against terrorism threats. While I 
do not consider Mexican drivers a terrorism threat, I am fearful that 
their trucks could be used to carry weapons of mass destruction or be 
used by terrorists as a means to sneak into this country and do us 
harm.
    I am very concerned that local and State law enforcement will not 
have sufficient information or the resources to monitor and properly 
enforce this pilot program. The decal/registration number system that 
is proposed will apparently assign a different letter to those trucks 
permitted to operate in the commercial zones and those enrolled in the 
pilot program that can travel anywhere in the Unites States. We are 
apparently relying heavily on State and local law enforcement to keep 
watch over a vast expanse of territory and prevent those trucks 
authorized to operate only in the commercial zones from entering other 
parts of this country.
    Finally, there will be a strong temptation by unscrupulous 
employers to capitalize on lower wage Mexican drivers and entice them 
into carrying domestic cargo in the United States. We know that this 
occurs now, as Mexican trucks have been caught over the years operating 
illegally in more than 25 States. Who will enforce our cabotage laws to 
prevent point-to-point movement of cargo within the United States? What 
happens if this occurs and a Mexican carrier is caught? Will the truck 
and cargo be seized? What happens to the driver? And is this a basis 
for disqualification from the pilot program?
    Madam Chairwoman and members of the subcommittee, I have asked a 
lot of questions in my testimony and raised a number of issues that 
need to be addressed before any Mexican truck participates in any 
program that allows them to travel beyond the commercial zones. I would 
ask that you not permit this program to move forward. There are too 
many safety and homeland security issues that must be resolved before 
we can be assured that Mexican trucks and their drivers meet all U.S. 
safety requirements and that all of our national security concerns are 
addressed as well. I thank you for the opportunity to testify here 
today on this important issue, and I look forward to answering any 
questions you may have.


            Attachment.--The NAFTA Trucker--Holding The Line
                          (by Charles Bowden)
Investigative Reporter Charles Bowden's Story in the November 1999 
        Issue of The Teamster Told of Exploited, Exhausted, Unsafe 
        Mexican Truck Drivers--Seven Years Later, Nothing has Changed
    There is a plan no one talks about very much, one that floats over 
the horizon like an approaching storm at sea. In this business dream, 
the Pacific ports of the United States will be shifted south to new 
massive anchorages in Mexico even though this increases the shipping 
distance by 30 percent for all the Asian tonnage. These new ports will 
be linked by major train and truck arteries--NAFTA Corridors--to the 
cities of the United States and Canada. Mexican trucking companies will 
be bought (and are being bought up now) by American firms and Mexican 
truckers will deliver the freight and freely drive all U.S. highways. 
In this plan, the shipping of the United States leaves union ports and 
the long haul trucking leaves union drivers.
    An enlarged I-35 will reach north from the sister cities of Laredo/
Nuevo Laredo 1,600 miles to Canada via San Antonio, Austin, Dallas/Ft. 
Worth, Kansas City, the Twin Cities and Duluth and I-69 will originate 
at the same crossing and streak north to Michigan. Each corridor will 
be about 1,200 feet wide. Six lanes will be dedicated to cars, four to 
trucks and in the middle will be rail and utilities. The goods will 
come from new Mexican ports on the Pacific coast. At the moment, at 
least five such corridors are on the drawing boards.
    This is the story of some of the drivers who will be used by this 
plan. They know nothing of this scheme. They are too busy simply 
surviving to study such matters.

    ``I stand in front of the yard of Trans Mex Swift, an American 
owned Mexican trucking company. The traffic of the World Trade Bridge 
roars past. In less than an hour, four truck tires explode. Mexican 
truckers are not coddled with good rigs or good tires. One semi pulls 
over. Both tires on the left rear back axle are gone and the trucker 
stares at rims resting on the pavement. One tire, he explains, went 
about 150 miles ago, but he had no money with which to buy another one. 
Now both are gone.''

                          PROFESSIONAL SECRETS

    The five men sit at the truck stop table about 20 kilometers below 
the Rio Grande at Laredo-Nuevo Laredo on the Texas border. They, or 
their sons or grandsons, may someday be shock troops on the NAFTA 
Corridors. Just a few hundred yards from where the men eat and smoke, 
the major highway coming from the Mexican south forks. One road leads 
into Nuevo Laredo, the other arcs west and connects just west of the 
city with a trucking center on the U.S. side by means of the World 
Trade Bridge. This new bridge and dedicated truck highway is an early 
link in this NAFTA Corridor. At the moment, 5,800 trucks enter and 
leave this border crossing each day, a trickle compared to the traffic 
that will pour north once the new ports, rails and roads come on line 
by 2025. Their small lunch is finished, an empty liter of beer stands 
before one driver, and at the moment, they smoke and laugh and talk. 
For a Mexican trucker, life is an endless highway and the moments for 
conversation and fellowship can be few and far between. They don't want 
their names used because they don't want trouble and life on the roads 
of Mexico is trouble enough.

    ``The longest distance I drive,'' said a driver about 30 in a black 
T-shirt, ``is from Ensenada to Cancun, 4,500 kilometers. Five days and 
six nights alone. Tomatoes. The company won't pay for a second 
driver.''

    Ah, but how can a man stay awake and drive for five straight days?
    The table erupts in laughter. The man facing the empty liter of 
beer smiles and says, ``Professional secret.''
    The younger man in the black T-shirt offers one phrase, ``Magic 
dust.'' There are more smiles and mention of ``special chemicals.''
    And then they are off, a torrent of words and quips and smiles, and 
a knowing discussion of that jolt when a line of cocaine locks in. They 
are all family men who run the highways at least 25 days a month and 
they are adamant about 2 things--that nobody can run these long hauls 
without cocaine and crystal meth, and now and then some marijuana to 
level out the rush. And that the biggest danger on their endless runs 
comes from addicted Mexican truck drivers, which means all truck 
drivers.

                           DANGEROUS DRIVERS

    The men earn about $1,100 a month. In Mexico, the cost of living is 
roughly 80 or 90 percent that of the U.S. The only real bargain in 
Mexico is labor. Many other items cost more than the U.S.--the 
telephone rates are among the highest in the world and a sack of cement 
or a board foot of lumber costs more than in any American town.
    None of the drivers at the table has driven in the United States 
save for short crossings where they dump the load and instantly return 
on special routes like the World Trade Bridge. The man with the empty 
beer explains ``We make almost nothing--less than $300 a week. I work 
48 hours non-stop. I drive 2,400 kilometers per trip and get no time 
for turnarounds.''
    And every man at the table agrees on their biggest problem--the 
government. And by that they mean the police, especially federal, who 
rob them at will.

    ``If you drive to Mexico City,'' another driver adds, ``you are 
robbed, for sure. Police are the first to rob you. If you report a 
robbery, the police try to make you the guilty person.''

    And now the table is rolling, about the bad equipment they are 
given, about the fact that the owners often stall them on payment, 
about how there is no escape from the job, that they all know drivers 
who are still out there on long hauls at 70, how they have all been 
robbed and hijacked, have all killed people with their trucks and, 
given the nature of Mexican police, have all fled such accident sites, 
that they are all doomed to spend their lives on an asphalt treadmill. 
And so they take pride, enormous pride, in the fact that they can 
survive the life that has been dealt them.

                          ``DUST IN THE AIR''

    The basic Mexican trucker is living the life that American truckers 
once tasted before the Teamsters fashioned over-the-road contracts. 
There are warm moments in this life. Women.
    The men talk with smiles of cachimbas, which means fireplaces. In 
earlier days on the road, there would be wooden shacks with fires 
going, roadside brothels. Mexico now has four-lane roads for many truck 
routes and stouter buildings, but the term cachimba has stuck for truck 
stops where women and drugs are freely available.
    One man says, ``Don't print that. If you do, all those American 
truckers will want to drive down here.''
    A woman costs about $20 and drugs are like dust in the air. A 
Mexican trucker can get anything at a cachimba but decent food. They 
all agree that the most beautiful women are on the West Coast route 
that snakes through the narco state of Sinaloa.
    For a moment, the men are all smiles and then this moment passes.

    ``The worst thing,''one says with some bitterness, ``is not being 
home. We all have two or three Sanchos,'' meaning strangers who sleep 
with their wives when they are gone.

                            NO SLEEP AT ALL

    Francisco Samuel Angiana is around 40 years old and he is out of 
sorts as he lingers at a truck stop in Santa Ana, Sonora, about 60 
miles south of the Nogales, Arizona crossing. This is yet another NAFTA 
corridor, a sketch on some future map that will eventually be the route 
for torrents of Mexican truckers moving freight from the planned 
Mexican ports.
    He was robbed the night before at a truck stop in Caborca, a narco 
town on the Mexican federal highway that links Baja, California with 
the Mexican mainland. He points to the hole in his dashboard where his 
CB radio and regular radio once rested. He is on his basic run from 
Tijuana to Mexico City. Normally, he is allowed 72 hours for this 
route, but sometimes he does the express run of 48 hours and then he 
gets no sleep at all. ``I have 20 years experience,`` he adds, ``Here 
you make the rules and take a lot of amphetamines.''
    But he tries to live cleanly and so he personally uses massive 
vitamin doses and various power drinks of caffeine and herbs to keep 
him rolling. A crucified Christ hangs in one corner of his cab and when 
he drives he stares at portraits of his wife and three children to keep 
him moving. On the seat beside him is a laptop computer--he is 
constantly monitored by GPS and he is never told what his cargo is for 
security reasons. He drives at least a 130,000 miles a year, is almost 
never home and earns maybe $1,100 a month. And he is very intelligent 
and once planned to be a lawyer before the reality of the Mexican 
economy put him behind the wheel of a semi.

                            PAWNS IN A GAME

    He has been robbed before and tries to be ready for such moments. 
He hauls out a small baseball bat, and his knife. He demonstrates how 
he can do a karate kick to the head while seated behind his steering 
wheel. He is a small man in jeans, blue shirt and cowboy boots and he 
repeatedly shows me this practiced kick to within an inch of my head. 
Then he brings out his infrared binoculars. At night they prove useful, 
he explains. He can see lights ahead, stare out through them, and if he 
sees a federal police roadblock, then he pulls over and tries to find a 
way around the cops lest they also rob him. He also carries two sets of 
identification because you never really know who you are dealing with 
out there on the road. He's been hijacked twice. He points to the 
photographs of his family and says, ``They give me the energy to keep 
going. If you are alone, no one helps you. It is you and your truck.''
    He adds softly, ``The hardest part of my job is staying alive.''
    He has never heard of the Teamsters Union. But he has a brother in 
the United States who drives a truck for Wells Fargo. ``He is 
constantly telling me to come to the U.S.,'' Francisco says, ``That you 
only have to work certain hours there.''
    But he stays in Mexico.
    Francisco is a proud man all but killing himself on Mexican roads. 
Now he faces a 1,000-mile leg to Mexico City without the security of 
his CB. He will drive a gauntlet of Mexican cops and bandits. He'll 
make his haul, have a few brief moments with his family, and then 
return to the road.
    He keeps a gallon of water and a liter of apple juice on the floor 
where he can reach them. He will never stop rolling until he dies. It 
is very hard to see him and the other truckers as the enemy. They are 
pawns in a game that has never been explained to them.
    As the truckers in Nuevo Laredo explain their lives to me, lives 
typical of Mexican truckers like Francisco, a demonstration of 3,000 
drivers takes place at the World Trade Bridge. The truckers protest the 
90-minute wait they face to cross the bridge, a delay that cuts into 
their earnings since they are not paid by the hour. No one at the table 
mentions this since no one at the table believes anything will ever get 
better.

                              LA SANTISIMA

    I stand in front of the yard of Trans Mex Swift, an American-owned 
Mexican trucking company. The traffic of the World Trade Bridge roars 
past. In less than an hour, four truck tires explode. Mexican truckers 
are not coddled with good rigs or good tires. One semi pulls over. Both 
tires on the left rear back axle are gone and the trucker stares at 
rims resting on the pavement. One tire, he explains, went about 150 
miles ago, but he had no money with which to buy another one. Now both 
are gone.
    Politicians, unions and lobbyists will sort out what to do about 
Mexican truckers coming north. But here on the actual ground, the 
truckers have sought their own relief. All over the country, a strange 
figure has appeared in the last 5 years or so, La Santisima Muerte, 
Most Holy Death. She is skeletal, wears a long robe, carries a scythe 
and holds the whole world in her hand. She is recognized by no church 
or government. But she is known to all who move down these roads.
    At the cloverleaf where the truck traffic spins off the I-35 
corridor to the World Trade Bridge, a small tin structure the size of a 
doll house appeared 5 years ago. Now three large chapels have come out 
of the ground and in front of them are two statues of the La Santisima 
seven or eight feet tall. Semis constantly pull over, engines idling, 
and the truckers walk to the statues and pray. They leave candy bars, 
fruits, small coins and burning cigarettes. They ask La Santisima to 
spare their lives, to protect them on the dangerous roads, to bring 
them home to their women and children. They speak softly with that 
careful voice of reverence normally heard only in churches.
    If the free-trade bureaucrats have their way, Mexican truckers will 
come north and they will be overworked and underpaid and pushed almost 
beyond human endurance.
    Right now, La Santisima is the only one watching out for them.
    That will have to change or nothing will change at all.

                       FIGHTING FOR SAFE BORDERS

    The Teamsters Union continues to be the major advocate supporting 
regulatory action and legislative initiatives to ensure that only those 
foreign trucks that meet all U.S. vehicle safety and emissions 
standards be permitted access to our Nation's highways. The lack of an 
adequate drug and alcohol testing program, the inability of DOT safety 
inspectors to have access to Mexican facilities to conduct safety 
fitness reviews, the fact that hours-of-service and logbook regulations 
are not enforced, are just some of the vehicle and driver standards 
that need to be addressed before Mexican trucks are permitted to travel 
beyond the commercial border zones.

                       FALSE PROMISES, LOST JOBS

The Legacy of the North American Free Trade Agreement
    When Congress was debating the North American Free Trade Agreement 
(NAFTA) in 1993, supporters of the trade pact swarmed to Capitol Hill 
promising job growth and an economic boon for U.S. workers. However, 
more than a decade of statistics has proven what the Teamsters and 
other opponents said at the time--that NAFTA would prove a disaster for 
working families everywhere.
    While the pro-NAFTA crowd promised that the trade deal would create 
170,000 jobs annually, the U.S. has lost 3 million jobs in 
manufacturing alone since its passage--one in six jobs in that sector. 
According to the government's own program to track workers who lose 
their jobs as a direct result of NAFTA, more than a half million 
Americans were put out of work specifically due to that trade deal.
            Trade Deficit
    Flowery predictions about increased trade surpluses for the United 
States have also wilted over time. NAFTA supporters claimed that the 
deal would create a $9 billion trade surplus with Mexico within 2 
years. However, the United States actually built a $15 billion trade 
deficit with Mexico in that time period--a figure that has more than 
doubled in ensuing years.

    ``If there's a positive side to the disastrous legacy of NAFTA, 
it's that it has made it a little harder for the free trade cabal to 
wrap their lies around subsequent job-killing deals,'' said Jim Hoffa, 
Teamsters General President. ``While the House and Senate still have a 
majority who continue to support the free trade agenda, their ranks 
have shrunk over the years--sometimes due to members of Congress 
changing their minds and sometimes due to voters changing their member 
of Congress.''

                      THE MURRAY-SHELBY AMENDMENT

Bipartisan Measure Has Protected U.S. Highways
    Five years ago, the International Brotherhood of Teamsters lobbied 
for and passed legislation in Congress to protect U.S. drivers and the 
traveling public from unsafe Mexican trucks. The measure, known as the 
Murray-Shelby Amendment, was introduced by the bipartisan team of Sen. 
Patty Murray (D-WA) and Sen. Richard Shelby (R-AL). After much debate, 
the Senate voted that summer to include the language in the annual 
appropriations bill for the Department of Transportation.

    ``The provisions on Mexican trucks contained in this bill is a 
common-sense compromise between the laissez-faire approach of the 
administration to let Mexican trucks in and check them later, and the 
strict-protectionist approach of the House to keep Mexican trucks out 
and not check them at all,'' Sen. Murray said after the vote. ``This 
bill is neither protectionist nor discriminatory, as some Senators have 
desperately claimed.''

    Earlier in 2001, the Bush administration had called for the opening 
of the U.S.-Mexican border under the rules of the North American Free 
Trade Agreement (NAFTA). However, the Murray-Shelby Amendment 
established a series of requirements that the Department of 
Transportation (DOT) must meet in order to ensure thorough inspection 
and regulation of Mexican trucking companies. Until DOT is able to 
prove that it has complied no funds can be spent to certify Mexican 
carriers to operate in the United States.

    Senator Murray. But thank you very much. Appreciate it.
    Mr. Hoffa. Thank you.
    Senator Murray. Mr. Ficker.

STATEMENT OF JOHN B. FICKER, PRESIDENT AND CEO, 
            NATIONAL INDUSTRIAL TRANSPORTATION LEAGUE, 
            ARLINGTON, VIRGINIA
    Mr. Ficker. Good morning, Madame Chairman, Senator Bond, 
it's a pleasure to be here this morning, I appreciate the 
opportunity to testify.
    My name is John Ficker, and I currently have the 
opportunity, and privilege of serving as President and CEO of 
the National Industrial Transportation League. I've served in 
this position since September 2003, and in total, I spent 36 
years in transportation industry, and have worked for both 
carriers and shippers, and I've worked with carriers in the 
United States, Canada and Mexico.
    Prior to my current position, I was employed in your State, 
home State, the Weyerhaeuser Company at Feder Way for 17 years. 
I appreciate the opportunity to be here this morning.
    Just a brief background on the National Industrial 
Transportation League. We are a 100-year-old freight 
association that's been representing those who move commerce in 
this country and around the world, since 1907. Our 600-plus 
members range from some of the largest companies in the United 
States, to many of the smaller enterprises. Our members are the 
primary companies that move the products throughout our 
country's transportation system, and are engaged in the 
movement of goods, both domestically and internationally.
    League members ship their products by all modes of 
transportation--air, ocean, domestic waterways, rail and 
highway. Many League members have active movements between the 
United States and Mexico. Additionally, League members are 
concerned about the growing volumes of freight to be moved, and 
the adequate capacity to move those goods to meet the needs of 
our economy.
    This morning I'd like to make several points, and move on 
for questions at a later point. As we all know, the United 
States has a significant trade with Mexico--estimates range up 
to $200 billion a day, and the safe and efficient movement of 
this commerce is essential to the growing economies of both of 
our countries.
    The United States is a party to the North American Free 
Trade Agreement, and we should honor the commitments made in 
that agreement, including transportation. It's projected by a 
number of groups, including the American Association of State 
Highway and Transportation Officials, as well as the American 
Trucking Association and DOT, that freight volumes will as much 
as double in the next two decades.
    Much of this growth will be imported goods, both from 
offshore and Mexico. Meeting this need will require a 
significant growth in our current transportation industry. 
Effectively utilizing transportation assets of both countries 
will be a component of meeting those projected growth.
    The current system of trans-loading trucks, as has been 
talked about several times this morning, at the border, is both 
inefficient, uneconomical for all parties. This proposed pilot 
will be an important step toward improvement in these important 
supply chains, by eliminating outdated processes.
    According to the Department of Transportation and the 
Inspector General the Department has met the needs mandated by 
Congress to allow safe Mexican trucking companies access to the 
United States markets. These requirements are as stringent as 
those applied to U.S. trucking companies.
    I'm pleased to also hear this morning, the partnership 
between DHS Customs and Border Protection, and DOT, as a method 
to ensure not only the safety, but the security of the trucks 
that would be entering the United States.
    I have personally had the opportunity to meet with and 
negotiate with several Mexican truckers while I was in a 
previous position, and I can attest to you personally, that the 
companies that I met with were as safe and as professional as 
any American company that I've dealt with.

                           PREPARED STATEMENT

    Finally, we believe that the proposed pilot is in the best 
interest of ensuring safe and efficient transportation system 
to meet the projected growth of freight movements in our 
country, and in North America in general, and it should be 
allowed to proceed and go forward. There is nothing more 
important to the business community that I have the opportunity 
to work with then safety. It is No. 1, will always be No. 1, it 
is good business, and makes good sense.
    Thank you for the opportunity to testify this morning, and 
I look forward to you questions.
    [The statement follows:]

                  Prepared Statement of John B. Ficker

    The National Industrial Transportation League is pleased to have 
been invited to present testimony on cross-border trucking with Mexico. 
The League, which is celebrating its 100th anniversary this year, is 
the Nation's oldest and largest association of companies interested in 
transportation. Its 600+ members range from some of the largest 
companies in the Nation to much smaller enterprises. Our members are 
primarily companies that move their products through our country's 
transportation network and are engaged in the movement of goods both 
domestically and internationally. League members ship their products 
via all modes of transportation including air, ocean, domestic 
waterways rail and highway. Many League members have active movements 
between the United States and Mexico. Additionally, League members also 
are concerned with the issue of dealing with growing volumes of freight 
to be moved and having adequate capacity to move those goods to meet 
the needs of our economy.
    My name is John B. Ficker and I currently serve as President and 
CEO of The National Industrial Transportation League. I have served in 
this capacity since September 2003. In total, I have over 36 years 
experience in the freight transportation industry having worked for 
both carriers and shippers. Prior to my current position, I was 
employed by Weyerhaeuser Company in Federal Way, Washington. I 
appreciate the opportunity to share our views on the subject of Mexican 
trucking companies being allowed limited operations in the United 
States.
    I would like to make several important points:
  --The United States has very significant trade with Mexico--estimates 
        range up to $2 billion per day. The safe and efficient movement 
        of this commerce is essential to the growing economies of both 
        countries.
  --The United States is a party to the North American Free Trade 
        Agreement and we should honor the commitments made in that 
        agreement including transportation.
  --It is projected that U.S. freight volumes will experience up to 100 
        percent growth over the next 2 decades. Much of this growth 
        will be in imported goods both from off shore and from Mexico. 
        Meeting this need will require significant growth in the 
        current transportation industry. Effectively utilizing the 
        transportation assets of both countries will be a component in 
        meeting these growth projections.
  --The current system of trans-loading trucks at the border is both 
        inefficient and uneconomical for all parties. This proposed 
        pilot will be an important step to the improvement in these 
        important supply chains by eliminating this outdated process.
  --According to the Department of Transportation and its Inspector 
        General, the Department has met all the mandated Congressional 
        requirements to allow safe Mexican trucking companies access to 
        U.S. markets. These requirements are as stringent as those 
        applied to U.S.-based trucking companies.
  --I have had the opportunity to meet with and negotiate with several 
        Mexican trucking companies in a previous position and I can 
        attest that the companies I met with were as safe and 
        professional as American trucking companies.
    We believe the proposed pilot is in the best interest of insuring a 
safe and efficient transportation system to meet the projected growth 
in freight movement and it should go forward.
    Thank you for permitting us to testify before you today and we 
appreciate the opportunity to share our views on this important 
subject.

    Senator Murray. Thank you very much, Mr. Ficker.
    Mr. Parfrey.

STATEMENT OF CHARLES PARFREY, MEMBER, BOARD OF 
            DIRECTORS, OWNER-OPERATOR INDEPENDENT 
            DRIVERS ASSOCIATION, GRAIN VALLEY, MISSOURI
    Mr. Parfrey. Good morning, Chairwoman Murray, Senator Bond, 
and members of the committee. My name is Charlie Parfrey, I am 
president and COO of Parfrey Trucking Brokerage in Spokane, 
Washington. I also serve on the Board of Directors of Owner-
Operator Independent Driver Association, and it is my privilege 
to be here today to represent members of OOIDA.
    I have personally been involved in the trucking industry 
for more than 23 years. The first 10 of those years as an 
owner-operator, owning my own truck, driving my own truck, and 
running my business on the road. Small businesses, such as mine 
and others, and those represented by OOIDA are truly the heart 
and soul of the American trucking industry. Over 95 percent of 
U.S. trucking companies operate fewer than 20 trucks in their 
fleet, and about 50 percent of the motor carriers registered 
with the Department of Transportation operate one-truck fleets.
    The members of OOIDA adamantly oppose opening our Nation's 
roadways to Mexican-domiciled trucks and truck drivers at this 
time. We view the recently announced pilot program as nothing 
more than an effort to get a foot in the door for Mexican-
domiciled trucks and drivers, with the true intent of being to 
swing the door wide open in the near future, despite the 
numerous safety, economic and homeland security issues that 
remain unresolved.
    U.S. truckers must operate under a tremendous amount of 
scrutiny, and an ever-increasing number of stringent safety 
regulations. Such burdens, by all available accounts, non-
existent for truck drivers and trucking companies in Mexico. 
U.S. drivers are outrageous to think that our government would 
accept a lower standard for Mexican-domiciled trucks and 
drivers.
    Specific examples include DOT accepting the Mexican 
commercial driver's license, drug and alcohol testing, physical 
qualification and examination standards as being equivalent to 
U.S. regulations.
    Beyond the declarations by the U.S. Department of 
Transportation, that they have complied with the requirements 
of section 350 of the 2002 Transportation Appropriations Act, 
we have seen no details, or analysis to substantiate those 
claims. The DOT's efforts have been almost entirely secret, and 
beyond public view and scrutiny. OOIDA firmly believes that DOT 
has not complied with section 350 of the 2002 Transportation 
Appropriations Act.
    Without having had the opportunity to review and analyze 
specific data, proposals and agreements, we are left with a 
tremendous number of unanswered questions.
    In my written testimony, I have listed just a few of the 
basic questions that the DOT should be able to answer, before 
they can claim to be prepared to commit Mexican trucks and 
drivers into our country.
    OOIDA has worked very hard, along with the Federal Motor 
Carrier Safety Administration, other Federal and State 
agencies, and other organizations to improve truck safety for 
the truck drivers, and for all highway users. Great strides 
have been made in many areas with the potential for even more 
gains just over the horizon. We are very concerned that the 
lack of compatible safety regulations and reciprocal data 
systems in Mexico, will result in significant loss in the hard-
won gains on safety that have been made.
    Whether or not Mexican trucks and drivers can meet our 
safety standards, is the Mexican Government's responsibility. 
Whether only those trucks that comply with our regulations are 
allowed to operate in the United States is our Government's 
responsibility. And it is one that OOIDA believes that we are 
not prepared to take on.
    To allow Mexican trucks to have full reign in our country's 
highways now, would be unfair to the American truckers who 
spend many hours, and thousands of dollars a year complying 
with our tougher rules. I would also like to point out that 
hundreds of millions of U.S. taxpayer dollar have been spent--
--
    Senator Murray. You have 1 minute remaining.
    Mr. Parfrey. [continuing]. Doing what the Government of 
Mexico cannot or will not do--ensure the safety of Mexican 
trucking industry by adopting meaningful, compatible 
regulations. It seems to me that the Department of 
Transportation is bending over backwards to accommodate Mexican 
carriers and the Mexican Government. They have dedicated an 
innumerous amount of personal resources and tax dollars to 
progress to the point that they can say that the Mexican-
domiciled trucks and drivers are ready to operate in the United 
States.

                           PREPARED STATEMENT

    Ironically, American truckers are footing the bill for the 
DOT's effort through Federal fuel taxes, highway use taxes, 
excise taxes on new equipment that they pay into the Federal 
Highway Trust Fund. Yet, on matters that would significantly 
help our American truckers and advance safety on our country's 
highways, we often hear from DOT officials that we have limited 
staff and resources. Matters such as the establishment of 
meaningful entry driver training, lack of available truck 
parking, secure safe havens for hazardous material loads, 
pressure by shippers and receivers to violate hours-of-service 
regulation, illegal abuse of drivers at loading and unloading 
docks, and insufficient oversight of freight brokers are just a 
few of the myriad of issues that have long-awaited to be 
addressed by the Department.
    Senator Murray. Your time is expired.
    Mr. Parfrey. Okay.
    [The statement follows:]

                 Prepared Statement of Charles Parfrey

                   CROSS BORDER TRUCKING WITH MEXICO

    Good morning Chairwoman Murray, Senator Bond, and members of the 
committee. My name is Charlie Parfrey. I am the President and Chief 
Operating Officer of Parfrey Trucking Brokerage in Spokane, Washington. 
It is my privilege to be here today on behalf of the members of the 
Owner-Operator Independent Drivers Association (OOIDA).
    OOIDA is a not-for-profit corporation established in 1973, with its 
principal place of business in Grain Valley, Missouri. OOIDA is the 
national trade association representing the interests of independent 
owner-operators and professional drivers on all issues that affect 
small-business truckers. The more than 150,000 members of OOIDA are 
small-business men and women in all 50 States who collectively own and 
operate more than 260,000 individual heavy-duty trucks. Owner-
operators' trucks represent nearly half of the total number of Class 7 
and 8 trucks operated in the United States.
    I have personally been involved with the trucking industry for more 
than 23 years. In 1984 I purchased a truck and founded Parfrey 
Trucking. For the next 10 years I drove the truck and ran my business 
from the road, first as a solo operation and then as a team operation 
with my wife Donna. In 1994, Donna and I sold our truck and began a 
freight brokerage business. Today we have annual gross freight-shipment 
billings of more than $5 million. We deal mostly in loads that are 
hauled on flatbed, step-deck and low-boy trailers such as lumber, 
steel, industrial equipment and heavy machinery.
    The Owner-Operator Independent Drivers Association adamantly 
opposes opening our Nation's roadways to Mexico-domiciled trucks and 
truck drivers. OOIDA views the recently announced pilot program as 
nothing more than an effort to expedite the entry of Mexico-domiciled 
trucks and drivers without resolving numerous safety and homeland 
security issues.
    Truckers domiciled in the United States must operate under a 
tremendous amount of scrutiny and a constantly growing number of safety 
regulations. Such burdens are, by all available accounts, nonexistent 
for truck drivers and trucking companies in Mexico. U.S. drivers are 
outraged to think that their government will impose fewer rules on 
Mexico-domiciled trucks and drivers performing the same jobs on the 
same highways.
    Beyond the declarations by the U.S. Department of Transportation 
(DOT) that they have complied with the requirements of section 350 of 
the 2002 Transportation Appropriations Act (Public Law 107-87), we have 
seen no details or analysis to substantiate to those claims. DOT's 
effort has been almost entirely secret and beyond public view or 
scrutiny. As recently as this past fall, when asked about rumors that a 
Mexican motor carrier pilot program was being established, DOT 
officials responded that there was no such plan currently in the works.
    Therefore, we are fundamentally unable to comment on the 
sufficiency of DOT's or State enforcement agencies' efforts and 
readiness to comply with section 350 or to enforce motor carrier safety 
laws and NAFTA-related immigration and cabotage rules. Without having 
had the opportunity to review and analyze specific data, proposals, and 
agreements, we are left with a tremendous number of unanswered 
questions. OOIDA and its members are very interested to hear the 
testimony of American and Mexican transportation officials this morning 
on the following questions:
  --Does DOT plan to publish any detailed findings or analyses 
        describing how it has achieved the requirements outlined in the 
        2002 appropriations bill? If not, then how can Congress or the 
        public evaluate DOT compliance with the law?
  --Does DOT plan to accept the Mexican Licencia Federal de Conductor 
        in place of a U.S. Commercial Drivers License (CDL)?
  --Does DOT plan to accept a Mexican logbook in place of a U.S. log 
        book?
  --Does DOT plan to publish any notice in the Federal Register 
        requesting public comment on any aspect of the Mexican truck 
        program?
    If DOT plans to accept any Mexican motor carrier or driver safety 
requirement in lieu of a U.S. safety requirement, then DOT must go 
through the procedures for a pilot program or waiver under 49 U.S.C.  
31315.
  --Does DOT have an English translation of the following safety 
        requirements?
    --Mexican CDL requirements.
    --Mexican driver medical qualification requirements.
    --Mexican driver drug-testing requirements.
    --A list of events that disqualify an individual from holding a 
            Mexican CDL; i.e. the individual's violation of motor 
            vehicle laws in their personal automobile.
    --Mexican Hours-of-Service rules and logbook record keeping rules.
  --Has DOT performed a comparative analysis of the Mexican safety 
        rules with U.S. rules?
    The last time DOT performed a comparison of Mexican CDL to the U.S. 
CDL was in 1992. Since then, the United States has implemented many new 
driver qualification requirements and disqualification rules. Does DOT 
know whether the Mexican CDL has kept up with these changes?
  --Would DOT make public the translations of Mexican motor carrier 
        safety laws it relied upon and its analyses of such laws?
  --Would DOT make available its assessment of the availability and 
        quality of data concerning Mexican motor carriers and drivers? 
        For example, data related to:
    --performance and safety management programs.
    --a carrier's compliance with hours of service rules.
    --a carrier's safety history.
    --an individual's driving history, both in commercial vehicle and 
            personal automobiles?
  --Who will collect data involving Mexican drivers' violations of U.S. 
        laws in the United States? How will we know when a Mexican 
        driver will have attained a combination of violations of 
        Mexican law and U.S. law that disqualify that individual to 
        hold a U.S. CDL?
  --How prepared are State officials to inspect Mexican trucks, 
        including drivers? Do State enforcement personnel have access 
        to the same data about Mexican drivers as other officials? Will 
        State officials have access to the same data about Mexican 
        drivers as is collected in CDLIS about U.S. drivers?
  --Only law enforcement personnel inside the United States are in a 
        position to determine whether a Mexican driver has picked up a 
        load in the United States for delivery in the United States. 
        Such action would be a clear violation of their U.S. operating 
        authority, and a violation of both U.S. immigration and 
        cabotage rules. How prepared are U.S. Federal and State 
        officials within the U.S. border to recognize when a Mexican 
        driver is violating these rules and to enforce them?
  --Will Mexican carriers be required to pay a heavy vehicle use tax? 
        Will Mexican trucks be required to participate in the 
        International Fuel Tax Agreement (IFTA) to pay their fair share 
        of taxes on fuel purchased in Mexico and used on U.S. highways 
        and how are Federal fuel taxes to be collected?
    These are the minimal questions that DOT should be able to answer 
before they can claim to be prepared to permit Mexican trucks and 
drivers into the country. Without specific information being made 
available to us, we are forced to primarily rely upon the last audit on 
cross border trucking completed by the Department of Transportation's 
Office of the Inspector General (DOT OIG) in January of 2005, as well 
as anecdotal information gleaned from contact with the trucking 
community, law enforcement personnel and government officials. The DOT 
OIG's audit is of course focused on the preconditions to opening U.S. 
roads to Mexican-domiciled trucks that were set forth by section 350 of 
the 2002 Transportation Appropriations Act (Public Law 107-87). In the 
remainder of this testimony, I will detail why these questions are so 
important to Congress' oversight of the Mexican truck matter.

                                 SAFETY

    OOIDA has worked very hard along with the Federal Motor Carrier 
Safety Administration (FMCSA), other Federal and State agencies, and 
many industry organizations to improve truck safety for truckers 
themselves and for all highway users. Great strides have been made in 
many areas with the potential for even more gains just over the 
horizon. A uniform commercial licensing system with a nationwide 
computerized data network capable of identifying and weeding out 
unsafe, problem drivers along with uniform inspection and enforcement 
programs have resulted in significant improvements in highway safety. 
OOIDA is very concerned that the lack of safety regulations, and 
compatible and reciprocal systems in Mexico will result in a 
significant loss in the hard-won gains that have been made.
    We believe that Mexico lacks the safety infrastructure, the 
resources, and the will to effectively promulgate and enforce 
compatible motor carrier safety regulations. In the United States, 
motor carriers' safety programs are extensive and the safety 
regulations are widely enforced through roadside inspections and 
compliance reviews. These are working and tested programs designed to 
ensure motor carrier compliance and highway safety--and even they are 
not perfect.
    Mexico is years away from instituting substantially similar 
programs necessary to ensure adequate safety compliance of its trucking 
operations. This safety concern also encompasses Mexico's relatively 
lax regulation of its truck drivers. Although Mexico does require that 
a truck driver obtain a Commercial Drivers License (CDL) and undergo 
some form of a physical examination, the Mexican requirements are much 
less stringent than those required of U.S. drivers. In addition, U.S. 
drivers also face strict, specific drug and alcohol testing and are 
subject to hours-of-service limitations. Mexican drivers allegedly face 
similar rules, but are they truly compatible? There is no way for 
Federal or State enforcement officials to reasonably believe that a 
Mexican driver is drug-free, or know how many hours that driver has 
been working behind the wheel at the point they cross our border. These 
are two driver issues that our Department of Transportation and State 
enforcement agencies take very seriously in regard to U.S. drivers.
Commercial Drivers License
    First, the Association believes there is no true equivalent of the 
U.S. Commercial Driver License system in place in Mexico. While both 
U.S. and Mexican government officials claim Mexico's commercial driver 
licensing requirements are equivalent to the U.S. rules, such has never 
been proven true. Not only are U.S. regulations on American truckers 
more stringent in terms of verifying that a driver has been tested, but 
U.S. licenses can also be verified to show driving history, violations 
and compliance of any vehicle driver going back many years. When 
enforcement officials in the United States run a check on a Mexican CDL 
the only information they can access will be that of the driver's 
previous operations in the United States, not his or her safety history 
in Mexico.
    CDL rules in the United States have changed dramatically since 
1992. The most substantial change requires that driver convictions 
occurring while driving a personal vehicle be tied to CDL 
qualification. Certain convictions in a personal vehicle will result in 
disqualification and loss of commercial driving privileges for a 
specified period of time.
Hours-of-Service Regulations
    In Canada they have very detailed hours-of-service rules and a 
logbook similar to those used in the United States. Canadian drivers 
coming into the United States are subject to having their logs checked 
and face possibly being put out-of-service (OOS) because of logbook 
violations. Mexico has no driver hours-of-service regulations in place. 
Consequently, there is no way to begin to verify how many hours a 
Mexican driver has operated in any given day or week. It has been 
reported that Mexican drivers commonly operate 16 to 20 hours a day or 
more. Regardless of whether Mexican drivers adhere to the U.S. standard 
while operating in the United States, there is no way of knowing how 
long the drivers had been driving prior to entering our country.
Alcohol & Drug Testing
    U.S. drivers are extensively tested for use of controlled 
substances and alcohol. OOIDA believes there is no drug and alcohol 
testing program in Mexico comparable to that of the U.S. program. 
Although Mexico claims to have a program in place, the Association 
believes they have no means or will to enforce the rules. It would be 
inherently inequitable to allow Mexican drivers to operate in the 
United States without being subject to the same stringent standards 
required of U.S. drivers. To permit a certain class of drivers to be 
largely and effectively ``exempt'' from these regulations would be a 
manifest injustice and place U.S. drivers at a disadvantage.
    The DOT OIG's audit from 2005 states, ``Mexico does not have a 
certified drug testing lab at this time. . . .  Collection facilities 
in Mexico are not reviewed by U.S. officials.'' OOIDA doubts that 
Mexico has allowed any U.S. officials to inspect or certify their labs 
or examine their control of collection sites. This is required by 
section 350(1)(B)(ii), ``verification of a drug and alcohol testing 
program consistent with part 40 of title 49, CFR''. Those carriers that 
already have the right to operate beyond the border zone send their 
specimens to U.S. labs, but still no one to our knowledge has ever 
inspected the collection sites for procedures and controls.
Safety Inspections
    A representative of FMCSA recently claimed that the agency is now 
performing over 350,000 inspections on Mexican trucks each year. The 
latest statistics related to this that are available to the public are 
from 2005. These statistics seem to indicate that FMCSA is embellishing 
the number of inspections performed in order to ``appear'' more 
proactive with inspections of Mexico-domiciled trucks and drivers than 
it actually has been.
    The 350,000 number stated by the FMCSA representative is a 
compilation of the total variety of CVSA Level I, II and III 
inspections performed on Mexican trucks in 2005. The actual number of 
single contacts between inspectors and Mexico-domiciled truck drivers 
is 194,657. Out of that total population of 194,657 inspections, 
180,033 were either Level I or II inspections, which include vehicle 
inspections.
    FMCSA has essentially taken the vehicle inspection data (180,033) 
derived from driver contact data (194,657) and added that back into the 
total to arrive at the 350,000+ number. There really was only one 
contact with truck and driver, that contact is being counted twice.
    Utilizing FMCSA NAFTA Safety Stats data, the agency shows there 
were 4,675,887 incoming trucks to the United States from Mexico in 
2005. That 4.65 million represents the entire vehicle population that 
could be subjected to an inspection. Simple math indicates that the 
inspection rate of the entire available vehicle population is 3.9 
percent. Put another way, on any particular crossing, a Mexican truck 
has a 96.1 percent chance of not being inspected.
    FMCSA has identified 41,101 Mexico-domiciled power units that enter 
the United States annually. The agency could possibly argue that they 
are effectively inspecting these trucks at an average of 4+ times a 
year (194,657 divided by 41,101). It seems unlikely the agency has 
accounted for the entire truck population that crosses into the United 
States. Certainly drayage operations could cross the border daily. 
Long-haul trucking in Mexico would not have the same power unit 
crossing daily.
Safety Data
    OOIDA believes that there are currently very little if any data 
existing in Mexico on the integrity and safety performance of Mexican 
motor carriers. Likely, the only available data on Mexico-domiciled 
carriers resides in the United States, and only on those vehicles and 
drivers that have undergone an inspection or on carriers that have been 
caught operating illegally in the United States. All available data on 
Mexican carriers must first be sought out and compiled, then heavily 
considered prior to granting U.S. operating authority. OOIDA is unaware 
of the intention of the DOT to do this for Mexican motor carriers 
involved in the proposed pilot program.
    Section 350(1)(B)(v) states that a review of available data 
concerning that motor carrier's safety history must be available. 
Section 350(E) states that the information infrastructure of the 
Mexican government must be sufficiently accurate, accessible and 
integrated with that of the United States enforcement authorities to 
allow United States authorities to verify the status and validity of 
licenses, vehicle registrations, operating authority and insurance of 
Mexican motor carriers while operating in the United States, and that 
adequate telecommunications links exist at all United States-Mexico 
border crossings used by Mexican motor carrier commercial vehicles, and 
in all mobile enforcement units operating adjacent to the border, to 
ensure that licenses, vehicle registrations, operating authority and 
insurance information can be easily and quickly verified at border 
crossings or by mobile enforcement units.
    Once a Mexico-domiciled truck enters the United States how is the 
roadside inspector to verify that the driver's license and medical 
provisions are updated and legal if there is no apparent link to the 
Mexican data? According to the DOT OIG's last audit, 67 percent of 
Mexican motor carriers had not submitted updated census forms as 
compared to 42 percent of U.S. carriers. And, 51 percent of Mexican 
carriers reported having zero power units as compared to 10.3 percent 
of U.S. carriers. While this may all be verified and checked during a 
compliance review, it does point out that the data that is available 
from a carrier's safety record, which is checked at roadside, will not 
be available to inspectors. In fact 52 percent of Mexican carriers 
showed zero drivers, as opposed to 14.5 percent for U.S. carriers. So 
how can you check violations on a driver at roadside?
Enforcement of Operating Authority
    Laws governing the trucking industry restrict trucks and drivers 
from Mexico and Canada to carrying international shipments between 
their home countries and individual points in the United States. Those 
same laws prohibit foreign trucks and drivers from moving loads from 
point to point within U.S. borders. Under NAFTA, a Mexican truck can 
only deliver a cross-border shipment to a destination in the United 
States, pick up another shipment for return to Mexico, or drive through 
the United States on the way to Canada. We have no system in place to 
ensure they adhere to these restrictions.
    Generally, under U.S. law and the terms of NAFTA, only U.S. 
carriers can pick up and deliver freight within the United States. 
Currently, however under 19 CFR  123.14(c)(1) the U.S. Customs Service 
provides an exception allowing foreign-based vehicles to transport 
domestic shipments when the shipment is incidental to the immediate 
prior or subsequent engagement of the vehicle in an international 
movement. The immigration regulations governing foreign drivers are 
more restrictive. However, there is currently no effective mechanism in 
place for customs, immigration enforcement or any other agency to 
enforce these restrictions.
    Will the United States be able to limit Mexican truckers to hauling 
only international freight during their operations in the United 
States? OOIDA contends the answer is, ``No'' for the foreseeable 
future. In the present deregulated environment and under the current 
system of motor carrier enforcement the competence of the United States 
to enforce the cabotage restrictions is virtually non-existent.
    Mexican truckers willing to haul at substantially lower rates would 
become a very attractive option to U.S. shippers, brokers and freight 
forwarders. And, with no credible enforcement effort in place to deter 
them, Mexican motor carriers will surely seize the opportunity to 
arrange the pick up and delivery of point-to-point domestic loads all 
over the United States earning far more than they can in their own 
country. Networks of profiteering freight brokers will provide plenty 
of business by happily arranging such loads and pocketing a handsome 
markup for themselves while knowing full well these trucks will skirt 
many, if not all, of the rules for safety.
    Aside from the initial contact when a truck enters the United 
States at the border, U.S. Customs and Immigration personnel rarely, if 
ever, come in contact with a foreign-based motor carrier's vehicles and 
drivers. Most State motor carrier enforcement personnel, those who 
regularly encounter commercial vehicles and drivers in the interior, 
are trained only to enforce Federal and State vehicle and driver safety 
regulations. Few consider the origin and destination of a load, and how 
a truck's movement may relate to the motor carrier's country of 
domicile. Furthermore, State enforcement agencies appear unwilling at 
this point to take on the task of enforcing cabotage restrictions. Even 
if state Commercial Motor Vehicle (CMV) enforcement agencies received 
the necessary funding, and inspectors were properly trained and had the 
requisite authority, at current staffing levels there are simply not 
enough of them to catch more than a token number of violators.
    Federal transportation officials recently claimed that FMCSA 
inspectors have been trained on how to detect if someone is operating 
beyond the bounds of their authority and they claimed that every State 
has instituted regulations about enforcing this provision. The 
Commercial Vehicle Safety Alliance (CVSA), which represents State 
commercial motor vehicle law enforcement agencies, has admitted that no 
such formal training exists. It isn't just inspections on the border 
but on the roadside throughout the country and these are not done for 
the most part by FMCSA, but rather State enforcement.
    The lack of a comprehensive enforcement effort regarding NAFTA 
rules is a result of the same problems Congress is discovering about 
our national security efforts. Enforcement jurisdiction is split among 
several different Federal and State agencies. There is no single 
enforcement official in the United States who can stop a Mexican truck 
and determine whether a foreign trucker has a valid commercial driver's 
license, determine whether the trucker has valid insurance, determine 
whether the truck is safe, determine whether the foreign truck entered 
the country properly, and determine whether the load is a legal NAFTA 
shipment into or out of the United States. More importantly, even if 
one enforcement official could identify all of those facts, he or she 
would not have the authority to enforce all of these rules. As we point 
out, however, DOT rules are not the only rules foreign trucks are 
required to follow, but currently they are the only rules that state 
enforcement officials have the authority to enforce under compatible 
State law.
    Once a truck crosses the border and enters the interior of our 
country, State officials are the only enforcement personnel that a 
foreign trucker is ever likely to see. There is little, if any, Federal 
presence beyond the border to inspect the activity of foreign trucks to 
determine their compliance with our laws under NAFTA. State officials 
do not have the training to recognize whether a truck is in compliance 
with customs rules, whether a driver is in compliance with immigration 
rules, or whether a load is being hauled legally under NAFTA rules.
    State enforcement officials have expressed frustration to OOIDA 
regarding the lack of direction and lack of information they are given 
in exercising their limited authority over foreign truckers. Some 
enforcement personnel have told OOIDA that their biggest frustration is 
not being able to communicate with foreign drivers to get their 
cooperation to conduct a safety inspection--being able to communicate 
in English is a requirement of the Federal Motor Carrier Safety 
Regulations. Others describe a multitude of problems they find in 
trucks that have already passed the border. The problem is not that 
there are not enough inspectors and that truckers avoided inspection, 
but that those who inspect them do not have the power to take 
definitive action, even when the problems are egregious.
    OOIDA members report to us that the enforcement officials in some 
States have given up trying to inspect foreign trucks. They just waive 
foreign trucks through the weigh station while U.S. truckers are 
stopped and put through the normal inspections. This is an outrageous 
state of affairs that we did not bargain for with NAFTA. There either 
needs to be a much larger Federal enforcement effort or better Federal-
State coordination if there is to be a meaningful NAFTA enforcement 
effort.
Fees & Taxes
    The principal way that highways and bridges are financed in the 
United States is through taxes assessed on the trucking industry. Fees 
and taxes on highway use are primarily collected through registration 
fees and through taxes on fuel consumed under the International 
Registration Plan (IRP) and the International Fuel Tax Agreement 
(IFTA), respectively. Because Mexico does not participate in either 
plan, the fees and taxes cannot currently be collected under the 
agreements. The States rely on honest, periodic reporting of miles 
traveled and gallons of fuel purchased by motor carriers to collect 
user fees and taxes under IRP, IFTA and various other State-specific 
taxation programs.
    Apparently, IRP and IFTA credentialing will be accomplished by four 
Border States. Effective reporting also requires effective auditing. 
Are Mexican carriers simply to be included in a jurisdiction's total 
numbers for chance auditing? Will Mexican carriers be grouped 
separately for auditing? Can auditors legally travel to Mexico for 
auditing and how will civil penalties be enforced, other than the 
threat of pulling U.S. operating authority?
    As stated previously, no system is yet in place to assure that 
Mexican trucks will be required to pay even the most easily enforced 
fuel taxes, those collected at the pump. The more complicated highway 
use taxes such as the Federal Highway Use Tax, Federal excise taxes, Ad 
Valorem taxes and mileage taxes that are essential to maintaining U.S. 
highways appear to have not even been considered by the FMCSA. Failure 
to subject Mexican trucks to an equal share of the tax burden for the 
highways they will be using will place U.S. truckers at an enormous 
economic disadvantage, and as more and more U.S. truckers are 
displaced, this will result in substantial highway funding short falls 
under this scenario.
    American truckers caught with red-dyed (untaxed) fuel in their 
tanks face significant fines. Mexican trucks can carry as much untaxed, 
high-sulfur fuel as they deem practical with oversized or additional 
fuel tanks. The reason anyone would want to carry additional fuel is 
directly related to fuel tax evasion. Will there be limitations on how 
much fuel can be carried into the United States by Mexican trucks?
Extradition
    When Mexico domiciled trucks are allowed to travel U.S. highways 
there is every reason to believe they will at least suffer the same 
injury/fatal accident involvement rate as American and Canadian trucks. 
Post-accident investigations will assuredly discover illegal behavior 
on the part of some drivers. Violations of hours-of-service regulations 
and delays in post-accident drug testing results are examples of 
violations that can take time to decipher when determining fault.
    Charges against a driver, such as manslaughter, invariably occur 
well after accident involvement. This time delay will allow a Mexican 
driver to flee back across the southern border to safety. 
Unfortunately, Mexico has not adhered particularly well to treaty 
obligations to extradite indicted/wanted individuals, especially in 
cases involving a possible life sentence without parole or the death 
penalty.
    Extradition from Mexico has proven to be problematic for U.S. law 
enforcement agencies. This problem is exemplified by the inability of 
the Los Angeles District Attorney's Office to secure extraditions from 
Mexico of hundreds of murder suspects. California Senator Diane 
Feinstein has called for a renegotiation of the extradition treaty with 
Mexico. The single-minded rush to open our southern border to Mexican 
trucks without the assurance that Mexican nationals will be returned to 
be held accountable before American courts mocks the pursuit of justice 
in lieu of economic gain for a few.

                               CONCLUSION

    OOIDA applauds this committee's continued close scrutiny of the 
FMCSA's safety enforcement efforts. We encourage you to continue to ask 
whether the United States is adequately prepared to ensure that Mexican 
trucks and drivers comply with our laws and are safe; not whether the 
DOT is doing the best it can with its limited resources and staff.
    Whether or not Mexican trucks and drivers can meet our safety 
standards is the Mexican trucker's responsibility. Whether only those 
trucks that comply with our regulations are allowed to operate the 
United States is our responsibility, and it is one that we are not 
prepared to take on. To allow Mexican trucks to have full reign of our 
country's highways now would create a safety hazard on our roads and 
would be unfair to American truckers who spend many hours and thousands 
of dollars a year complying with our tougher rules.
    A tremendous amount of questions remain unanswered by the 
Department of Transportation. It is simply abhorrent to think that our 
government would allow Mexican trucks full access of U.S. highways 
before all safety, economic and homeland security concerns are 
completely and appropriately addressed.
    OOIDA believes that no matter what the resolution of the NAFTA 
trucking issue, when the border is open to Mexican trucks, the benefits 
will all flow toward Mexico. Mexican truckers will gain access to new 
markets and customers on the safest and most open highway system in the 
world. In return, the U.S. truckers are invited to travel on a more 
dangerous highway system in Mexico while the U.S. Government is given 
the burden of performing the truck safety enforcement function for both 
countries.
    Chairwoman Murray, Senator Bond and members of the subcommittee, 
thank you for providing me with this opportunity to testify on behalf 
of the members of the Owner-Operator Independent Drivers Association.
    I would be pleased to answer any questions that you may have.

    Senator Murray. Thank you very much, Mr. Parfrey.
    Ms. Claybrook.

STATEMENT OF JOAN CLAYBROOK, PRESIDENT, PUBLIC CITIZEN, 
            WASHINGTON, DC
    Ms. Claybrook. Thank you very much, Madame Chairman and 
Senator Bond, Senator Lautenberg. I appreciate the opportunity 
to testify.
    I am here as President of Public Citizen, a National Public 
Interest Group of 100,000 members nationwide, and I am also the 
former Administrator of NHTSA.
    Many of the preeminent safety groups, including Advocates 
for Highway and Auto Safety, Citizens for Reliable and Safe 
Highways, and Parents Against Tired Truckers, support the views 
of my--many of the views of my testimony.
    Let me say, first that the Federal Motor Carrier Safety 
Administration in the U.S. Department of Transportation 
responsible for overseeing motor carrier safety in the United 
States, including trucks crossing the southern border, is just 
not up to the job.
    The Agency has never met any of its safety goals, even 
after weakening them repeatedly over 7 years, yet has nearly 
one--it has had nearly every one of its important safety 
regulations unanimously overturned by Courts of Appeal in 
recent years. It has ignored numerous specific congressional 
directives, mandates to advance and improve safety, and it 
completely ignores its statutory mandate to make safety its 
highest priority.
    It is clear that the enactment of the Murray-Shelby 
language in section 350 of the DOT Appropriations Act has 
fostered long-overdue changes and improvements in the Federal 
Motor Carrier Safety Administration's activities. The 
requirement for oversight audits by the Inspector General was 
essential to keep the pressure on DOT for action on a multitude 
of safety issues that have been involved, and we thank you--so 
much--for that.
    However, DOT's recent announcement that it would partially 
open our southern border by conducting a fake, 1-year pilot 
project undermines the Department's credibility. It appears to 
be a calculated, cynical move to open the border to all 
commercial traffic, regardless of safety, as rapidly as 
possible, probably in 2008.
    It is apparent that this so-called pilot project does not 
comply with 49 U.S.C. 31315(c) which was a part of the TEA-21 
law, which establishes legal requirements for all DOT pilot 
programs.
    It is limited to 100 hand-picked Mexican-domiciled carriers 
for a short 1-year period that is too limited to allow for the 
collection of sufficient data for an accurate and reliable 
analysis for the safety performance of these NAFTA trucks. It 
is not scientific, it does not--as the law requires--provide 
public notice and seek public comment on its design and 
methodology.
    In fact, just the opposite. This project has been kept 
secret for more than 2 years, according to the mix of papers 
that said it started working on it in 2004, during which the 
Agency refused to respond to a major Freedom of Information Act 
request that was filed over 4 months ago about it by Advocates 
for Highway and Auto Safety, and I wish to submit that request, 
for the record, and ask the committee to demand that it be 
answered immediately.
    [The information follows:]

                 Advocates for Highway and Auto Safety

                              FOIA REQUEST

    Pursuant to the Freedom of Information Act (FOIA), 5 U.S.C.  552, 
Advocates for Highway and Auto Safety (Advocates) requests that the 
Federal Motor Carrier Safety Administration (FMCSA, the agency) provide 
access to the following:
  --All records regarding any and all FMCSA activities to formulate, 
        develop, evaluate, implement, or otherwise consider any effort, 
        plan, initiative, pilot program or other program intended to 
        evaluate any Mexico-domiciled motor carriers that would be 
        permitted by FMCSA to operate beyond the current U.S. 
        municipalities and commercial zones on the U.S.-Mexico border.
  --All records that discuss, evaluate, consider or refer to how such 
        an effort, plan, initiative, pilot program or other program for 
        evaluating any Mexico-domiciled motor carriers operating beyond 
        the current U.S. municipalities and commercial zones on the 
        U.S.-Mexico border complies with the funding restriction of 
        section 350(a) of the fiscal year 2002 U.S. Department of 
        Transportation and Related Agencies Appropriations Act, Public 
        Law 107-87 (Dec. 18, 2001).
  --All records that consider, discuss, evaluate, or refer to the 
        specific policy considerations, decisions, and actions by the 
        FMCSA and the U.S. Department of Transportation for how any 
        such pilot program or other program, plan, or initiative for 
        evaluating some Mexico-domiciled motor carriers operating 
        beyond the current U.S. municipalities and commercial zones on 
        the U.S.-Mexico border complies with each specific requirement 
        set forth in sections 350(a) and (b) of the fiscal year 2002 
        U.S. Department of Transportation and Related Agencies 
        Appropriations Act cited above.
    The scope of this request includes, but is not limited to, drafts, 
memoranda, letters, electronic mail and files, technical analyses, 
technical assistance documents, and tables, both at headquarters and 
agency field offices, and covers the period of time from December 18, 
2001, to the date of receipt of this FOIA request.
    Following your notification to us of having searched and identified 
the relevant records within the statutory time frame controlling a 
response to a FOIA request, we will arrange with FMCSA personnel to 
inspect the records you make available to us and then determine whether 
and to what extent any duplication of selected records might be 
required.
    Should you deny access to any of the requested records, please 
describe each denied record in detail and, in each instance of denial, 
state the exact statutory basis for your denial as well as your reasons 
for believing that this statutory basis for denial should be applied in 
this instance. Also state separately your reasons for not invoking your 
discretionary authority to release the records in the public interest. 
If you determine that some records or portions thereof are exempt from 
release and you decide not to release them, we ask that you promptly 
provide us with access to all other records or segregable portions 
thereof.
    Since furnishing the records, including any necessary duplication, 
will be used solely to inform Congress and the public of the safety 
effects of permitting commercial motor vehicles operated by Mexico-
domiciled motor carriers to conduct commerce beyond the U.S. 
municipalities and commercial zones on the U.S.-Mexico border, we ask 
that any fees associated with this request be waived pursuant to 5 
U.S.C.  552(a)(4)(A) for Advocates, a not-for-profit, consumer 
advocacy organization. Advocates has no commercial interest in, and 
will make no commercial use of, any materials supplied to us pursuant 
to your release on any of the requested records. Moreover, a release of 
the requested records will generate benefits for the general public by, 
among other things, helping to promote public awareness of the safety 
impacts of FMCSA decisions and actions affecting Federal laws, 
regulations, and commercial transportation practices under its 
jurisdiction, including the quality of the agency's ability to effect 
compliance with relevant laws and regulations governing the operation 
of Mexico-domiciled commercial motor vehicles beyond the municipalities 
and commercial zones on the U.S.-Mexico border and to meet 
Congressional and U.S. Department of Transportation objectives for 
enhancing motor carrier safety and the safety of the traveling public. 
In further support of a fee waiver, a statement is enclosed of 
Advocates' extensive qualifications and activities as a not-for-profit, 
public interest organization in the field of motor vehicle and highway 
safety.
    We suggest that you initiate your search for the relevant records 
responsive to this FOIA request by contacting Mr. William Quade, FMCSA 
staff. Advocates' identification of this agency employee is an effort 
to assist the agency in starting its search for responsive records and 
is not an attempt to limit the scope of your investigation or the 
number of personnel whom you contact for records falling within the 
scope of Advocates' FOIA request.
    Access to the records sought through this FOIA request is required 
within 20 days of your receipt of the request in conformity with 5 
U.S.C.  552(a)(6)(A)(i). If you anticipate the need for any delay 
beyond this time limit for responding to our request, you are required 
to notify us promptly in writing of the need for and the length of the 
prospective delay. However, we also would appreciate timely telephone 
calls placed to the telephone number on this letterhead informing the 
undersigned of the progress and completion of your compliance with this 
FOIA request. If some records falling within the scope of our FOIA 
request are available prior to completion of FMCSA's search for and 
identification of all relevant records that are responsive to our 
request, we would appreciate an opportunity to inspect such records as 
soon as they can be made available.

    Ms. Claybrook. We'd also like to submit to the committee a 
list of questions that we have--some of which are mentioned in 
our testimony, about this pilot project, which has not even 
been designed yet, yet it's supposed to start in 60 days.
    [The information follows:]

                     Questions from Joan Claybrook

                   CROSS BORDER TRUCKING WITH MEXICO

(This organization asked the committee to submit these questions to DOT 
                           on their behalf.)
    Question. In testimony before the Senate Commerce Committee nearly 
a year ago you stated that only 23 of the 25 commercial crossings have 
permanent inspection facilities. Today, how many of these 23 border 
crossings now have permanent inspection facilities?
    Question. According to the GAO report published in December 2001, 
Customs typically allows State and Federal truck safety inspections on 
the agency's property on a temporary basis; however, if capacity is 
reached for storing trucks placed out-of-service, inspectors are unable 
to conduct additional safety inspections. Furthermore, as a result of 
9/11, Customs is reassessing its space needs at these facilities, with 
important implications for truck inspection activities. Customs said it 
would no longer allow trucks placed out-of-service for safety 
violations to remain on the Customs compound due to safety concerns 
related to allowing mechanics and tow truck operators on the compound. 
With no permanent inspection facilities at 23 of the 25 commercial 
crossings, how will this affect the ability of Federal and State 
inspectors to keep unsafe trucks and unsafe drivers from entering the 
United States?
    Question. According to the December 2001 GAO report, there are 1.4 
million truck crossings, or 33 percent of all truck crossings, 
occurring at Laredo. Furthermore, according to the GAO at the Laredo 
World Trade Border Station there are only 2 spaces for State truck 
inspections, 12 inspection and out-of-service spaces for Federal truck 
inspections and only 384 square feet of office space for Federal 
inspectors--about the size of a bathroom and small bedroom. A similar 
situation is found at the Colombia Border Station in Laredo (1 space 
for State truck inspections, 3 spaces for Federal truck inspections, 15 
spaces for out-of-service spaces and only 384 square feet of office 
space for Federal inspectors). Is this adequate for the busiest 
crossing point on the southern border and what has changed at the 
Laredo crossing since you testified before us in July to improve the 
situation?
    Question. Otay Mesa has half the crossing as Laredo, 20 spaces for 
out of service vehicles, 4 state-of-the-art inspection bays and 7,900 
square feet of office space for inspectors. When specifically will the 
other crossings have similar facilities and what will happen in the 
meantime to the quality and quantity of inspections at Laredo compared 
to Otay Mesa?
    Question. In your testimony of July 18, 2001 before the Senate 
Commerce Committee you stated that ``education'' was one of the keys to 
opening the border and that the governments of Mexico and Canada will 
make presentations about their requirements so that everyone will 
understand the various requirements. Yet, according to an article in 
Transport Topics on June 2, 2002, Mexican officials failed to appear at 
a NAFTA conference specifically aimed at sorting out the complex 
regulatory details of cross-border trucking and that widespread 
confusion was rampant from all three NAFTA countries about each 
country's regulatory practices and how rules would apply to foreign 
operators. The deputy transport minister of Canada stated that reaching 
agreement among the three countries each with varying state and 
provincial regulations is a monumental task. In light of this 
confusion, the need for an agreement by all countries and the lack of 
information, should the border be opened before there is clarity and 
agreement on requirements and procedures?

    Ms. Claybrook. In addition, section 350 does not authorize 
the border to be open to a select group of trucks. Section 350 
makes no exceptions for compliance, with all elements of its 
requirements in subsections A, B, and C. As the section states, 
these obligations must be fully complied with, before any truck 
is permitted to cross the border.
    By contrast, what Secretary Peters proposes, is to comply 
with some parts of section 350, and assert that the border can 
be open for that ``slice'' of section 350.
    We also have serious concerns about a number of items 
required in section 350 that must be resolved before the border 
can be opened. Information about convictions and license 
suspensions of drivers from Mexico is unreliable. Serious 
questions on drug and alcohol testing, medical examinations, 
physical fitness of drivers from Mexico are not resolved.
    The FMCSA relies on poor data and defective procedure for 
identifying high-risk motor carriers, and prospects for 
compliance with hours-of-service limits are poor, compliance 
with Federal motor vehicle safety standards by trucks and buses 
built in Mexico are still not resolved, because there's no 
label indicating when those trucks were built, and therefore, 
which standards they must comply with.
    There are other issues which demand attention, such as DOT 
documenting that every State is actually enforcing enacted 
State laws to issue out-of-service orders to every foreign 
vehicle that does not have proper operating authority. They got 
the laws passed, but they don't say they're going to use them.
    Requiring that commercial vehicles entering the United 
States are equipped with electronic on-board recorders----
    Senator Murray. You have 1 minute remaining.
    Ms. Claybrook [continuing]. To document hours-of-service 
requirements. We don't have it in the United States, it's a 
terrible thing, because you cannot enforce the hours of 
service, the Courts of Appeal have instructed the agency to 
issue such a rule, they issued one that doesn't apply to most 
trucks.
    And increasing the minimum level of insurance required for 
Mexico-domiciled carriers engaging in the United States from 
the current requirement of $750,000 per truck, per crash--which 
is totally insufficient for a major truck crash--to $10 
million, at least. Otherwise, the people of the United States 
are going to be paying the bill for these crashes.
    It's clear that opening the border is akin to a Perfect 
Storm. It's a predictable disaster. The U.S. agency responsible 
for overseeing safety for large trucks is largely incompetent, 
the staff administering the law is largely indifferent, and 
regularly ignores its statutory responsibilities. The trucking 
regime in Mexico is not ready for safe entry into the U.S. 
highways. Too often in the past few years, we have seen this 
deadly combination fail the American public, whether its 
Katrina or the Walter Reed debacles. And we have seen that once 
we embark on a poor course of action, it's impossible to take 
it back.
    My written testimony outlines these tales in great detail. 
This committee is the only entity the American public can 
depend on to prevent this border from opening until these 
requirements are met.

                           PREPARED STATEMENT

    Madame Chairman, in order to serve the public properly, and 
to protect safety, we must avoid an over-zealous, mission-
accomplished mindset and deal realistically with the many 
safety issues that are yet to be resolved before the border is, 
in fact, ready to be opened to all commercial vehicles.
    [The statement follows:]

                  Prepared Statement of Joan Claybrook

    Good morning. I am Joan Claybrook, President of Public Citizen. I 
wish to commend the Subcommittee on Transportation, HUD, and Related 
Agencies for scheduling this hearing and continuing its careful 
oversight and scrutiny of the safety issues involved in opening the 
Southern U.S. border to interstate and foreign truck commerce 
throughout the United States.
    I also very much appreciate the opportunity that you have provided 
me to list the reasons why the recently announced border ``pilot 
program'' is an exceptionally unwise and unauthorized public safety 
policy. Because only one witness representing the views of highway and 
truck safety groups was asked to testify, I wish to state that all of 
the preeminent truck safety groups that have been at the forefront of 
Federal and State legislative initiatives to prevent truck crash deaths 
and injuries, including Advocates for Highway and Auto Safety 
(Advocates), Citizens for Reliable and Safe Highways (CRASH) and 
Parents Against Tired Truckers (P.A.T.T.), support many of the views in 
my statement concerning opening the Southern border under the guise of 
a pilot program.
    Let me begin by stating for the record that the Federal Motor 
Carrier Safety Administration (FMCSA), the agency within the U.S. 
Department of Transportation (DOT) responsible for overseeing motor 
carrier safety in the United States--including trucks crossing over the 
Southern border--is just not up to the job. I have been involved in 
truck safety issues for over 30 years and worked with Democratic and 
Republican Members of Congress in helping to craft the legislation that 
created FMCSA in 1999. The agency has never met any of its safety 
goals, even after weakening them repeatedly these past 7 years, has had 
nearly every one of its safety regulations unanimously overturned by 
the courts, has ignored congressional direction to advance and improve 
safety and completely ignores its statutory mandate to make safety its 
highest priority. For the record, I would like to submit investigative 
research articles written in 2006 from two leading newspapers, The New 
York Times and The Dallas Morning News, reporting on serious and 
chronic problems with the agency's programs and policies that put 
trucking interests first and the safety of the American public last. I 
would also like to submit for the record a list of Congressional safety 
mandates FMCSA has ignored for many years.
    I believe one of the best responses to the administration's 
announcement to open the Southern border was contained in an Associated 
Press article published on February 23, 2007. ``National Transportation 
Safety Board (NTSB) member Debbie Hersman questioned how the United 
States could spare sending inspectors to Mexico when only a tiny 
percentage of the hundreds of thousands of U.S. truck companies are 
inspected every year. `They lack the inspectors to conduct safety 
reviews of at-risk domestic carriers,' Hersman said. `That situation 
only gets worse if resources are diverted to the border.' '' The NTSB 
also just scathingly criticized FMCSA for its extraordinarily poor 
record of safety enforcement and oversight in the February 21, 2007, 
hearing on the horrific fire and consequent deaths of residents at an 
assisted living facility in Texas who were fleeing the approach of 
Hurricane Rita in a hired motorcoach.
    At the outset, the DOT's recent announcement appears to be a 
calculated, cynical move intended to ensure that the border is open to 
all commercial traffic regardless of the implications for highway 
safety. It is no coincidence that the Secretary of Transportation 
announced a limited pilot program that includes just 100 hand-picked 
Mexico-domiciled trucking companies and a test period that will 
conclude in just 12 months. This select group of motor carriers most 
likely will not be representative of all Mexico-domiciled companies, 
vehicles and drivers that will be allowed across the border once the 
pilot program is completed and prematurely declared a ``success.'' The 
abbreviated 12-month duration of the pilot program is shorter than any 
previously considered or authorized FMCSA pilot program and only one-
third of the 3-year maximum time limit allotted by Congress for such 
programs in current law. As a result, there is no possibility that this 
pilot program will achieve the goal of collecting sufficient safety 
data to allow for accurate and reliable analysis of the safety issues 
at stake.
    It is apparent that this pilot program is not really a pilot 
program, and thus does not comply with 49 U.S.C. 31315(c), which 
establishes a template for all pilot programs conducted by DOT. In 
addition, section 350 does not permit it. Section 350 makes no 
exceptions for compliance with all elements of its requirements in 
subsections (a), (b) and (c). These obligations must be fully complied 
with before ANY truck is permitted to cross the border. What Secretary 
Peters proposes is to comply with some parts of section 350 and assert 
that the border can be open for that slice. Her proposal does not 
comport with the law.
    Thus, this pilot program is intended to serve as a show-piece under 
NAFTA in order to permit the Secretary to proclaim victory and declare 
the entire Southern border open to unfettered long-haul truck commerce 
before the end of 2008. In order to serve the public properly and 
protect safety, we must avoid this ``mission accomplished'' mindset and 
deal realistically with the many safety issues that are yet to be 
resolved before the border is in fact ready to be opened to all 
commercial vehicles.

                     SUMMARY OF RECOMMENDED ACTIONS

    Madam Chair, opening the Southern border for NAFTA trucks is akin 
to a perfect storm. It is a predictable disaster. The U.S. agency 
responsible for overseeing the public safety for large trucks is 
incompetent. The staff administering the law is largely indifferent and 
regularly ignores its statutory responsibilities. The trucking regime 
in Mexico is not ready for safe entry onto U.S. highways. Too often in 
the last few years we have seen this deadly combination fail the 
American public, as in Katrina and the Walter Reed debacles. And we 
have seen that once we embark on a course of action, it is impossible 
to take it back. My testimony today will outline these issues in great 
detail. We urge the subcommittee to stop the border from being opened.
    It is clear that the enactment of the Murray/Shelby language in 
section 350 of the Department of Transportation and Related Agencies 
Appropriations Act for Fiscal Year 2002 (2002 U.S. DOT Appropriations 
Act), Public Law 107-87, has fostered long overdue changes and 
improvements in FMCSA's activities. Nevertheless, the border is not 
ready to be opened for NAFTA truck travel throughout the United States. 
Permitting this pilot program to proceed before the border is actually 
ready to be opened could be disastrous. For that reason, this committee 
needs to step in once again on behalf of the public.
    I will briefly summarize the actions that still need to be taken to 
protect public safety at the border.
  --Do not allow the ruse of a fake pilot program to be used to justify 
        opening the border.
  --Ensure that all section 350 requirements, including section (a), 
        (b) and (c) as the law commands, have been fully completed 
        before any truck is permitted to cross the border, including 
        that:
    --Security issues for hazmat operations have been satisfactorily 
            resolved;
    --Sufficient inspection resources are available at all designated 
            border crossing points for verifying bus driver commercial 
            licenses and Commercial Vehicle Safety Alliance (CVSA) 
            decals;
    --Alcohol and drug testing regimes are fully compliant;
    --All data requirements are fully compliant;
    --Truck inspection facilities are capable of requiring Level 1 
            inspections in close proximity to each border crossing 
            where trucks are allowed.
  --Ensure that DOT complies with section 4007 governing the conduct of 
        pilot programs.
  --Require DOT to document that every State will actually enforce 
        State laws to issue out of service orders to foreign vehicles 
        that do not have proper operating authority.
  --Provide that certification of compliance with U.S. safety standards 
        is enforced for all commercial vehicles.
  --Require NTSB investigations of fatal or injury-producing crashes 
        involving cross-border trucks.
  --Require that commercial vehicles entering the United States are 
        equipped with electronic on-board recorders to document hours 
        of service.
  --Increase the minimum level of insurance coverage required for 
        Mexico-domiciled motor carriers engaging in commerce in the 
        United States.
  --Require DOT to respond to outstanding FOIA requests or these issues 
        in full, with no withholding of any records.

                 BACKGROUND--THE BORDER ZONE AND NAFTA

    In the Bus Regulatory Reform Act of 1982, Public Law 97-261, 
Congress imposed a legislative moratorium on granting operating 
authority to both Mexican and Canadian motor carriers seeking to 
operate in the United States but provided for Presidential modification 
of the moratorium. Although the moratorium was lifted almost 
immediately for Canada-domiciled motor carriers, it remains in effect 
for Mexico-domiciled motor carriers. Currently, Mexico-domiciled motor 
carriers operate mainly in a narrow strip called a commercial zone 
along the Southern borders of the four southwestern States contiguous 
with Mexico. The ``border zones'' in California, Arizona, New Mexico 
and Texas vary in size between 3 and 20 miles inland from the U.S. 
border.
    In December 1992, Canada, Mexico and the United States signed the 
North American Free Trade Agreement (NAFTA). NAFTA required the 
governments to reduce trade barriers and promote open, unfettered trade 
across all three countries, including free movement of commercial motor 
vehicles transporting freight and passengers. NAFTA also sought to 
harmonize differing laws, policies and regulations governing major 
areas of trade, although each country was permitted to maintain its 
regulations regarding health, safety and environmental protection. 
NAFTA was invoked immediately as the justification for eliminating the 
Southern border operating restrictions on Mexico-domiciled motor 
carriers and allowing them unfettered access to the remainder of the 
United States, as well as intercontinental access to Canada, as long as 
U.S. requirements for truck and bus safety design, commercial motor 
vehicle freight (including hazmat) and passenger operations, and driver 
qualifications were adhered to.
    NAFTA required complete border opening to commercial traffic by 
December 18, 1995, even though no assessment had been made about the 
safety consequences. However, on that same day, the President postponed 
implementation of NAFTA cross-border interstate trucking privileges for 
Mexico-domiciled motor carriers based on concerns both for highway 
safety and environmental issues involving diesel emissions. The U.S. 
DOT Secretary subsequently announced that Mexico-domiciled trucks would 
continue to have access only to the four southwestern States' 
commercial zones until U.S. safety and security concerns were 
satisfactorily addressed.
    Oversight investigations and reports conducted by U.S. government 
agencies in the 1990's painted a dismal picture both of Mexico-
domiciled motor carrier safety and of the poor quality of preparation 
and level of readiness of U.S. Federal and State enforcement officials 
to handle the potential number of Mexico-domiciled trucking and bus 
companies that might apply for operating authority to transport freight 
and passengers throughout the United States and into Canada. These and 
other concerns about commercial motor vehicle safety at the Southern 
border prompted Congress to take action to respond to the shortage of 
resources and programs to provide for adequate inspection of Mexico-
domiciled commercial motor vehicles and oversee safety compliance with 
U.S. laws and regulations. The 1998 Transportation Equity Act for the 
21st Century (TEA-21), Public Law 105-178, responded to the poor 
inspection effort at the U.S.-Mexico border by allowing up to 5 percent 
of Motor Carrier Safety Assistance Program (MCSAP) funds to be directed 
to border enforcement efforts, and by requiring the Secretary of 
Transportation to review the qualifications of foreign motor carriers 
seeking operating authority in the United States.
    Following enactment of TEA-21, however, Government studies 
continued to find violations by Mexico-domiciled motor carriers, 
including widespread violations of registration, identification 
numbers, illegal operation beyond the commercial zones in the border 
States, and also showed multiple, serious safety violations such as no 
licenses, no medical certificates, no logbooks and noncompliant safety 
equipment.
    Nevertheless, after a NAFTA tribunal ordered the United States to 
open the border for commercial motor vehicles or face permanent trade 
sanctions, in February 2001, the United States stated that it would 
comply with its NAFTA obligations and allow Mexico-domiciled motor 
carriers to operate beyond the commercial zones by January 2002. In 
clarifying the action, the Secretary of Transportation stated that ``. 
. . every Mexican firm, vehicle and driver that seeks authority to 
operate in the United States--at the border or beyond--must meet the 
identical safety and operating standards that apply to U.S. and 
Canadian carriers.'' [Testimony of Secretary of Transportation Norman 
Y. Mineta before the Senate Commerce, Science and Transportation 
Committee (July 18, 2001).]
    The concern in Congress over motor carrier safety at the Southern 
border continued to mount as a result of oversight reports by the DOT 
Office of Inspector General (IG) and the Government Accountability 
Office (GAO), along with independent assessments by national safety 
organizations, documenting the poor and often belated administrative 
response of the DOT to the growing number of Mexico-domiciled motor 
carriers seeking entry at the Southern border. These oversight findings 
showed that the agency's plan for conducting a safety application and 
monitoring system was highly inadequate. Congressional concern resulted 
in passage of the Murray/Shelby Amendment, section 350 of the 2002 DOT 
Appropriations Act. That provision, which was developed in this 
committee, imposed numerous highly specific safety requirements and 
processes that FMCSA had to comply with prior to permitting any Mexico-
domiciled motor carrier to operate beyond the border zones. A litany of 
provisions and preconditions to the opening of the border that is, I 
dare say, well known to the members of this subcommittee, addresses 
many, but not all, of the safety concerns at the border.
    That legislation also gave the DOT IG a major oversight role in 
verifying that certain preconditions to Mexican long-haul truck 
commerce were fulfilled. Carrying out that responsibility has involved 
a series of follow-up audit reports because, as of January 2005, the 
date of the last such audit, the IG could not verify that DOT had in 
all respects completed the full slate of requirements in section 350. A 
further IG audit report is expected in a few weeks. I find it shocking 
that despite the importance of this action and the key role of the IG 
in the process, the DOT decided to open the border on February 22, 
2007, shortly before the next IG report is to be submitted to Congress.

    SECTION 350 HAS BEEN ESSENTIAL IN ADVANCING MOTOR CARRIER SAFETY

    It is indeed fortunate that the circumstances of this precipitous 
decision to begin opening the border have been controlled by the 
foresight and wisdom of this committee. The prudent action of the 
Senate Committee on Appropriations, which inserted section 350 into the 
2002 DOT Appropriations Act, resulted in detailed requirements for U.S. 
DOT compliance, including oversight and corroboration of key features 
of border safety preparedness by the DOT IG's office. Without that 
crucial legislative action, there would have been a very different 
outcome in recent years to the safety of cross-border truck and bus 
operations by Mexico-domiciled motor carriers.
    The detailed requirements of section 350 impose preconditions to 
opening the border and govern the verification of numerous safety 
requirements controlling the potential operation of long-haul commerce 
in the United States by Mexico-domiciled motor carriers. In addition, 
section 350 also applies to the safety quality of the short-haul 
drayage operations confined to the Southern commercial zones. There 
should be no doubt that, without the important safety controls of 
section 350, the Southern border would already have been opened without 
the safeguards called for in the legislation. Without section 350, much 
more dangerous trucks and buses would have crossed into the United 
States and operated freely on all of our highways, and the losses of 
lives and the injuries inflicted by such a foolhardy decision would 
have mounted month by month in State after State.
    By its very terms, section 350 includes two types of benchmarks. 
First, all of the substantive provisions of section 350(a) must be 
completely fulfilled in all respects before the Secretary of 
Transportation can review or process an application by a Mexico-
domiciled motor carrier for authority to operate beyond the U.S. 
commercial zones. Second, all substantive requirements of section 
350(b) and (c) must be fully completed before a single vehicle (truck 
or bus) owned or leased by a Mexico-domiciled motor carrier is 
permitted to operate beyond the U.S. commercial zones. The terms of the 
statute are unequivocal and only the completion of all those pre-
conditions will satisfy the legal requirements of section 350.
    It is also a serious problem that DOT and FMCSA have not been 
forthcoming with information about this pilot program. Because such a 
program has been the subject of rumors for some time (according to DOT 
planning that began in 2004), Advocates for Highway and Auto Safety 
filed a request with the agency for records pertinent to the pilot 
program under the Freedom of Information Act (FOIA). Although the law 
requires a release of records within 20 working days, no records have 
been released even though over 4 months have elapsed since the FOIA 
request was filed on October 17, 2006. Again, it would appear to be no 
coincidence that Advocates' FOIA request has been stonewalled as DOT 
prepared in stealth to announce its pilot program.
    The enlightened safety approach of section 350, however, does not 
exhaust the important safety issues relevant to the opening of the 
border. Beyond the four corners of section 350 there are a number of 
other serious, real-world concerns that must be addressed and that 
preempt any ``pilot program'' attempt to short circuit border safety.

  MEXICO-DOMICILED MOTOR CARRIER SAFETY IS STILL DANGEROUSLY DEFICIENT

    As you know, the Secretary certified on November 20, 2002, that 
authorizing Mexico-domiciled motor carrier operations in the United 
States did not pose an unacceptable safety risk. That certification 
certainly should not have been made with the facts then before the 
Secretary. At the time of the certification, the results of U.S. 
inspections and of the very few compliance reviews that had been 
conducted portrayed a horrific record of poor safety compliance by 
Mexico-domiciled trucks and buses conducting operations in the Southern 
commercial zones. Drivers from Mexico were regularly found without 
valid Mexican commercial driver licenses, a wide range of hazardous 
materials (hazmat) violations were constantly cited, Mexico-domiciled 
trucks and buses were crossing our Southern border into the United 
States at illegal points of entry, and trucks and buses from Mexico had 
consistently high rates of equipment defects such as bad tires and 
inoperative brakes. This raises a concern regarding the sufficiency of 
the certification issued by the Secretary and whether it was intended 
to evade the congressional intent behind section 350 by sacrificing 
safety for expediency.
    The current status of cross-border trucking operations by Mexico-
domiciled carriers is still alarming. Drivers coming into the United 
States from Mexico still have high rates of violations. For example, 
the FMCSA's ``NAFTA Safety Stats'' on its Analysis and Information Web 
site shows that for 2005, the latest year that figures are posted, 21.5 
percent of Mexico-domiciled commercial motor vehicles were placed out 
of service for vehicle defects. Of these, fully 17.5 percent were found 
to have their brakes out of adjustment. Bad brakes on Mexico-domiciled 
trucks and buses have been a chronic border safety problem for years.
    Similarly, when drivers cross over into the United States in trucks 
and buses from Mexico, over 15 percent do not even have any paper 
logbooks when they are asked for their records of duty status (RODS), 
and almost one in four drivers does not even have their own country's 
commercial driver license, the Licencia Federal de Conductor. In 
addition, one out of every 10 drivers from Mexico does not even have 
the proper license for the type of commercial motor vehicle they are 
driving. As for hazmat being hauled into the United States, a very 
frightening aspect of cross-border trade for both safety and security 
concerns, nearly 22 percent of the vehicles transporting hazmat used 
prohibited placards in 2005 for identifying the nature of the dangerous 
cargo that was being hauled across the border, more than three times 
the rate for U.S. motor carriers hauling hazmat.

  FMCSA HAS A POOR RECORD OF ENSURING THE SAFETY OF ALL TRUCK AND BUS 
   OPERATIONS IN THE UNITED STATES, INCLUDING MEXICO-DOMICILED MOTOR 
                      CARRIERS IN THE BORDER ZONE

    On the basis of this ongoing poor safety record of border-zone 
operations by Mexico-domiciled motor carriers, the U.S. DOT asks that 
we nevertheless suspend belief and good judgment and accept on faith 
that the trucking companies from Mexico hand-picked to participate in 
the so-called ``pilot program'' will be radically different in the 
safety of their operations and management. This, of course, contradicts 
the design of a true pilot program. DOT has implied that it will 
maintain intensive oversight of the companies selected to conduct U.S. 
long-haul operations.
    This claim starkly contrasts with the poor record of FMCSA 
oversight of domestic motor carrier operations and the current Mexico-
domiciled commercial zone trucking operations. There were 14,000 active 
motor carriers domiciled in Mexico conducting operations in the United 
States in 2005. However, only 106 compliance reviews were conducted on 
Mexico-domiciled motor carriers that year, and that figure represents a 
decline from 236 in 2004 and 268 in 2003. The most intensive safety 
evaluation of a motor carrier, the compliance review, has slipped by 
more than 60 percent in only 2 years. The 2005 figure represents a 
comprehensive safety evaluation of only three-quarters of 1 percent 
(0.75 percent) of Mexico-domiciled motor carriers operating in the U.S. 
border zone. This is an even poorer oversight record than FMCSA's 
recently criticized failure by the members of the National 
Transportation Safety Board at a public hearing on February 21, 2007. 
Members of NTSB criticized FMCSA for conducting severely inadequate 
numbers of compliance reviews for domestic carriers, only about 1.5 
percent each year. Even at its height in 2003, the best year for the 
agency and its State partners in conducting compliance reviews on 
Mexico-domiciled motor carriers, less than 2 percent were performed.
    The agency estimates that there were 4,575,887 crossings into the 
United States through the 24 recognized ports of entry by Mexico-
domiciled motor carriers operating 41,101 power units (tractors) that 
engage in millions of trailer movements. But only 180,061 inspections 
on these carriers' tractors and trailers were performed in 2005. And 
that disappointing number of inspections resulted in 21.3 percent of 
the vehicles being placed out of service for non-compliance with the 
Federal Motor Carrier Safety Regulations. This exceptionally poor 
inspection record does not encourage an optimistic view that FMCSA will 
inspect vehicles operated by long-haul carriers participating in the 
pilot program.
    This meager oversight performance by FMCSA does not augur well for 
placing any trust in DOT's assurances that the participants in the 
pilot program will be closely scrutinized for their safety performance. 
Even if they are, that closer scrutiny could come at the expense of 
even further declines in FMCSA's safety evaluation of border-zone-only 
Mexico-domiciled motor carriers. It has to be stressed that the agency 
has taken on new responsibilities in recent years that further dilute 
its resources, such as performing safety audits on approximately 48,000 
new entrant domestic motor carriers. So it is clear that FMCSA 
overwhelmingly puts its faith in controlling the safety of border-zone-
only Mexico-domiciled carriers with Federal and State roadside 
inspections. The agency is doing almost nothing to evaluate the safety 
management controls, drivers and equipment of these carriers operating 
in the Southern commercial zones by use of its most intensive safety 
evaluation, the compliance reviews. And it never has.
    None of the figures that I have cited from FMCSA's own data 
reassures us that DOT is on the job ensuring that Mexico-domiciled 
motor carrier safety is being dramatically improved. Yet, against this 
backdrop of poor safety performance and meager oversight efforts, DOT 
now wants to find a way to justify opening our borders not just to 
limited operations in a narrow swath of roads in the four Southern 
border States, but to long-haul foreign commerce traveling throughout 
the United States.

   SEVERAL MAJOR AREAS OF MEXICO-DOMICILED MOTOR CARRIER SAFETY AND 
OVERSIGHT REMAIN SERIOUSLY DEFECTIVE AND JEOPARDIZE SAFETY FOR EVERYONE

The States Are Not Stopping Border-Zone-Only Mexico-Domiciled Motor 
        Carriers from Operating Throughout the United States
    Current information shows that many States still are not ready to 
deal with truck commerce coming from Mexico. Dozens of States are still 
not placing Mexico-domiciled trucks and buses out of service when they 
are found to be operating illegally beyond the Southern commercial 
zones. While all States may now have in place the legal basis for 
placing Mexico-domiciled vehicles out of service that do not have 
operating authority, as required by section 350(a), many States are not 
exercising that authority through enforcement actions. This undermines 
the safety goals Congress intended to achieve in passing section 350.
    Although FMCSA issued an interim final rule in August 2002 
requiring State inspectors to place out of service any commercial 
vehicles operating without authority or carrying cargo or passengers 
beyond the scope of their authority, the fact is that about half the 
States are apparently not actually using their new authority to place 
Mexico-domiciled motor carrier trucks and buses out of service if they 
are found with illegal operating authority. [67 FR 55162 (Aug. 28, 
2002).] When the DOT IG issued the last audit of cross-border motor 
carrier safety, the report emphasized that the States were apparently 
not even placing border-zone-only trucks and buses from Mexico out of 
service when they were found to be operating beyond the commercial 
zones. ``Section 350 requires that measures are in place to ensure that 
effective enforcement actions can be taken against Mexican motor 
carriers. This includes taking action against Mexican carriers that do 
not have proper operating authority.'' [Follow-Up Audit of the 
Implementation of the North American Free Trade Agreement's (NAFTA) 
Cross Border Trucking Provisions--Federal Motor Carrier Safety 
Administration, Report Number MH-2005-032, Office of the Inspector 
General, United States Department of Transportation, January 3, 2005.]
    We know trucks are not being put out of service in many States, 
even though they now have the authority to do so. FMCSA representatives 
have been very careful to characterize the States' new authority to 
place Mexico-domiciled motor carriers out of service, but they often do 
not mention their actual use of this authority. For example, in an 
October 3, 2006, written statement of William Quade, the Director of 
Safety Programs for the agency, FMCSA carefully states that ``[e]very 
State has adopted this regulation and the Commercial Motor Vehicle 
Safety Alliance has made operating beyond the scope of operating 
authority a violation that results in a carrier being placed out-of-
service if discovered during a roadside inspection.'' Similarly, Mr. 
Quade also states that ``[since] establishing this regulation, FMCSA 
has trained our employees and our State partners to identify carriers--
regardless of where the carrier is from--who are operating beyond the 
scope of their operating authority.'' What isn't stated, however, is 
whether and to what extent the States are actually putting illegal 
Mexico-domiciled motor carriers out of service.
    FMCSA's fiscal year 2008 budget submission to this committee 
reveals the festering problem of the States failing to put illegal 
carriers out of service even though they all now have the authority to 
do so. The budget document discusses the agency's goals for the 
Performance and Registration Systems Management (PRISM) program. FMCSA 
states that ``[f]or fiscal year 2007, PRISM grants will ensure that 25 
PRISM states enforce their legislative authority to suspend, deny, or 
revoke vehicle registrations based on Federal out-of-service orders.'' 
[Budget Estimates fiscal year 2008, Federal Motor Carrier Safety 
Administration, at 3B-15.] Similarly, the agency has a goal for fiscal 
year 2008 of 30 States to suspend, revoke, or deny vehicle 
registrations based on out of service orders. [Id.]
    If many States are still not actually stopping domestic trucks and 
buses that don't have valid registrations from operating, it is certain 
that many of those States are not actually placing foreign motor 
carriers out of service if they are found to be operating beyond the 
scope of their legal authority. The DOT IG in the latest published 
report on the Southern border, op. cit., dated January 2005, pointed 
out that, despite confirming that all States were equipped with the 
authority to place carriers out of service that are found to be 
operating with invalid authority from FMCSA, only 4 of 14 States 
interviewed in 2004 by the staff of the DOT IG were found to be 
actually placing Mexico-domiciled trucks and buses out of service 
because of a determination of illegal operating authority. Over 2 years 
later, there seems to have been no improvement. It appears that FMCSA's 
fiscal year 2008 budget goals for stopping trucks and buses already 
sanctioned with out of service orders and lifting their registrations 
is a harbinger of ongoing, poor State enforcement practices for Mexico-
domiciled motor carriers found without proper operating authority.
    It should be apparent to the committee that Mexico-domiciled motor 
carriers are not being inspected often enough, they receive few 
compliance reviews each year, the vehicles have high rates of crucial 
safety equipment defects such as brake misadjustment, drivers often are 
without logbooks for hours of service compliance or their own national 
drivers' license, and the States do not appear to be putting them out 
of service and preventing them from operating when they exceed their 
authority to operate beyond the border zone. It is against this 
backdrop of poor safety performance and poor Federal and State 
oversight that DOT proposes to advance a pilot program to allow up to 
100 Mexico-domiciled trucking companies to haul freight throughout the 
United States. It is inconceivable that a similar pilot program would 
ever be proposed by the U.S. DOT to accommodate foreign airlines 
seeking to operate in this country if the same safety flaws and 
failings existed. There would be a deafening outcry in Congress and by 
the public if such an ill-advised and dangerous proposal were suggested 
by the administration.

Additional Safety Problems with Mexico-Domiciled Motor Carriers
    As the committee is well aware, section 350 set forth numerous 
requirements for fulfillment by the U.S. DOT and for oversight and 
verification of completion by the Inspector General. The January 2005 
IG report listed several major items that were unfinished or inadequate 
and still needed to be addressed by FMCSA. First and foremost, our 
motor carrier safety personnel from FMCSA must be allowed to conduct 
on-site safety audits at each Mexico-domiciled motor carrier's place of 
business to assess its management controls, equipment safety, and 
driver qualifications. Next, section 350 requires that a full 
compliance review must be performed before a carrier may be given 
permanent operating authority for long-haul commerce in the United 
States. To the best of our knowledge, no safety audits yet have been 
performed and, of course, no compliance reviews have been conducted 
determining that Mexico-domiciled trucks are safe enough to have 
permanent registration.
    I am not going to recite every section 350 requirement for the 
committee this morning. However, I want to emphasize that there are 
serious concerns about several items in the long roster of section 350 
requirements and allied issues that must be resolved before the border 
can be opened to even limited long-haul commerce from Mexico.
            Information about Convictions and License Suspensions and 
                    Revocations of Drivers From Mexico Is Unreliable
    A major issue of concern is the quality of the data transmitted to 
FMCSA by the States concerning driver records. In the January 2005 
audit report on Mexico-domiciled motor carriers, the IG pointed out 
that data from the States were lacking on driver convictions and 
license suspensions of truck and bus operators from Mexico.
            Serious Questions on Drug and Alcohol Testing and Medical 
                    Examinations/Physical Fitness of Drivers From 
                    Mexico Are Not Resolved
    Issues regarding drug and alcohol testing and the physical fitness 
and medical standards applied to truck and bus drivers in Mexico as a 
condition of commercial driver licensure also remain active concerns. 
It appears as though the issue of drug and alcohol testing has not been 
resolved.
    Section 350 requires documented proof that all cross-border foreign 
drivers are complying with all of the U.S. commercial driver 
requirements for drug and alcohol testing. This is particularly 
important for Licencia Federal de Conductor drivers who are providing 
samples in Mexico and then sending them to U.S. labs for evaluation. 
The Inspector General stated in the January 2005 report that collection 
facilities and procedures in Mexico are not certified. This means that 
the security of the samples is unknown. Let me emphasize again to the 
committee that this is a major safety concern for all cross-border 
operations by Mexico-domiciled motor carriers, not just those few 
companies that are carefully selected to participate in a ``pilot 
program.'' Even if the select group of trucking companies from Mexico 
has all drivers tested at approved U.S. drug and alcohol testing 
facilities, that does not signify completion of the pre-conditions of 
section 350 or guarantee that all drivers crossing the border after the 
pilot program ends and the border is opened will be subject to U.S. 
drug and alcohol testing requirements.
    In addition to the issues that are specifically relevant to section 
350, the safety community has serious concerns about the medical 
standards and physical fitness requirements for Licencia Federal de 
Conductor holders. It is well-known and recently acknowledged by both 
FMCSA and the States in a pending rulemaking action integrating the 
Commercial Driver License (CDL) with the federally required medical 
certificate that commercial drivers ``doctor-shop'' to find health care 
providers that will find them physically fit to operate a commercial 
motor vehicle in interstate commerce. [71 FR 66723 (November 16, 
2006).] In fact, thousands of these drivers have disqualifying medical 
conditions that would prevent the person conducting the physical 
examination from signing off on the required medical certificate. Some 
of the disqualifying medical conditions listed in FMCSA's regulations 
are unquestionably major threats to public safety if a commercial 
driver operates a big rig or a motorcoach with these diseases or 
impairments.
    The safety community is also deeply concerned over the quality of 
the medical examination and physical fitness requirements and process 
in Mexico for all Licencia Federal de Conductor holders operating in 
the United States. Although this was not a specific, itemized 
requirement of section 350, it has become a growing concern with the 
gradual realization over the past few years that fraudulent and invalid 
medical certification among even U.S. commercial drivers is a 
pervasive, chronic problem that FMCSA is just beginning to attempt to 
curtail at the strong urging of the National Transportation Safety 
Board. I ask the committee specifically to investigate this issue for 
all cross-border bus, motorcoach, and truck operations conducted by 
Licencia Federal de Conductor holders in the United States. We believe 
that there may be a similar problem in Mexico of drivers finding ways 
around medical examinations and fitness requirements for commercial 
licensure. If so, this threatens public safety here in the United 
States.
            Excluding Hazardous Materials and Bus Long-Haul Operations 
                    Violates Section 350
    Apparently, DOT is not contemplating long-haul commerce in the 
United States either by Mexico-domiciled hazmat haulers or by bus or 
motorcoach companies immediately, but has not foreclosed such cross-
border transportation in the future. Security issues for hazmat 
operations throughout the United States have not been satisfactorily 
resolved by the Transportation Security Administration. As for buses 
and motorcoaches coming into the United States from Mexico, the DOT 
IG's January 2005 report found that sufficient inspection resources are 
not available at all designated border crossing points for verifying 
bus driver commercial licenses and for inspecting buses that have 
expired Commercial Vehicle Safety Alliance decals. It appears that, as 
of March 2005, those inadequate bus inspection procedures had still not 
been corrected. The failure to address and complete these issues as 
required by section 350 presents a legal prohibition that DOT cannot 
evade by excluding hazmat operators and buses from the pilot program. 
Section 350 expressly states that ``[n]o vehicles owned or leased by a 
Mexican motor carrier may be permitted to operate beyond'' the 
commercial zones until all pre-conditions have been met. There is no 
exception for vehicles of motor carriers that participate in a supposed 
pilot program.
            FMCSA Relies on Poor Data and a Defective Procedure for 
                    Identifying High-Risk Motor Carriers
    The next issue that needs to be addressed is the chronic problem of 
the poor quality data supplied to FMCSA that it relies on to monitor 
commercial motor vehicle and motor carrier safety. The DOT IG and the 
GAO, in separate reports over the past several years, including reports 
in 2004 and 2005, emphasized the unreliability of the safety data on 
motor carriers that FMCSA uses to operate its safety scoring algorithm, 
the Safety Status Measurement System, or SafeStat as it is commonly 
referred to.
    The GAO report found that one-third of commercial vehicle crashes 
that the States are required to report to FMCSA were not reported, and 
those crashes that were reported were not always accurate, timely or 
consistent. [Highway Safety: Further Opportunities Exist to Improve 
Data on Crashes Involving Commercial Motor Vehicles, GAO-06-102, 
November 18, 2005.] Three years ago, following a DOT Inspector General 
report pointing out how unreliable data were used by FMCSA, the agency 
removed the overall safety score for motor carriers from its Web site. 
[Improvements Needed in the Safety Status Measurement System, Report 
Number MH-2004-034, Office of the Inspector General, United States 
Department of Transportation, February 13, 2004.] Those data are still 
missing from the agency's web site. In addition, the DOT IG found in 
that report that 50 percent of Mexico-domiciled motor carriers in the 
United States claimed that they had no tractor power units in 
operation.
    The Inspector General issued yet another report on FMCSA data 
quality in April 2006. [Significant Improvements in Motor Carrier 
Safety Program since 1999 Act but Loopholes for Repeat Violators Need 
Closing, OIG Report Number MH-2006-046, April 21, 2006.] The audit 
found that data quality is still seriously defective and that it 
undermines several important areas of FMCSA enforcement and 
substantially reduces the effectiveness of SafeStat to identify high 
safety risk motor carriers. The DOT IG points out that, although FMCSA 
adopted a regulation a few years ago requiring registered motor 
carriers to update their registration every 2 years, 192,000, or 27 
percent, of the registered 702,277 motor carriers did not update their 
census data on both drivers and trucks despite the requirement of the 
2002 regulation. In addition, the report found that forms used by the 
States to report crash data to FMCSA still do not consistently define a 
large truck or a reportable crash, resulting in confusion. These 
failings continue to undermine the reliable data that FMCSA needs. The 
2006 report also found that FMCSA, despite the previous February 2004 
OIG oversight report, had not taken sufficient action to achieve full 
updates of motor carrier census data and standardize crash data 
requirements and collection procedures. Data quality is crucial because 
the combination of updated, timely census data and crash data is used 
by SafeStat to rank safety performance of motor carriers and target 
them for compliance reviews and inspections. The OIG stressed in this 
recent report that, without these critical data, FMCSA cannot 
accurately identify the high-risk motor carriers.
    It remains to be seen what the DOT IG's next report, expected in 
less than 2 months, will find regarding the increased data quality and 
accuracy of SafeStat to identify risk-prone long-haul motor carriers 
operating throughout the United States. The January 2005 report 
documented that one-third of the crashes that actually occurred were 
not reported to FMCSA from the States. The Inspector General's most 
recent findings also need to be matched against FMCSA's request for 
funding for fiscal year 2008 that, among other things, still 
acknowledges that inadequate data on motor carrier safety are being 
provided by the states because the submissions involve either under-
reporting, mistaken data entries or late transmission to the agency.
    It is doubtful that, even with timely, complete, accurate data 
reporting, FMCSA can identify the high-risk motor carriers. The other 
problem with the agency's safety monitoring system is the SafeStat 
system itself. This arcane method of scoring motor carrier safety has 
been repeatedly criticized, including by an Oak Ridge National 
Laboratory report on SafeStat. The Oak Ridge analysis showed that the 
basis of SafeStat ultimately is subjective, based upon expert consensus 
opinion or judgment, and therefore has no meaningful statistical 
relationship to the data used to operate the system's algorithm for 
detecting high safety risk motor carriers. [K. Campbell, R. Schmoyer, 
H. Hwang, Review of the Motor Carrier Safety Status Measurement System, 
Final Report, Prepared for the Federal Motor Carrier Safety 
Administration, Oak Ridge National Laboratory, October 2004.] As a 
result, SafeStat often tapped the wrong motor carriers as safety risks.
    Safety organizations have also shown in comments to FMCSA 
rulemaking dockets that SafeStat is a bankrupt method of identifying 
dangerous motor carriers, particularly small motor carriers with only a 
few tractor power units. In addition, the algorithm incorporates a 
relativist, peer-to-peer safety rating system that has no independent, 
objective standards for motor carrier safety indexed to specific goals 
of reducing both the rate and the numbers of annual motor carrier 
fatalities. But, sad to say, these are the data and this is the system 
that DOT will rely on to monitor and gauge the safety of both long-haul 
and short-haul Mexico-domiciled motor carriers.
            Prospects for Compliance With Hours of Service Limits Are 
                    Poor
    Safety organizations are still not satisfied that DOT has a system 
that will prevent drivers coming into the United States from Mexico who 
are already fatigued and sleep-deprived and present a serious threat to 
highway safety. In addition, drivers in Mexico are not subject to 
separate hours of service restrictions specifically tailored for 
commercial drivers. Apparently, there is only a general working hours 
limit of 8 hours per day that, as far as we can determine on the basis 
of anecdotal evidence, is not enforced.
    Even if commercial drivers with Licencias Federal de Conductor 
operate in the United States within current hours of service limits, 
those limits are again under legal challenge. Among many other defects, 
FMCSA refuses to acknowledge that the dramatic increases in working and 
driving hours it forced on truck drivers in 2003, and again in 2005, 
inherently foster fatigue and sleep deprivation. Although the 2003 rule 
was overturned in a scathing opinion from the U.S. Court of Appeals for 
the District of Columbia Circuit in 2004 [Public Citizen v. FMCSA, 374 
F.3d 1209 (D.C. Cir. 2004)], FMCSA was undeterred: It attempted to 
rehabilitate the same failed hours of service rule with some new 
rationalizations and reissued it in virtually the same form in 2005. 
That new regulation increases the working hours of a U.S. commercial 
driver by 40 percent over an 8-day tour of duty and driving hours by 28 
percent over the same time span. Commercial drivers can now work 98 
hours in 8 days and drive 88 hours in 8 days. Certain exemptions for 
short-haul operations in smaller trucks actually allow drivers to work 
over 100 hours in a week.
    This is the so-called ``safety'' regime that drivers from Mexico 
will operate within, a regulation that actually fosters worn-out 
drivers pushed day after day to deliver loads under nightmare schedules 
forced on them by motor carrier officials and shippers.
    The other major problem hobbling any meaningful compliance with 
U.S. hours of service limits, as liberal as they are, is FMCSA's 
refusal to require electronic on-board recorders (EOBRs) to record the 
actual driving time of commercial operators. Despite the fact that the 
agency was required by Congress, in section 408 of the Interstate 
Commerce Commission Termination Act of 1995, Public Law 104-88, to 
address the problem of hours of service regulations by evaluating 
EOBRs, the agency procrastinated until it was compelled by the U.S. 
Court of Appeals for the District of Columbia Circuit in 2004 to 
adequately address the problem. The court acted because FMCSA had 
proposed adoption of EOBRs in the hours of service rulemaking proposal 
in 2000, 65 FR 25540 (May 2, 2000), but then had a change of heart 
after strong opposition from major sectors of the trucking industry. 
FMCSA terminated EOBR rulemaking in 2003 when it issued its first 
attempt at an amended hours of service regulation. [68 FR 22456 (April 
28, 2003).] Even then, the agency responded with only an advance notice 
of proposed rulemaking in September 2004 instead of proposing a long 
overdue EOBR regulation. [69 FR 53386 (September 1, 2004).]
    EOBRs are of pivotal importance in lessening the epidemic of hours 
of service violations in the trucking industry. Several studies and 
surveys conducted by independent researchers, the Insurance Institute 
for Highway Safety and the University of Michigan for FMCSA's 2000 
rulemaking proposal to amend the hours of service rule have shown 
repeatedly over many years that hours of service violations are a 
pervasive, chronic phenomenon among truck drivers. Truck drivers 
themselves have a poor opinion of the paper logbooks--Record of Duty 
Status (RODS)--that current FMCSA regulation requires them to maintain 
if they are operating outside a 100-air-miles radius from their work 
reporting location. Often referred to as ``comic books,'' many truck 
drivers regularly violate hours of service working time, driving time, 
and minimum rest time limits and falsify the entries on their paper 
logbooks. Seasoned drivers also know how to create a paper trail of 
accessory documents, often demanded by motor carrier enforcement 
personnel conducting compliance reviews, that just happen to support, 
or at least not to contradict, the entries in the log books. I use the 
plural here of ``log books'' not just to refer to all the RODS 
maintained by interstate truck drivers, but also the two and sometimes 
three different log books maintained by just one driver: one that 
really memorializes hours of service, one for enforcement officials, 
and yet another for the motor carrier the driver works for.
    But despite widespread violation of even the excessive working and 
driving hours of the current hours of service regulation, FMCSA, in its 
recent rulemaking proposal, will not abate this epidemic of abuse. [72 
FR 2340 (Jan. 18, 2007).] The agency disregards all previous research 
and survey literature on the pervasive violation of hours of service 
regulation and, instead, argues that EOBRs should be required only for 
the ``worst offenders.'' These ``worst offenders'' are those who are 
detected in compliance reviews as having at least 10 percent of their 
drivers found to have violated hours of service and then, within 
another 2 years, at least 10 percent are found again in a subsequent 
compliance review to have violated the regulation. Only then would the 
agency impose a requirement to install and use EOBRs to record driving 
time.
    Please note that this is the agency that conducts only 7,000 to 
11,000 compliance reviews each year out of more 700,000 registered 
motor carriers, an effort, as I have already pointed out, that amounts 
to about 1.5 percent compliance reviews each year. This is the agency 
that has just submitted a budget request to Congress stating that it 
intends to conduct only 10,000 compliance reviews in both fiscal year 
2007 and fiscal year 2008. This is the agency that states in its EOBR 
rulemaking proposal that it forecasts about 465 motor carriers each 
year would be required to install EOBRs. Out of the largest figure of 
registered motor carriers that we have heard--cited as more than 
900,000 by NTSB staff on February 21, 2007, during the NTSB hearing on 
the Hurricane Rita motorcoach catastrophe--this amounts to 5 one-
hundredths of 1 percent--0.05 percent--of registered motor carriers. 
Even if I were to use the lower, published figure from FMCSA on the 
number of registered motor carriers--about 702,000--the percentage of 
motor carriers required to use EOBRs would be 6 one-hundredths of 1 
percent--0.06 percent.
    This proposed rule is so utterly ludicrous, so contemptuous of the 
need to curtail the epidemic of drivers falsifying their log books so 
they can drive until they literally fall asleep at the wheel, that 
FMCSA even has the gall in the preamble to argue that it could not find 
any health benefits for drivers using EOBRs and, therefore, for driving 
within the legal limits of the current hours of service rule. But this 
is also in keeping with an agency that repeatedly denies that it could 
find any adverse health impacts from having dramatically increased the 
amounts of driving and working time each week for commercial drivers in 
its 2003 and 2005 final rules amending the hours of service regulation.
    If DOT argues that, without EOBRs, it can ensure that long-haul 
trucks from Mexico will not violate hours of service limits, then it is 
deceiving the American people. The use of EOBRs in any cross-border 
long-haul operations by Mexico-domiciled motor carriers must be 
mandated. Without EOBRs, the risk of crashes from sleep-deprived, 
exhausted drivers of Mexico-domiciled trucks will be large and will 
grow.
            Compliance of Trucks and Buses Built in Mexico With the 
                    Federal Motor Vehicle Safety Standards is Still 
                    Unresolved
    Finally, the issue of certification of compliance of trucks with 
the Federal Motor Vehicle Safety Standards (FMVSS) remains a real 
safety problem. Federal law requires that vehicles entering the U.S. 
market must comply with all safety standards that were applicable in 
the year of their manufacture. FMCSA acknowledges that this requirement 
pertains to commercial vehicles manufactured in Mexico and driven into 
the United States to engage in commerce. The agency also acknowledges 
that few commercial vehicles built in Mexico prior to 1996 were built 
to U.S. safety standards and that even since 1996 some unknown 
percentage of commercial vehicles built in Mexico does not comply. For 
example, according to truck manufacturer data, between 5 and 20 percent 
of the trucks produced at plants in Mexico were not equipped with 
antilock braking systems (and slack adjusters), even though that 
requirement applied to U.S. truck production since March 1, 1997. The 
FMCSA admits that inspectors cannot be certain if trucks built in 
Mexican plants comply with U.S. standards unless they have a 
certification label affixed to the vehicle by the manufacturer. They 
cannot rely on the vehicle identification number and the vehicle 
registration alone. This means that trucks and buses that do not comply 
with U.S. standards and thus could not be sold in the United States 
could be driven into the United States to engage in commerce and the 
carriage of passengers by Mexico-domiciled companies. This situation 
creates both a safety concern and an uneven playing field for U.S. 
manufacturers and motor carriers.

ANY PILOT PROGRAM PERMITTING MEXICO-DOMICILED MOTOR CARRIERS TO OPERATE 
           NATIONWIDE MUST COMPLY WITH SECTION 4007 OF TEA-21

    In light of the many serious safety, legal and oversight concerns 
that continue to raise red flags and provide clear warnings against 
even a limited opening of the Southern border, I firmly believe that 
the proposed pilot program cannot proceed.
    If and when such a pilot program becomes appropriate, Congress has 
already determined the basic requirements that must apply to protect 
public safety. Section 4007 of Transportation Equity Act for the 
Twenty-First Century (TEA-21), codified at 49 U.S.C.  31315(c), 
established the template for all pilot programs conducted by DOT. 
Section 4007 was enacted at the specific request of DOT, which sought 
authority to conduct pilot programs to evaluate alternatives to 
existing regulations and ``innovative approaches to motor carrier, 
commercial motor vehicle, and driver safety.'' The announced border 
pilot program fits squarely within this description and must be 
governed by the requirements of that law.
    Section 4007 requires that, at the outset, the Secretary must 
provide public notice and seek public comment on the proposed contours 
of the program and the merits of the trial. In order to proceed, the 
Secretary must then make a determination, based on the totality of 
information and evidence, that the safety measures in the pilot program 
are designed to achieve an equal or greater level of safety than would 
be the case if there was no program. That is, DOT must make a showing 
that convincingly demonstrates that the pilot program approach can 
achieve the same or better level of safety than the status quo. At that 
point, if the pilot program is to take effect, it must include several 
defining features:
  --A scheduled life of no more than 3 years;
  --A specific data collection and safety analysis plan that identifies 
        a method for comparison and a reasonable number of participants 
        necessary to yield statistically valid findings;
  --An oversight plan to ensure that participants comply with the terms 
        and conditions of participation;
  --Adequate countermeasures to protect the health and safety of study 
        participants and the general public; and
  --A plan to inform the States and the public about the program and to 
        identify the participants both to safety compliance and 
        enforcement personnel and to the public.
    A specific data collection and safety analysis plan identifying a 
method for comparison and having sufficient statistical power from 
which to draw inferences has been the Achilles heel of previous FMCSA 
pilot program efforts. None of the previously proposed pilot programs 
were studies that would have survived peer review in the scientific 
community because they included poor data gathering protocols, lacked 
controlled comparison groups for gauging the safety impact of the pilot 
programs, failed to control the numerous confounders of field 
experiments and generated insufficient statistical strength to draw 
inferences. FMCSA has a failed record of conducting scientifically 
sound and useful pilot studies.
    In fact, FMCSA does not conduct pilot programs just for determining 
their safety effects. The programs are chosen to buttress policy 
preferences that the agency already has formed. Pilot programs 
conducted in the past by FMCSA have not been chosen to test 
``innovative approaches'' to motor carrier safety or to evaluate 
whether some relaxation of portions of the Federal Motor Carrier Safety 
Regulations produces an equivalent or better safety result than 
compliance. Instead, these efforts have been geared in each instance to 
provide regulatory relief to a sector of the trucking industry or to 
foster trucking ``productivity,'' not improve safety. In constructing 
pilot programs, FMCSA handpicks the very best participants to ensure 
that the outcome of the trial will justify a policy choice that the 
agency already wants to advance. Pilot programs promoted by the agency 
are not scientific efforts to obtain objective information, but show 
trials conducted to provide cover for a preconceived policy choice.
    Pilot programs cause great concern in the safety community because 
they are experiments with the public serving as guinea pigs on our 
highways. Although section 4007 directs that there must be adequate 
countermeasures adopted to ensure the health and safety of both pilot 
program participants and the general public, there are no assurances 
that relaxing regulatory requirements or testing ``innovative 
approaches'' to motor carrier safety might not result in terrible 
tragedies. For this reason, it is imperative that the committee take 
extra precautions, beyond the requirements in section 4007, to ensure 
safety is the highest priority in the conduct of this pilot program. 
The committee should, therefore, take the following steps:
  --Ensure that DOT complies with section 4007 in carrying out any 
        pilot program;
  --Require DOT to specify, as part of the detailed description of the 
        pilot program submitted for public comment, the criteria it 
        will use in exercising its authority to revoke participation in 
        the program under section 4007(c)(3);
  --Require that the National Transportation Safety Board (NTSB) 
        investigate every crash by a participating motor carrier, 
        vehicle and driver that involves a fatality or injury;
  --Require DOT to specify, as part of the detailed description of the 
        pilot program submitted for public comment, the criteria it 
        will use in exercising its authority to terminate the program 
        under section 4007(c)(4); and,
  --Require DOT to submit bimonthly reports to Congress on the pilot 
        program including data on all crashes, fatalities, injuries, 
        violations and out of service orders.
    Thank you for this opportunity to voice our deep concerns over this 
initiative. I am happy to answer any questions you may have.

                              Attachments
              Cross Border Truck Safety Inspection Program

          READY TO DELIVER LONG-DISTANCE CROSS-BORDER TRUCKING

Trucks Crossing the U.S.-Mexico Border
    Until 1982, trucks from Mexico could drive anywhere in the United 
States.
    Since 1982, trucks from Mexico have been able to drive only in the 
roughly 25-mile commercial zone along the U.S. border and can make 
deliveries in U.S. cities like San Diego, El Paso and Brownsville.
    Cargo destined beyond the commercial zone must be off-loaded and 
transferred, which has given rise to a highly inefficient international 
supply chain on our southern border.
    A limited demonstration program to test implementation of the 
trucking provisions of the North American Free Trade Agreement, 
supported by Presidents George H.W. Bush and Bill Clinton and approved 
by Congress in 1993 will allow a small number of Mexican trucking 
companies to be screened for possible trial authority to make 
deliveries beyond the commercial zones for one year.
    The companies must pass a safety audit by U.S. inspectors, 
including a complete review of driver records, insurance policies, drug 
and alcohol testing programs and vehicle inspection records.
    In 2 months, Mexico will have published its final application 
procedures and will begin processing applications from U.S. companies 
for authority to operate throughout Mexico.
    Since the mid-1990s, the rate of Mexican trucks taken off the road 
for safety violations has dropped 64 percent, from 59 percent to 21 
percent (comparable to the U.S. average).
U.S. Safety and Security Requirements Await Trucks from Mexico
    Since 1995, the Federal Government has spent more than $500 million 
to improve border inspection stations and hire more than 600 new 
Federal and State truck inspectors.
    Mexico's trucks and their drivers must meet all U.S. safety and 
security requirements before they will be allowed to drive beyond the 
border region.
    Every truck that crosses the border as part of the pilot will be 
checked--every truck, every time.
    Any truck with a safety violation that poses a risk to the 
traveling public--no matter how small or large--will be stopped until 
the problem is fixed.
    Drivers must have a valid commercial license, proof of medical 
fitness, and comply with hours-of-service rules.
    Drivers must be able to understand and respond to questions and 
directions from inspectors.
    Drivers may not be sick, tired or under the influence of drugs or 
alcohol.
    Trucks must be insured and meet rigorous U.S. safety standards for 
the entire vehicle, including brakes, steering systems, tires, axles, 
hoses, fuel tanks, head and tail lamps, turn signals, suspension 
systems, frame integrity and cargo securing equipment.
    No trucks hauling hazardous materials or buses carrying passengers 
will be involved in the test program.
    All trucks and all drivers entering the United States are screened 
by U.S. Customs and Border Protection Officers, which could include 
radiation portal monitoring and x-ray inspections of high risk cargo.
    All drivers must provide advanced cargo information, must meet 
immigration entry requirements and are subject to the U.S. import 
requirements.
Good for Consumers
    Every day, nearly $2.4 billion in trade flows between the United 
States, Mexico and Canada. U.S. merchandise exports to Mexico and 
Canada are up 157 percent. The economies of all three countries have 
grown by more than 40 percent since NAFTA was signed. Seventy-five 
percent of this commerce is carried by commercial trucks, but the 
current system of transferring products from the truck of one country 
to that of the other costs consumers $400 million a year.
    Long-haul trucking to and from Mexico will allow goods to get to 
the marketplace as efficiently as possible on both sides of the border 
which translates into cost savings to the consumer.
Keeping Our End of the Bargain
    President George H.W. Bush signed the historic NAFTA treaty in 
1992.
    In 1993, Congress ratified NAFTA and President Bill Clinton signed 
into law legislation to implement the treaty.
    The trucking provisions of NAFTA were put on hold in 1995. In 2001, 
a NAFTA dispute resolution panel ruled that the United States was 
violating its NAFTA obligations by adopting a blanket ban on trucks 
from Mexico.
    In 2001, Congress approved and President George W. Bush signed 
legislation detailing 22 safety requirements that must be met before 
allowing trucks from Mexico to drive beyond the U.S. commercial zones.
    In 2002, U.S. Transportation Secretary Norman Y. Mineta certified 
that DOT had met each of the 22 requirements set by Congress. The last 
three audits by the U.S. DOT Inspector General confirm it as well.
    Litigation stymied the DOT program; a 2002 U.S. Ninth Circuit Court 
of Appeals ruling that barred implementation of the treaty's trucking 
provisions. The U.S. Supreme Court unanimously reversed the decision in 
2004.
    U.S. DOT began working immediately with its Mexican counterparts to 
develop a NAFTA trucking pilot program.
                                 ______
                                 
Committee on Commerce, Science, and Transportation--Nominaton Hearing, 
                           September 20, 2006

                      NOMINATION OF MARY E. PETERS

    Senator Stevens. The committee will come to order.
    The Chairman would agree that it would be proper to allow time for 
the two Senators from Arizona to introduce the nominee. Senator McCain, 
you're the senior Senator.
    Senator McCain. Thanks very much. I remind Senator Kyl of that 
daily.
     Well, thank you.
    It's with great pleasure, Mr. Chairman, I introduce to the 
committee Mary Peters, who has been nominated, as you well know, as the 
15th Secretary of the Department of Transportation. And, of course, all 
of us are familiar with Mary through her nearly 4 years of service as 
the Administrator of the Federal Highway Administration from 2001 to 
2005. She's a fourth-generation Arizonan, was the director of the 
Arizona Department of Transportation, known as ADOT, prior to taking 
the helm of the Highway Administration. She gained nearly 16 years of 
firsthand transportation agency experience during her service at the 
Arizona Department of Transportation, and another 4 years at the 
Federal Highway Administration.
    I appreciate very much the President of the United States selecting 
such an outstanding and capable individual to fill this important 
leadership position. She has a long and accomplished professional 
record. And, Mr. Chairman, she has so many awards, I will not repeat 
them. I would ask that my complete statement be made part of the 
record.
    And I would like very much that this committee approve, or consider 
and then approve, her nomination as quickly as possible, as I think it 
would be good for the country to have her on the job before we go out 
for recess.
    And I thank you for allowing me to make this statement on her 
behalf.
    Senator Stevens. Senator Kyl?
    Senator Kyl. Thank you. Mr. Chairman, first let me agree with my 
colleague Senator McCain that it would be very much in the best 
interests of this country if the nomination of Mary Peters could move 
forward very expeditiously, first through the committee and then on to 
the floor of the Senate.
    My colleague, of course, traced the career of Mary Peters, a 
distinguished career focused on transportation issues. I'll just note a 
couple of things that were not said.
    When she was here in Washington as the head of the Federal Highway 
Administration at DOT, among other things she led efforts to improve 
the safety and security of our country's highways and bridges, reduce 
congestion, and institutionalize better fiscal oversight and 
accountability. And she distinguished herself in the same way when she 
headed the Department of Transportation in the State of Arizona. Both 
Senator McCain and I know Mary Peters personally; and so, we're 
obviously biased. But, for my place, I couldn't recommend more strongly 
someone who has all of the attributes, not just the skills and the 
experience, but the personal qualities to be a part of the President's 
Cabinet, to be advising him, to working with Members of Congress. And 
so, when, once again, she agreed to answer the President's call to 
leave the warm and sunny weather of Arizona to come back to Washington, 
I applauded her choice, and I urge the committee to act quickly so that 
she can begin her responsibilities here as soon as possible, serving 
the people of this country.
    She's a person of great integrity and charisma, and I'm very proud 
to call her a friend and commend her to the committee.
    Senator Stevens. Well, thank you very much, Senator.
    I would suggest that the nominee present her statement, then we'll 
go around and give Senators an opportunity to question the nominee.
    Ms. Peters?
    Ms. Peters. Mr. Chairman, thanks so much.
    Chairman Stevens, Co-Chairman Inouye, and members of the committee, 
it is an absolute honor to appear before you today as you consider my 
nomination for Secretary of Transportation. And I sincerely appreciate 
my home State Senators, Senator John McCain and Senator Jon Kyl, for 
being here today to introduce me.
    I am deeply grateful that President Bush has offered me the 
opportunity to again serve my country in the field of transportation.
    I also would like to express my gratitude to my family, whose love 
and support have made it possible for me to be here today. My husband 
is home today; however, he is with our two brand-new grandchildren. One 
got out of the hospital 8 days ago, one got out of the hospital 2 days 
ago. So, they are appropriately there taking care of those new babies. 
I have pictures to bore you with, should you like to see those later.
    Ms. Peters. But I know that they are with me in spirit here today.
    And my grandchildren have asked me to say their names. Jeremy, 
Jenna, Charles, Shannah, and Daniel, I love you.
    Thank you, Senators.
    Senator Stevens. Now, are there any of your family with you today?
    Ms. Peters. No, sir, they are not here.
    Senator Stevens. Thank you.
    Ms. Peters. Mr. Chairman, America's continued economic vitality, 
our ability to compete in a global economy, and our citizens' high 
quality of life are all dependent upon dynamic, well-performing 
transportation systems. And while the current systems have served our 
Nation well, those systems must be strengthened to meet even greater 
challenges ahead.
    The challenges are numerous, and they affect every mode of 
transportation. Our vital transportation infrastructure is showing 
signs of aging. Traditional transportation programs and their funding 
sources are no longer able to keep pace with demand. Increasing 
congestion on our highways, railways, airports, and seaports reduces 
our Nation's economic productivity and consumes our citizens' time.
    Despite the progress that we have made, transportation safety and 
transportation security are a greater concern than ever before. I do 
not take lightly the challenges that I would face, nor the 
responsibilities that I would accept, should you vote to confirm my 
nomination. I believe my 20-plus-year career in transportation has 
given me the hands-on experience, the technical knowledge, and the 
leadership skills necessary to identify and implement the right 
solutions for these challenges.
    For more than 16 years, as Senator McCain has said, I worked for 
the Arizona Department of Transportation. That position allowed me to 
gain valuable insight on the way Federal policy affects real-life 
aspects of planning, building, and operating transportation systems on 
state, regional, and local levels.
    As director of ADOT for the last 3 years of that time, I oversaw 
highway, transit, rail, and aviation, as well as motor carrier 
programs, driver licensing, vehicle registration, transportation-
related clean-air programs, transportation tax collection and 
distribution. I learned the economics of developing and maintaining 
transportation infrastructure, as well as the responsibilities and 
accountabilities necessary when entrusted with public funds.
    I was then privileged to serve for nearly 4 years as Administrator 
of the Federal Highway Administration, and had the honor of working 
with you, with Congress, to develop the important SAFETEA-LU 
legislation.
    As Administrator, I made safety my highest priority. And if 
confirmed as Secretary, I will ensure that safety continues to be the 
Department's highest priority and that safety considerations are built 
into every transportation decision.
    As Administrator, I also focused the Federal Highway Administration 
on improving its oversight and accountability for public funds. During 
my tenure, we implemented policies for better management of mega-
projects, and I worked very closely with Ken Mead, the Inspector 
General, to eliminate waste, fraud, and abuse in the programs.
    If confirmed, a significant priority will be the reauthorization of 
the Nation's aviation programs. I look forward to working with Congress 
to improve aviation safety and to identify new approaches for 
modernizing the Air Traffic Control System, improving the environmental 
review process for airports, and addressing the aviation needs of small 
urban communities and rural areas.
    We must continue to promote the use of public transportation and 
assist States and communities to maximize transit capacity and 
reliability. Intercity passenger rail should be an important component 
of our Nation's transportation network. If confirmed, I look forward to 
working with Congress to pass a bill that will ensure the Nation's 
passenger rail system delivers maximum benefit to its customers.
    Our Nation's maritime industry plays an important role in daily 
commerce. In fact, our seaports handle 2.5 billion tons of goods and 
materials each year. If confirmed, I will work with industry and state 
officials to alleviate congestion at our Nation's seaports.
    Small urban and rural transportation needs--air, rail, and public 
transportation, as well as roads--were always very important 
considerations to me when I served at the Arizona DOT. And, if 
confirmed, I would look forward to working with you to maximize the 
mobility options for all Americans, regardless of where they live.
    Mr. Chairman, I believe my experience, my understanding of state 
and local transportation needs, and my commitment to ensuring the 
continued excellence of the American transportation system will enable 
me to provide effective leadership for the U.S. Department of 
Transportation. In these challenging times, we need that leadership. If 
confirmed as the next Secretary, I look forward to working with 
Congress, with President Bush, and other members of the Cabinet, as 
well as our public- and private-sector partners, to ensure our Nation 
and the American people are provided a safe, secure, efficient, and 
effective transportation system, both now and into the future.
    Mr. Chairman and members of the committee, I sincerely appreciate 
the opportunity that you have given me here today, and I will respond 
to questions, as the time is appropriate.
    Thank you, sir.
    Senator Stevens. Well, thank you very much, Ms. Peters.
    I think we'll have a round of questions, as I said. We'll limit the 
first round to 5 minutes. I expect that almost every member will come. 
We'll see how much time we'll take.
    Let me start off by saying, you know, as the junior member of this 
committee, I remember when we eliminated the Civil Aeronautics Board. 
One of the mechanisms we put in place to assure that small isolated 
areas would continue to get air service, where needed, was the 
Essential Air Service program. There have been a lot of comments about 
it. And, undoubtedly, it needs to be reviewed and reformed. But have 
you had a chance to examine that program? Do you know that program?
    Ms. Peters. Mr. Chairman, yes, I do know of the program, and I know 
of its importance. It was certainly an important program in the State 
of Arizona, as well. And, if confirmed, I would look forward to working 
with you to continue that program.
    Senator Stevens. Well, thank you very much.
    We're also looking at two concepts. One is the next-generation air 
transport system, and the other is a joint planning and development 
office for that system. Are you familiar with the background of what 
we've done so far on that approach to that new system?
    Ms. Peters. Mr. Chairman, yes, I have had the opportunity to be 
briefed by Administrator Blakey, as well as others in the agency, and 
would look forward to helping provide leadership for that system. The 
coordination with other agencies, like DHS and Department of Defense, 
as well as NASA, would be very important in that regard.
    Senator Stevens. Well, I appreciate that. We've got an enormous 
problem with these new small business jets--I like to call that the 
``mosquito fleet''--that's going to enter the system. And they're going 
to be very efficient aircraft. I'm told that they'll consume about 35 
percent of the fuel of the existing planes of that size, 9 to 12 
passengers. And they will have about 40 percent of the weight of the 
current planes. But they're going to enter the system, and primarily be 
used by private executives. Have you looked at that problem and reached 
any conclusion on how to handle the enormous number of new planes that 
are going to enter the system?
    Ms. Peters. Mr. Chairman, I am aware of the issue, and aware of the 
incidence--the higher incidence of these planes in the aviation fleet. 
I have not yet reached any conclusions as to the impacts of those 
planes coming into the fleet, but, if confirmed, would look forward to 
learning more about that issue and working with you on that.
    Senator Stevens. Well, thank you very much.
    Our co-chairman is here now. Senator, I did not make an opening 
statement. We just went right into Ms. Peters' statement. And I would 
call on you for any questions or comments you might have.
    Senator Inouye. Well, I'd just like to congratulate the nominee.
    Ms. Peters. Thank you, Senator.
    Senator Inouye. I had the great honor and privilege of meeting her 
yesterday. And I'm supporting her.
    Ms. Peters. Thank you, sir.
    Senator Inouye. That's my statement.
    Senator Stevens. Thank you very much.
    Then we will go by the early bird rule here. The staff tells me the 
next person who entered the room was Senator Lott.
    Senator Lott. Thank you, Mr. Chairman. And thank you for having an 
expeditious hearing on this nominee. And congratulations, Ms. Peters, 
on----
    Ms. Peters. Thank you.
    Senator Lott [continuing]. Being nominated by the President to this 
very important position as Secretary of Transportation.
    Ms. Peters. Thank you.
    Senator Lott. Mr. Chairman, I've had occasion in the past to work 
with the nominee when she was at the Federal Highway Administration, 
and I found it to be a very satisfactory relationship, and we actually 
produced a result, and it led to a completion of a project that had 
been in the mill for 40 years. And so, I know she can help make things 
happen.
    I don't want to ask a lot of questions now, because a lot of the 
questions I would ask you would be in areas that you may not have been 
involved in in the past. But let me just say that, as I told the 
nominee when I met with her, I think transportation is a critical part 
of our society and our economy. I think it's the best department in the 
government, in terms of actually creating jobs and doing things for 
people. Of course, the Defense Department obviously does a whole lot in 
that area. But I just believe that we need to have an agenda, a plan, 
and we need to be forward-leaning when it comes to transportation and 
how we build our roads and bridges, and doing more in the aviation 
area. We have so much we have to do there. Next year, we have the 
reauthorization of the FAA coming up. We have an air traffic control 
system that is just not up to the standards that we're going to have to 
have.
    We have had improvements in railroads, the short lines and the big 
freight lines, but we need even more. We need more capacity, and we 
need it soon. And Amtrak, we've got to decide, do we want a national 
rail passenger system, or not? Do we want some real reform, or not? Do 
we want it to be able to provide good service, on-time service, you 
know, with input from the States and the passengers, or not? We need 
leadership.
    Now, I can just say that in Congress we're going to provide 
initiatives in all these areas. As a member of the Finance Committee, 
we have a tax incentive proposal to greatly encourage the freight 
railroads to expand their capacity. We're going to keep pushing on 
Amtrak until we get a reform. And so on down the list.
    So, as our new Secretary of Transportation, I challenge you to get 
hold of this issue and get us moving forward. And I think you're going 
to have to speak to the White House and OMB a little bit, because 
they're not going to want to spend some of the money. But there is 
never a better dollar spent, other than for defense, than the money we 
spend on lanes, planes, trains, ports, and harbors. So, I hope that you 
will provide real leadership in this area.
    Just a couple of specific questions with regard to your appointment 
to the National Surface Transportation Policy and Revenue Study 
Commission. Can you give us an update on how that commission is going? 
I thought that was a good idea that could give us some direction. But 
one of the things we need is an on-time report from that commission. 
What do you know about that, as a member of the commission?
    Ms. Peters. Yes, Senator, I can answer that question. Senator, as a 
member of the commission, we met, I believe, four times before my 
nomination was moved forward, and I have stepped out of that role for 
the duration of this nomination process.
    But, Senator, the commission is looking at developing a work plan 
that will address all of the issues that were included in the 
legislation authorizing the commission. There has been much discussion 
among the commission members, and I, for one, have strongly stressed 
the need to complete that report and submit it to Congress on time so 
that it can inform the next surface transportation authorization.
    I'm not sure that all of the other members of the commission shared 
that view, but, if confirmed, sir, I would have the honor of chairing 
that commission, and would certainly look forward to driving home the 
need to get that report completed accurately, completely, and to you on 
time.
    Senator Lott. Well, I hope that you will push that and get it to 
us.
    One of the other areas that I have developed some concern--and it 
involves a conversion on my own part--is my concern about safety in all 
of these areas--in trains, in planes, and also in the highways. And we 
had a significant portion of the highway bill that had safety proposals 
in it. We actually changed our approach to states on seatbelts, for 
instance. And instead of trying to punish them or threaten them or beat 
them into submission, we gave them incentives, that if you pass the 
comprehensive seatbelt laws, you'll get a little extra money. And my 
State, which is always recalcitrant on being told by the Federal 
Government what we have to do, within 6 months did it. And we've seen, 
already, an improvement in our statistics with regard to seatbelt use 
by people involved in accidents.
    We also have asked your department, the appropriate department, to 
look at some other safety proposals to see how it might work with 
regard to child safety and some of the rearview activities and how kids 
accidentally can knock cars out of park and have them roll forward and 
kill children. So, I hope that you will also take a look at some of 
these safety initiatives that are being considered. I don't advocate 
doing them just for appearance's sake, but if we can do some things 
that would help in that area, I think it would be a very good thing for 
you to focus on.
    Ms. Peters. Senator, you have my commitment to do so. I think the 
greatest tragedy is for a child to lose his or her life in an 
automobile crash because they were not properly buckled in or in a 
child restraint seat.
    Senator Lott. Thank you, Mr. Chairman.
    Senator Stevens. Senator Dorgan is next.
    Senator Dorgan. Mr. Chairman, thank you very much. I intend to 
support the nomination.
    Let me congratulate Mary Peters. I think she has very substantial 
experience directly in these areas, so I think this is a good 
nomination.
    And I would also join my colleague Senator McCain in suggesting 
that it would make sense for us to move quickly on this nomination. I 
think having vacancies in these top positions in agencies is a 
hindrance, and I would hope we would move quickly on it.
    I want to mention just several things. First, Essential Air 
Service. We have, in western North Dakota and eastern Montana, 
particularly in the Williston area, an Essential Air Service contract 
connecting Williston and Dickinson, to Denver, and that contract--they 
had attempted to have a third flight a day when it was reauthorized a 
few years ago. Since that time, there has been substantial activity in 
the oil patch, and our region has increased ridership over 23 percent 
in one city, and 12 percent in another. And I want to work with you and 
visit with you about that, because we need to connect that increasing 
activity in the oil patch to the hub in Denver with better EAS service.
    I also want to mention, on Amtrak, if I can, the Empire Builder, 
which runs from--it affects a number of us on this committee--it runs 
from Chicago to Seattle. The previous Secretary, Norm Mineta, whom you 
succeeded, once said, ``Trains that nobody wants to ride''--he was 
talking about long-distance trains, and used the Empire Builder as an 
example--``Trains that nobody wants to ride.'' I sure hope you'll dig 
into this Amtrak issue, as Senator Lott indicated. Senator Burns knows 
how important Amtrak is across Montana. I know how important it is 
across our States. And it is full. Unbelievably popular. It's a 
terrific service. And obviously Secretary Mineta didn't know what he 
was talking about, hadn't done his research. But I think all of us look 
forward to working with you on Amtrak. Zeroing out Amtrak funding or 
coming in with a proposal that would essentially eliminate all long-
distance trains is not the way I think the majority on this committee 
believes we should approach this. So, I look forward to working with 
you on that.
    And then, Senator Inouye has been very active--and I have joined 
him--on this issue of a rulemaking with respect to foreign control of 
U.S. airlines. That is very controversial, as you know. Senator Inouye 
has proposed an amendment to interrupt that. I've supported that 
amendment. I hope we can have discussions about that issue, because I 
think that is--that's very important.
    So, those are a few of the issues. I talked to you about a radar 
issue at--in our state, as well, at the Bismarck Commerce Center.
    But, having said all of that, I--you know, Mr. Chairman, we have a 
lot of nominees that come to the Congress who are marginally 
qualified--I shouldn't say ``a lot,'' but a number of times someone's 
friend is nominated. You have a depth of experience, I think, in 
transportation issues that's very, very important.
    I do want to mention one additional thing, and that is the issue of 
surface transportation, the STB, with respect to railroads. Again, my 
colleagues, Senator Rockefeller, Senator Burns, and myself, have worked 
long and hard on the issue of captive shippers. And to say that the STB 
does nothing is to give them much greater credit than they deserve. 
It's an unbelievably inept agency that--I mean, glaciers move more 
rapidly than the STB on very serious issues that they are confronted 
with. So, those of us on this committee, on a bipartisan basis, who 
push and try to cajole and force the actions on some of the important 
things for captive shippers, who are really, literally held captive and 
are paying a massive amount of extra money--our Public Service 
Commission estimates that North Dakotans are overcharged by $100 
million--$100 million a year. You know, we'd just like an agency to 
stand up for the interests of consumers. And that has not been the case 
for a long, long time. And, again, on a bipartisan basis, members of 
this committee would very much like some action. That falls under your 
jurisdiction, at some point here, and we hope to be able to visit and 
work with you on all of these things.
    I've not asked you a question, because we didn't have opening 
statements. I know the chairman said we could either ask questions or 
make a statement. I wanted to at least alert you to those issues of 
interest from the standpoint of one rural state, North Dakota. And I 
look forward to working with you, and I will look forward to seeing 
that--if we can get this nomination to the Senate as expeditiously as 
possible.
    Ms. Peters. Thank you, Senator Dorgan.
    Senator Stevens. Well, for the interest of the members, Senator 
Inouye has just consented that we'll have a vote after the next vote on 
the floor. We will convene in the President's Room to see if we can get 
an agreement to report out the nominee's name for consideration by the 
Senate.
    Senator Rockefeller?
    Senator Rockefeller. Thank you, Mr. Chairman.
    I would say, Ms. Peters, that if we're going to have a vote on you 
after our next vote, that your situation doesn't sound exactly dire to 
me.
    [Laughter.]
    Senator Rockefeller. And, I think, for--I think, for very, very 
good reason. You came to see me. We had a--we had a very good talk. We 
discussed a number of issues. But the thing that struck me most about 
you is your openness, your--the sense of transparency about you, and 
that you, kind of, look for the right solutions, and you're willing to 
stand by them, and you're plainspoken in the way you do it. So, I 
just--I want to praise you, and the President in his selection of you--
--
    Ms. Peters. Thank you.
    Senator Rockefeller [continuing]. Because I think you're--I think 
you're going to be terrific. And I agree with what Senator Dorgan said 
about the transportation background. That's important.
    I'll just raise, a little higher than he did, the issue of captive 
shipping. That drives most of our colleagues on this committee crazy, 
but it ought to drive all of them, I think, in the direction of trying 
to solve this, and it's a very--it's a very simple thing. Staggers, who 
is a West Virginian--that Staggers Deregulation Act of 1984, everybody 
got deregulated if there were two lines going into a business, but the 
20 percent who weren't didn't get deregulated. And that's--when he was 
referring to the STB--ICC, before that--there's never been any movement 
on that. And then, there's the question of revenue inadequacy. And the 
railroads always have inadequate revenues, and then, as you're 
discussing that, you open up their annual reports, and the revenues are 
overflowing in all directions.
    And this is serious, because I don't know what the West Virginia 
figures are. If his are 100 million, that means, probably, ours are 
more, because there are so many chemicals and coal and timber that 
comes out of our State--car parts, all kinds of things. And I think 
it's just a question of a Cabinet officer, sort of, grappling with that 
issue. And we've been--I've been at it for 22 years, made absolutely no 
progress whatsoever, and so have others. It affects every one of us 
individually, as--virtually equally. Senator Kay Bailey Hutchison isn't 
here today, but, you know, Houston was just in a mess--or parts of 
Texas were in a mess when a certain situation happened down there. And 
it's got to be solved. And I think your transparency creates an 
atmosphere for doing that. I mean, maybe there would be a special 
meeting that you call. I met with the head of one of the big railroads 
this morning, and he seemed very open, accommodating in his attitude. 
Maybe things are changing.
    It isn't good enough to, sort of, take an individual industry which 
is having a problem and then make an accommodation to them, because 
that slides past the real problem. But that's a hard one.
    I would also mention the safety of motorists and pedestrians who--
at rural rail crossings. That's a huge thing in West Virginia. And it's 
a--it's not just you, it's the DHS, Coast Guard, TSA, the Corps of 
Engineers, all kinds of other folks, local also, and the behavior of 
people. But it is an enormous problem. And I won't ask for an answer 
right now, but I would actually appreciate if you would, maybe, send me 
a letter giving me some of your thoughts on what we do about that, 
because the costs involved and the safety involved--like you mentioned, 
the child with the seatbelt--well, this is, sort of, Americans with a 
seatbelt for a period of a number of yards. And a lot of people die as 
a result of this.
    Another issue that I would just bring up is the--something that we 
face very much in West Virginia, where we have--only 4 percent of West 
Virginia is flat. Everything else is either going up or down. And so, 
that means that when you have as many chemicals as we do, up and down 
the Ohio, and then into the interior and the Kanawha River, so, it was 
really the foundation state for chemicals--and so, there's the question 
of, what do you do when there's an incident, whether it's a terrorist 
attack or whether it's just a car that overturns? And the way of 
systematically handling those problems is something that is in your 
realm.
    And I would conclude, with 12 seconds. I am ranking on the Aviation 
Subcommittee here, and we've seen that the aviation industry has been 
turned upside-down, as you very well know. And its budget--the FAA's 
budget for dealing with these things--the Congress has consistently 
rejected cuts to airport construction funding. We ought to be redoing 
O'Hare Airport. I was there 2 days ago. I mean, it's wildly inefficient 
for today; very, very expensive. But the budget that gets submitted for 
FAA construction is extremely important. You will have a voice in that.
    Ms. Peters. Yes.
    Senator Rockefeller. And I want you to be sensitive to--you know, 
we've had all kinds of things that have been taken from our budget, but 
some of these things affect Americans every single day.
    And, with that, I'd just say that if you would think about those, 
respond to me on the rail-crossing thing, and to say that I'm going to 
very proudly vote for you. And evidently, very soon.
    Ms. Peters. Thank you, sir. Thank you, sir.
    Senator Rockefeller. Thank you, Mr. Chairman.
    Senator Stevens. Thank you, Senator.
    Next is Senator Burns.
    Senator Burns. Thank you, Mr. Chairman.
    Ms. Peters, thank you very much, and congratulations on your 
nomination. And we're glad you're willing to serve.
    Ms. Peters. Thank you.
    Senator Burns. Senator Rockefeller was talking about aviation, and 
the area of aviation. I think our challenges there are a great deal 
more than they were before 9/11. All the passengers are back in the air 
prior--we had prior to 9/11. But the problem is, it's taking more 
airplanes to carry them. We've got our regional jets now, not big--not 
as big as airports, but making more frequent flights. I think that is--
has to be put in the mix. And general aviation--how general aviation is 
treated, it will play, I think, an even larger role in the years to 
come. And if decisions are made in the Department of Transportation, in 
the FAA, or wherever, we've got to make sure that the big and the small 
are considered, and to be at the table.
    And as we talked about--in surface transportation, I think we're 
going to be facing great challenges in the terms of capacity 
constraints in our network. The next 20 years, freight shipments are 
expected to dramatically increase, placing serious demands on roads, 
aviation, rail, and waterways. My particular concern, as you know, 
relates to the role of what freight rates--or the freight railways play 
in our Nation's infrastructure. I think we have a problem in the rail 
industry that cannot be ignored any longer. There are capacity 
constraints. I understand that. But most of those limitations are a 
symptom of a much larger problem, the lack of meaningful competition 
for rates and service in many parts of our country, especially Montana, 
and I think Senator Dorgan alluded to that for North Dakota a little 
while ago.
    We've got to remember, the other day, the Surface Transportation 
Board issued some rules on trying to deal with small shippers, that 
they may have a place to obtain, but it's anything under $200,000. 
That's--that is--that rule is not--I don't think has a lot of merit to 
it. And we will probably address that, some way or other, here in this 
committee.
    But one has to remember that it is in the law now, in section 
10101, in title 49 of the U.S. Code--``. . . it is the policy of the 
United States Government to allow, to the maximum extent possible, 
competition and the demand for services to establish reasonable rates 
for transportation by rail.'' But there's also another line to that, 
``to maintain reasonable rates where there is an absence of effective 
competition.'' We have to address that. And--because it's being 
reflected not only in our grain that we ship from the State of Montana 
to our ports, but the energy, the coal we ship from our--from ours that 
goes into--that goes into electricity. And, of course, ratepayers pay 
that. And we've seen a big increase there. And we have to deal--now, we 
have to deal with it in the context of what's good for the railroad, 
too, because we cannot operate without good rail service. We can't--we 
have to have them. But we're down to four. And so, we have to find some 
way--some way that the small and the large can survive, and along with 
our railroads, even our short lines and how we handle that.
    And there are certain things that we can do, and we should do in 
the near future, in order to address those problems and still take care 
of the infrastructure that they need to improve their capacity to move 
freight by surface transportation.
    Amtrak, I will tell you, I want you to move some folks down to the 
Department of Transportation.
    Ms. Peters. You've mentioned that, sir.
    Senator Burns. I mentioned that to you, and I think it--because 
they have to be in the overall mix of our transportation plan in this 
country. And everybody says there's no--there's nobody who rides those 
trains across--the Empire Builder. Try and get on it, because it's a 
pretty busy train from Minneapolis to Seattle.
    So, those are the areas that I think--and I look forward in working 
with you in all of these challenges. I have no questions now. Thank you 
for coming to the office and visiting with us. Mr. Chairman, thank you 
very much for holding this hearing. And let's us get this--let's get 
this person in the seat that she deserves.
    Ms. Peters. Thank you, Senator.
    Senator Stevens. Well, thank you very much.
    I have to amend the statement I made, because absent Senators may 
have questions for the record that you will need to answer, so we will 
delay the vote on your nomination. But we will meet off of the floor on 
the next vote after the questions have been answered.
    Ms. Peters. Thank you.
    Senator Stevens. They will be presented to you in writing by 
tomorrow at 10 o'clock.
    Ms. Peters. Thank you.
    Senator Stevens. Senator DeMint?
    Senator DeMint. Thank you, Mr. Chairman. And I want to express to 
you my full support for the nomination of Ms. Peters. I appreciate her 
courtesy in coming by my office. She has actually been to South 
Carolina to work on some innovative transportation solutions. I think 
she is open to consider innovative ideas.
    I think we all know that the Federal Department of Transportation 
can do only so much, and I think it was the thought of considering 
taking some of the road responsibilities back to local and State 
governments while we look at national infrastructure for rail and what 
we're going to do with aviation may make sense at this time--and she 
seems willing to look at some innovative ideas.
    So, I appreciate her very much and look forward to supporting her 
nomination.
    Ms. Peters. Thank you, Senator.
    Senator Stevens. Thank you, Senator.
    Senator Smith?
    Senator Smith. Yes. Thank you, Mr. Chairman.
    And, Mary Peters, I congratulate you on your nomination. And I join 
my colleagues, on both sides of the aisle, in looking forward to voting 
affirmatively for your confirmation.
    As we spoke in my office about a range of issues from planes, 
trains, and automobiles, you've got a huge job. And I know you're up to 
it, both personally and professionally. You're a wonderful selection.
    There are now reports coming out that the Highway Trust Fund will 
be out of money by, or short of money by 2008. Yet, Americans love to 
travel, and they particularly love their cars. We previously spoke of 
the I-5 Columbia River corridor that connects the States of Washington 
and Oregon, and the congestion is so bad there that by 2 in the 
afternoon it's a parking lot, and yet, it is a vital link for commerce 
and transportation in our country.
    So, obviously, I'm anxious to work with you and to learn of any 
ideas you have to help us to alleviate the congestion on our highways 
and how we're going to finance it.
    Ms. Peters. I'll look forward to that, sir.
    Senator Smith. I want to comment on the railroads. Obviously, part 
of alleviating congestion on our roads is investing in our rails. And 
the Federal Government has had a minimal role in investing in rails. On 
the Finance Committee we recently implemented a tax credit for the 
railroads to invest in rails, and we find, in the operation of that tax 
credit, that much of it was nullified by the AMT. The IRS is now coming 
out with a ruling further restricting it, and, therefore, frustrating 
the very unanimous--or near unanimous intent of Congress.
    Anything you can do to help us come up with ideas for how we can 
obtain more investment in rails, both cross-country and short line, 
would be appreciated. It is critical to relieve congestion on our 
highways and to increase efficiency in our transportation means.
    I would also throw in my support for Essential Air Service. Oregon 
has many rural places. It's a big State, geographically, and rural 
airports cannot be forgotten. I appreciate anything that you can do for 
those rural airports.
    And I look forward to working with you on these issues.
    Ms. Peters. Thank you, Senator.
    Senator Smith. Thank you, Mr. Chairman.
    Senator Stevens. Thank you, Senator Smith.
    Senator Lautenberg?
    Senator Lautenberg. Thanks, Mr. Chairman. And greetings, Ms. 
Peters.
    It looks like you have made a lot of friends in your private 
discussions, and I, sort of, feel the same way, but I've got a couple 
of questions to ask.
    Ms. Peters. Absolutely.
    Senator Lautenberg. The fact of the matter is that, while we can't 
do much about the destruction that we get from extreme weather and 
other conditions beyond our control, we can do things to provide 
transportation. And I'd like to know that you're going to tackle all 
the problems that exist for every mode of transportation.
    And so, let me start. Mr. Chairman, you will have full opening 
statements in the record, I assume? Yes, he said.
    Mr. Chairman, you didn't object, right? OK.
    You certainly have experience on the highway side of things, but 
future transportation needs of our country will not be met by highways 
alone. I've met with officials from the freight rail industry. And, you 
know, I'm very concerned about Amtrak, and listen with interest as 
other Senators from other parts of the country beside the Northeast 
have shown today a serious interest in seeing that Amtrak continues to 
operate and appropriate investments are being made to bring it up to 
date. This year, we're going to celebrate the 35th anniversary of 
Amtrak. But the budgets tell us the true story, that in a single year 
we spend more on highways than we've spent on Amtrak improvement over 
the last 35 years. And we just can't continue like that.
    It was noted that the skies are going to be fuller with the advent 
of the light jets. Right now we're trying to find room in our national 
airspace for all the flights that we have--by reducing separations and 
limiting flights at certain airports. But I also note that there are 
shortages of air traffic controllers. At Newark, for instance, Federal 
Aviation Administrator Blakey has said we need 35 controllers for safe 
operations, but we're 15 percent short. And so, we have to continue to 
see that that population is built relative to the need.
    Ms. Peters, do you see a role for rail service as part of a 
security measure dealing with emergencies like 9/11 or the hurricanes, 
like Katrina? Do you see rail as an essential part of that structure 
that helps us deal with these emergencies?
    Ms. Peters. Well, Senator, I also agree that we need a national 
passenger rail system. And I certainly, to respond to your specific 
question, see a role for passenger trains, in terms of evacuating 
areas. In fact, part of the emergency response that is in place in the 
post-Katrina situation for the Gulf Coast area is to use Amtrak to help 
evacuate people from that area, should another hurricane come into the 
area.
    Senator Lautenberg. I have a letter that you sent to Senator Kyl. 
It goes back a few years, but it is about the safety concerns with 
heavier, longer trucks. You wrote ``rollovers and jack-knifings by 
trucks already''--this was, again 7 years ago--``already a problem on 
our interstates and our highways. In addition to safety consequences, 
we're reminded about the effect of additional weights on our highway 
facilities, especially bridges.'' Do you still maintain that view?
    Ms. Peters. Senator, I do. I think safety has to be a predominant 
consideration, and certainly the wear and tear on our roads. If 
confirmed, I would look forward to discussing that issue with you. 
There are circumstances where we could perhaps define situations where 
longer and heavier trucks could be safe, but I share your concern about 
making sure that safety is always first in this issue.
    Senator Lautenberg. The principal thing for us is to make sure that 
we have this balanced highway system. And so, we've discussed shortages 
in FAA controllers, the search for more capacity in the airspace, on 
the freight rail lines, and dealing with the congestion and pollution 
that we now get from jammed highways. So, we have little choice. 
Senator Lott and I have a bill that's sponsored by many of our friends 
here to get Amtrak the Federal funding that would permit it to operate 
without having to go out there with a tin cup every time they need 
something. So, I'm hoping, Ms. Peters, that you will join us in that 
quest to make sure that Amtrak gets the investment that it needs to 
bring our country's passenger railroad up to date.
    Ms. Peters. Senator, I look forward to working with you.
    Senator Lautenberg. Thanks.
    Mr. Chairman, are we going to have another 5-minute round?
    Senator Stevens. Yes.
    Senator Lautenberg. Thank you.
    Senator Stevens. Senator Pryor?
    Senator Pryor. Thank you, Mr. Chairman.
    Ms. Peters, thank you for being here before the committee today.
    Let me ask a couple of questions about trucking security. Last 
week, the Senate passed the port security bill, and it had some 
trucking security provisions in there to clarify authority and 
responsibility when it comes to fraudulent CDLs, State and local law 
enforcement, those type issues. I've noticed, in some of my reading, 
that the FMCSA is considering a pilot program to allow some long-haul 
Mexico-domiciled motor carriers to operate throughout the United 
States. Do you know anything about that?
    Ms. Peters. Sir, I have also heard that, Senator. And I have asked 
the question. And there are no immediate plans to do so.
    Senator Pryor. OK. I'd--if there are plans, I'd be curious about 
what statutory authority there is to do that. Do you know what statute 
might give the agency that authority?
    Ms. Peters. Sir, I do not. And I understand your concern about the 
issue, and, if confirmed, would look forward to getting to the bottom 
of the so-called rumors and addressing the issue.
    Senator Pryor. I'd say this, that--and I look forward to working 
with you on this, but I would say this, that if DOT is planning on 
moving forward, the kinds of things I would want to know is, what legal 
authority is there? And then I would want to know, is there some sort 
of agreement with Mexico to allow U.S. safety inspectors and auditors 
to look at the trucks? Do they have to meet the same requirements that 
U.S.-domiciled carriers have to meet? Would they have to pay all the 
same fees, the various registration, fuel taxes, those kind of things? 
Would they have to do the international registration plan, the IRP, and 
the internal fuel tax agreement? Would they have to comply with all the 
same rules and regs that the U.S. carriers would have to? So, as you 
look at that, I would very much appreciate having a dialogue with your 
Department and those agencies as that is being developed.
    And the other thing I wanted to touch on, something you and I 
talked about several days ago, is the real infrastructure needs that we 
have in this country. I mean, we just talked about trucking. Obviously, 
our highways are overcrowded. We all know that in the trucking industry 
there's a driver shortage right now. But you look at our railway 
system, it's about at capacity in many places. Air Traffic Control 
Systems are outdated. We've not done a great job of upgrading and 
maintaining our locks and dams on our rivers. You know, we can go 
through a long list of our needs. And I know part of your 
responsibility is to try to address all those things. And I know you've 
given that a lot of thought. But let me just ask my question, then I'll 
let you answer.
    In some of my reading, I read where you said that we can't depend 
on the Federal Government to bring the money in, that it was around--
that was around when the interstate system was first built. And I guess 
my question is, what does that mean? When you say, ``We can't depend on 
the Federal Government to have that same kind of money when the 
interstate system was first built,'' what does that mean? That sounds 
like toll roads, to me, but I'm curious to hear your response on how 
you think the Federal Government will--or we, as a Nation--will pay for 
these transportation needs that we have.
    Ms. Peters. Sir, the basis of the remark was the fact that the gas 
tax system which was put in place to finance the interstate system is 
likely not going to be viable to help meet all of our nation's 
transportation system needs in the future, because of the greater 
incidence of hybrid or alternatively fueled vehicles coming into the 
fleet, which is a very good thing, in terms of air quality and other 
issues. So, the basis of my remark was that we have to look beyond 
those traditional methods of funding infrastructure to look for new and 
innovative ways to bring a diversified set of funds to bear to meet our 
Nation's transportation needs.
    Senator Pryor. Does--would that include toll roads?
    Ms. Peters. It could very well, sir, yes.
    Senator Pryor. Would that include toll roads on existing highways, 
or just on new construction?
    Ms. Peters. Sir, I believe that the intent right now is only on new 
construction or improvement construction, but those are decisions, as 
was mentioned by one of your colleagues, that I think are better made, 
in most cases, by State and local governments. However, the Federal 
Government certainly has an interest, especially in our interstate 
system, in ensuring that that system continues to serve all Americans, 
and, importantly, serve commerce needs throughout the United States. 
So, it is an issue that I would look forward, if confirmed, sir, to 
discussing more with you and learning more about your position on the 
issue.
    Senator Pryor. Thank you.
    Thank you, Mr. Chairman.
    Senator Stevens. Senator Snowe?
    Senator Snowe. Thank you, Mr. Chairman.
    I welcome you, Administrator Peters. And you certainly come with, 
you know, the highest level of commendation with respect to your past 
accomplishments and experience, so I'm very pleased that you'll become 
the next Secretary of Transportation because of your breadth of 
expertise in the areas that are going to be so critical to the future.
    I know some of my other colleagues on the committee have already 
referenced it, and I'm very pleased as well that we had the opportunity 
to meet recently on some of the issues that I consider to be critical, 
certainly to my State of Maine, as also to, I think, the national 
transportation policy. But obviously as we look to the future, one of 
the concerns that I had, and I've expressed, is making sure that, you 
know, rural States like Maine are not forgotten in the overall 
transportation policy.
    First of all, as I mentioned to you about Amtrak--and we were 
fortunate to be one of the last States to have the benefit of an 
extension of Amtrak from Boston to Portland, and it's extremely 
successful, has a 92-percent, you know, customer satisfaction rate, 
because of the outstanding services provided to the people of Maine and 
the vicinity. It's worked exceedingly well, so much so that we're 
looking to extend it even further up into the State. It's heavily 
utilized. It's one of the most successful routes--second-highest 
revenue routes in the country. So, I think that there's no question 
this bodes well for the future.
    And one of the reasons for its success, as I mentioned to you, was 
the Federal waiver that was granted to the State to use the Congestion 
Mitigation and Air Quality funds for that purpose, and that will expire 
in 2009. Can you state for this committee what your views are with 
respect to the use--the flexibility using Federal transportation funds 
for this purpose? Because that certainly has contributed to the success 
for the Downeaster, the extension of Amtrak to Maine, and certainly 
will in the future, and if--particularly if we want to extend that 
service even further up because it's so heavily utilized by the people 
in New England, in my State.
    Ms. Peters. Senator, as a former State transportation 
administrator, I very much encourage the exercise of local discretion 
to use funding that is allocated to States, such as Maine has done, to 
help support the Amtrak operation. In fact, in terms of having a viable 
national transportation--rail transportation system, I think having 
that kind of flexibility, and State participation and involvement, will 
be essential in the future.
    Senator Snowe. Well, I appreciate that, because I think that it 
is--I think it's going to be critical. You know, I happen to believe 
in--and I gather you share that belief, as well--that it is essential 
that the Federal Government play a role in creating a strong national 
rail system. It is absolutely essential that we have one, and one 
that--obviously, that's going to provide--that's going to have the 
benefit of Federal support. You know, hopefully we can move, you know, 
further and further away from, you know, huge Federal subsidies. I 
mean, that's obviously what we have striven for in this committee over 
the years. But, nevertheless, I think it's so vital and central to our 
overall transportation policy.
    Second, on aviation, rural aviation--and, again, I know my 
colleagues have raised this issue, but I do think it is paramount--and 
that is, of course, regional airports, such as those that exist in 
Maine, or Essential Air Service communities that depend upon the 
Essential Air Service, you know, funding. And one, of course, is the 
fact that--first, referring to the operational evaluation plan--it 
seems that much of the focus in the past of--by these plans--and 
certainly the most recent, focused on the large hub airports--
understandably so, because of the congestion that exists at these hub 
airports. But, on the other hand, what concerns me is what is occurring 
in, you know, my State with the small regional airports, is that we're, 
you know, losing--a loss of seats and overall--both in terms of flights 
and seats in passenger service--there's no question that our airports 
have been very hard hit over the years, and yet it's pivotal and 
central to economic development.
    So, I would like to get your views--one, in terms of examining, you 
know, how you incorporate, you know, regional airports and those that 
serve the rural States of this country, in the overall plans for the 
future.
    Ms. Peters. Senator Snowe, I do think it's essential to have air 
service into our rural areas. You know, it's been over 25 years since 
deregulation of the aviation industry, and we--we need, I think, to 
look again at how the service is working, and look at the situations 
that you describe, and determine where it's most appropriate to provide 
assistance to those airports.
    Having come from a State, also, with a large amount of rural area, 
I do appreciate how important those regional airports are, and think 
they have to be part of the complement of transportation services in 
the future.
    Senator Snowe. Well, I appreciate that. And I hope you will give 
that consideration, since they play a premier role in the development 
of our economies, as does the Essential Air Service program that--you 
know, Maine is one of the--other than four other States, we're the 
largest beneficiaries of that program. It's absolutely vital to ensure 
that those airports receive that service.
    I'm also concerned about the administration's proposed, you know, 
community cost-sharing between the Federal Government--in some cases as 
much as 80/20. It's something that we have rejected in the past, and 
certainly, hopefully, will do so in the future, because I think that 
places an inordinate burden on those communities that depend on the EAS 
program. But in--it's obvious it's going to have a paramount impact on 
them if they have to--if they have to provide for the cost-sharing and 
they see a reduction in the overall program, which--the administration 
has submitted, you know, a program and a budget for that, for less 
than, I think, half of what exists today.
    Ms. Peters. Senator, I absolutely understand your concerns in that 
area and would be happy to get more information, should I be confirmed, 
and follow up with you personally on that.
    Senator Snowe. I appreciate that. Thank you.
    Thank you, Mr. Chairman.
    Senator Stevens. Thank you.
    Ms. Peters, I'm told that while you were reading your opening 
statement this committee finally received clearance to seek unanimous 
consent to pass the National Transportation Safety Board 
reauthorization bill. Aviation safety is one of our major concerns.
    In Alaska, I was alarmed when I found that 1 out of 11 pilots were 
being killed in aircraft accidents, and we have the highest number of 
pilots per capita in the country. We developed what we called the Five 
Star Medallion Program, with the help of the Department of Commerce and 
FAA, and we have reduced significantly pilot deaths and increased 
safety in our State.
    I want to know if you're willing to come up and take a look at that 
program and study it to see if it couldn't be replicated throughout the 
United States, particularly the rural areas of the United States.
    Ms. Peters. Mr. Chairman, it sounds like an exemplary program, and 
one I would be very pleased to come to Alaska to review.
    Senator Stevens. I look forward to showing you a little bit of my 
marine research capabilities, too.
    Ms. Peters. Ah. I'll look forward to that, sir.
    Senator Stevens. I want to get back to the whole problem of 
financing. As other Senators have said, FAA will be reauthorized next 
year. And we've had hearings now on aviation investment needs. And I 
think we're going to have to have a major session with the aviation 
communities in order to try and develop a plan. We need a financing 
option that pulls in both the increased needs, in terms of investment, 
and the transformation to the next-generation air transport system. I 
do hope that that is something that you will help us on. As a matter of 
fact, we have one of your people here on this committee as a fellow for 
a year to help find ways that we can work together on that issue.
    I've not talked about highway issues. We all know your background 
is in highways. And so, all I can say is, is that we have an increasing 
number of fatalities on our highways. I think if we can't reverse that 
any other way, we're going to have to restore the speed limits on 
interstate highways. We have to find some way to reduce those deaths.
    Ms. Peters. Yes.
    Senator Stevens. And each year they're going up. So, I would hope 
that we would have a chance also to work with you on that, particularly 
with regard to the fatalities on our interstate highways.
    Ms. Peters. Mr. Chairman, you have my commitment to do so. There is 
no higher priority at USDOT than reducing the number of deaths and 
injuries that occur on our Nation's highways every year.
    Senator Stevens. Yes. I was appalled at some of the statistics I 
saw today as we prepared for this hearing, and that is an alarming rate 
of increase.
    Let me now turn to Senator Lautenberg.
    Senator Lautenberg. Thanks, Mr. Chairman.
    Ms. Peters, you struck a note of alarm with me, which passed 
because I ran out of time, but to say that you were looking at the 
opportunity in--for areas where truck size and weight standards could 
be changed, so long as it's done safely. Now, if I look at your letter 
that I mentioned before, when you were with the Arizona Department of 
Transportation, you talked about the damage that results from heavier 
weights in the trucks. And here, you're telling us--and we're laggard 
by billions and billions of dollars in repairing bridges. We have lots 
of functionally obsolete bridges across the country. And I hear you say 
you're looking for opportunities to increase truck weights--the size 
and the weights. Isn't that kind of a reversal of position? And, if so, 
please let me know, because that's not something that I would take to 
as a positive indication of where you want to go.
    Ms. Peters. Senator, please forgive me if I miscommunicated on 
that. What I was referring to is that some States are considering 
proposals for truck-only lanes, lanes where trucks might be segregated 
from the rest of the traffic, with deeper pavement depths, deeper 
pavements that would withstand the weight of a truck better. If traffic 
could be segregated as in those weight proposals--which some States are 
considering now--that is what I was referring to. I was not referring 
to lifting the ``Longer Combination Vehicle'' freeze or the truck size 
and weight limits. The position that I took in that letter, back 7 
years ago to Senator Kyl, remains my position.
    Senator Lautenberg. OK. I just wanted to be sure that we're on the 
same truck length, as they say.
    And the matter of foreign ownership of our airlines, ownership and 
control, that's a matter of great concern to me, and to many of us. 
U.S. airlines are important national assets. And I'd be wary and 
resistant to the notion that we might turn over--let control be taken 
by foreign owners. I think it's a bad idea, for many reasons. But do 
you intend to--if you're confirmed, to pursue changes in the rules on 
foreign ownership of U.S. airlines?
    Ms. Peters. Senator, I certainly have heard your concerns, as well 
as those of many other members of this committee, and of Congress, as 
well, and I do understand that there have been comments received by the 
Department on a supplemental notice of proposed rulemaking as it 
relates to the control of airlines. I commit to you that I will 
carefully review all of those comments, and review them with you, and 
talk with you, before the Department makes any decision on that issue.
    Senator Lautenberg. You're aware of the fact that there is a strong 
interest, in our region, to open up another rail tunnel under the 
Hudson River----
    Ms. Peters. Yes.
    Senator Lautenberg [continuing]. So that we can increase the 
capacity to allow enough trains to go through there. And I'd like to 
know that you will at least consider seriously the requests for help 
from you to make sure that we get going with that project. That's a 
project of national interest, even though the tunnel is between New 
York and New Jersey, because right now it is the biggest bottleneck on 
the entire Northeast Corridor from here to Boston. And so, can I have 
an indication of the fact that you're--that you understand the need for 
this tunnel and will be helpful to us as we pursue a way to get it 
done?
    Ms. Peters. Senator, certainly. I certainly appreciate the need for 
that tunnel, and have had an opportunity to work with my former 
colleagues, Jack Lettiere, as well as Joe Boardman, who are now in 
different positions, but have impressed upon me the need for 
transportation solutions in that area.
    Senator Lautenberg. Now, I don't want to ask any questions that 
might be interpreted as being on the personal side, but you're a 
motorcycle rider, are you not?
    Ms. Peters. Yes, sir, I am.
    Senator Lautenberg. Do you always wear a helmet?
    Ms. Peters. I never ride without a helmet, sir.
    Senator Lautenberg. I just wanted to be sure, because--everybody--I 
would buy you one, if you didn't have one.
    Because I had a ski accident a couple of years ago on my skis. The 
helmet that I was wearing was 2 days old, and I've been skiing 60 
years, and it virtually saved my life. I had to go in for emergency 
surgery as a result of that.
    That was for foolishness, Mr. Chairman.
    Thank you very much, Ms. Peters. I look forward to working with 
you.
    Ms. Peters. Thank you, Senator.
    Senator Stevens. A bike rider, huh?
    Ms. Peters. Yes, sir, an avid motorcyclist. In fact, I own two.
    Senator Stevens. You've got another one down there at the White 
House, in Josh Bolten. Now we understand why you move so quickly.
    Senator Stevens. We thank you very much. As I said, there are some 
absent Senators and we have agreed that they will have until 10 o'clock 
tomorrow morning to file questions. As soon as those answers are 
received, we will move to consider reporting your nomination to the 
floor, in a meeting held in the President's Room off the floor. I 
cannot tell you exactly when that time will be. It depends on how long 
it takes you to answer those questions.
    We do thank you very much for your appearance today, and I think 
you've been very frank to all these people. You've made some promises 
that I'm not sure you can keep, but that's all right.
    Senator Lautenberg. I'll be hanging over there, Mr. Chairman.
    Senator Stevens. I understand. We do have a fairly bipartisan 
approach to many issues, particularly in transportation here in this 
committee. I look forward to working with you, along with our co-
chairman and members on both sides of the aisle. You have a grand 
assignment. It's a very difficult one. We wish you very well.
    Ms. Peters. Thank you so much, sir.
    Senator Stevens. Thank you. The Committee is adjourned.
                                 ______
                                 

              [From the New York Times, December 10, 2006]

                     Making the Highways Less Safe

    To describe the Bush administration's policy toward the trucking 
industry as deregulation is farcical. The word empowerment is so much 
more fitting for the array of trucking executives the White House 
appointed to be the ranking regulators of their own industry. While 
avowing professionalism, this cadre of political contributors and 
industry insiders has brazenly relaxed Federal standards for truck 
safety over the last 6 years. Rather than tightening drivers' hours as 
safety specialists advised, the political powers at the truck safety 
agency have actually loosened them--increasing the maximum driving 
hours to 77 from 60 over 7 days, and to 88 hours from 70 over 8 
consecutive days on the road.
    The industry's deep-pocketed lobbyists made sure the Republican-
controlled Congress remained as passive as any glassy-eyed driver 
involved in the annual toll of 5,000 truck-related fatalities. A 
detailed report in The Times by Stephen Labaton has laid bare the 
administration's shameful policy of industry pandering as the worst in 
a generation. Rather than fulfilling the standard set a decade ago to 
halve the death rate by now, the administration has let the industry 
continue as the Nation's most treacherous. The accident fatality rate 
is nearly double that involving only cars.
    The list of highway foxes embedded in the regulatory henhouse 
highlights the Bush era's anointment of big industry across the 
spectrum of public and worker safety, from mines to Interstates. The 
head of the government truck safety agency, Joseph Clapp, was a 
trucking executive who led a foundation that produced research 
ludicrously discounting driver fatigue as a factor in accidents. David 
Addington, a trucking industry force for loosened regulations, 
eventually became chief of staff to Vice President Dick Cheney--and a 
zealot for overweening executive power.
    Reprimanded in court rulings for ignoring its own experts' findings 
about driver fatigue, the truck safety agency responded by reissuing 
the same faulty controls. These evade such obvious needs as stronger 
training and reliable electronic trip logs in place of ``comic books,'' 
as grizzled long-haulers call their paper logs. Safety specialists 
point out there would be a national uproar if airline regulators dared 
to tolerate a fatality rate of 5,000 a year.
                                 ______
                                 

              [From the New York Times, December 3, 2006]

      As Trucking Rules Are Eased, a Debate on Safety Intensifies
     (Byline: By Stephen Labaton; Ron Nixon contributed reporting.)

    As Dorris Edwards slowed for traffic near Kingdom City, Mo., on her 
way home from a Thanksgiving trip in 2004, an 18-wheeler slammed into 
her Jeep Cherokee.
    The truck crushed the sport-utility vehicle and shoved it down an 
embankment off Interstate 70. Ms. Edwards, 62, was killed.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The truck driver accepted blame for the accident, and Ms. Edwards's 
family filed a lawsuit against the driver and the trucking company.
    In the course of pursuing its case, the family broached a larger 
issue: whether the Bush administration's decision to reject tighter 
industry regulation and instead reduce what officials viewed as 
cumbersome rules permitted a poorly trained trucker to stay behind the 
wheel, alone, instead of resting after a long day of driving.
    After intense lobbying by the politically powerful trucking 
industry, regulators a year earlier had rejected proposals to tighten 
drivers' hours and instead did the opposite, relaxing the rules on how 
long truckers could be on the road. That allowed the driver who hit Ms. 
Edwards to work in the cab nearly 12 hours, 8 of them driving nonstop, 
which he later acknowledged had tired him.
    Government officials had also turned down repeated requests from 
insurers and safety groups for more rigorous training for new drivers. 
The driver in the fatal accident was a rookie on his first cross-
country trip; his instructor, a 22-year-old with just a year of 
trucking experience, had been sleeping in a berth behind the cab much 
of the way.
    Federal officials, while declining to comment about the Edwards 
accident, have dismissed the assertion that deregulation has reduced 
safety and have maintained that in fact it has helped, though the 
Edwards family and many other victims of accidents have come to the 
opposite conclusion.
    In loosening the standards, the Federal Motor Carrier Safety 
Administration was fulfilling President Bush's broader pledge to free 
industry of what it considered cumbersome rules. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In the last 6 years, the White House has embarked on the boldest 
strategy of deregulation in more than a generation. Largely unchecked 
by the Republican-led Congress, Federal agencies, often led by former 
industry officials, have methodically reduced what they see as 
inefficient, outdated regulations and have delayed enforcement of 
others. The Bush administration says those efforts have produced huge 
savings for businesses and consumers.
    Those actions, though, have provoked fierce debate about their 
benefits and risks. The Federal Government's oversight of the trucking 
industry is a case study of deregulation, as well as the difficulty of 
determining an exact calculus of its consequences. Though Ms. Edwards's 
family and the industry disagree on whether the motor carrier agency's 
actions contributed to her death, her accident illuminates crucial 
issues in regulating America's most treacherous industry, as measured 
by overall deaths and injuries from truck accidents.
    The loosened standards, supporters say, have made it faster and 
cheaper to move goods across the country. They also say the changes 
promote safety; without longer work hours, the industry would be forced 
to put more drivers with little experience behind the wheel. Regulators 
and industry officials point out that the death toll of truck-related 
accidents--about 5,000 annually--has not increased, while the fatality 
rate, the number of deaths per miles traveled, has continued a long 
decline. The number of annual injuries has also been dropping slowly, 
falling to 114,000 last year. ``This administration has done a good 
job, and the agency has done a good job, in advancing safety issues in 
a manner that takes into account all the important factors of our 
industry,'' said the top lobbyist for the American Trucking 
Associations, Timothy P. Lynch.
    But advocates of tighter rules say the administration's record of 
loosening standards endangers motorists. The fatality rate for truck-
related accidents remains nearly double that involving only cars, 
safety and insurance groups say. They note that weakening the rules has 
reversed a course set by the Clinton administration and has resulted in 
the Federal Government repeatedly missing its own targets for reducing 
the death rate.
    ``It is a frustrating disappointment that has led to a tragic 
era,'' said David F. Snyder, an assistant general counsel at the 
American Insurance Association who follows the trucking industry 
closely. ``The losses continue to pile up at a high rate. There has 
been a huge missed opportunity.''

                        AN INDUSTRY'S INFLUENCE

    In decisions that had the support of the White House, the motor 
carrier agency has eased the rules on truckers' work hours, rejected 
proposals for electronic monitoring to combat widespread cheating on 
drivers' logs and resisted calls for more rigorous driver training.
    While applauded by the industry, those decisions have been subject 
to withering criticism by Federal appeals court panels in Washington 
who say they ignore government safety studies and put the industry's 
economic interests ahead of public safety.
    To advance its agenda, the Bush administration has installed 
industry officials in influential posts.
    Before Mr. Bush entered the White House, he selected Duane W. 
Acklie, a leading political fund-raiser and chairman of the American 
Trucking Associations, and Walter B. McCormick Jr., the group's 
president, to serve on the Bush-Cheney transition team on 
transportation matters.
    Mr. Bush then appointed Michael P. Jackson, a former top official 
at the trucking associations, as deputy secretary of the Department of 
Transportation. To lead the Federal Motor Carrier Safety 
Administration, the president picked Joseph M. Clapp, the former 
chairman of Roadway, a trucking company, and the leader of an industry 
foundation that sponsored research claiming fatigue was not a factor in 
truck accidents, a conclusion at odds with government and academic 
studies.
    And David S. Addington, a former trucking industry official who led 
an earlier fight against tougher driving limits, became legal counsel 
and later chief of staff to Vice President Dick Cheney, an advocate of 
easing government regulations.
    In addition to supplying prominent administration officials, the 
trucking industry has provided some of the Republican party's most 
important fund-raisers. From 2000 to 2006, the industry directed more 
than $14 million in campaign contributions to Republicans. Its 
donations and lobbying fees--about $37 million from 2000 to 2005--led 
to rules that have saved what industry officials estimate are billions 
of dollars in expenses linked to tougher regulations.
    But to the families of accident victims, the motor carrier agency 
has failed to fulfill a promise to significantly reduce fatalities, 
exacting a tragic personal price.
    ``They are not getting much done in Washington,'' said Daphne Izer 
of Maine, who founded Parents Against Tired Truckers in 1994 after a 
Wal-Mart driver fell asleep at the wheel of his rig, killing her son 
and three other teenagers in the car with him. ``As a result, more 
people will continue to die.''
    Federal regulators disagree with that assessment of their 
performance. ``We have made significant progress, yet much work remains 
to achieve our vision,'' said David H. Hugel, the new deputy 
administrator of the Federal Motor Carrier Safety Administration. ``Our 
challenges also are increasing because our Nation maintains the most 
extensive and complex transportation system in the world, and that 
system and number of people who use it continues to grow.''
    The Federal Government began overseeing the trucking industry in 
the 1930s, setting rates, limiting competition and regulating safety 
practices. From the start, companies won important concessions from 
Washington, including exemptions from minimum wage and other labor 
laws. The industry also resisted efforts to impose tougher safety 
standards, saying it could police itself.
    In 1937, the first driving hour limits were set. Truckers were 
allowed drive up to 10 continuous hours but were required to rest for a 
minimum of 8 hours. The remaining 6 hours could be used for other work 
activities, like loading, or for breaks or meals. Truckers could drive 
up to 60 hours over 7 consecutive days, or 70 hours over 8 days. To 
enforce those rules, the government required drivers to keep logs.
    Repeated efforts over the years to tighten the rules were blocked, 
often as a result of vigorous industry lobbying.
    Trucking companies have long argued that tougher standards are not 
necessary to promote safety, and that they would cause devastating 
economic pressures. Profit margins in the industry are thin, 
particularly after economic deregulation in 1980 prompted competition. 
Long hours and low pay for drivers have led to high turnover, and 
carriers struggle to find replacements. Those conditions, safety 
experts say, have contributed to widespread safety problems.
    The practice of falsifying driver hours is an open secret in the 
industry; truckers routinely refer to their logs as ``comic books.'' 
Fines are small. The Federal motor carrier agency does not have the 
staff to monitor closely 700,000 businesses and almost eight million 
trucks.
    Timothy L. Unrine, a 41-year-old driver from Virginia, said in a 
recent interview that he was taught to conceal excessive driving hours 
during training last January by his former employer, Boyd Brothers 
Transportation of Birmingham, Ala. Mr. Unrine said his orientation 
instructor told his class that government inspectors were allowed to 
examine a monthly logbook if it was bound. But if the staples were 
removed, the log was considered ``loose leaf '' and inspectors could 
require an examination of only those pages from the most recent 7 days, 
Mr. Unrine said the drivers were told.
    Company officials advised drivers to use fuel credit cards that 
recorded only the date, not the time, of the fuel stop, he said.
    Mr. Unrine added that the company pushed him to work longer hours 
than permitted, and that his logbooks were ``adjusted'' many times to 
make it appear he was within the limits. Several times, when he told a 
dispatcher he was too tired to make another trip, he said, he was 
ordered to do so after just a few hours' sleep.
    ``I never felt safe driving under these conditions,'' said Mr. 
Unrine, who left Boyd last June because of a legal dispute over medical 
bills from a fall. ``I talked to many drivers on the fuel islands, 
truck stops and rest areas. Logbooks are so fake; it scares me that 
there aren't more accidents on the road.''
    Richard Bailey, the chief operating officer at Boyd Brothers, and 
Wayne Fiquett, the company's vice president for safety, disputed Mr. 
Unrine's claims. They said that drivers might have been instructed to 
keep only seven days of log entries, but denied that they were 
encouraged to violate the rules.
    ``Nobody here will tell someone to do something unsafe,'' Mr. 
Fiquett said. ``If a driver is tired or over his hours, the system will 
not allow that driver to continue driving.''
    In 1995, Congress directed regulators to study truck driver fatigue 
and its safety consequences and to consider new rules. But the agency 
then charged with truck safety, the Federal Highway Administration, 
never did so. Two years later, the Clinton administration vowed to cut 
the annual death toll of truck-related accidents in half within a 
decade. In 1999, Congress created the Federal Motor Carrier Safety 
Administration in response to what lawmakers considered ineffectual 
regulation and high casualties.
    A year later, the agency proposed tighter service hour rules. They 
would allow long-haul drivers to work a maximum of 12 hours a day, and 
require them to take 10-hour breaks between shifts. They also required 
installation of electronic devices to replace driver logs.
    Advocates of tighter standards said the rules did not go far 
enough, while the industry said cutting driver hours could raise costs 
by $19 billion over a decade, 5 times more than government estimates. 
Action stalled when trucking lobbyists inserted language into a 
spending bill that forced the motor carrier agency to delay action 
until after the presidential election that November.

                          REWRITING THE RULES

    Industry leaders overwhelmingly supported the candidacy of George 
W. Bush, confident that his administration would be friendlier than one 
led by his opponent, Al Gore. On the campaign trail, Mr. Bush accused 
his Democratic rival of wanting to expand government, while Mr. Bush 
repeatedly expressed his desire to reduce Federal regulations.
    During the 2000 election cycle, trucking executives and political 
action committees gave more than $4.3 million in donations to the 
Republicans and less than $1 million to Democrats, according to the 
Center for Responsive Politics, a nonpartisan research organization.
    In the months before and after the election, a leading industry 
figure in the campaign against tighter driving rules was Mr. Acklie, 
who became chairman of the American Trucking Associations in the fall 
of 2000. A longtime Bush family friend and Republican fund-raiser, he 
led one of Nation's largest trucking companies, Crete Carrier, based in 
Nebraska. Mr. Acklie, who stepped down from the post about a year after 
his appointment, did not return telephone calls seeking comment.
    Another important advocate was Mr. Addington, then general counsel 
to the Trucking Associations. In August 2000, when two top 
transportation officials complained in a press release about the 
industry's ``raw use of political power,'' he demanded that they be 
investigated for possibly violating a Federal law that prohibits 
officials from lobbying and issuing propaganda. In January 2001, he 
joined Mr. Cheney's office, where he is now chief of staff. Lea Anne 
McBride, the vice president's spokeswoman, said Mr. Addington had not 
been involved in issues related to his trucking activities.
    Other industry officials also joined the administration. Mr. 
Jackson, a former colleague of Mr. Acklie and Mr. Addington at the 
trucking group, became the No. 2 official at the Transportation 
Department, which oversees the industry. Mr. Clapp, the former head of 
Roadway trucking, took over the motor carrier agency and soon became 
involved in rewriting the rules.
    The insurance industry and safety groups provided studies showing a 
high percentage of accidents were caused by tired truck drivers. But 
after the Trucking Associations produced a study concluding that only 2 
percent of accidents were caused by fatigued truckers, while more than 
80 percent were caused by passenger cars, the agency decided to loosen 
the hourly restrictions.
    In April 2003, the agency issued rules that increased the maximum 
driving hours to 77 from 60 over 7 consecutive days and to 88 hours 
from 70 over 8 consecutive days. It capped daily work hours at 14, 
which included driving as well as waiting for loading and unloading. 
The agency also decided not to require truck companies to install 
electronic monitoring devices.
    The agency said the new rules would modestly decrease the number of 
fatalities by increasing the required time off for drivers, to 10 hours 
from 8. A year later, the agency set training standards for new 
drivers: 10 hours of training, none of it on the road.
    Congress has provided little scrutiny of the trucking standards.
    ``There has not been the kind of in-depth examination of these 
issues that should have occurred,'' said Representative James L. 
Oberstar of Minnesota, the ranking Democrat on the House Committee on 
Transportation and Infrastructure. Mr. Oberstar and others blamed the 
failure on the political muscle of the industry. From 2000 to 2004, the 
American Trucking Associations donated $2 million to lawmakers, mostly 
to Republicans who served on committees with jurisdiction over trucking 
issues.
    The courts have played a more significant role. In July 2004, a 
three-judge panel from the Federal appeals court in Washington issued a 
harsh opinion in a lawsuit brought by several safety organizations over 
the trucking work rules.
    Judge David B. Sentelle, a conservative Republican appointed by 
President Ronald Reagan, wrote the opinion, faulting the Federal Motor 
Carrier Safety Administration for ``ignoring its own evidence that 
fatigue causes many truck accidents.''
    The opinion continued, ``The agency admits that studies show that 
crash risk increases, in the agency's words, `geometrically' after the 
eighth hour on duty.'' The judges said they could not understand why 
the agency had not estimated the benefits of electronic monitoring, 
saying the agency's ``passive regulatory approach'' probably did not 
comply with the law. The panel struck down the hour and service rules.
    But a year later, in August 2005, the agency issued virtually 
identical rules, which the safety groups and the Teamsters union are 
again challenging in court. Oral arguments are set for Monday before 
another three-judge Federal appeals panel here. The agency had a 
similar legal setback on driver training. A three-member appeals court 
panel called the regulation ``baffling'' and criticized the agency for 
ignoring its own studies on the need for more comprehensive training.
    The agency has not responded to the court's decision by issuing any 
new rules.
    Meanwhile, the agency has failed, by growing margins, to meet its 
annual targets for lowering the death rate for truck-related accidents.
    Mr. Hugel, the agency's deputy administrator, blames increasing 
traffic for the agency's inability to meet its goals. ``More trucks, 
combined with even more passenger vehicles,'' he said, ``leads to more 
roadway congestion, increased risk and a larger number of fatalities.''
    In a budget submission to Congress last February, though, the 
Transportation Department noted its repeated failure to cut the death 
rate and conceded that the agency ``has difficulty demonstrating how 
its regulatory activities contribute to reaching its safety goal.''
    Safety experts, for their part, say the numbers reflect the 
agency's failings.
    ``The fatalities speak to the agency's lackluster performance,'' 
said Jacqueline S. Gillan, vice president of Advocates for Highway and 
Auto Safety, an alliance of consumer, health and insurance 
organizations. ``These truck crashes happen one at a time in 
communities across the country and get little attention,'' Ms. Gillan 
said. ``Can you imagine what the outcry would be at the FAA if we had 
25 major airplane crashes a year, which is the equivalent of what is 
happening with trucks?''

                           A FAMILY'S LAWSUIT

    After Ms. Edwards's death, her only son, Steve, a professional 
musician in Chicago, sued the trucking company, Werner Enterprises of 
Omaha, and the driver involved in the accident, John L. McNeal, 36. Mr. 
McNeal was dismissed shortly after the accident.
    Mr. McNeal said in a sworn deposition that he had been tired from 
driving all day from Tennessee without a break. He had been in the cab 
for about 12 hours, including about 8 hours at the wheel. Because he 
had been driving trucks professionally for only a month, he was 
assigned a trainer, who had slept much of the trip.
    After Mr. McNeal acknowledged he was at fault, Werner Enterprises 
settled the lawsuit for $2.4 million. Werner's general counsel, Richard 
S. Reiser, said that the company had a strong safety record and that 
its training program far exceeded the Federal requirements. Mr. Reiser 
said that Mr. McNeal was in compliance with both the old and new work 
hour rules but acknowledged he was unfamiliar with the proposals by 
safety groups that would have prevented the driver from working as long 
as he did that day. He also said that any driver who was tired should 
stop, regardless of how long he had been on the road.
    ``The driver should be the one who says, `If I'm tired, I should 
pull over,' '' Mr. Reiser said.
    Mr. Edwards, though, thinks responsibility for safety goes beyond 
individual drivers, and links his mother's death to the Bush 
administration's decisions against imposing tighter driving limits. 
``These drivers are working hard every day on the road to make a 
living,'' he said.``They are overtired and underpaid.''
    Mr. Edwards said his mother, who had worked at a Procter & Gamble 
Company factory before her weakened knees forced her to retire, had 
been looking forward to traveling, gardening and playing with her 
grandchildren.
    ``If there is any silver lining, it is that he hit her so hard she 
never saw it coming,'' Mr. Edwards said of the accident. ``She probably 
was happy that she was going to be home soon.''
                                 ______
                                 

           [From the Dallas Morning News, December 12, 2006]

      Drivers Bypass Weigh Stations; Lobbyists Help Keep it Legal
                       (Byline: Steve Mcgonigle)

    Residents of New Waverly, Texas, don't need a brightly flashing 
road sign to know when the state's weigh station on Interstate 45 is 
open for business.
    All they have to do is watch for the inevitable caravan of tractor-
trailers making a brief course change through the one-stoplight hamlet, 
heading north toward Dallas.
    ``That's the local joke,'' said Walker County Constable Gene 
Bartee, who patrols the area's roads. ``People try to go from Point A 
to Point B and say, `Man, weigh strip must be open.' You can't get 
through town.''
    New Waverly, a one-time lumber town near Huntsville, is a small 
testament to the mighty power that trucking interests often wield over 
the Texas Legislature.
    Last year, Walker County officials asked lawmakers to make it a 
traffic offense to bypass a weigh station, where troopers can do safety 
inspections. But after the trucking lobby depicted the proposal as 
revenue-driven and a potential source of harassment for honest drivers, 
the bill fizzled.
    The weigh station bill was among dozens of trucking-related laws 
pitched during the 2005 legislative session. Trucking interests did not 
prevail on every issue, but their presence was hard to miss.
    Tom Smith, director of the Texas office of Public Citizen, a 
nonprofit public interest group, said the trucking lobby is one of the 
most effective in Austin.
    ``Over the years, I've watched as our various bridge safety or 
weight standards have been waived for certain kinds of trucks, or 
licensing requirements have been altered because of the trucking 
industry wanting favorable treatment,'' he said. ``They've got a large 
fleet of very well-respected lobbyists here who manage to make a lot of 
difference.''
    Legislators, who have little or no independent research staff, 
acknowledge that they often look to the trucking industry to educate 
them on issues. They seldom hear from safety advocates.
    The result, Mr. Smith said, is that money routinely trumps safety: 
``There is no watchdog in the yard.''
    Every biennial session sees bills passed that create exceptions and 
advantages for commodities haulers and other large trucking businesses.
    The net effect is a crazy quilt of laws and regulations that can 
vary by county, roadway or type of cargo. The rules often arise from 
requests to state legislators by trucking interests who have 
contributed hefty campaign donations.
    ``It is haphazard at best,'' said Rep. Lon Burnam, D-Fort Worth.
    A sly smile crossed Maj. Mark Rogers' face when the Texas 
Department of Public Safety truck safety supervisor was asked whether 
there were many special-interest trucking laws. He held up a 
dictionary-thick manual and said, ``Here they are.''
    Sometimes truck laws are sweeping. More often they are incremental, 
pitched as a proposal with narrow impact and scant hint of controversy.

                              HEAVY LOADS

    Take the permits law pushed for Chambers County, an industrialized 
area that forms the eastern edge of the Port of Houston.
    Passed by the Legislature last year, the law allows haulers of 
ocean-going cargo containers to carry loads up to 25 percent over the 
80,000-pound legal weight limit on portions of 2 State roads serving 
the Cedar Crossing Business Park.
    The 15,000-acre facility is in a developing area southeast of 
Baytown. Tenants include one of the Nation's largest Wal-Mart 
distribution centers.
    The location across from the port posed a challenge for shippers 
who wanted to use the maximum capacity of cargo containers but were 
precluded by state weight limits. To be legal, they had to divide loads 
and have trucks take a 20-mile detour to the port.
    Enter Rep. Craig Eiland, whose district includes Chambers County. A 
bill filed by Mr. Eiland, D-Galveston, established a ``heavy haul 
corridor'' that let trucks weighing up to 100,000 pounds use a 5-mile 
stretch of road connecting Cedar Crossing to a barge terminal.
    The bill breezed through the Legislature without opposition.
    The idea was based on a 1997 corridor law that permitted overweight 
steel-haulers from Mexico to use two State roads to reach the Port of 
Brownsville.
    In 2003, the Port of Victoria also received legislative permission 
to create a mile-long heavy truck corridor linking its own industrial 
park to a barge terminal.
    ``It was all part of a much larger project to bring [cargo] 
containers to and through Victoria, all part of the economic 
development of this particular area,'' said Howard Hawthorne, executive 
director of the Port of Victoria.
    Safety was also a factor, Mr. Hawthorne said. Permitting trucks to 
haul heavier loads required fewer trips and reduced the number of 
trucks on the road.
    There are no accident statistics for the Victoria and Chambers 
County corridors, which have not begun operating. Eighteen truck 
crashes occurred on highways in the Brownsville corridor between 2000 
and 2006, none fatal.
    Overweight corridors could arise around Texas because of the growth 
of inland ports such as the one Union Pacific opened in Wilmer last 
year. The Trans-Texas Corridor highway project envisions a network of 
rail-to-truck transfer facilities.
    ``The individuals promoting these kinds of areas near ports are 
definitely going to say I want [a heavy haul corridor], too. So there 
is going to be this kind of pressure, and at the moment it's not really 
come in a coherent way,'' said Robert Harrison, deputy director of the 
University of Texas' Center for Transportation Research.

                              ONE-EYE RULE

    The history of truck regulation in America reads like an anthology 
of accommodation to important economic interests.
    Federal law requires States to follow the national model of truck 
safety regulations or risk the loss of financial aid for enforcement. 
The idea was to reform a state-by-state regulatory scheme that shorted 
safety and posed undue hardships on truckers.
    But, as a result of intense pressure from the States, Congress 
established broad grandfather rights and enforcement tolerances that 
provide leeway in size and weight limits and driver qualifications for 
operations that do not cross state lines.
    The Federal Motor Carrier Safety Administration is supposed to 
monitor states' compliance with Federal rules, but critics contend 
enforcement is lax because of the agency's lack of resources.
    In Texas, for example, intrastate truck drivers can obtain a 
license at age 18, rather than the Federal minimum of 21. They can 
drive an hour longer per day, have a shorter rest period between work 
shifts and may not have to keep a logbook, which records maintenance as 
well as their hours at work and rest.
    Intrastate drivers born before August 28, 1971, are not required to 
have medical certificates. Drivers missing a limb or with full vision 
in only one eye can apply for a waiver of physical standards if they 
have a clean driving record.
    Art Atkinson, a truck safety specialist from Glendale, Ariz., was 
hired to testify for a Dallas man who suffered severe brain injuries in 
a 2002 collision with a truck driver who was legally blind in one eye. 
The man was driving under a DPS waiver.
    Because vision in only one eye can affect depth perception, DPS 
requires those seeking waivers to take and pass a test on that ability.
    Mr. Atkinson said the Texas vision and limb waivers, like a similar 
Federal program, reflect the political and economic clout of trucking 
interests.
    ``It makes no logical or scientific sense to do that,'' he said. 
``The only logical reason appears to be to expand the available driver 
base.''
    The Texas rule with one of the broadest implications ignores a 
requirement that non-English-speaking truck drivers be taken off the 
road.
    Both the Federal Government and the Commercial Vehicle Safety 
Alliance, a consortium of State enforcement agencies of which Texas is 
a member, require English comprehension by truck drivers.
    Maj. Rogers said DPS defers to employers to enforce the English 
comprehension rules. That approach is rooted in pragmatism and 
``politics,'' he said.
    ``If we were to go ahead and put everyone out of service that 
couldn't speak and read the English language . . . we would have 
significant ancillary problems that we would have to deal with as 
well,'' he said with a knowing look toward two other truck safety 
officials.
    He said he did not believe the English-comprehension approach had 
adversely affected road safety. But he did not make that claim about 
all changes proposed by the Legislature, most of which deal with size 
and weight issues.
    State agencies, including DPS, are not permitted to offer opinions 
on proposed legislation. Officials may answer questions, but only when 
lawmakers ask them.
    ``If they don't call us up there to testify,'' Maj. Rogers said, 
``we don't have any voice in that decision.''
    Two members of the House committee that oversees DPS said they 
routinely consult on trucking issues with that agency and with the 
Texas Department of Transportation.
    DPS has the ability to analyze the impact that legislation has on 
safety. But that has been hindered by computer problems, lack of staff 
and incomplete reporting of accidents and inspections by local law 
enforcement agencies.
    Maj. Rogers said he was not aware of any safety problems spawned by 
exemptions, waivers or other special interest trucking laws, though he 
acknowledged that heavier trucks are harder to stop.
    Federal officials in Texas routinely approve dozens of law changes 
made by the Legislature and have never withdrawn funding for 
noncompliance.
    Jerry Donaldson, senior research director at Advocates for Highway 
and Auto Safety in Washington, DC, said the Federal agency grants 
States a wide berth.
    ``Whatever the State wants to do beyond the minimum [weight] 
requirement, if they want to run 120,000-pound trucks on two-lane, two-
way county roads, they can do it,'' Mr. Donaldson said.

                             A FLAWED ISSUE

    One of the most controversial examples of an industry-driven change 
in Texas trucking laws was House bill 2060 by former Rep. Sam Russell, 
D-Mount Pleasant.
    Timber interests in Mr. Russell's East Texas district were upset by 
the efforts of some counties to impose fees for hauling overweight 
loads. The industry asked Mr. Russell to introduce a bill to impose a 
uniform, statewide fee system.
    The ``2060 permit'' law took effect in 1989. While it was 
originally meant for haulers in rural areas, it is now used in nearly 
every county. More than 25,000 trucks may haul up to 84,000 pounds on 
county roads and bridges built to handle 58,420 pounds.
    County commissioners have been trying since the law's creation 
either to revoke it or to increase the size of the fine and the 
proportion of fees they receive. Some counties have re-established 
their own overweight fees, a practice the timber industry is 
challenging.
    Transportation researchers at the University of Texas and Texas A&M 
University have produced studies noting the disparities between damage 
to roadways caused by overweight trucks and the fees paid by permit 
holders.
    The annual permit fee to operate in all 254 counties is $2,080. By 
comparison, it costs at least $150,000 to repave one mile of roadway. 
The State requires companies to post surety bonds for road damage, but 
none has ever been collected because of the difficulty in proving which 
vehicle was responsible for the roadway damage.
    ``It's a flawed issue,'' said Mr. Harrison, the University of Texas 
researcher. ``And it just contributes to the problem of maintaining and 
preserving our [road] system.''
    Overweight trucks can also be more susceptible to accidents because 
of the longer distance required for such rigs to stop.
    Over the past 6 years, according to DPS statistics analyzed by The 
Dallas Morning News, the 20 trucking companies with the most overweight 
permits were involved in more than 2,000 accidents across Texas.
    With more road miles than any other State and second only to 
California in the amount of heavy truck traffic, Texas routinely leads 
the Nation in the number of truck-related fatality accidents.

                            CHILE PEPPER LAW

    In Texas, it is not uncommon for a trucking law to be pushed by a 
single business interest. There are laws that allow milk or ready-mix 
concrete or oilfield service trucks to run extra heavy loads or timber 
haulers to operate with extra long loads.
    ``Almost every [legislative] district has a member of the trucking 
associations, and they do a great job of making sure their members are 
equipped with talking points and are in a position where they will call 
their legislators at critical moments and say this is good for our 
business and will keep Texas moving,'' Mr. Smith said.
    Sometimes it only takes one person who knows whom to call upon for 
help.
    All Gary Jackson of Seminole, Texas, wanted was to use a truck for 
compressed cotton bales to haul his chile peppers about 20 miles to a 
processing plant. Doing so would allow him to ship more chile peppers 
per load. But State law prohibited the cotton truck from being used to 
haul any other type of cargo.
    Mr. Jackson was bewildered. ``We weren't harming anybody. We 
weren't harming the roads. We didn't see the problem,'' he said.
    Fortunately, Mr. Jackson found a sympathetic ear in Rep. Delwin 
Jones, R-Lubbock, a fellow farmer whose House district includes Gaines 
County, where Mr. Jackson has about 3,500 acres under cultivation for 
cotton, peanuts--and chile peppers.
    Mr. Jackson said he had been hauling chile peppers in his cotton 
module truck for a while when State troopers began writing him 
citations for an illegal use.
    In February 2005, Mr. Jones introduced a bill to amend State law by 
expanding the legal use of cotton module trucks to chile peppers. The 
bill sailed through the Legislature without dissent and was signed by 
Gov. Rick Perry.
    It was the third time in five legislative sessions that Mr. Jones 
pushed through changes to expand the size or usage of cotton module 
trucks, an innovation from the 1970s that revolutionized the efficiency 
of transporting raw cotton to a gin.
    Texas, like other cotton-producing States, grants exceptions in its 
laws for cotton module trucks to enhance farm efficiencies. The 
vehicles are exempt from safety inspections. Drivers do not have to 
have commercial licenses. And trucks may exceed the size and axle 
weight standards imposed on other intrastate motor carriers.
    Mr. Jones, a folksy octogenarian who ranks fourth in House 
seniority, said the chile pepper law improved safety in his district by 
reducing the number of trucks required to transport the peppers from 
farms to the processing plant.
    All the law did, he said, was mend a quirk in State law to preserve 
the economic health of his district, one of the State's most productive 
agricultural areas.
    Had the law not been passed, Mr. Jones said, farmers might have 
stopped growing chile peppers, and the spice plant might have been 
forced to close.
    ``It's preserved about 30 jobs in an area where 30 jobs is a lot of 
people,'' he said. ``In fact, the jobs it preserved are upper-, upper-
level income folks.''

                           INFLUENCE BROKERS

    The influence that trucking interests wield is difficult to 
measure. Contacts with legislators are done in private. Campaign 
contributions are difficult to trace because nontrucking companies 
often have a stake in trucking issues.
    H.E. Butt Grocery Co. has a fleet of nearly 500 trucks. Its chief 
executive is Charles Butt, one of the wealthiest men in America. The 
San Antonio businessman has donated at least $1.6 million to State 
officials since 2000.
    The Texas Motor Transportation Association, which represents most 
of the State's largest trucking companies, contributed $160,061, State 
campaign records show.
    Bill Webb, former president of the association, said that his 
members were predominantly small operators and that the size of the 
association's donations was evidence it is not among the Capitol's 
elite powerbrokers.
    ``You can't spend $40,000 or $50,000 a year in PAC money and be 
influential in Austin. It doesn't happen,'' said Mr. Webb, now a senior 
vice president with FFE Transportation, a large trucking company based 
in Dallas.
    Sgt. Loni Robinson, former head of the commercial vehicle unit of 
the Pasadena Police Department, said the trucking lobby's clout is 
flexed through its contacts.
    ``It might not be the money, per se, but it's the people they know. 
The movers and shakers,'' Sgt. Robinson said.
    Key legislators on truck safety issues acknowledge that they lean 
on the trucking lobby, along with state enforcement officials, to 
educate them on the issues.
    ``Generally we try to go to the trucking industry, their folks, 
their head people and then try to bounce those off DPS folks and just 
basically other reps who's had problems, had concerns,'' said Rep. Joe 
Driver, R-Garland, chairman of the House Law Enforcement Committee, 
which oversees the Department of Public Safety.
    Mr. Webb readily acknowledged the advisory role.
    ``We're really the go-to group on trucking issues. Most of the time 
the Legislature gives us deference on those kind of things,'' he said.
    While DPS is not always present to testify, trucking interests are 
ubiquitous. Representatives of interest groups routinely appear to give 
the industry's view, which usually focuses on financial issues.
    Sgt. Robinson said he has seen the Texas Motor Transportation 
Association's power in Austin limit the number of enforcement officers.
    ``They'll tell you to your face safety is important. Absolutely, 
safety is important. Then they'll go behind closed doors and say they 
[local governments] are just trying to make money off of us. They're 
just trying to write us a bunch of tickets.''
    With the New Waverly weigh station bill, both Mr. Webb's 
association and the Texas Logging Council accused supporters of having 
a hidden agenda to raise local revenue off truckers who bypassed the 
station for ``legitimate'' reasons.
    Paul Hale, state coordinator of the logging council, accused DPS of 
rerouting local trucks off back roads to weigh stations to boost their 
citation numbers.
    ``We don't condone trucks hauling overweight or doing anything 
illegal,'' said Mr. Hale, a retired timber hauler from Bloomburg. ``But 
their law would have been something like communism, which allows anti-
trust, which allows [State troopers] to just go and say you are guilty 
of everything that we can imagine so we are going . . . to do anything 
we want to you.''

                                 TRANSPORTATION-RELATED POLITICAL CONTRIBUTIONS
   [Contributions from January 2000 to October 2006 made by companies and associations through their political
                           action committees (PACs), which often have different names]
----------------------------------------------------------------------------------------------------------------
             Contributor                        Address                     Type of Business             Amount
----------------------------------------------------------------------------------------------------------------
TRUCKING TRADE ASSOCIATIONS:
    Texas Motor Transportation         Austin...................  freight companies..................   $160,061
     Association.
    Texas Towing and Storage           Austin...................  towing companies...................     32,450
     Association.
    Southwest Movers Association.....  Austin...................  home moving companies..............     19,750
PACKAGE DELIVERY:
    United Parcel Service............  Atlanta, Ga..............  package shipping...................    425,755
OIL MARKETING:
    Texas Petroleum Marketers and      Austin...................  petroleum products.................    503,116
     Convenience Store Association.
BEVERAGE DISTRIBUTORS:
    Wholesale Beer Distributors of     Austin...................  beer...............................    733,722
     Texas.
    Beer Alliance of Texas...........  Houston..................  beer...............................    363,241
    Licensed Beverage Distributors...  Austin...................  liquor.............................    267,717
    Coca-Cola Enterprises Inc........  Atlanta, Ga..............  soft drinks........................    190,280
    Texas Beverage Alliance of the     Austin...................  liquor.............................    189,975
     Texas Package Stores Association.
ROAD CONSTRUCTION:
    James D. Pitcock.................  Houston..................  CEO, Williams Brothers Construction    904,250
                                                                   Co.
    Zachry family members............  San Antonio..............  executives, Zachry Construction        665,515
                                                                   Corp.
    John Victor Lattimore Jr.........  McKinney.................  CEO, Lattimore Materials Co........    605,700
    Texas Aggregates and Concrete      Austin...................  trade association..................    650,150
     Association.
    H.B. Zachry Construction Corp....  San Antonio..............  road construction..................    386,838
    Coalition for Better               Dallas...................  highway advocacy group.............    288,250
     Transportation.
    Texas Industries Inc.............  Dallas...................  road materials.....................    204,482
    Texas Good Roads/Transportation    Austin...................  highway advocacy group.............     72,350
     Association.
    Highways of Texas................  Houston..................  road construction..................     37,000
    CEMEX Inc........................  Houston..................  road materials.....................     34,635
    Vulcan Materials Co..............  Fort Worth...............  road materials.....................     19,790
AGRICULTURAL:
    Lonnie ``Bo'' Pilgrim............  Pittsburg, Texas.........  chairman, Pilgrim's Pride Corp.....  2,120,243
    Texas Farm Bureau................  Waco.....................  farmers............................    741,618
    Texas and Southwestern Cattle      Fort Worth...............  cattle.............................    522,377
     Raisers Association.
    Texas Cattle Feeders Association.  Amarillo.................  feed lots..........................    290,518
    Texas Association of Dairymen....  Austin...................  dairy..............................    153,384
    Texas Poultry Federation.........  Round Rock...............  poultry............................    141,011
    Pilgrim's Pride Corp.............  Pittsburg, Texas.........  poultry............................     50,000
    Texas Forestry Association.......  Lufkin...................  timber.............................     42,487
    Texas Produce Association........  Mission..................  fruits, vegetables.................     28,050
RETAILERS:
    Alice Walton.....................  Mineral Wells............  heiress, Wal-Mart Stores Inc.......    660,000
    Wal-Mart Stores Inc..............  Bentonville, AR..........  retail.............................    324,585
    Home Depot Inc...................  Washington, DC...........  retail.............................     37,169
GROCERY:
    Charles Butt.....................  San Antonio..............  CEO, H.E. Butt Grocery Co..........  1,646,747
    Drayton McLane...................  Temple...................  chairman, The McLane Group.........    388,000
    H.E. Butt Grocery Co.............  San Antonio..............  grocery stores.....................     76,628
    McLane Company Inc...............  Temple...................  grocery distributor................     71,250
MARITIME:
    West Gulf Maritime Association...  Houston..................  overseas shipping companies........     74,150
RAILROADS:
    Union Pacific....................  Washington, DC...........  freight hauler.....................    935,144
    Burlington Northern Santa Fe       Washington, DC...........  freight hauler.....................    592,490
     Railway.
LABOR UNIONS:
    International Brotherhood of       Washington, DC...........  truck drivers......................    765,370
     Teamsters.
    Houston Pilots Association.......  Houston..................  ship pilots........................    123,850
    General Drivers, Warehousemen &    Dallas...................  truck drivers......................    108,000
     Helpers.
WASTE:
    Waste Management Inc.............  Washington, DC...........  garbage collection.................   137,250
----------------------------------------------------------------------------------------------------------------
Note: Dollar amounts are based on Dallas Morning News research of campaign finance records filed with the Texas
  Ethics Commission. Because of wide variations in some contributors' names, total contributions may actually be
  higher. This list represents a sample of trucking interests that gave to Texas political causes.

                                 ______
                                 

           [From the Dallas Morning News, December 11, 2006]

              Truckers' Long Hours, High Stress Take Toll

    INDUSTRY'S PRESSURES LEAD MANY DRIVERS TO AN EARLY GRAVE WHILE 
                     ENDANGERING OTHERS ON THE ROAD

                       (Byline: Jennifer Lafleur)
    Truck driving is one of the country's most dangerous jobs, with 
tens of thousands of injuries and hundreds of deaths each year.
    Nearly 1,000 U.S. truck drivers died on the job last year--one-
sixth of all worker deaths, according to Federal statistics.
    It isn't the deadliest job--professional fishermen and logging 
workers die at much higher rates. But for every 100,000 truckers on the 
road, 29 die. That compares with 4 out of 100,000 for all workers.
    The toll doesn't count drivers who, in a high-pressure, physically 
taxing job, work themselves to early deaths from heart attacks, strokes 
and other health problems. And the mechanisms in place to ease that 
pressure, some experts say, fail to protect truckers--and in turn, the 
drivers with whom they share the road.
    ``I believe that the stress on the body of running a 24-7 operation 
with chaotic schedules that never become routine is the major 
contributor to all this disease,'' said John Siebert, project manager 
for the Owner-Operators Independent Drivers Association Foundation. 
``Truckers will say they learn to live with it, but it's actually 
killing them a little at a time, and they are dying at a tragically 
younger age than the rest of society.''

                           DEADLY PROFESSION

    Shirley James of Lewisville said she can't count the number of 
times her trucker husband would ``barely walk in the door before the 
company he contracted with would be calling to tell him they had 
another load.''
    Her husband, Lonnie Cutberth, promised the company that he could 
haul one more load to Little Rock in April 2001. They were counting on 
him, Mrs. James remembered him saying, even though he did not feel 
well.
    Despite his wife's urging to stay home and rest, Mr. Cutberth 
delivered the load on schedule and headed back home. Calling from the 
road, he told his wife he didn't feel well. In his last call, he said 
he was going to pull over and rest. He signed off with the usual ``I 
love you.''
    Minutes later, Mr. Cutberth had a massive heart attack. He managed 
to pull the truck into a weigh station outside Hope, Ark.
    ``The coroner said it was a miracle he got that truck off the 
highway without killing somebody,'' Mrs. James said.
    Mr. Cutberth's death, 6 weeks before his 62nd birthday, was the 
second among a group of 4 truckers--friends since they started driving 
together more than 30 years earlier. Within 5 years, 3 had died.
    Wayne Phillips is the only one left.
    A decal on his truck memorialized his friends. ``I used to say all 
three of them were driving with me.''
    Mr. Phillips did not escape health problems either. He survived two 
heart attacks, although neither occurred on the road. And after more 
than 40 years of driving and a recent bout of health problems, he sold 
his truck last summer. He still works occasionally as a substitute 
driver.
    ``I can't get away from it. I've been doing it too long,'' said Mr. 
Phillips, 69.
    His losses over the years go beyond his closest friends, he said. 
Other colleagues have died as well, many from heart attacks.
    ``You don't sleep right. You don't eat right. And you're always 
under stress to get from here to there,'' Mr. Phillips said.

                            ILLNESS, FATIGUE

    That, experts say, can be detrimental not just to the driver but 
also to others on the road.
    A Federal study released in March found that truck driver illness 
was at least one of the causes in accidents involving a truck and a 
passenger vehicle about 12 percent of the time. And those figures don't 
include accidents where the driver was fatigued.
    Computing the true toll of sleepy drivers is tricky, said Dr. 
Michael Belzer, a professor of industrial relations at Wayne State 
University who led a 2003 international conference on truck driver 
health. ``Unless you find a fatigue-o-meter, it's not so easy to 
monitor.''
    Long hours and erratic schedules don't just result in sleepy 
drivers. Chronic sleep deprivation can lead to increased risk of 
obesity and diabetes.
    Chaotic schedules can throw normal hormonal production into total 
disarray, said Mr. Siebert of the owner-operators association. ``By 
disrupting that, you're throwing big wrenches, not just little handfuls 
of sand, into the gears of your body.''
    Erratic schedules prevent many truck drivers from getting regular 
medical care. And truckers, who spend long periods away from home, have 
higher-than-normal rates of depression and suicide.
    A review by the owner-operator association of records on 1,200 
deceased members found that the average age at death was 55, about 20 
years earlier than the typical American.
    The National Institute for Occupational Safety and Health is 
expanding that study to about 5,000 deceased members of the owner-
operator association. NIOSH ramped up its study of transportation 
workers' health after Dr. Belzer's 2003 conference. And he hopes that 
such research will shed light on the cost-benefits of healthier 
drivers.
    When experienced drivers have to quit at age 50 because of health 
problems, he said, ``all that human capital invested, all the capacity 
it provides, is lost.''
    If they don't have health insurance, it puts the burden on the 
taxpayers, he said. ``And no one is paying for the fact that these 
drivers die young. No one is paying for the loss to the families.''
    Prior research on trucker health prompted government agencies and 
trade groups to launch wellness programs.
    Under a 1998 program backed by the American Trucking Associations 
and what was then the Federal Highway Administration, 500 truckers 
received free memberships to a chain of truck-stop gyms. No study 
results were published, and it's not clear how many truckers took 
advantage of the program.
    Another Federal information campaign makes videos, workbooks and 
training materials on healthy living available to truck drivers, 
insurance companies and trucking organizations.
    But it's difficult for workers who are already pushing themselves 
to take the time to exercise, said Dr. Belzer, who spent 10 years as a 
trucker before attending graduate school.
    Those programs are good, but real reforms need to come through 
policy and economic change, he said.
    The years of undercutting the competition to improve the bottom 
line, brought on by the deregulation of the 1980s, has meant that truck 
drivers are paid less and pushed harder.

                             WHISTLEBLOWERS

    Truckers fired for refusing to break the law by falsifying their 
logbooks or driving too many hours may file a complaint with the U.S. 
Department of Labor. The 1982 Surface Transportation Assistance Act 
protects them from retaliation by their employer for reporting safety 
problems.
    Truck driver Ron Stauffer filed such a complaint in 1999 when he 
was fired after 11 years as a driver for Wal-Mart. He had refused to 
wait at a loading dock where he was told he could sleep during a two-
hour delay before dropping off his trailer and picking up another. He 
argued that he would be too tired to change trailers and that driving 
after interrupted sleep would be dangerous.
    The administrative law judge dismissed the case, saying that Mr. 
Stauffer did not provide evidence that he would be too tired to shuttle 
the trailers.
    Mr. Stauffer said that he had already put in at least a 14-hour day 
and that an interruption would mean he would be driving tired the next 
day.
    ``You don't have the sleep foundation you need,'' he said in an 
interview. ``And that leads to truck driver heart attacks.''
    About two-thirds of the 1,115 complaints filed under the program 
over the last 5 years were dismissed. Others were settled or withdrawn; 
33 resulted in litigation.
    The Federal Motor Carrier Safety Administration in 1998 established 
a safety violation hotline for employees of transportation companies. 
The complaints that come in--7,148 in 2005--are forwarded to field 
offices near the carriers, which investigate the complaints.
    But reporting their employer is just too risky for some drivers.
    ``What kind of whistleblower protection can you have in an industry 
that already has more than 100 percent turnover?'' Mr. Siebert asked.
    Dr. Belzer said that better pay for drivers would not only improve 
trucker health--because drivers wouldn't have to kill themselves just 
to get by--but it would increase road safety. His research shows that 
increased driver pay improves companies' safety records.
    The real change needed, said Mr. Siebert of the owner-operators 
association, is to revamp how truck drivers are paid. Currently, many 
drivers are paid by the mile.
    ``If we could pay drivers by the hour . . . they would be safer 
because they wouldn't be under the pressure to get the miles in. 
They're rushing, and they're stressed,'' he said. ``We don't pay 
doctors by the stitch.''
                                 ______
                                 

           [From the Dallas Morning News, September 19, 2006]

               Reviews Make Roads Safer But Rarely Happen
   (Byline: Steve Mcgonigle, Jennifer Lafleur, Gregg Jones and Holly 
                                 Becka)
Last of three parts
    By the time a State investigator visited SDS Trucking Inc. in April 
2005, the Midlothian building materials hauler had been in 10 traffic 
accidents in 12 months. One accident killed a motorcyclist, and 4 
others injured 12 people.
    An in-depth examination of the company's records found enough 
safety violations to earn SDS a rating of unsatisfactory, the lowest 
possible in the compliance review system that Texas uses to evaluate 
trucking company safety. Two months later, the Texas Department of 
Public Safety ordered SDS to cease operations.
    Research suggests that the threat of shutdown implicit in a 
compliance review reduces truck-related accidents and saves lives. One 
expert called compliance reviews ``the nuclear weapon'' of safety 
enforcement.
    DPS officials, too, regard compliance reviews as one of their most 
effective tools in improving the safety performance of high-risk motor 
carriers.
    But last year in Texas--which leads the Nation every year in deaths 
from large-truck accidents--DPS completed compliance reviews for only 1 
of every 10 companies it identified as the biggest potential dangers on 
the road.
    ``There are just a whole lot of companies that slide under the 
radar screen and never do get audited,'' said Bill Webb, the immediate 
past president of the Texas Motor Transportation Association, which 
represents trucking companies.

                          AN UNDERUSED WEAPON

    DPS officials say they reserve compliance reviews for the worst 
offenders. But they don't automatically investigate trucking companies 
blamed for fatal accidents or repeatedly ordered off the road for 
safety violations, records show.
    Texas has one of the Nation's highest rates of unsafe trucks 
ordered off the road, but even a company's 100 percent failure rate 
during roadside inspections was not enough to prompt a DPS compliance 
review in most instances.
    The Dallas Morning News analyzed several years of records from DPS, 
which regulates intrastate truck traffic, and from the Federal Motor 
Carrier Safety Administration, which regulates interstate traffic. The 
News found that in 2005:
  --DPS took no enforcement action in half of its investigations. Even 
        in cases in which companies were fined, the penalty was reduced 
        nearly 40 percent of the time.
  --Fewer than 5 percent of reviewed companies were ordered to cease 
        operations, and not all of those shut down because DPS doesn't 
        always do follow-up checks.
  --For the agency to audit all the companies flagged as potential 
        safety hazards, it would have to do 10 times the number of 
        compliance reviews it currently conducts.
  --About 10 percent of the compliance reviews were canceled because 
        investigators did not meet an internal deadline for completing 
        them. Others were halted because trucking companies said they 
        were going out of business or DPS couldn't find them.

                           TOO FEW INSPECTORS

    Lack of resources is a common explanation. DPS has 632 troopers and 
civilian inspectors to enforce safety rules on more than 64,000 
commercial trucking companies in Texas.
    The department's only staffing increases since 1999 have been 
financed with Federal funds that required personnel to be assigned to 
truck inspection stations along the Mexican border. Texas receives the 
highest amount of Federal funding of any State because of truck safety 
concerns along the border.
    DPS assigns only about 50 of its Commercial Vehicle Enforcement 
staff to conduct compliance reviews--the same number as a decade ago, 
when there were about 30 percent fewer trucking companies on the 
State's nearly 302,000 miles of roadways.
    The bulk of the agency's troopers do road inspections, which DPS 
thinks is the best way to improve road safety.
    Department officials acknowledge their enforcement efforts would 
benefit from additional resources. But they insist they are doing an 
effective job of regulating truck safety during a period of historic 
expansion of truck traffic in Texas.
    ``Undoubtedly, we would love to do more CRs [compliance reviews],'' 
said Capt. David Palmer, commander of the DPS Motor Carrier Bureau. 
``And I can tell you we are doing as many CRs as we can. We're just 
doing as many as we can with the resources we have.''
    The Texas Motor Transportation Association, which represents larger 
and more established trucking firms, has long pushed for DPS to conduct 
more compliance reviews and to refocus its enforcement scheme, Mr. Webb 
said. He and fellow critics argue the DPS approach frequently misses 
outlaw companies that run their trucks on back roads.
    Ian Savage, an economics professor at Northwestern University, is 
one of the national experts who also advocates redirecting resources 
from roving roadside patrols to compliance reviews. He thinks the 
system that uses inspections to target compliance reviews should be 
flipped on its head.
    ``When you get to CR, you know some enforcement is going to happen. 
They come do things like rummage through your files. That's why they 
seem to have a pretty major effect,'' said Dr. Savage, who co-wrote a 
1992 study of compliance reviews.
    ``The compliance review is the biggest tool for enforcing safety. 
It's like wheeling out the nuclear weapon. It's the only thing you can 
do as part of a threat to close a firm down. Whenever you have an 
enforcement activity--this is the ultimate sanction.''
    The Federal Motor Carrier Safety Administration also believes there 
is a direct correlation between compliance reviews and crashes. In 
2002, a study conducted for the Federal agency estimated that 9,172 
compliance reviews done on interstate carriers prevented 1,426 
accidents and saved 62 lives.
    Last year, 7,930 compliance reviews were done on interstate 
carriers nationwide--about 2 percent of all interstate trucking 
companies, according to the Federal agency's records.

                         TARGETING THE PROBLEM

    DPS has been conducting compliance reviews since the early 1990s to 
comply with Federal law. It used federal money to hire its first 
investigators, and continues to be reimbursed for every compliance 
review it conducts.
    The agency identifies which companies should receive compliance 
reviews through a combination of indicators compiled largely by 
troopers doing spot inspections.
    Companies can be targeted for compliance reviews if they have a 
fatal accident in which the carrier was at fault or an ``out-of-service 
rate'' greater than 15 percent over three inspections in one year.
    A trooper can put a truck out of service, pending repairs, for 
mechanical problems such as worn tires or faulty brakes. Truckers can 
be ordered off the road if they are found to be impaired or have 
missing or falsified driver logs, which are supposed to show how many 
hours of driving and rest they've had in a 24-hour period. Any 
inspection in which either a driver or truck is put out of service 
counts as an out-of-service inspection.
    Complaints from police officers, Texas residents, legislators and 
state agencies can also trigger compliance reviews. And companies can 
request them to improve their safety rating, which can lower their 
insurance premiums.
    Companies that are involved in fatal accidents or those that are 
the subject of officer complaints take top priority, DPS officials say, 
followed by excessive out-of-service rates, updated every two months.
    Captain Palmer said officer complaints typically lead them to the 
worst companies, and out-of-service rates are good indicators of a 
company's fitness.
    But according to The News' analysis, less than half of all 
compliance reviews prompted by officer complaints or high out-of-
service rates resulted in any kind of action against the company. And 
only 37 percent of fatality-related reviews resulted in any enforcement 
action.
    The Federal Motor Carrier Safety Administration uses a more 
sophisticated system to target problem carriers for compliance reviews. 
Known as SafeStat, the system's algorithm calculates safety ratings 
based on accident rates, driver and vehicle inspections and the extent 
of company oversight. In February 2004, after much criticism of the 
SafeStat system, the U.S. Transportation Department's inspector general 
recommended that the formula be re-evaluated--a process still under 
way.

                             SAFETY REVIEWS

    In 2005, Texas conducted nearly 325,000 roadside inspections on 
more than 50,000 carriers--nearly 70 percent of them interstate 
carriers regulated by the Federal Motor Carrier Safety Administration. 
DPS records show that inspectors completed 774 compliance reviews on 
truck companies selected from an agency priority list of fatality 
reports, law officer complaints and companies with high out-of-service 
rates. More than 40 percent of DPS' compliance reviews were on Texas-
based interstate carriers, which are regulated by the Federal 
Government.
    But those reviews scrutinized less than 10 percent of the total 
number of companies that met what DPS said were its criteria for 
conducting a compliance review.
    The News found 123 companies whose vehicles or drivers were the 
only contributing factors in fatal accidents. Of those, only 48 
received compliance reviews.
    Many times, compliance reviews were ordered but not completed. DPS 
internal policy requires officers to complete reviews within 90 days to 
ensure the data they are acting on is current. After that, the review 
is canceled.
    The News' analysis revealed that in 2005, DPS dismissed about one-
tenth of the 1,182 compliance reviews it started because investigators 
missed the deadline. After being told the newspaper's findings, DPS 
officials said they would consider extending the compliance review 
deadline to 180 days.
    Captain Palmer agreed with the newspaper's findings on the 
percentage of compliance reviews that ended in enforcement actions. 
But, he said, the number of reviews triggered by fatal truck accidents 
``sounds low.''
    Without commenting on specific cases, he said the internal DPS 
deadline and companies going out of business explained why compliance 
reviews were not conducted when DPS policy dictated they should be.
    Driver logbooks, records of positive drug or alcohol tests, 
employee background checks and maintenance records all come under 
scrutiny during a compliance review. Depending on the size of the 
company, it can take an investigator a few days to a few weeks to 
complete the onsite visit.
    The reviews determine whether companies receive a safety rating of 
satisfactory, conditional or unsatisfactory. A conditional rating can 
affect insurance rates. An unsatisfactory rating forces a company to 
cease operations until it corrects its problems.
    A company under review can face anything from fines as high as 
$16,000 per violation per day to an order to shut down. Between January 
2005 and June 2006, DPS assessed nearly $2.5 million in fines and 
collected a little more than $2 million. Companies may also appeal 
fines in an informal hearing with a DPS captain, who can uphold, reduce 
or dismiss the entire penalty.
    In the case of SDS Trucking, for example, the company appealed its 
``unsatisfactory'' rating and $1,420 fine and got its ranking upgraded 
to ``conditional.'' But a second audit in July 2005 found other 
problems with the company, and it was fined another $2,000. The Federal 
trucking agency canceled the company's authority to operate outside 
Texas in April 2005 after its insurance was canceled. State records 
show SDS is still in business and has insurance to operate within 
Texas.
    Stan Emelogu, president of SDS, said his company had only two fatal 
crashes in 2005 and 2006 and neither was his truckers' fault. ``This is 
a racist business,'' said Mr. Emelogu, a Nigerian immigrant. ``There is 
no chance for somebody like me to survive in it.''
    SDS paid the fine, he said, and now uses a safety consultant to 
advise its 10-truck business.

                            DOING IT BETTER

    While Texas leads the Nation in roadway miles and is second only to 
California in the number of registered trucks, it trails other States 
when it comes to enforcement.
    California, the only State that exceeds the volume of trucks in 
Texas, has a lower fatal accident rate and far lower rates of unsafe 
vehicles and drivers ordered off the road. It assigns 25 percent of its 
commercial vehicle enforcement personnel, or about 250 inspectors, to 
compliance reviews, compared with about 7 percent of Texas' truck 
safety force doing reviews.
    California spends $141 million a year on commercial vehicle 
enforcement, compared with Texas' $31 million, and conducts more than 
10 times the number of compliance reviews as Texas each year.
    Texas also lags far behind in technology that helps to identify 
unsafe carriers.
    In many States, the inspection process has been streamlined by 
transponder systems that pre-clear companies that don't need to be 
pulled over, either because they have been inspected recently or have 
good safety records. Similar systems are used in Europe.
    PrePass is one transponder system employed in 25 states by about 
380,000 trucks. NORPASS operates in 7 States on about 87,000 trucks. 
Some States, such as Oregon, have their own systems.
    With most such systems, as carriers approach weigh stations, 
transponders in their vehicles signal green if they are pre-cleared. 
The transponder signals red if truckers need to stop.
    ``If you could have a system to look at which trucks to pull over 
and which shouldn't, you won't delay the safe trucks,'' said Dr. Savage 
of Northwestern University. ``If you know statistics, you know you 
don't need 50,000 inspections to work out whether it's a good truck 
firm or a bad truck firm.''
    The anticipated cost of installing a transponder system in a State 
the size of Texas has been a major obstacle, said Assistant Chief Lamar 
Beckworth, DPS' second-highest ranking officer for truck safety. The 
department plans to ask the Legislature in January for additional funds 
to upgrade its technology.
    DPS is missing out on other resources, as well. Over the past 
decade, it has strained to persuade the Texas Department of 
Transportation to help with infrastructure issues that would enhance 
safety enforcement.
    An example of this disconnect is the fact that TxDOT operates 17 
specialized ``weigh-in-motion'' scales around the State that supply 
information to monitor road surface conditions. The system is not 
connected to DPS, which must rely on quarterly reports from the other 
agency.

                       PENNY-WISE, POUND FOOLISH

    Although more than two dozen municipal and county law enforcement 
agencies have truck enforcement units, DPS is the only State agency 
that can perform compliance reviews.
    In 1996, DPS had 26 officers assigned to compliance reviews. That 
number rose to 46 in 1997, and it has remained nearly at that level 
since.
    DPS said it plans to ask the Legislature for 50 civilian 
investigators to do compliance reviews. But those 50 new employees 
would replace the same number of commissioned officers now doing the 
job. Some DPS officials think the additional officers could result in a 
small net gain in the compliance review staff, though they cannot yet 
explain how.
    The commissioned officers would be transferred to road inspections 
to increase the voluntary safety compliance that DPS deems its most 
effective enforcement tool.
    ``I get more bang for my buck if I can get more troopers back out 
on that highway,'' said Chief Beckworth. The Texas Legislature has not 
approved any increases in State funding to hire additional DPS 
Commercial Vehicle Enforcement staff since 1999. In 2001, legislators 
imposed a 5-year moratorium on new State funding for more truck safety 
troopers.
    State Representative Lon Burnam, a member of the House Law 
Enforcement Committee, which oversees DPS, said Texas is getting the 
quality of truck safety it pays for.
    ``We are penny-wise and pound foolish on everything that we do,'' 
the Fort Worth Democrat said. ``We are cheap, and we are not committed 
to good public service.''
                                 ______
                                 

           [From the Dallas Morning News, September 17, 2006]

       TXI Trucks Involved in 31 Accidents Over the Last 2 Years
     (Byline: Gregg Jones, Holly Becka, Jennifer Lafleur and Steve 
                               Mcgonigle)

    Texas Industries Inc. is a major player in North Texas' building 
boom, producing and hauling sand, gravel, crushed rock and concrete to 
area construction sites.
    Its TXI Transportation Co. unit has a fleet of more than 150 leased 
trucks and more than 330 drivers, which traveled nearly 32 million 
miles in Texas and surrounding States last year, according to Federal 
data.
    Federal data show that TXI trucks sometimes get stopped for 
speeding, running stop lights, following too closely and getting 
involved in crashes--31 that left people injured over the past 2 years 
and two that resulted in fatalities. (The data don't identify who was 
at fault.)
    Inspectors also ordered TXI drivers off the road 40 times over the 
past 2 years for serious violations of safety regulations. Most 
involved drivers' logbooks, which are supposed to show how long a 
driver has been on the road. Such hours-of-service rules were 
strengthened in 2003 to cut fatal truck crashes caused by fatigue. The 
40 out-of-service orders occurred during 1,098 inspections conducted in 
the 24 months prior to Aug. 31, 2006, according to Federal data. By 
industry standards, TXI's driver out-of-service rate of 3.6 percent 
compares favorably with the 2003 national average of 6.78 percent.
    In the same period, TXI's vehicles were put out of service 297 
times in 1,031 inspections--an out-of-service rate of 28.8 percent, 
above the national average of 22.9 percent. The most common violations 
were defective or maladjusted brakes, bald tires, defective brake 
lights, improperly secured loads and cracked or broken wheel rims.
    Despite the problems, TXI holds a ``satisfactory'' safety rating 
from the Federal Motor Carrier Safety Administration, the highest of 
three levels under the agency's oversight program. A satisfactory 
rating indicates ``no evidence of substantial non-compliance with 
safety requirements,'' based on a review of the company's records on 
drivers, vehicles and trips, according to the FMCSA.
    Mark Stradley, an attorney for TXI, said it was ``difficult to 
verify the data'' cited by the Federal agency, but that TXI 
Transportation Co. had always maintained a ``satisfactory'' rating.
    Out-of-service inspections present only a partial picture of the 
condition of a company's trucks and its drivers. Often, inspectors find 
problems but don't order a truck or driver off the road. In some cases, 
the trooper or civilian inspector makes a judgment call. In others, 
State or Federal law proscribes: A single tire with less than 2/32 inch 
of tread, for example, isn't an out-of-service violation; a pair of 
tandem tires with less than 2/32 inch of tread is.
                                 ______
                                 

           [From the Dallas Morning News, September 18, 2006]

      In Wise County, Truck Accidents Killed 56 People in 6 Years
     (Byline: Holly Becka, Gregg Jones, Jennifer Lafleur and Steve 
                               Mcgonigle)

    DECATUR, Texas.--It was 80,000 pounds of trouble. That's what Sgt. 
Robert Wilson concluded as he sized up the big rig before him.
    A few minutes earlier, the 18-wheeler had been roaring down U.S. 
Highway 380, loaded with gravel for a Denton construction site, a 
disheveled, diabetic Army veteran at the wheel. Now, the rig sat in a 
line of trucks pulled over for unannounced roadside inspections by 
commercial vehicle inspectors with the Texas Department of Public 
Safety and the Federal Motor Carrier Safety Administration.
    On one wheel a lug nut was missing and three others were loose. A 
tire was flat, and another had a split tread. There was also a cracked 
axle rim, six maladjusted brakes and a nonworking tail light, turn 
signal and brake light. Thirty minutes and 21 safety violations later, 
inspectors ordered trucker Orville Burris off the road until repairs 
were made.
    Truckers like Mr. Burris crisscross North Texas every day, 
transporting rock, sand and gravel for new roads, homes and shopping 
malls around the Dallas-Fort Worth area. Rock haulers are among the 
hardest-working and lowest-paid drivers in the commercial trucking 
industry. Their trucks are among the most dangerous on the road, state 
and federal safety inspectors say.
    ``If the motoring public knew what was running down the road with 
them, they'd be really scared,'' said Senior Trooper John Pellizzari, a 
DPS Commercial Vehicle Enforcement officer in Wise County, notorious 
among State and Federal truck inspectors for deadly crashes involving 
rock haulers.
    Around the Nation, big-truck accidents have become a daily 
occurrence. In the 12-county Dallas-Fort Worth metropolitan area, 467 
people died in accidents involving big trucks from 2000 through 2005.
    In rural Wise County, northwest of Fort Worth, 56 people died in 
accidents with big trucks in the same period, according to State data. 
In fact, Wise now ranks fourth in the State in truck-related 
fatalities, just behind three of the most populous urban counties. Many 
of these accidents involved rock haulers, State and Federal authorities 
say.
    ``That tells us there is a significant problem,'' said Maj. Mark 
Rogers of the DPS Commercial Vehicle Enforcement Service in Austin.
    Accidents involving rock haulers have become so frequent in Wise 
County that State and Federal authorities have taken the unusual step 
of conducting mass inspections there several times a year.
    Wise County illustrates another stark reality as truck traffic 
soars in Texas and the United States: The number of trucks far outpaces 
the ability of law enforcement authorities to enforce safety 
regulations.
    Because of limited resources, DPS has assigned only four truck 
safety inspectors to monitor thousands of big rigs traveling Wise 
County roads every day. Kaufman County has the same number of vehicle 
enforcement officers even though it had only 15 fatalities in truck 
accidents between 2000 and 2005, compared with Wise's 56.
    As a result, dangerous trucks and reckless drivers face little risk 
of getting inspected or ordered off the road.
    ``There are just so many trucks,'' said Trooper Randy McDonald, one 
of the State's inspectors for Wise County. ``We're not touching very 
many of them.''
    His colleague, Sgt. Wilson, agreed: ``There's so many of them, you 
just do what you can do, then get up in the morning and do it again.''

                           IMPORTANT INDUSTRY

    In Wise County, trucking companies support local charities and 
sports teams. Their tax dollars build parks and schools. Their 
employees belong to churches and civic groups and run for public 
office. And, sometimes, their trucks kill people.
    Local residents have learned to live--and die--with these 
realities. Daily life along the county's main highways--State Highway 
114 and U.S. Highways 380 and 287--is a saga of broken windshields, 
tailgating trucks, near misses and sudden death.
    ``We know the industry is important, employs a lot of people and 
does a lot of things in this community,'' said Michael Simpson, a Wise 
County lawyer who has represented the families of people killed in 
dozens of truck accident cases. ``You can do it right. There are 
trucking companies that do it right and do it right every day in this 
county.''
    When they do it wrong, the results are tragic.
    Just before 11 on a September morning in 2004, 19-year-old Arturo 
Guerra Jr. pulled his white Chevy Suburban into a left-turn lane along 
Highway 114 in Paradise. The recent high school graduate waited for 
oncoming traffic to clear, his turn signal flashing.
    Suddenly, a yellow 18-wheel rock hauler leased to L.H. Chaney 
Materials Inc. rammed into the rear of the Suburban at more than 50 
mph.
    The impact spun the sport utility vehicle into the intersection of 
Highway 114 and Olde Towne Road, into the path of another rock hauler 
approaching from the east. The second truck, leased to Aggregate 
Haulers I L.P. smashed head-on into the Suburban. Mr. Guerra's body had 
to be cut from the wreckage.
    Chaney's driver, William D. Pettis, refused to speak with troopers 
at the scene. Later, under questioning from attorneys for the Guerra 
family, he said a pickup blocked his view of Mr. Guerra's vehicle until 
it was too late. Other witnesses testified that the pickup was ahead of 
Mr. Guerra and therefore couldn't have obstructed the trucker's line of 
sight. In any event, Mr. Pettis should have seen the Suburban from his 
vantage point high up in his truck's cab, witnesses testified.
    Chaney, based in Denton County, initially blamed another vehicle 
for causing the accident. Nearly a year after the crash, facing trial 
in a wrongful death lawsuit, the company agreed to pay the Guerra 
family $2 million and acknowledged responsibility for the accident, 
according to a court document.
    A jury later found that Aggregate Haulers and its driver weren't at 
fault.

                            SPOT INSPECTIONS

    On most days, it's clear sailing for big trucks making the run from 
Wise County's 27 gravel pits and rock quarries to Dallas-area 
construction sites.
    In fact, about 400 trucks pass the old Texas Department of 
Transportation yard at U.S. Highways 380 and 287 in Decatur every hour, 
according to DPS estimates.
    But several times a year, Federal and State inspectors pour into 
the yard for two days of surprise inspections. Troopers with DPS' 
Commercial Vehicle Enforcement Service stood along the highway on 
consecutive mornings in May, waving truckers into the inspection area 
or chasing them down in their souped-up pickups.
    Level 1 inspections were the objective. The most thorough of 
federally mandated safety reviews requires inspectors to climb beneath 
trucks to examine tires, brakes, axles, trailer frames and other parts. 
Sgt. Wilson ran the show. Clad in blue coveralls, safety goggles and 
running shoes, the wiry DPS veteran lay on his back on a wheeled 
mechanic's creeper, propelling himself like a spider beneath the grimy 
trucks.
    Even with more than 2 dozen reinforcements from around Texas, the 
teams of State and Federal inspectors were able to check only about 20 
trucks an hour.
    But within a few hours, the lot was crowded with out-of-service 
trucks, awaiting the arrival of mechanics.
    Surveying a Granados Trucking rock hauler that had been put out of 
service for maladjusted brakes and other problems and now wouldn't 
start, Trooper Pellizzari muttered: ``Typical Wise County junk on the 
road.''
    By the end of the second day, 95 trucks had been checked and 
inspectors had ordered 30 of them out of service for various safety 
violations. In similar Wise County spot checks that followed, troopers 
inspected 145 trucks in June and put 42 percent of them out of service. 
They inspected 281 trucks in July and ordered 40 percent of them off 
the road.
    Rodney Baumgartner, a senior Federal Motor Carrier Safety 
Administration official in Austin, said the agency needs to gather more 
data before tailoring a safety plan to address the deadly interplay of 
rock trucks and passenger vehicles in Wise County.
    ``We're trying to identify the real problem road areas and the 
problem companies,'' he said.
    Problem companies could be targeted for compliance reviews, audits 
and education sessions. Trucking companies would be urged to have their 
drivers slow down, especially in urban areas, and to keep more distance 
between their rock haulers and the passenger cars on the road. Part of 
the solution also would be raising awareness about safe driving around 
rock trucks, he said.
    ``There's not one answer,'' said Mr. Baumgartner. ``There's not one 
silver bullet.''

                          A WEIGHTY EXCEPTION

    State troopers and commercial vehicle inspectors say many accidents 
involving rock trucks are caused by passenger vehicles that pull out in 
front or cut off the big rigs. Like any larger truck, 18-wheelers 
loaded with rock or sand can't stop quickly.
    State regulations allow trucking companies to buy permits that 
enable them to exceed 80,000-pound gross vehicle weight limits--a 
widely used exemption that makes rock trucks even more dangerous. In 
Texas and other States, lawmakers approved certain exemptions to weight 
limits, as supported by businesses such as timber companies and rock 
haulers.
    It's ``simply a matter of physics,'' said Maj. Rogers. ``The 
heavier it is, the longer it's going to take to stop. So, sure, safety 
is impacted.''
    With or without permits, rock haulers routinely run overweight, 
according to State records and commercial vehicle enforcement officers.
    ``They know they're overweight, but they're told by the companies 
to keep driving,'' Trooper Pellizzari said.
    It's a problem around Texas, but with the DPS fielding only a 
skeleton force of truck safety officers in Wise County, the odds of 
getting away with breaking weight laws are especially good, officers 
said.
    Texas has beefed up its truck inspection efforts over the last 10 
years, with the help of Federal grants. But, in response to the North 
American Free Trade Agreement and post-9/11 security concerns, most of 
the new inspectors have been assigned to counties bordering Mexico. And 
they focus on Mexican trucks, which are not allowed to proceed more 
than 25 miles beyond the border.
    Mexican trucks crossing into Texas face more Level 1 inspections 
than 18-wheel rock trucks hauling 80,000-pound loads from pits and 
quarries in Wise County on North Texas streets and highways. But, over 
the last 5 years, rock haulers have been involved in more fatal 
accidents than Mexican-domiciled trucks that cross into Texas, 
according to State and Federal data.
    In major urban centers like Dallas and Fort Worth, the burden for 
enforcing truck safety regulations has increasingly shifted to local 
law enforcement agencies. Dallas County is one of 29 counties and 
cities in Texas that has created its own commercial vehicle enforcement 
unit to fill the gaps in the state's monitoring. Last year, the 8-
member Dallas County force wrote 7,400 citations for commercial vehicle 
violations.
    Rock trucks and other construction vehicles are a top priority, 
said senior Sgt. Chris Smith, who heads the Dallas County unit. 
Municipal police departments around Dallas County sometimes request 
help in cracking down on overweight rock trucks that are tearing up 
roads, he said.
    Most of the money collected in roadside inspection fines goes to 
the counties, not the State.

                            PAY BY THE LOAD

    Profit margins are thin in the trucking business, and that 
translates into low pay for drivers, especially in the rock-hauling 
business.
    Dallas lawyer Clay Miller, who has represented dozens of plaintiffs 
in wrongful death lawsuits against trucking companies, explained the 
economics of recruiting rock haulers.
    ``No. 1, you get whomever you can find,'' he said. ``No. 2, you 
can't pay them much. So where the J.B. Hunts of the world and the 
higher-end trucking companies are paying 40 cents per mile, these rock 
haulers are paying 23, 24, 25 cents a mile. And so you're just not 
going to get well-qualified drivers.''
    Many, in fact, pay truckers a percentage of each load hauled, a 
practice that safety experts say encourages drivers to speed, to work 
longer hours each day than the law allows and to shortcut maintenance.
    A Wise County lawsuit in the mid-1980s turned a spotlight on the 
longstanding practice. A speeding trucker who was paid by the load 
seriously injured a prominent local businesswoman and killed her 
friend. A jury ruled on that practice by awarding punitive damages, 
Wise County lawyers and others involved in the case said.
    But the practice is still widespread. Interviews with drivers and 
lawyers and a review of Wise County lawsuits show that local rock 
haulers are still routinely paid by the load. Some companies pay 
drivers an hourly wage based on the number of loads hauled, according 
to court documents. Plaintiff's attorneys say that is an attempt by 
companies to conceal the practice of paying by the load.
    Trucker Jody Spoelstra of Fort Worth, a big-rig driver for 18 of 
his 47 years, said he has always been paid by the load. He earns 23.5 
percent of what his employer, GIT Excavating of Sanger, makes on his 
truck. That figures out to between $40 and $60 a load, he said. In warm 
weather, he averages about $700 a week, and sometimes pushes that to 
$800 by hauling a load or two on Saturday mornings.
    ``Winter is really bad,'' he said.
    He earned only $600 last December, so he drives as much as he can 
in the summer. Up to 12 hours a day, Mr. Spoelstra hauls loads of 
gravel or sand from Wise County to construction sites around North 
Texas. He eats in his truck as he waits to load or unload.
    Under Texas law, intrastate truckers can drive 12 hours without 
resting, an hour longer than interstate drivers. The theory is that 
driving shorter distances is less tiring. In reality, short-haul 
drivers routinely log as many miles in a day or week as long-haul 
drivers, and the driving conditions are often more stressful. Rock 
haulers making the Wise County to Dallas-Fort Worth run spend much of 
their day in heavy traffic and congested areas.
    To increase their number of loads, many drivers fill their trucks 
the night before so they can get an early start. Some sleep in their 
cabs, even if it means napping upright. They drive fatigued and fudge 
their logbooks to avoid exceeding Federal or State driving limits, 
court records show. Companies are supposed to carefully monitor the 
hours their drivers are on the road, but oversight is often lax, the 
records show.
    Trucker Torrance Reeves, who had been driving just three weeks for 
Matbon Inc. when he pulled into the Decatur inspection lot, said he is 
paid by the load.
    ``We all get paid by the load,'' he said, adding that the 
inspection was costing him money. ``It wears us out--we don't make any 
money doing this. For 2 weeks, I've been in these little [inspection] 
yards. I got a mortgage. It puts a hurt on everything.''
    Time wasn't all the inspection cost him. Although Richardson 
inspectors had given Mr. Reeves a passing score just a week earlier, by 
the time Trooper Pellizzari and his colleagues completed their review, 
Mr. Reeves' truck was out of service because of one flat tire and 
another that was losing its tread, maladjusted brakes and an overweight 
load.
    Mr. Reeves complained that the inspections were unfair because 
drivers were held responsible for their employer's poor maintenance 
practices. Troopers ought to target the companies, he said, rather than 
drivers, who get citations on their driving records if troopers find 
problems with the vehicle.
    ``Once your license is screwed up, they're done with you,'' Mr. 
Reeves said of trucking companies. But the State inspectors ``don't 
want to fight the companies. They'd rather fight the little people, go 
the path of least resistance.''
                                 ______
                                 

            [From the Advocates for Highway and Auto Safety)

          Federal Motor Carrier Safety Administration (FMCSA)

   LEGISLATED RULEMAKING ACTIONS AND STUDIES, AND ADDITIONAL AGENCY 
                                ACTIONS
                                GLOSSARY

Overdue
    This is either a regulatory proceeding, report, or other action 
whose legislated deadline was missed by FMCSA.
Delayed/Incomplete
    This is a delayed regulatory proceeding, report, or other action 
that Congress directed FMCSA to complete without specifying a time-
certain deadline, or on which the agency has delayed action for an 
unreasonable or protracted amount of time.

         TRUCK AND BUS SAFETY AND REGULATORY REFORM ACT OF 1988

    Commercial Vehicle Driver Biometric Identifier.--Section 9105 of 
the Truck and Bus Safety and Regulatory Reform Act of 1988 directs the 
Secretary to issue regulations not later than December 31, 1990, 
establishing minimum uniform standards for a biometric identification 
system to ensure the identity of commercial motor vehicle operators. 49 
U.S.C. Sec. 31309(d)(2). An ANPRM was issued at 54 FR 20875 et seq., 
May 15, 1989, followed by an Information Notice at 56 FR 9925, March 8, 
1991. Congress subsequently amended the biometric identifier 
requirement in section 4011 of TEA-21 to remove the mandate that 
commercial drivers specifically shall have biometric identifiers and 
substituted the requirement that CDLs contain some form of unique 
identifier after January 1, 2001, to minimize fraud and illegal 
duplication. The Secretary is directed to complete regulations to 
achieve this goal no later than 180 days after TEA-21 enactment, or by 
December 9, 1998.
    Status.--FMCSA has withdrawn this rulemaking on May 5, 2005 (70 FR 
24358), claiming that it ``has met the statutory objective through 
other efforts.'' Semi-annual regulatory agenda, 70 FR 64841, 64998, 
October 31, 2005.

     HAZARDOUS MATERIALS TRANSPORTATION UNIFORM SAFETY ACT OF 1990

Overdue
    Nationally Uniform System of Permits for Interstate Motor Carrier 
Transport of Hazardous Materials: Section 22 of the Hazardous Materials 
Transportation Uniform Safety Act of 1990 directs the U.S. DOT 
Secretary to institute a nationally uniform system of permits necessary 
for motor carrier transport of hazardous materials. 49 U.S.C. 
Sec. 5119. The Secretary is directed to prescribe the necessary 
regulations ``by the last day of the 3-year period beginning on the 
date the working group [established pursuant to Sec. 5119(a)] submitted 
its report or the last day of the 90-day period beginning on the date 
on which at least 26 States adopt all of the recommendations of the 
report.'' The regulation must take effect 1 year after prescribed by 
the Secretary or, for good cause shown, later than 1 year. Section 
5119(b)(2) directs that the advisory group's report be submitted to 
Congress by November 16, 1993. However, the working group formed 
pursuant to Sec. 5119, the Alliance for Uniform Hazardous Materials 
Transportation Procedures, issued its final report on March 15, 1996.
    Status.--Despite the fact that the report documents widespread 
defects in State permitting practices which directly affect operating 
safety, two notices reviewing the report have been issued to date 
without any indication of agency willingness to institute the uniform 
permitting system directed by law 11 years ago. 61 FR 363016 et seq., 
July 9, 1996; 63 FR 16362 et seq., March 31, 1998. No further action 
has been taken to date and the agency has no acknowledgement of this 
Congressional mandate in its semi-annual regulatory agendas.
    General Transportation of Hazardous Materials \1\.--Section 8(b) of 
the Hazardous Materials Transportation Uniform Safety Act of 1990, as 
amended, directs the Secretary to adopt motor carrier safety permit 
regulations for motor carriers transporting Class A or B explosives, 
liquefied natural gases, hazardous materials extremely toxic upon 
inhalation, or highway route controlled radioactive materials. 49 
U.S.C. Sec. Sec. 5105, 5109. The deadline for final regulations was 
November 16, 1991.
---------------------------------------------------------------------------
    \1\ In a judicial settlement agreement, FMCSA agreed to issue a 
final rule regarding permits for the transportation of hazardous 
materials under section 5109 no later than June 30, 2004.
---------------------------------------------------------------------------
    Status.--An NPRM was issued on June 17, 1993, at 58 FR 33418 et 
seq. The topic was listed in the agency's semi-annual regulatory agenda 
for issuance of a supplemental NPRM (67 FR 74922, December 9, 2002). 
The FMCSA issued a supplemental notice of proposed rulemaking on August 
19, 2003 (68 FR 49737). However, that proposed rule did not use the 
opportunity of instituting the permit system to propose new, additional 
hazmat types and quantities for inclusion under the Sec. 5109 safety 
permitting system. A final rule was calendared by the FMCSA in its June 
28, 2004, semi-annual regulatory agenda to be issued by June 2004. The 
final rule was issued on June 30, 2004 (69 FR 39350 et seq.).

        INTERMODAL SURFACE TRANSPORTATION EFFICIENCY ACT OF 1991

    Minimum Training Requirements for Operators and for Training 
Instructors of Multiple Trailer Combination Vehicles \2\.--The 
Intermodal Surface Transportation Efficiency Act of 1991 (ISTEA), 
section 4007(b)(2) mandates that the Secretary shall initiate 
rulemaking later than 60 days following ISTEA enactment and shall issue 
a final regulation establishing such standards no later than 2 years 
following enactment. Therefore, the latest date for compliance was 
December 18, 1993. An advance notice of proposed rulemaking (ANPRM) was 
issued at 58 FR 4638 et seq., January 15, 1993. Although the FMCSA has 
repeatedly calendared this topic for action in its semi-annual 
regulatory agendas, none of the agency's self-imposed target dates has 
been met.
---------------------------------------------------------------------------
    \2\ In a judicial settlement agreement, FMCSA agreed to issue a 
final rule regarding minimum training requirements for drivers of 
longer combination vehicles no later than March 30, 2004.
---------------------------------------------------------------------------
    Status.--The FMCSA December 9, 2002, semi-annual regulatory agenda 
listed this issue for proposed rulemaking in December 2003. 67 FR 
74923. The FMCSA issued a proposed rule on August 12, 2003 (68 FR 47890 
et seq.). In comments filed with the agency's docket on October 15, 
2003, Advocates pointed out that the agency has substituted its 
discretion for clear legislative instruction from Congress by 
essentially mooting the mandatory action to institute LCV driver 
training by grandfathering 97 percent of current CDL holders with LCV 
endorsements for exclusion from any required advanced driver training. 
A final rule was issued on March 30, 2004, that excluded through 
grandfathering about 96 percent of all LCV drivers from having to 
receive any advanced training. 69 FR 16722 et seq.
    Training for Entry-Level Drivers of Commercial Motor Vehicles 
\3\.--ISTEA section 4007(a) mandates that the Secretary report to 
Congress on the effectiveness of private sector entry level commercial 
vehicle driving training efforts no later than one year following 
enactment, that is, by December 18, 1993. The report was submitted to 
Congress date February 5, 1996. The provision also directs the 
Secretary to determine whether such training standards are needed for 
trucks greater than 10,000 pounds gross vehicle weight or for buses 
carrying eight passengers or more plus a driver. If the Secretary 
decides that such standards are not required, the Secretary shall 
submit a report to Congress not later than 25 months following 
enactment detailing the reasons why no standards are necessary, 
accompanied by a benefit-cost analysis. Since the Secretary did not 
file a report stating that such training standards are not necessary, 
the original compliance dates apply for a notice of proposed rulemaking 
(NPRM) by December 18, 1992, and for a final rule by December 18, 1993, 
which the FMCSA recognizes in its most recent semi-annual regulatory 
agenda entry (No. 2428, 66 FR 62001-62002, December 3, 2001. The agency 
initiated rulemaking with an ANPRM at 58 FR 33874 et seq., June 21, 
1993. Although the FMCSA has repeatedly promised specific target dates 
for completing this Congressional requirement, none of the self-imposed 
deadlines has been met.
---------------------------------------------------------------------------
    \3\ In a judicial settlement agreement, FMCSA agreed to issue a 
final rule regarding minimum training standards for entry-level drivers 
of commercial motor vehicles no later than May 31, 2004.
---------------------------------------------------------------------------
    Status.--The agency in its December 9, 2002, semi-annual regulatory 
agenda listed this issue for proposed rulemaking in December 2003. 67 
FR 74923. The FMCSA issued a proposed rule for public comment on August 
15, 2003 (68 FR 48863 et seq.), that clearly evades Congressional 
direction by avoiding the proposed adoption of any entry-level driving 
training in basic operational skills and safety. This proposal arguably 
violates section 4007(a) of the ISTEA. A final rule was issued on May 
21, 2004, which does not require entry-level drivers from receiving any 
basic knowledge and skills training on the operation of commercial 
motor vehicles. 69 FR 29384 et seq. Advocates and two other plaintiffs 
filed suit against the agency at the start of 2005 seeking to overturn 
the final rule as arbitrary and capricious agency action. The Court of 
Appeals for the District of Columbia overturned the final rule and 
remanded it to the agency for further action on December 2, 2005. There 
is no entry in the April 24, 2006, FMCSA semi-annual regulatory agenda 
providing a calendar for reopening rulemaking to comport with the 
court's decision. Similarly, there is no listing for any regulatory 
action in the December 11, 2006 semi-annual regulatory agenda (71 FR 
73584, 73635-73643). The agency apparently does not see any need to 
respond expeditiously to the court's remand to redo the rulemaking.

      HAZARDOUS MATERIALS TRANSPORTATION AUTHORIZATION ACT OF 1994

    Safety Performance History of New Drivers \4\.--This action was 
originally mandated by section 114 of the Hazardous Materials 
Transportation Authorization Act of 1994. It directs the Secretary to 
specify by January 1999 the minimum safety information that new or 
prospective employers must seek from former employers during the 
investigation of a driver's employment record. However, the agency has 
issued only a NPRM (61 FR 10548 et seq., March 14, 1996) and Congress 
in the Transportation Equity Act for the 21st Century (TEA-21) decided 
in section 4014 to give the provision a new statutory deadline of 
January 1999. Congress also modified the rulemaking charge to the 
Secretary to include protection for commercial driver privacy and to 
establish procedures for the review, correction, and rebuttal of 
inaccurate safety performance records of any commercial driver.
---------------------------------------------------------------------------
    \4\ In a judicial settlement agreement, FMCSA agreed to issue a 
final rule regarding background information and safety performance 
history of commercial drivers no later than March 30, 2004.
---------------------------------------------------------------------------
    Status.--The FMCSA in the semi-annual regulatory agenda for 
December 3, 2001, promised a supplementary notice of proposed 
rulemaking in March 2002. However, that timetable was pushed back again 
to December 2002 for a supplemental NPRM. 67 FR 74918 (December 9, 
2002). The FMCSA published a supplemental notice of proposed rulemaking 
on July 17, 2003 (68 FR 42339 et seq.). Advocates filed comments with 
the docket on September 2, 2003, that pointed out that the agency was 
failing to require that employers reveal employee hours of service 
violations. A final rule was issued on March 30, 2004. 69 FR 16684 et 
seq. This rule, however, may be further modified in accordance with a 
provision on safety performance screening enacted in SAFETEA-LU, 
section 4117. See, the entry below on this regulatory topic in the 
section on motor carrier provisions enacted in SAFETEA-LU.
Overdue
    Railroad-Highway Grade Crossing Safety.--This rulemaking action was 
directed by Congress to be completed by February 26, 1995. The agency 
proposed that operators of commercial motor vehicles were to be 
prohibited from driving onto a railroad grade crossing unless there 
also was sufficient space to drive completely through the crossing 
without stopping on the tracks.
    Status.--Although a notice of proposed rulemaking was issued in 
July 1998, no final rule was issued. The FMCSA in its December 3, 2001, 
semi-annual regulatory agenda promised a final rule to be issued by 
September 2002. 66 FR 62005. However, that deadline was pushed even 
further back to March 2003. 67 FR 33483, May 13, 2002. In the semi-
annual regulatory agenda of December 9, 2002, a final rule was 
scheduled now for June 2003. 67 FR 74920. The semi-annual regulatory 
agenda of June 28, 2004, again pushed back the completion date for a 
final rule until April 2005. 69 FR 37844, 37910-37911. The semi-annual 
regulatory agenda for October 31, 2006, listed this required regulation 
as a ``Next Action Undetermined,'' with no specific date for action. 70 
FR 64940, 64995. FMCSA has now withdrawn this rulemaking proposal, 71 
FR 25128, April 28, 2006, arguing that the proposed rule gave a 
misleading impression of the statutory mandate that the agency States 
it will correct by issuing a new, more clearly articulated proposal. A 
new proposed rule is now calendared for September 2007 in the December 
11, 2006, semi-annual regulatory agenda (71 FR 73584, 73638). This 
topic is also listed as an entry That May Affect Small Entities when a 
Regulatory Flexibility Analysis is not Required, id. at 74349, and as 
an entry That May Affect Levels of Government, id. at 74360.
Overdue
    Supporting Documents for Hours of Service for Commercial Drivers, 
Section 113.--Section 113 of the Hazardous Materials Authorization Act 
of 1994 specifies several actions to be completed by the Secretary, 
including a requirement that the Secretary prescribe regulations 
specifying the number, type, and frequency of supporting documents that 
must be retained by a motor carrier in order to permit verification of 
the accuracy of record of duty status maintained by each commercial 
driver and the length of time for which the supporting documents shall 
be retained which must be at least 6 months from the date of a 
document's receipt. The statutory deadline for issuing such regulations 
was February 26, 1996.
    Status.--Although the agency opened rulemaking on April 20, 1998, 
at 63 FR 19457, and published a supplemental notice of proposed 
rulemaking on November 3, 2004, at 69 FR 63997, no final action has 
been taken on this regulatory topic. The agency missed the statutory 
deadline by 10 years. In the April 24, 2006, semi-annual regulatory 
agenda, FMCSA has calendared a final rule to be issued in July 2006. 71 
FR 23012. FMCSA has again delayed issuance of a final rule in the 
December 11, 2006, semi-annual regulatory agenda (71 FR 73584, 73638-
73639). The newly promised completion date is December 2006.

         INTERSTATE COMMERCE COMMISSION TERMINATION ACT OF 1995

    Motor Carrier Replacement Information and Registration System.--
Section 103 of the Interstate Commerce Commission Termination Act of 
1995 requires the Secretary to initiate a rulemaking to replace the 
current U.S. DOT motor carrier identification number, single State 
registration number, registration/licensing system, and financial 
responsibility system, with a single, on-line Federal system. Congress 
directed in its enactment of a new 49 U.S.C. Sec. 13908 that the agency 
shall conclude rulemaking under this section not later than 24 months 
after the effective date of this section, that is, by January 1, 1998. 
An ANPRM was issued at 61 FR 43816, August 26, 1996. The agency 
apparently considers its partial response to the issues mandated by 
Congress adopted by the FMCSA in a final rule of June 2, 2000, at 65 FR 
35287 et seq., despite the fact that the agency was 2\1/2\ years late, 
as having satisfied the rulemaking calendar of section 103 of the ICC 
Termination Act. The FMCSA, in its entry on this issue in the May 2001 
semi-annual regulatory agenda (No. 2338 at 66 FR 25884) noted that the 
issue has now been combined with another ongoing rulemaking action (65 
FR 70509 et seq., November 24, 2000). Also, the agency characterizes 
the rulemaking as not having any statutory deadline.
    Status.--The FMCSA issued an interim final rule with an opportunity 
for public comment on November 24, 2000, at 65 FR 70509 et seq. In the 
December 3, 2001, semi-annual regulatory agenda, the FMCS listed March 
2002 for issuing a notice of proposed rulemaking on this topic. 66 FR 
62003. The agency then listed a proposed rule for June 2002 in its May 
2002 semi-annual agenda. 67 FR 33481-33482, May 13, 2002. In its latest 
agenda, the FMCSA lists the issue as now scheduled for a proposed rule 
in February 2003. No rulemaking proposal has been issued as of January 
2004. The June 28, 2004, semi-annual regulatory agenda listed a notice 
of proposed rulemaking to be published in November 2004. 69 FR 37906. A 
proposed rule was published for comment on May 19, 2005, 70 FR 28990 et 
seq. The last 2005 semi-annual regulatory agenda has an entry for this 
action without any indication of a timeframe for completion. 70 FR 
64940, 64994, October 31, 2005. However, this statutory mandate has 
been updated and recharacterized by a new, detailed legislative 
provision in SAFETEA-LU (q.v., below) with a new statutory deadline for 
completing rulemaking by August 6, 2006.
Delayed/Incomplete
    Automated and Tamper-Proof Recording Devices.--Section 408 of the 
ICC Termination Act required the agency to issue an advance notice of 
proposed rulemaking that, among other topics, addressed the issue of 
commercial driver fatigue in relation to automated and on-board 
recording of driver hours of service. The FMCSA and its predecessor 
agency issued the advance notice on November 5, 1996 (61 FR 58752 et 
seq.), the proposed rule amending driver hours of service that included 
the proposed adoption of electronic on-board recording devices (EOBRs) 
on May 2, 2000 (65 FR 25540 et seq.), and a final rule that demurred on 
adopting EOBRs at that time on April 28, 2003 (68 FR 22456).
    Status.--Because the U.S. Court of Appeals for D.C. vacated the 
2003 final rule on July 16, 2004, and in dicta stressed that the agency 
had failed to address the EOBR issue as directed in the ICC Termination 
Act as required, the FMCSA issued an advance notice of proposed 
rulemaking on September 1, 2004 (69 FR 53386 et seq.). The October 31, 
2005, semi-annual regulatory agenda indicated that a proposed rule on 
EOBRs would be issued by February 2006. 70 FR 64940, 64993. FMCSA did 
not meet this self-imposed deadline. The semi-annual regulatory agenda 
for April 24, 2006, at 71 FR 23010 indicated a proposed rule 
publication for June 2006. That date for a proposed rule was pushed 
back another 9 months to March 2007 in the December 11, 2006, semi-
annual regulatory agenda (71 FR 973584, 73637). That proposed rule was 
finally published on January 18, 2007 (72 FR 2340 et seq.). The 
proposed rule requires EOBRs only if a motor carrier undergoes two 
successive Compliance Reviews within a two-year period that show, in 
both instances, that the carrier had a 10 percent or greater violation 
rates. FMCSA projects that less than 1,000 motor carriers each year of 
over 700,000 companies currently registered with the agency will be 
required to install EOBRs, a figure that amounts to about 0.013 percent 
of interstate motor carriers. In addition, the proposal allows motor 
carriers required to use EOBRs to remove them after two years of use. 
The proposed rule has numerous, other major weaknesses.
    General Jurisdiction Over Freight Forwarder Service.--This 
rulemaking is carried out in accordance with the extensive 
Congressional reworking of the FMCSA's jurisdictional responsibilities 
over all segments of the freight forwarding industry, as enacted in 
Section 103 of the ICC Termination Act of 1995. Despite a proposed rule 
in January 1997, the agency has taken no further action to date.
    Status.--The FMCSA listed this rulemaking in its December 9, 2002, 
semi-annual regulatory agenda as ``Next Action Undetermined.'' 67 FR 
74924 et seq. The June 28, 2004, semi-annual regulatory agenda promised 
a final rule in June 2004. The semi-annual regulatory agenda published 
on October 31, 2005, reverted to listing this required regulatory 
action again as ``Next Action Undetermined.'' 70 FR 64940, 64995. The 
semi-annual regulatory agenda for April 24, 2006, lists final action as 
``To Be Determined.'' 71 FR 23014. The December 11, 2006, semi-annual 
regulatory agenda now lists final regulatory action for March 2007 (71 
FR 73584, 73638). This topic is also listed as an entry That May Affect 
Small Entities when a Regulatory Flexibility Analysis Is not Required, 
id. at 74349.

    TRANSPORTATION EQUITY ACT FOR THE TWENTY-FIRST CENTURY (TEA-21)

    Waivers, Exemptions, and Pilot Programs.--Section 4007 directs the 
Secretary not later than 180 days after enactment of TEA-21 (i.e., by 
December 9, 1998) to issue regulations after notice and comment 
rulemaking which specify the procedures by which a person may request a 
regulatory exemption from the Federal Motor Carrier Safety Regulations. 
The FMCSA issued an interim final rule on December 8, 1998 (63 FR 67600 
et seq.), with only an after-the-fact public comment period and a date 
of effectiveness simultaneous with publication of the interim rule. It 
also has proceeded with pilot program development and proposals without 
having adopted final procedures mandated by Congress for requesting 
regulatory exemptions.
    Status.--The December 3, 2001, semi-annual regulatory agenda listed 
final regulatory action on this topic by December 2001. This deadline 
was extended to March 2003. 67 FR 33487-33488, May 13, 2002. The 
December 9, 2002, agenda listed final action for March 2003. The FMCSA 
issued a final rule on August 20, 2004, simply adopting the 1998 
interim final rule. 69 FR 51589 et seq.
Delayed/Incomplete
    Performance-Based CDL Testing.--Section 4019 of TEA-21 requires the 
Secretary to complete not later than one year following enactment of 
the bill (i.e., by June 9, 2000), a review of the procedures 
established and implemented by the States pursuant to Federal law 
governing the commercial driver license (CDL) to determine if the 
current system for testing is an accurate measure of an applicant's 
knowledge and skills. The review is also required to identify methods 
of improving testing and licensing standards, including the benefits of 
a graduated licensing system. A Notice proposing an information 
collection survey was published in the Federal Register on July 19, 
1999 (64 FR 38699).
    Status.--Although there was not even an entry for the legislatively 
mandated evaluation of the benefits of a graduated commercial driver 
licensing (GCDL) program in the agency's semi-annual regulatory agenda 
issued on December 9, 2002, FMCSA published a notice asking for 
comments on the value of a GCDL program on February 25, 2003. 68 FR 
8798 et. seq. The semi-annual regulatory agenda published on April 24, 
2006, has merged this topic with relevant provisions enacted in 
SAFETEA-LU. 71 FR 23011. See, below, the entry under SAFETEA-LU for 
Commercial Driver's License Testing and Learner's Permit Standards.
Delayed/Incomplete
    Improved Flow of Driver History Pilot Program.--Section 4022 of 
TEA-21 directs the Secretary to carry out a pilot program with one or 
more states to improve the timely exchange of pertinent driver 
performance and safety records data among motor carriers. A central 
purpose of the pilot program is to determine the extent to which driver 
records, including fines, penalties, and failures to appear for trial, 
should be included as part of any driver information systems
    Status.--Although there is no statutory deadline for this pilot 
program, the FMCSA since its inception has proposed discretionary pilot 
programs rather than acting expeditiously on pilot programs of strong 
Congressional interest expressed in authorizing legislation. There has 
been no proposed pilot program to carry out this Congressional 
directive. There have been no entries for this proposal in the agency's 
semi-annual regulatory agendas through December 11, 2006.
    Improved Interstate School Bus Safety.--The Secretary is directed 
by section 4024 to initiate rulemaking no later than 6 months after 
enactment of TEA-21 (i.e., By January 7, 1999) to determine whether the 
Federal Motor Carrier Safety Standards should apply to interstate 
school transportation operations.
    Status.--The agency issued an advance notice of proposed rulemaking 
on this topic on October 22, 2001, at 66 FR 53373 et seq., initiating 
action on this topic more than 2\1/2\ years after the Congressional 
deadline for a final regulation. The 2002 semi-annual regulatory agenda 
listed proposed rulemaking for October 2003. 67 FR 74918 et seq. 
(December 9, 2002). No proposed rule had been published as of January 
2004. The FMCSA subsequently decided on March 24, 2004, to withdraw the 
advance notice of proposed rulemaking and close the docket, noting that 
it decided that no regulatory action was needed and that interstate 
school transportation operations by local government would remain 
exempt from the motor carrier safety regulations except for the CDL 
requirement. 69 FR 13803 et seq.

Delayed/Incomplete
    DOT Implementation Plan.--The Secretary is directed in section 4026 
to complete an assessment no later than 18 months (i.e., by January 9, 
2000) after TEA-21 enactment of the extent to which shippers, freight 
forwarders, brokers, consignees, and other members of the supply chain 
other than motor carriers themselves, abet violations of the Federal 
Motor Carrier Safety Standards. After completing this mandated 
assessment, the Secretary can submit a plan to Congress for 
implementing authority to subject these parts of the supply chain to 
the civil penalties provided by chapter 5 of title 49 United States 
Code.
    Status.--Although the agency assessment was completed at the end of 
1998 by means of a qualitative assessment of the problem through the 
use of focus groups (Report FHWA-MC-98-049; A Qualitative Assessment of 
the Role of Shippers and Others in Driver Compliance With Federal 
Safety Regulations, FHWA Tech Brief, December 1998), no quantitative, 
data-based assessment of the scope of problem has been accomplished, 
and the FMCSA has not sent a plan to Congress for extending the reach 
of civil penalty provisions to encompass the other parts of the motor 
carrier supply chain. According to FMCSA personnel, the agency will not 
perform a quantitative evaluation and it decided not to submit a plan 
to Congress to recommend subjecting other members of the supply chain 
to the civil penalties in Federal law for violating the Federal Motor 
Carrier Safety Regulations. As a result, no semi-annual regulatory 
agenda contains an entry for this topic.

          MOTOR CARRIER SAFETY IMPROVEMENT ACT OF 1999 (MCSIA)

    Enforcement of Operating Authority Requirements, Section 205.--This 
provision on registration enforcement filled a major gap in FMCSA's 
enforcement authority by providing that, in addition to other penalties 
available under existing law, motor carriers that fail to register 
their operations as required by this section or that operate beyond the 
scope of their registrations may be subject to a series of 
legislatively prescribed penalties, including issuance of immediate 
Out-Of-Service Orders. The section also provides that any non-U.S. 
person operating a vehicle for which registration is required shall 
maintain evidence of proper registration in the motor vehicle when it 
is providing transportation. A central purpose of this legislative 
provision was to authorize the Secretary to take action against foreign 
domiciled motor carriers, such as Mexico-domiciled motor carriers, that 
are found to be operating either illegally in the United States or, in 
the case of the southern U.S. border, are operating commercial motor 
vehicles beyond the southern commercial zones without authorization to 
engage in transportation in the other portions of the border States or 
to conduct interstate operations.
    Status.--FMCSA issued an interim final rule on August 28, 2002, 
that complied with the requirements of section 205 and, in addition, 
made State enforcement of similar requirements to suspend operations of 
any motor carrier found to be operating without proper authority or to 
have exceeded the limits of its operating authority, a condition for 
receiving Federal funds under the Motor Carrier Safety Assistance 
Program (MCSAP). 67 FR 55162 et seq. The agency has listed this 
regulatory topic for final action by June 2007 in the April 24, 2006, 
semi-annual regulatory agenda. It should be noted that the effective 
date for compliance with the terms of the interim final rule, September 
27, 2002, delayed implementation of this major enforcement tool for 
nearly 3 years after enactment of FMCSA's enabling legislation. FMCSA 
has now issued a final rule that adopts as final its interim regulation 
published in August 2002 (71 FR 50862 et seq., Aug. 28, 2006). However, 
this action has not been listed in the December 11, 2006. semi-annual 
regulatory agenda as an entry That May Affect Levels of Government, 71 
FR 73584, 74360.
    New Motor Carrier Entrant Requirements, Section 210.--The Secretary 
is directed to require through regulation that each owner and each 
operator granted new operating authority shall undergo a safety review 
within the first 18 months after the owner or operator begins 
operations. This timeframe for evaluating the safety of new motor 
carriers is triggered by implementation of subsection (b) of this 
provision which directs the Secretary to initiate rulemaking to 
establish minimum requirements for applicant motor carriers, including 
foreign carriers, to ensure their knowledge of Federal safety 
standards. The Secretary is also directed to consider requiring a 
safety proficiency examination for motor carriers applying for 
interstate operating authority. The new entrant program was also 
amended by Congress in the fiscal year 2002 Appropriations legislation 
for the U.S. Department of Transportation to include requirements for 
new Mexican motor carriers.
    Status.--The FMCSA indicated in its December 3, 2001, semi-annual 
regulatory agenda that it would issue a rulemaking proposal in February 
2002. 66 FR 62004. However, a notice of proposed rulemaking was 
supplanted on May 13, 2002, by an interim final rule with an after-the-
fact comment period. See 67 FR 33489, May 13, 2002. The June 28, 2004, 
semi-annual regulatory agenda listed a notice of proposed rulemaking 
for January 2005. 69 FR 39707. This date has again been delayed in the 
semi-annual regulatory agenda of October 31, 2005, to January 2006. 70 
FR 64940, 64992. The December 11, 2006, semi-annual regulatory agenda 
listed a proposed rule to be issued in December 2006. 71 FR 73584, 
73635. This agenda also listed the topic as an entry That May Affect 
Small Entities when a Regulatory Flexibility Analysis Is not Required, 
id. at 74348.
    A proposed rule was published on December 21, 2006. 71 FR 76731 et 
seq. Although the proposal attempts to strengthen the new entrant 
program in some areas, the overall proposal fails to respond to the 
need to ensure that new entrant motor carriers are Safety Audited 
before they are awarded temporary registration and fails to conduct 
exist Compliance Reviews after the 18 months of temporary operation so 
that FMCSA begins the effort to stop adding even more unrated motor 
carriers to the enormous backlog of companies without safety fitness 
ratings. Pre-authorization safety audits and exit CRs with assigned 
safety fitness are, however, a current requirement for Mexico-domiciled 
motor carriers that was enacted several years ago by Congress.
Overdue
    Certified Motor Carrier Safety Auditors, Section 211.--The 
Secretary is directed in section 211 of the MCSIA to complete 
rulemaking by December 9, 2000, to improve training and to provide for 
the certification of motor carrier safety auditors, including private 
contractors, to conduct safety inspection audits and reviews. The 
rulemaking shall ensure that not later than one year after adoption of 
the new regulation, all safety inspection audits or reviews shall be 
conducted by a certified motor carrier safety auditor or by a qualified 
federal or state employee. The Secretary may extend the deadline for a 
final regulation before December 9, 2000, by notifying Congress that 
the U.S. Department of Transportation requires up to a 1-year delay, 
that is, until December 9, 2001, for completing the required 
rulemaking.
    Status.--The final rule has not been issued. As far as can be 
determined, no request for an extension was sent to Congress before 
December 9, 2000. The agency indicated in its December 3, 2001, semi-
annual regulatory agenda that it intended to issue a notice of proposed 
rulemaking in February 2002. 66 FR 62004. However, that action was 
supplanted by an interim final rule with an after-the-fact comment 
period, issued on March 19, 2002. See 67 FR 33490, May 13, 2002. The 
effective date of the interim final rule was delayed until July 17, 
2002, and the FMCSA initially listed final action for November 2003. 67 
FR 74927-74928 (December 9, 2002). No final rule has been published as 
of December 2004. The June 28, 2004, semi-annual regulatory agenda 
calendared a final rule for May 2005. 69 FR 37912. However, that 
deadline was not met, and the semi-annual regulatory agenda of October 
31, 2005, lists the topic for a proposed rule in May 2007. 70 FR 64958, 
64996-64997. That target date has been repeated in the semi-annual 
regulatory agenda of April 24, 2006. 71 FR 23015. It is again the 
target date in the December 11, 2006, agenda (71 FR 73584, 73635-
73636). This topic is also listed in the December 11, 2006, agenda as 
an entry That May Affect Small Entities when a Regulatory Flexibility 
Analysis is not Required, id. at 74348, and as an entry That May Affect 
Levels of Government, id. at 74360.
    Commercial Van Operations Transporting 9 to 15 Passengers Across 
the U.S.-Mexico Border, Section 212.--Section 212 of the Motor Carrier 
Safety Improvement Act of 1999 (MCSIA), authorizing the establishment 
of a new motor carrier safety agency, directs the Secretary to complete 
rulemaking determining the application of the Federal Motor Carrier 
Safety Standards to ``camionetas'' or compensated commercial vans 
transporting 9 to 15 passengers across the U.S.-Mexico border and to 
other commercial vans transporting between 9 and 15 passengers which 
are deemed serious safety risks. A final rule was required by December 
9, 2000.
    Status.--The FMCSA published a notice of proposed rulemaking on 
August 2, 2001, and indicated that it will take final action on this 
proposal in July 2002. 66 FR 62008 (December 3, 2001). That deadline 
was moved up by 1 month in the May 2002 semi-annual regulatory agenda 
to June 2002. 67 FR 33488, May 13, 2002. According to the latest agenda 
of December 9, 2002, final action on this proposal was to have occurred 
by December 2002. 67 FR 74921. The FMCSA published a final rule on 
August 12, 2003 (68 FR 47860 et seq.). However, that final rule exempts 
numerous small commercial operations from regulation on the basis of 
the amount of mileage traveled and the failure of these commercial 
operations to ask for ``direct compensation.'' Congress has 
countermanded that regulatory decision in section 4136 of SAFETEA-LU by 
requiring the FMCSA to cover thousands of commercial van operations 
that were excluded by the final rule. (See, below, entry under the 
Safe, Accountable, Flexible, Efficient Transportation Equity Act: A 
Legacy for Users.) FMCSA has set a new date for a final rule in the 
semi-annual regulatory agenda published December 11, 2006 (71 FR 73584, 
73641).
Delayed/Incomplete Action
    Medical Certificate, Section 215.--Section 215 directs the 
Secretary to conduct rulemaking to make the Federal medical 
qualification part of the commercial driver license (CDL). The FMCSA 
initiated rulemaking on this effort to integrate the medical 
certificate for commercial drivers with the CDL in 1994 (ANPRM, 58 FR 
36338, et seq., July 15, 1994). A negotiated rulemaking was conducted 
by a chartered advisory committee in 1995.
    Status.--The FMCSA stated in its December 3, 2001, semi-annual 
regulatory agenda entry no. 2429 that a proposed rule would be issued 
in March 2002. 66 FR 62002. However, that deadline was eliminated in 
the May 2002 semi-annual regulatory agenda in favor of a September 2002 
date for proposed rulemaking. 67 FR 33481, May 13, 2002. This deadline 
has again been extended to March 2003 in the December 9, 2002, agenda. 
67 FR 74917. As of December 2004, no rulemaking has been published by 
the agency. The agency promised a rulemaking proposal by December 2004 
in the June 28, 2004, semi-annual regulatory agenda. 69 FR 37906. 
Following this, a proposed rule without a specific date was listed for 
action in the FMCSA portion of the October 31, 2005, semi-annual 
regulatory agenda, but no proposal has been issued as of June 2006. 
Congress directed in SAFETEA-LU that the integration of the CDL with 
the Medical Certificate be accomplished. See the entry below under 
SAFETEA-LU.

   UNITING AND STRENGTHENING AMERICA BY PROVIDING APPROPRIATE TOOLS 
 REQUIRED TO INTERCEPT AND OBSTRUCT TERRORISM (USA PATRIOT ACT) ACT OF 
                                  2001

Delayed/Incomplete
    Limitations on the Issuance of Commercial Driver Licenses with a 
Hazardous Materials Endorsement.--The USA Patriot Act, enacted October 
26, 2001, contains section 1012 which prohibits each State from issuing 
any license to operate any motor vehicle transporting hazardous 
materials, as specifically defined in the act, unless the Secretary of 
Transportation first determines that the license applicant does not 
pose a security risk warranting license denial based on a background 
records check conducted by the U.S. Attorney General consisting of an 
evaluation of any domestic and international criminal records and alien 
immigrant status.
    Status.--FMCSA issued an interim final rule in conjunction with the 
Transportation Security Administration (TSA) without prior opportunity 
for comment on May 5, 2003, prohibiting the States from issuing, 
renewing, transferring, or upgrading a CDL with a hazardous materials 
endorsement unless the TSA has first conducted a background records 
check on each applicant and has determined that the applicant does not 
pose a security threat warranting denial of the hazmat endorsement. 68 
FR 23844 et seq. Two subsequent actions were published in the Federal 
Register, the first on November 7, 2003, and the second on August 19, 
2004, delaying the compliance dates for the States because of both 
Federal and State burdens that could not be acquitted in accordance 
with the original deadlines. 68 FR 63030 et seq.; 69 FR 51391 et seq. 
Following these delays, TSA and FMCSA simultaneously issued a second 
final interim regulation to implement section 1012. 70 FR 22268 (April 
29, 2005). However, that interim final rule has not been made effective 
nor has it yet been changed to a final rule. As a consequence, the 
April 24, 2006, semi-annual regulatory agenda lists final action ``To 
Be Determined.'' 71 FR 23015. This deferral is repeated in the December 
11, 2006, agenda (71 FR 73584, 73640-73641). This topic is also listed 
in the December 11, 2006, agenda as an entry That May Affect Small 
Entities when a Regulatory Flexibility Analysis Is not Required, id. at 
74349, and as an entry That May Affect Levels of Government, id. at 
74360.

 DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS ACT 
                                  2002

    Penalties, Inspection, and Decal Display Requirements for Mexico-
Domiciled Motor Carriers.--Section 350 of this fiscal year 2002 
appropriations legislation, enacted on December 18, 2001 (Pub. L. 107-
87, 115 Stat. 833), directs that all commercial motor vehicles operated 
by Mexico-domiciled motor carriers holding authority to operate beyond 
the southern commercial zones of the U.S. must display a Commercial 
Motor Vehicle Safety Alliance decal issued by a certified inspector.
    Status.--FMCSA has taken no action on this issue for several years 
since enactment of the cited appropriations legislation because no new 
operating authority has been awarded to any Mexico-domiciled motor 
carrier to operate throughout the U.S. in interstate commerce, beyond 
the current southern border zones. The semi-annual regulatory agenda 
for April 24, 2006, lists this regulatory action for a proposed rule to 
be published in March 2007. 71 FR 23009. This projected deadline for 
action is repeated in the December 11, 2006, semi-annual regulatory 
agenda (71 FR 73584, 73636). This topic is also listed in the December 
11, 2006, semi-annual regulatory agenda as an entry That May Affect 
Small Entities when a Regulatory Flexibility Analysis Is not Required, 
id. at 74349.
    Safety Monitoring System and Compliance Initiative for Mexico-
Domiciled Motor Carriers Operating in the United States.--Section 350 
of the fiscal year 2002 U.S. DOT appropriations legislation requires 
the Secretary to perform a full compliance review of any Mexico-
domiciled motor carrier operating in the United States beyond the U.S. 
municipalities and commercial zones on the U.S.-Mexico border, to 
determine whether each motor carrier complies with the safety fitness 
procedures set for in part 385 of title 49, Code of Federal 
Regulations, and to award permanent operating authority to each motor 
carrier only after it has been assigned a Satisfactory safety rating. 
Congress set forth two limited exceptions from these requirements for 
Mexico-domiciled motor carriers with 3 or fewer commercial motor 
vehicles or for those motor carriers that did not undergo an initial 
on-site safety review prior to being awarded temporary operating 
authority. FMCSA has engaged in rulemaking on this and allied issues 
involving motor carrier suspension and revocation procedures, and on 
the criteria the agency would use in evaluating whether Mexico-
domiciled motor carriers exercise basic safety management controls.
    Status.--FMCSA proposed a regulation on May 3, 2001, to comply with 
the statutory mandate, as well as to ventilate other potential actions 
for the agency to take in order to implement the force and effect of 
the Congressional requirements. 66 FR 22415 et seq. An interim final 
rule was issued on March 19, 2002. 67 FR 12758 et seq. No further 
regulatory action has been taken to date to move the interim final rule 
to a completed final rule because, currently, no Mexico-domiciled motor 
carriers are being vetted for U.S. interstate operations on the basis 
of applications received to date by the agency. This is due to the fact 
that a final administrative decision to open the southern border to 
commercial traffic beyond the existing commercial zones has been 
rendered. As a result, FMCSA has designated any final action on this 
uncompleted issue as ``To Be Determined'' in the April 24, 2006, semi-
annual regulatory agenda. 71 FR 23015. This deferral is repeated in the 
December 11, 2006, agenda (71 FR 73584, 73640). This topic is also 
listed at id. 74360 as an entry That May Affect Small Entities when a 
Regulatory Flexibility Analysis Is not Required; as an entry That May 
Affect Levels of Government; and as an entry That May Have Federalism 
Implications, id. at 74390.

  SAFE, ACCOUNTABLE, FLEXIBLE, EFFICIENT TRANSPORTATION EQUITY ACT: A 
                   LEGACY FOR USERS 2005 (SAFETEA-LU)

    Qualifications of Commercial Drivers--Diabetes Standard.--Section 
4129 of SAFETEA-LU directs the Secretary to begin revising the final 
rule on the medical standard for drivers with insulin-treated diabetes, 
published in the Federal Register on September 3, 2003, not later than 
90 days after enactment of SAFETEA-LU (by November 8, 2005) to allow 
insulin-treated commercial drivers with diabetes to treat their 
diabetes and to operate commercial motor vehicles in interstate 
commerce. The final rule shall provide for individual medical 
assessment of drivers who are otherwise qualified under the Federal 
Motor Carrier Safety Regulations. The amended final rule is also 
directed to be found consistent with the statutory criteria set forth 
in section 4018 of TEA-21. The adoption of a final rule pursuant to 
section 4129 of SAFETEA-LU shall conclude the rulemaking process. 
Section 4129 also provides that the Secretary may not require 
individuals with insulin-treated diabetes applying for an exemption to 
operate commercial motor vehicles in interstate commerce to have prior 
experience operating such vehicles while treating their diabetes with 
insulin. Section 4129 further provides that the Secretary shall require 
exemption applicants with insulin-treated diabetes to have a minimum 
period of insulin use to demonstrate stable control of their diabetes, 
consistent with findings previously reported in a July 2000 medical 
panel reports. For exemption applicants newly diagnosed with Type I 
diabetes, the minimum period of insulin use may not exceed 2 months 
unless otherwise indicated by a treating physician; for exemption 
applicants diagnosed with Type II diabetes, the minimum period of 
insulin use shall not exceed 1 month unless other indicated by a 
treating physician. Furthermore, the Secretary shall not hold insulin-
treated drivers with diabetes to a higher standard of physical 
qualification to operate commercial motor vehicles in interstate 
commerce except to the extent that limited operating, monitoring, and 
medical requirements are deemed medically necessary under regulations 
issued by the Secretary.
    Status.--There is no evidence that FMCSA began revising the 
existing regulation by November 8, 2006, governing commercial motor 
vehicle operation by insulin-treated drivers with diabetes. The entry 
for this issue in the April 24, 2006, semi-annual regulatory agenda (71 
FR 23008) indicates that an advance notice of proposed rulemaking 
(ANPRM) was published in the Federal Register on March 17, 2006 (71 FR 
13801 et seq.). However, ANPRMs under prevailing interpretations of the 
Administrative Procedure Act are not regarded as initiating rulemaking, 
which is begun only with the publication of a notice of proposed 
rulemaking for public comment or, if permitted by law, the issuance of 
a final regulation. No proposed rule has been issued as of June 2006. 
In the semi-annual regulatory agenda of April 24, 2006, FMCSA 
characterizes this regulatory action as having no legal deadline. The 
agency has deferred action on this topic in the December 11, 2006, 
semi-annual regulatory agenda, listing it as Next Action Undetermined 
(71 FR 73584, 73641). This agenda also lists the topic as an entry That 
May Affect Small Entities when a Regulatory Flexibility Analysis Is not 
Required, id. at 74349.
    Inspection, Repair, and Maintenance of Intermodal Container Chassis 
(Roadability).--Section 4118 of SAFETEA-LU directs the Secretary to 
issue final regulations, after an opportunity for notice and comment, 
no later than 1 year after enactment (by August 11, 2006), that 
establishes a detailed program to ensure that intermodal equipment used 
to transport intermodal containers is safe and systematically 
maintained. The provision also contains other numerous, itemized 
requirements, including display of an USDOT identification number on 
each chassis offered for transportation and adoption of effective 
response mechanisms for driver and motor carrier complaints about 
intermodal container chassis condition.
    Status.--The semi-annual regulatory agenda for April 24, 2006, 
acknowledges the statutory mandate and specific deadline that must be 
met by FMCSA. 71 FR 23010. However, the agency states that a notice of 
proposed rulemaking will be issued in June 2006. Considering the fact 
that the agency, under prevailing U.S. DOT rulemaking requirements, has 
designated the rulemaking as ``significant,'' it will be difficult for 
FMCSA to issue a final regulation by August 11, 2006. In fact, the 
agency did not meet this statutory deadline. The December 11, 2006, 
semi-annual regulatory agenda lists final action for December 2006 (71 
FR 73584, 73636-73637).
    Medical Program--National Registry of Certified Medical 
Examiners.--Section 4116 of SAFETEA-LU directs the Secretary to 
establish a medical program that includes action by FMCSA to establish 
and maintain a current national registry of medical examiners who are 
qualified to perform commercial driver physical examinations and issue 
valid medical certificates. Medical examiners must be trained in 
physical and medical examination standards. The provision also directs 
that any medical examiner failing to meet or maintain qualifications 
established by the Secretary or otherwise does not meet legislated or 
regulatory requirements shall be removed from the national registry and 
allows participation of medical examiners in the national registry to 
be voluntary if the Secretary determines that only voluntary 
participation will enhance the safety of commercial drivers. There are 
several other, specific duties set forth in the provision for medical 
examiners to carry out, including requirements that medical examiners 
electronically transmit to FMCSA the names of drivers with a numerical 
identifier for each driver that is examined and that they 
electronically transmit the medical certificate to the appropriate 
State for each CDL-holder operating in interstate commerce. The 
Secretary is also directed to conduct a periodic review of a 
representative sample of medical examination reports for errors, 
omissions, or indications of improper certification.
    Status.--The semi-annual regulatory agenda for April 24, 2006, 
indicates that there is no statutory deadline for adopting the national 
registry. 71 FR 23010. FMCSA indicates that a proposed rule is planned 
for publication in November 2006. Other aspects of the medical program, 
including criteria for selection of the members of the medical review 
board and a Chief Medical Examiner required by the provision to be 
established by the Secretary, will apparently not be ventilated through 
the Federal Register for public comment. The December 11, 2006, semi-
annual regulatory agenda lists the Registry at 71 FR 73584, 73637 and 
refers to another section of the agenda at 74348 that lists the topic 
as an Entry That May Affect Small Entities when a Regulatory 
Flexibility Analysis Is not Required.
Overdue
    Medical Certification Requirements as part of the Commercial 
Driver's License.--Section 4123 of SAFETEA-LU addresses modernization 
of the Commercial Driver License Information System (CDLIS) (see, 
below, the entry ``Commercial Driver's License Information System 
(CDLIS)'' under the SAFETEA-LU heading) and directs FMCSA to publish 
not later than 120 days following SAFETEA-LU enactment a comprehensive 
plan that includes integration of the CDL with the commercial driver 
medical certificate. However, the entry in the April 24, 2006, semi-
annual regulatory agenda does not cite the SAFETEA-LU provision or the 
requirement that the Secretary publish a plan that includes medical 
certificate-CDL integration by early December 2006. 71 FR 23008. That 
entry indicates a proposed rule for the integration effort to be 
published in July 2006. FMCSA also asserts in this entry that there is 
no legal deadline for integrating the two documents.
    Status.--The December 11, 2006, semi-annual regulatory agenda 
provided no new information or timeline for action on this topic. The 
entry at 71 FR 73584, 73635 cites two separate entries for this topic, 
the first at id. at 74348 which lists it as an Entry Which May Affect 
Small Entities when a Regulatory Flexibility Analysis Is not Required, 
and the second at id. at 74360 which lists it as an Entry That May 
Affect Government Levels.
    A proposed rule was finally published on November 16, 2006, at 71 
FR 66723 et seq. Although FMCSA proposes the merger of the interstate 
commercial driver medical fitness certificate with the CDL so that 
drivers carry and present only one document, the agency failed to 
propose any oversight system at the State or Federal levels to stop the 
widespread, persistent use of invalid medical certificates by many 
thousands of commercial drivers. FMCSA acknowledges the chronic problem 
of medically unqualified drivers operating trucks and buses in 
interstate commerce, but the agency's proposal will do almost nothing 
to stop the continued use of invalid or forged medical certificates. 
FMCSA's failure to propose a vigorous system of State and Federal 
oversight to detect the use of fraudulent medical certificates 
continues its failure to respond to several recommendations issued by 
the National Transportation Safety Board urging FMCSA to prevent 
medically unqualified commercial drivers from operating trucks and 
buses in interstate commerce. In addition, the agency completely 
ignores the continuing problem of false medical certificates being used 
by non-CDL interstate commercial drivers operating trucks less than 
26,000 pounds gross vehicle weight rating.
Delayed/Incomplete
    Revocation of Operating Authority.--Section 4104 of SAFETEA-LU 
provides the Secretary with the authority to suspend the registration 
of a motor carrier, freight forwarder, or broker for failure to comply 
with regulatory requirements governing these members of the supply 
chain or for violating any order or regulation of the Secretary issued 
pursuant to those regulations. The Secretary is also mandated to revoke 
the registration of a motor carrier that has been prohibited from 
operating in interstate commerce for failure to comply with safety 
fitness requirements. The provision also specifies that the Secretary 
may suspend or revoke registration only after notice of the suspension 
or revocation is provided to the registrant. Further, a suspension 
remains in effect until a registrant complies with applicable 
requirements or until the Secretary revokes the suspension.
    Status.--There is no statutory deadline for the Secretary to 
observe for implementing the provision. FMCSA indicates in the semi-
annual agenda for April 24, 2006, that a proposed rule will not be 
issued until February 2007. That decision is superseded in the December 
11, 2006, semi-annual regulatory agenda which lists termination of 
planned rulemaking on August 15, 2006, and a statement that the issues 
of the rulemaking area will be addressed in other rulemakings. 71 FR 
73584, 73643. This topic is also listed in the December 11, 2006, 
agenda as an entry That May Affect Levels of Government, id. at 74360.
Overdue
    Commercial Driver's License Testing and Learner's Permit 
Standards.--This rulemaking action integrates the prior statutory 
requirement of section 4019 of TEA-21 for FMCSA to evaluate revisions 
to the CDL knowledge and skills test with the mandate to the Secretary 
to promulgate new minimum Federal standards for the States for issuing 
Commercial Learner Permits (CLP) pursuant to the requirements of 
section 4122 of SAFETEA-LU. That provision also requires each CLP 
applicant to pass a written test that complies with minimum standards 
prescribed by the Secretary that are indexed to the type of commercial 
motor vehicle that the individual would operate if granted a CLP.
    Status.--To date, FMCSA has taken no action to propose a regulation 
revising CDL knowledge and skills testing requirements for use by the 
states, pursuant to the requirement in TEA-21 that such a regulation be 
issued by June 9, 2000. FMCSA, as indicated above, has merged 
unfinished action on this TEA-21 requirement with the CLP action 
mandated by SAFETEA-LU. However, Congress in enacting section 4121 of 
SAFETEA-LU did not delete the date certain deadline for regulatory 
action enacted in TEA-21. FMCSA states in its April 24, 2006, semi-
annual regulatory agenda that this combined regulatory action on the 
CDL and CSP issues will be ventilated through a proposed rule in March 
2007. 71 FR 23011. That entry also states that there is no legal 
deadline for agency action. March 2007 is restated as the target date 
for a proposed rule in the December 11, 2006, semi-annual regulatory 
agenda. 71 FR 73584, 73637-73638. The topic is also listed id. at 74360 
as an entry That May Affect Levels of Government, and id. at 74390 as 
an entry That May Have Federalism Implications.
Overdue
    Unified Registration Act of 2005.--Congress regarded motor carrier 
registration and fees to be issues that required extensive legislative 
direction in SAFETEA-LU. Accordingly, the Act devotes an entire 
subtitle C of title IV, the Unified Carrier Registration Act of 2005. 
Congress had numerous goals in mind in this detailed direction to the 
Secretary, including the replacement of three concurrent identification 
and registration systems with a single, online Federal unified 
registration system that would serve as a depository and clearinghouse 
of information on and the identification of brokers, freight 
forwarders, and motor carriers required to register with the U.S. DOT. 
A central target of the legislation was to create a timely, rapidly 
updated, centralized, unitary system of registration to capture 
electronically all required information pursuant to statute and 
regulation for all members of the freight supply chain under the 
jurisdiction of FMCSA. Also, for the first time, exempt and private 
motor carriers would be registered with the agency. Section 4304 of the 
act requires final regulations on the electronic registry to be issued 
not later than 1 year after enactment, by August 10, 2006, following an 
opportunity for public notice and comment, and for implementation of 
the Unified Carrier Registration Agreement by January 2007.
    Status.--Although FHWA, FMCSA's predecessor agency, conducted 
preliminary rulemaking in the mid-1990s pursuant to the Interstate 
Commerce Commission Termination Act of 1995 (ICCTA) and failed to meet 
the statutory deadline prescribed by Congress in that legislation, 
SAFETEA-LU has revised and extended the earlier statutory direction 
with much greater specificity and with greater comprehensiveness. See, 
above, the entry under the ICCTA, ``Motor Carrier Information and 
Registration Replacement System.'' FMCSA plans to respond to the new 
requirement to reform, integrate, and place online a Unified 
Registration System by issuing a supplemental notice of proposed 
rulemaking in June 2007. 71 FR 23013 (April 24, 2006). Previously, 
FMCSA had issued a notice of proposed rulemaking on May 19, 2005 (70 FR 
28990 et seq.). This topic has a date certain deadline for completion 
with final regulations imposed by Congress of August 10, 2006, so it is 
apparent that the agency is prepared to flout the legislated deadline 
by at least a year. The new Unified Carrier Registration Board in its 
first official act in June 2006 unanimously approved a resolution 
seeking a legislated delay in implementing the Unified Carrier 
Registration Agreement until January 2008. The December 11, 2006, semi-
annual regulatory agenda lists this action with a reference to the 
section entitled Index to Entries That May Affect Government Levels. 71 
FR 73584, 73635, 74360. No new information about action on the Unified 
Registration System is provided in the December 11, 2006, agenda.
    Miscellaneous Regulatory Actions Mandated by SAFETEA-LU.--Numerous 
provisions in SAFETEA-LU amend existing statutory provisions in Federal 
motor carrier and hazardous materials transportation law for which 
FMCSA has already issued implementing regulations. In each instance, 
the Secretary will have to conform these regulations to the legislative 
revisions enacted by Congress. However, none of these provisions 
requires FMCSA to conduct notice and comment rulemaking. Accordingly, 
FMCSA in its April 24, 2007, semi-annual regulatory agenda provides 
notification that the agency will adopt revised, implementing 
regulations to conform to the amended provisions in SAFETEA-LU. An 
omnibus final rule will amend regulations related to civil and criminal 
penalties for violations of Out-Of-Service orders; civil penalties for 
motor carriers, freight forwarders, and brokers that deny FMCSA 
enforcement personnel access to their records and their facilities; 
hours of service exemptions for operators of ground water well drilling 
rigs, vehicles transporting agricultural commodities and farm supplies, 
utility service vehicles, vehicles providing transportation of 
passengers and property to movie production sites, and operators of 
vehicles transporting grapes west of I-81 in New York State; relief 
from parts 390-300 of the Federal motor carrier safety regulations for 
drivers of vehicles used primarily in the transportation of propane 
winter heating fuel or drivers of vehicles used to respond to a 
pipeline emergency; and civil penalties for violations of the hazardous 
materials transportation regulations.
    Status.--FMCSA's semi-annual regulatory agenda for April 24, 2006, 
indicates that a single final rule amending all of these specified 
implementing regulations will be issued in March 2007. 71 FR 23013. 
That target date has now been advanced by one month to February 2007 in 
the December 11, 2006, semi-annual regulatory agenda. 71 FR 73584, 
73639. The December 11, 2006, agenda also lists this topic as an entry 
That May Affect Small Entities when a Regulatory Flexibility Analysis 
Is not Required, id. at 74349.
Delayed/Incomplete
    Interstate Van Operations (Camionetas).--For previous regulatory 
action on this topic until it was modified by section 4136 of SAFETEA-
LU, see, above, ``Commercial Van Operations Carrying 9 to 15 Passengers 
Across the U.S.-Mexico Border,'' under the Motor Carrier Safety 
Improvement Act of 1999. Because FMCSA in previous regulatory action 
attempted to reduce the number of vans subject to the Federal Motor 
Carrier Safety Regulations (FMCSR) by a variety of measures, including 
limiting the subject vans by the distance traveled in for-hire 
passenger operations, Congress in section 4136 directed that the FMCSR 
be amended so that the relevant safety requirements applied to these 
vans regardless of the amount of distance traveled.
    Status.--FMCSA has indicated in the April 24, 2006, semi-annual 
regulatory agenda that a final rule is planned for publication in 
December 2007. This allows the current rule to remain in place reducing 
the scope of for-hire van operations subject to the FMCSR to less than 
mandated by this provision in SAFETEA-LU for nearly 2\1/2\ years after 
the enactment of SAFETEA-LU. That delayed response to a statutory 
mandate to revise the initial final rule has now been deferred further 
in the December 11, 2006, semi-annual regulatory agenda to Next Action 
Undetermined. 71 FR 73584, 73641-73642.
Overdue
    Pattern of Safety Violations by Motor Carrier Management.--Section 
4113 directs the Secretary to suspend, amend, or revoke any part of a 
motor carrier's interstate registration if the Secretary finds that an 
officer of a motor carrier is engaging in or has engaged in a pattern 
or practice of avoiding compliance, or of masking or otherwise 
concealing compliance, with regulations governing commercial motor 
vehicle safety. The provision explicitly directs the Secretary to 
establish implementing regulations for this provision ``not later than 
1 year after the date of enactment . . .''
    Status.--Despite clear legislative instruction to the Secretary in 
section 4113 to issue implementing regulations by August 10, 2006, 
FMCSA lists this regulatory topic in the April 24, 2006, semi-annual 
regulatory agenda as having no legal deadline. 71 FR 23016. Moreover, 
the agency indicates that a proposed rule will not be issued until 
September 2007, over 2 years after the enactment of SAFETEA-LU and more 
than 1 year after expiration of the statutory deadline established in 
section 4113. FMCSA continues to flout a deadline for completed 
rulemaking in the December 11, 2006, semi-annual regulatory agenda 
which announces termination of planned rulemaking with a statement of 
prospective rulemaking on the issue, but without a dated stated for 
action. 71 FR 73584, 73643.
    Substance Abuse Professionals.--Section 4148 of SAFETEA-LU directs 
the Secretary to conduct rulemaking to permit any state licensed or 
certified marriage and family therapist to act as a substance abuse 
professional.
    Status.--No Federal Register notice initiating public rulemaking 
has yet been issued by FMCSA and the topic is not listed in the 
December 11, 2006, semi-annual regulatory agenda.
    Intrastate Operations of Interstate Motor Carriers.--Section 4114 
of SAFETEA-LU mandates the Secretary to determine owner or operator 
safety fitness for operating a commercial motor vehicle by using, among 
other indicia, the accident record of the owner or operator in 
interstate commerce and the accident and safety inspection records of 
the owner or operator in operations that affect interstate commerce. 
The mandate includes any owner or operator conducting motor carrier 
operations in Mexico or Canada if that owner or operator also conducts 
operations in the United States. The Secretary is also directed to 
update safety fitness determinations using these additional safety 
indicators. Further, the Secretary is directed in the provision to 
prohibit operations that affect interstate commerce until the Secretary 
determines that each owner or operator is fit to do so. Section 4114 
also specifies that if any State receiving MCSAP assistance finds that 
any motor carrier owner or operator with its principal place of 
business in that State is unfit to operate intrastate under all 
applicable safety fitness standards, including those required to be 
used by this provision, the Secretary shall not allow the owner or 
operator to conduct operations in interstate commerce until that state 
determines that the owner or operator is fit.
    Status.--FMCSA in the April 24, 2006, semi-annual regulatory agenda 
mischaracterizes this provision as simply allowing the agency to use 
intrastate as well as interstate crash and safety data to judge the 
fitness of any motor carrier owner or operator, when, in fact, the 
provision mandates that using intrastate safety information shall be a 
condition for interstate operating authorization and, moreover, that 
the Secretary does not have the authority to allow interstate 
operations if any State has found the owner or operator not be fit for 
intrastate operations. 71 FR 23017. Although the section 4114 does not 
explicitly mandate rulemaking to implement these additional 
requirements and prohibitions, FMCSA is correct that the only effective 
way to adopt these new requirements is through a final rule 
implementing them. However, the agency is delaying any calendared 
action to raise the quality of safety fitness determinations based on 
additional crash data and intrastate safety fitness determinations by 
indicating in the cited semi-annual regulatory agenda that there is 
currently no date to take regulatory action on this legislative topic. 
The December 11, 2006, semi-annual regulatory agenda lists the topic as 
Next Action Undetermined (71 FR 93584, 73641-73642).
    Commercial Driver License (CDL) Standards--School Bus 
Endorsement.--Section 4140 of SAFETEA-LU mandates the Secretary to 
recognize any driver who passes a test approved by FMCSA as having 
fulfilled the knowledge test requirement for a special, additional 
school bus CDL endorsement. The provision also specifies that 49 CFR 
Sec.  383.123 shall not be in effect during the period beginning on the 
date of enactment of SAFETEA-LU (August 10, 2005) and ending on 
September 30, 200.
    Status.--FMCSA issued an interim final rule implementing this 
provision on September 28, 2005. 70 FR 56589 et seq. The interim 
regulation also extended the compliance date to permit States an 
additional year to administer knowledge and skills tests to all school 
bus drivers, and extended the expiration date for allowing States to 
waive the driving skills test for an additional year. The action with 
regard to skills testing was discretionary and is not in response to 
the specific requirements of section 4140. Subsequently, FMCSA issued a 
final rule on January 18, 2006. 71 FR 2897 et seq.
    State Laws Relating to Vehicle Towing.--Section 4105 of SAFETEA-LU 
amends 49 U.S.C. Sec. 4105 by adding new language regarding State legal 
authority to require that, in the case of a motor vehicle to be towed 
from private property without the consent of the owner or operator of 
the vehicle, the person towing the vehicle have prior written 
authorization from the property owner or lessee or that such owner or 
lessee be present at the time the vehicle is towed from the property. 
This provision also mandates the Secretary to conduct a study on 
predatory tow truck operations and to transmit the study together with 
recommendations on solutions to predatory towing to Congress not later 
than August 10, 2006.
    Status.--There is no indication in any FMCSA official publication, 
including the semi-annual regulatory agendas, that the study is 
underway or that it will be completed and delivered by the mandated 
deadline.
    Data Quality Improvement.--Section 4108 of SAFETEA-LU mandates the 
Secretary to submit to Congress a report on the status of the safety 
fitness rating system of motor carriers not later than 1 year following 
enactment, that is, by August 10, 2006.
    Status.--There is no official, published information about the 
status of the study. It is not mentioned in the agency's recent fiscal 
year 2007 appropriations request, although there is considerable 
narrative concerning the need for several areas of data quality 
improvement, nor is it mentioned in connection with FMCSA's 2006 
Federal Register notice asking for comments on areas of possible 
revision for the Safety Status Measurement System (SafeStat). See, 71 
FR 26170 et seq., May 3, 2006.
Overdue
    Commercial Driver's License Information System (CDLIS) 
Modernization.--Section 4123 of SAFETEA-LU directs the Secretary to 
develop and publish a comprehensive national plan to modernize the 
CDLIS (CDLIS Plan) in several specific ways, not later than 120 days 
after enactment, that is, by December 8, 2005. Section 4123 further 
provides that a baseline audit of the revised CDLIS shall be carried 
out in consultation with the Inspection General of the U.S. DOT not 
later than 1 year after the date of enactment of SAFETEA-LU.
    Status.--The CDLIS Plan was not published in the Federal Register 
until May 2, 2006, almost 6 months later than the statutorily mandated 
deadline. See, 71 FR 25885 et seq., May 2, 2006. It is unknown to what 
extent preparations are being made for the baseline audit of CDLIS or 
whether appropriate consultations have been conducted with the U.S. DOT 
Office of the Inspector General. The failure to address the overhaul of 
CDLIS in a timely manner undermines FMCSA's effort to ensure accurate 
data entry and retrieval for the integration of the CDL with the 
medical certificate that the agency has addressed in a proposed rule 
issued on November 16, 2006 (71 FR 66723 et seq.).
    Safety Data Improvement Program.--Section 4128 of SAFETEA-LU 
provides the Secretary with the authority to make grants to the States 
for projects and activities that improve the accuracy, timeliness, and 
completeness of commercial motor vehicle safety data reported to the 
Secretary on the basis of criteria determined by the Secretary that are 
consistent with certain indicia stated in the provision. The provision 
also directs the Secretary to transmit to Congress not later than 2 
years after enactment and biennially thereafter a report on the 
activities and results of the program together with any 
recommendations.
    Status.--The first report under section 4128 is due no later than 
August 8, 2007.
    CDL Task Force.--Section 4135 of SAFETEA-LU directs the Secretary 
to convene a task force to study and address current impediments and 
foreseeable challenges to the CDL program's effectiveness, and to 
select measures needed to realize the full safety potential of the 
program. Specific areas of concern are listed in the provision. The 
provision also directs that the Secretary, not later than 2 years after 
enactment, that is, by August 10, 2007, shall complete a report of the 
task force's findings and recommendations for legislative, regulatory, 
and enforcements reforms to improved the CDL program and transmit it to 
Congress.
    Status.--There is no status information available from publicly 
available sources on whether the task force has been convened or what 
progress, if any, has been made towards evaluating any needed changes 
to the CDL program that would be considered for the report to Congress 
required by August 10, 2007.
    Foreign Commercial Motor Vehicles.--Section 4139 of SAFETEA-LU 
directs the Secretary to conduct outreach and training to State 
personnel engaged in enforcement of the Federal Motor Carrier Safety 
Regulations not later than 180 days after enactment, that is, by 
January 8, 2006. The provision also mandates the Secretary to conduct a 
review of the extent to which Canadian and Mexican commercial motor 
vehicles transporting both freight and passengers that operate in the 
United States or are expected to operate in the United States, comply 
with Federal motor vehicle safety standards. The Secretary is also 
directed to submit a report to Congress not later than 1 year after 
enactment containing the findings and conclusions of the review. 
Further, the U.S. DOT Inspector General is directed to provide comments 
and observations on the scope and methodology of the Secretary's review 
not later than 4 months after the date on which the report is submitted 
to Congress.
    Status.--There is no information publicly available on the status 
of the mandated review or whether FMCSA will comply with the August 10, 
2006, legislated deadline for submitting a completed report to 
Congress.
    Motor Carrier Safety Advisory Committee.--Section 4144 directs the 
Secretary to establish a motor carrier safety advisory committee in 
FMCSA to provide advice and recommendations to the Administrator about 
motor carrier safety programs and regulations. The provision specifies 
the membership composition and size of the committee. The provision 
also mandates termination of the committee by September 30, 2010.
    Status.--FMCSA has published a notice requesting nominations for 
seats on the proposed motor carrier safety advisory committee. 71 FR 
67200-67201 (November 20, 2006).

                        OTHER RULEMAKING ACTIONS

    Application by Mexico-Domiciled Motor Carriers to Operate Beyond 
United States Municipalities and Commercial Zones at the United States-
Mexico Border.--Although not specifically mandated by section 350 of 
the fiscal year 2002 appropriations legislation for the U.S. DOT, this 
is a companion rulemaking action being conducted by FMCSA in 
conjunction with the mandated actions on instituting a safety 
monitoring and safety regulation compliance system for Mexico-domiciled 
motor carriers (see, above, the relevant entry under U.S. Department of 
Transportation and Related Agencies Appropriations 2002).
    Status.--FMCSA began rulemaking on May 3, 2001, to propose 
implementing regulations intend to govern applications by Mexico-
domiciled motor carriers to conduct U.S. interstate operations. 66 FR 
22371 et seq. The rulemaking proposal added new requirements for 
information to be submitted by applicant motor carriers on business 
operations and operating practices. An interim final rule was published 
on March 19, 2002. 67 FR 12702 et seq. Litigation against the agency on 
environmental grounds and the continuing prohibition on opening the 
border to operations beyond the commercial zones has resulted in a 
hiatus in rulemaking action on this topic. Accordingly, the semi-annual 
regulatory agenda for April 24, 2006, lists final action on this 
rulemaking issue as ``To Be Determined.'' 71 FR 23014. That deferral is 
restated in the December 11, 2006, semi-annual regulatory agenda (71 FR 
73584, 73640). This topic is also listed in the December 11, 2006, 
agenda as an entry That May Affect Small Entities when a Regulatory 
Flexibility Analysis Is not Required, id. at 74349.
    North American Uniform Out-Of-Service Criteria.--First issued more 
than 3 years ago, this advance notice of proposed rulemaking considered 
the alternative of making the Out-Of-Service (OOS) Criteria part of the 
actual corpus of FMCSA regulations included in the Code of Federal 
Regulations. The OOS criteria are used to determine whether a driver or 
commercial vehicle should be placed OOS for equipment or operator 
safety violations. Currently, the OOS criteria are more lenient than 
the actual Federal Motor Carrier Safety Regulations and permit many 
prima facie disqualifying violations to be recorded without preventing 
a motor carrier from continuing in service.
    Status.--The entry no. 2445 in the December 3, 2001, FMCSA semi-
annual regulatory agenda stated that the agency intends to terminate 
the rulemaking in December 2001. 66 FR 62006-62007. The semi-annual 
regulatory agenda of May 13, 2002 stated that termination would occur 
by June 2002. 67 FR 33487. The December 9, 2002, agenda listed 
withdrawal in March 2003. That withdrawal was published on July 24, 
2003 (68 FR 43893 et seq.).
Delayed/Incomplete
    Safety Fitness Procedures.--An advance notice of proposed 
rulemaking was issued by the predecessor agency of the FMCSA several 
years ago (July 20, 1998, 63 FR 38788 et seq.) to consider revision of 
the safety fitness rating system to make it more performance oriented 
while increasing the usefulness of the system for the public, shippers, 
and insurers in determining current motor carrier company safety 
quality.
    Status.--No further action has occurred. The FMCSA indicated in its 
December 3, 2001, semi-annual regulatory agenda that it intended to 
issue a proposed rule in September 2002. 66 FR 62003. However, the 
agenda of May 13, 2002, deferred publication of a proposed rule until 
March 2003. 67 FR 33482. That date was not met and the semi-annual 
regulatory agenda (December 9, 2002) listed a NPRM for September 2003. 
67 FR 74918. The rulemaking action has now been changed in the June 28, 
2004, semi-annual regulatory agenda to a second advance notice of 
proposed rulemaking to have been issued by September 2004, which the 
FMCSA characterizes as a reissuance of the 1998 advance notice. 69 FR 
37905. FMCSA stated in its October 2005 semi-annual regulatory agenda 
that the issues for this rulemaking ``have not been sufficiently 
developed'' and is withdrawing rulemaking and will reconsider the issue 
pending completion of its Comprehensive Safety Analysis 2010. 70 FR 
64940, 64991 (October 31, 2005). The agency repeats this withdrawal and 
its rationale in the April 24, 2006, semi-annual regulatory agenda. 71 
FR 23017. FMCSA has started a new initiative to revise the safety 
fitness process that is part of its Comprehensive Safety Analysis 2010 
Initiative through a notice published in the Federal Register on 
October 17, 2006 (71 FR 61131 et seq.).
    Rules of Practice for Motor Carrier Proceedings, Investigations, 
Disqualifications, and Penalties.--The FMCSA's predecessor agency 
issued a proposed rule in April 1996 to amend its rules of practice for 
conducting administrative proceedings and to improve the use of the 
agency's investigative authority. The purpose of the amendments is to 
enhance due process and expedite administrative actions.
    Status.--No action was taken for 5 years following the closing of a 
supplementary notice of proposed rulemaking in November 1996. The FMCSA 
stated in its December 3, 2001, semi-annual regulatory agenda that it 
intended to issue a final regulatory decision on this rulemaking in 
December 2001. 66 FR 62005. However, that deadline was eliminated in 
favor of opening rulemaking again in March 2003. 67 FR 33482, May 13, 
2002. The March 2003 date was pushed back further to November 2003 in 
the late 2002 agenda. 67 FR 74924 (December 9, 2002). The June 28, 
2004, semi-annual regulatory agenda calendared a final rule for January 
2005. 69 FR 37910. The final rule was published on May 18, 2005, at 70 
FR 28467.
Delayed/Incomplete
    Commercial Driver Qualifications--English Language Requirement.--
The FMCSA's predecessor agency opened rulemaking in August 1997 to 
determine the precise nature of the requirement that commercial drivers 
have sufficient functional speaking and reading comprehension of the 
English language so they can understand the Federal Motor Carrier 
Safety Regulations, the Hazardous Materials Regulations, other Federal 
and State safety requirements, and comprehend traffic control signs.
    Status.--No action is planned on this important rulemaking topic 
despite current Administration plans to open the U.S. southern border 
to foreign commerce. The May 13, 2002, agenda again stated ``Next 
Action Undetermined.'' 67 FR 33494. This was repeated in the December 
2002 agenda. 67 FR 74925 (December 9, 2002). There is no entry for the 
topic in the June 28, 2004, semi-annual regulatory agenda or any 
succeeding semi-annual regulatory agenda through December 11, 2006.
Delayed/Incomplete
    Cargo Securement Standards.--After several rulemaking actions over 
the past decade, FMCSA is again preparing to revise the standard for 
securing freight against dislodgement during motor carrier transport 
that results in dangerous shifting or falling cargo. The agency issued 
a notice of proposed rulemaking newly revising the standard on June 8, 
2006. 70 FR 33430 et seq.
    Status.--FMCSA's April 24, 2006, semi-annual regulatory agenda 
lists this issue for publication of a final rule in May 2006. 71 FR 
23012. The final rule was published on June 22, 2006 (71 FR 35819 et 
seq.).
    Surge Brake Requirements.--FMCSA, on its own motion, has proposed 
allowing hydraulic inertia surge brakes to be used on trailers 
operating in interstate commerce in response to a petition from an 
industry coalition group. Surge brakes are not currently considered in 
FMCSA's regulations to comply with all the requirements that all brakes 
on a commercial motor vehicle be capable of operating at all times, and 
that a single valve or brake application control mechanism 
simultaneously apply the brakes on both the towing unit (truck or truck 
tractor) and the towed unit (semi-trailer or trailer). FMCSA issues a 
notice of proposed rulemaking on October 7, 2006, that accepted the 
test results and performance representations of the industry coalition 
without conducting any of its own testing of surge brake performance 
under real-world conditions and without coordination with the National 
Highway Traffic Safety Administration.
    Status.--FMCSA's April 24, 2006, semi-annual regulatory agenda 
lists final action on this topic as publication of a final rule in 
October 2006. 71 FR 23012-23013. That completion date has been pushed 
back to December 2006 in the December 11, 2006, semi-annual regulatory 
agenda (71 FR73584, 73639). This agenda also lists this topic as an 
entry That May Affect Small Entities when a Regulatory Flexibility 
Analysis Is not Required, id. at 74349.
    Motor Carrier Reports.--This discretionary rulemaking by FMCSA will 
transfer the regulatory requirements for reports by registered motor 
carriers from the Research and Innovative Technology Administration 
(RITA) which previously had been transferred to RITA from the former 
Bureau of Transportation Statistics and will adopt a new part in 49 
CFR, part 369 for these transferred regulations.
    Status.--FMCSA lists action on this topic as the publication of a 
final rule, but it is characterized in the April 24, 2006, semi-annual 
regulatory agenda as Next Action Undetermined. 71 FR 23016. However, 
the agency published a final rule on August 10, 2006 (71 FR 45740 et 
seq.).

    Senator Murray. Thank you very much.
    Senator Bond has to leave for another committee hearing, 
would you like to make a final comment or ask any questions?
    Senator Bond. Thank you, Madame Chair, I will submit some 
questions for the record. I think that, I appreciate the 
testimony of the witnesses and we will review that and the 
answers to the questions for the record.
    Thank you.
    Senator Murray. Thank you very much.
    Ms. Claybrook, let me start with you--in your testimony you 
asserted that the administration is misusing the demonstration 
project by showcasing the best Mexican carriers as a way to 
expedite opening the southern border, I think you heard some of 
those concerns from us as well. I want you to put on your hat 
as the former NHTSA Administrator, and tell us what you think 
the three or four elements are that are essential for a 
successful demonstration program, that doesn't have a pre-
ordained outcome?
    Ms. Claybrook. Well, first of all, there has to be an 
indication of what the definition of ``success'' is. What is 
the outcome that the Department would expect from such a 
project? And what is a pass/fail grade, if you would?
    Second, there should be a methodology for what they're 
doing, and there's no methodology that's been made available.
    There's also a knee-down to the law, which I think would 
enhance the likelihood of it being useful, which is a public 
comment, notice of public comment period--that's required by 
the law, under the DOT law, for every pilot project. Calling it 
a demonstration project does not make it any different than a 
pilot project. It is a pilot project. You can change the name, 
but you don't change the stripes.
    And, so we think that there ought to be a clear, defined 
program that, everyone ought to understand it, everyone ought 
to have a chance to comment on it. And that you ought to know 
what the opportunities for success are. We don't even know, in 
this case, how many trucks are going to be involved. And, so we 
don't know what kind of statistical analysis they're going to 
do, we don't know the extent to which the States are actually 
going to find the--out of the service provision in the, that 
are--that these trucks must meet--a number of the States don't 
even indicate, as you said in the appropriations, the budget 
document, they're only expecting 25 to 30 States to actually be 
enforcing the law--how, what statistical analysis can you make 
in this case?
    Senator Murray. What kind of a timeline do you think a 
pilot project or demonstration project ought to have in order 
to be successful?
    Ms. Claybrook. I think it ought to be a 3-year time, and 
that's the time that's spelled out in the DOT for, generally, 
these kind of projects, are 3 years. And, if you don't have 
that, you just do not have the opportunity to do the kind of 
evaluation and analysis that needs to be done.
    Senator Murray. Thank you very much. Mr. Parfrey, in your 
testimony you stated that the competence of the United States 
to enforce the cabotage restriction is virtually non-existent. 
You're saying we have no ability to keep Mexican drivers from 
hauling domestic shipments between U.S. cities once they cross 
the border. Based on the testimony you heard this morning, are 
you satisfied that the United States has the capacity to 
enforce cabotage restrictions?
    Mr. Parfrey. No, I am not. I don't believe that we have 
officers trained, I heard this morning that there, officers 
have been trained for putting drivers out-of-service for safety 
violations, I did not hear anything about enforcing the 
operating authorities, and identifying whether this is intra-
U.S. movement or not.
    We can't even enforce the cabotage rules of the Canadian 
carriers, how are we going to do it with the Mexican drivers?
    Senator Murray. Mr. Ficker, your association represents a 
very critical component of our Nation's economy, it depends on 
our transportation network to get Americans the products that 
we buy and sell, in your testimony that was submitted to us, 
you did raise some concerns about whether that transportation 
network has sufficient capacity to handle the growing volumes 
of freight that need to be moved across the country. How would 
you rank the challenge presented by the drayage system as far 
as the hindrances on overall freight mobility?
    Mr. Ficker. Thank you, Madame Chairman.
    It creates inefficiencies, and actually underutilizes the 
available capacity out there. If a vehicle is leaving Mexico 
and he's been pre-ordained to be safe and efficient and 
effective, he can take the load to wherever it needs to go in 
the United States, and save the one, two, and three handoff 
kinds of activities that were referred to by Mr. Worthington, 
in his testimony earlier.
    We believe that efficiency and effectiveness and safety go 
hand in hand. And, if you have something that's moving 
efficiently, it will move safely as well. We have no interest 
at all in anything moving unsafe. We see right now a system 
that was set up years ago, in a different environment when the 
economics and the economies of our countries, both north and 
south of the border, did not have the same amount of volume 
that we're currently moving today. We have to move it 
efficiently.
    We are--in my opinion, and the opinion of our 
organization--facing a crisis of transportation in this 
country. We have been growing vehicle miles substantially, 
while growing our lane miles very unsubstantially. The 
projections are as much as 25 percent growth in vehicle miles 
over the last 20 years, and about 3 to 4 percent growth in lane 
miles. At some point in time, we're just going to run out of 
rabbits to pull out of the hat. This is one small element of 
helping deal with that impending crisis.
    Senator Murray. What about the shortage of drivers? We've 
heard from some people there's a shortage of U.S. truck 
drivers, others there's a shortage of Mexican drivers--I'd 
actually like every member of the panel to comment on the 
shortage of drivers in the industry, and how opening the border 
could affect that.
    Mr. Hoffa, I'll go to you, and go back around. Do you have 
a comment on that?
    Mr. Hoffa. What was that?
    Senator Murray. Shortage of drivers. Some people say 
there's a shortage of U.S. drivers, some said there's a 
shortage of Mexican drivers, how will opening up the border 
affect that?
    Mr. Hoffa. Well, right now, obviously all of the traffic 
coming out of Mexico, when it goes through the commercial zone 
is being handled. And, if we leave the present system, which is 
safe, which meets all of the standards, whatever has to be done 
will be done because of the economy, and people, new drivers 
would come on. We don't detect that.
    The danger, what I hear, is this talk about efficiency. And 
it basically is, we're going to sacrifice the safety of our 
highways for some efficiency of an unsafe Mexican truck, you 
know, leaving the heart of Mexico and coming across with very 
little protection for American drivers. I don't see the problem 
with regard to the supply of drivers.
    Senator Murray. Mr. Worthington.
    Mr. Worthington. Every commentator that I've heard also 
agrees that there is a shortage of drivers in the United 
States, we anticipate that shortage to increase. But, 
implementing this provision, enables us to drive some 
efficiency through the system. And it's not just, you know, our 
border with Mexico, our border with Canada, the efficiency that 
we have driven out of that border crossing has helped alleviate 
the drivers on our north side.
    Senator Murray. Anybody else who'd like to comment?
    Mr. Ficker. Madame Chair, if I could.
    It has been projected by AASHTO, again, and we have in 
their freight bottom line report, there is a significant 
shortage of truck drivers in this country right now. Driver 
turnover is substantial. We have--I have personally heard 
projections from major trucking companies in the United States 
of driver turnover of 130 percent, or more. That's substantial.
    And, you have an aging population of truck drivers. I 
believe it's estimated, and Mr. Hoffa can verify this for us, 
that the average age of the truck driver in this country is 
between 50 and 55. And, where is the next generation of truck 
drivers coming from? Where are we going to do this?
    I am not a proponent at all of inflicting and putting in 
foreign truck drivers in this country. However, we have to 
address the issue of sufficient workforce to move the commerce 
of our country, if our commerce continues to grow at a 3 to 4 
percent rate a year.
    Senator Murray. Mr. Parfrey.
    Mr. Parfrey. I--certainly there's a shortage of 
compensation for truck drivers. But how can more than 120 
percent turnover of American drivers equate to, for American 
companies--equate to a truck driver shortage? I'm not, I don't 
see the shortage.
    Senator Murray. Okay, thank you.
    Joan Claybrook.
    Ms. Claybrook. Thank you, Madame Chairman.
    The reason there's such a shortage of truck drivers is 
because the working conditions are terrible for so many 
drivers. They don't get paid overtime, they have to work no 
less than 80 hours a week under the hours-of-service rules, 
they get paid by the mile, not by the hour, so they're 
encouraged to drive as fast as possible to achieve as many 
hours as possible, they keep two sets of books, they don't have 
an electronic system, so they keep comic books, and the reason 
they do is so that they cheat. And that's the problem. It's a 
terrible life when you do long-distance driving, for most 
people, you don't get home at night, and you're exhausted, 
you've worked many, many, many hours, too many hours, and I 
don't think anyone in this room could work the hours that most 
truck drivers do.
    Senator Murray. Thank you, I'm going to allow Senator 
Lautenberg to ask questions, and I'll come back again to the 
panel.
    Senator Lautenberg. Thanks, Madame Chairman.
    Mr. Worthington, your company has operations now in Mexico, 
as I understand it?
    Mr. Worthington. It's a logistics company, yes sir.
    Senator Lautenberg. Yeah, what's the difference in hourly 
rate that you pay those, the people who are south of the 
border, and those that you pay within our country?
    Mr. Worthington. Our company south of the border, is a 
logistics company and just employs management people. So, I 
mean, that's--we don't employ truck drivers.
    Senator Lautenberg. Just management people.
    Mr. Worthington. Yes, sir.
    Senator Lautenberg. So, how do they supervise the 
requirements?
    Mr. Worthington. It's a sales, logistics organization, 
south of the border.
    Senator Lautenberg. We've--do you have an idea what the 
average wage might be down there? Do your people know that?
    Mr. Worthington. No, sir I don't. I mean, are you talking 
about truck drivers?
    Senator Lautenberg. Yes.
    Mr. Worthington. No, sir, I don't.
    Senator Lautenberg. Mr. Hoffa, do you have any idea?
    Mr. Hoffa. I know that they are very, very poorly paid, and 
one of the biggest concerns I have is, when they come across 
the border, are they going to be subject to our wage and hour 
law? Now, supposedly, the DOT is saying they are--how would 
they possibly police that? How would they, basically, police 
the number of hours worked? You know, they're not going to 
monitor that, and there's just no way that we can know what 
these people are compensated. And the checks are going to be 
cut in Mexico for these drivers. How do we know, and how do we 
monitor what they're being paid? Especially with regard to as 
compared to what American drivers make.
    Senator Lautenberg. There's been some press attention in 
the New Jersey papers about truck stops, and that there are too 
few, and that the drivers are forced--out of fatigue--to pull 
up where they can, and get some rest. Now, if that is the case, 
if it's difficult for our American drivers to find places to 
stop, now we have people who are less familiar with our 
highways and how are they going to accommodate themselves. What 
about the enforcement now of hours-of-service.
    Ms. Claybrook, what do you think about the enforcement of 
hours-of-service now in our trucking----
    Ms. Claybrook. It's a joke.
    Senator Lautenberg. In our trucking responsibility.
    Ms. Claybrook. It's a joke. And I think that's what the 
drivers call it. They call their record-keeping systems ``comic 
books,'' there are no electronic on-board recorders, virtually, 
anyplace, even though they're throughout all Europe trucking. 
We've known how to do this for years, there have been about 
five different rulemaking activities going on at the Department 
of Transportation, court cases about it, and we still don't 
have electronic on-board recorders. And, the reason that we 
don't, is because no one wants to have the real story told--
either to the police, or for taxes--and so our drivers are 
driving these enormous numbers of hours, low pay, terrible 
working conditions.
    Senator Lautenberg. Thank you.
    Ms. Claybrook. Driving a truck is horrible, it's a tough 
thing.
    Senator Lautenberg. What do you think the consequence of 
having Mexican truck drivers being limited to hours-of-service 
on our roads, do you think that could possibly be enforced in 
any serious way?
    Ms. Claybrook. No, it's a bigger joke. Because they have 
long hours they've got to drive to get to the border, and then 
they're not going to just sleep when they get there.
    Senator Lautenberg. Well, we in New Jersey, unfortunately, 
we're the, was the location for a terrible truck accident which 
a truck ran into the back of a family in an SUV and killed 
those people, and since the load was bricks, the truck then 
fell sideways, and also killed another person with the load.
    What they found is that there's substantial falsification 
of hours of service, hours that the individual was driving. I 
mean, if that happens within our own population, it strikes me 
as being almost impossible to be able to do that.
    Mr. Parfrey, I know that independent truckers, very often, 
because they want to make a living, and they have a little bit 
less supervision, they want to get home--I think that this is 
not an uncommon condition, and I'm not sure how it gets 
corrected, and no suggestion that the independent drivers do it 
more than anybody else, but the question is, how do you manage 
to protect the Americans on the road, in their vehicles from 
being punished by drivers who don't have the familiarity, don't 
have the same interests, in my view, because they are recruited 
from people who will work for much less per hour, and it's hard 
to do the vetting that you would like to do.
    So, my concern, Madame Chairman is the safety issue. 
Listen, if we need more drivers, we need only to look for 
comparison to what happened to TSA when at one point they had 
200 percent turnover, but we got on it here, and made the wages 
a more realistic part of the deal, and the turnover dropped 
from 200 percent down to 20 percent. It's still a very tough 
job, and it's hard to get people who are willing to work in 
those kind of conditions, they're tough, but we now have a 
pretty much, a good work crew with reliability and so forth, 
and the same thing has to happen, I would assume, Mr. Ficker, 
with the turnover problem that you talk about in the industry. 
I think you pay more, you get more, is the usual standard.
    Thanks very much, Madame Chairman.
    Mr. Parfrey. Madame Chair, can I make a comment?
    Senator Murray. Yes.
    Mr. Parfrey. First of all, a comment on Ms. Claybrook's 
comment that truck driving is a terrible job. Truck driving is 
a way of life. Truck driving is a way of life, either you like 
it, or you don't. It is not a terrible job, it is a good job, I 
did it for 10 years myself, and I enjoyed every minute of it. I 
chose to do something else in the industry. Had I not chose to 
do that, I would still be in the truck today.
    Ms. Claybrook. I said it was a terribly tough job, tough 
job.
    Mr. Parfrey. Well, I heard you say terrible job.
    Ms. Claybrook. I said it's a terribly tough job.
    Mr. Parfrey. Well, irregardless, it doesn't matter.
    Ms. Claybrook. Do you not think it's a tough job?
    Mr. Parfrey. It is a tough job, but I didn't hear you say 
tough job, I heard you say terrible job.
    Mr. Hoffa. Let me just say this, with regard to union 
drivers, there isn't 123 percent, our people work every day, 
and there isn't a turnover, they like their jobs, they're well-
paid, they're regulated, and when they have a problem, they can 
file a grievance, and they have somebody to go to. The Mexican 
drivers don't have unions, and when they are told to drive 
somewhere, they have to, or they'll be fired, and it's just 
that simple.
    Mr. Parfrey. If you cannot get officers trained in this 
country today to know how to read log books and understand the 
safety things in this country, and read the laws within a State 
or within this country, how in the world are you going to get 
them to understand the Mexican truck side of this thing, and 
the safety there? And how to read their log books. They can't 
even do it for the people in our own country.
    Senator Murray. Okay, thank you.
    Mr. Parfrey. We don't need more trucks on the road.
    Senator Murray. Thank you, Mr. Parfrey.
    Thank you, Senator Lautenberg.
    I just have a couple more questions, and then I will submit 
some to all of you for the record as well.
    But, Mr. Worthington, I wanted to ask you, here you heard 
Secretary Peters talk about the discrepancy between Mexican 
trucks going into the United States and the U.S. trucks going 
into Mexico, and the 6-month lag for U.S. trucks. Do you have a 
comment on that? Or a concern?
    Mr. Worthington. As I mentioned in my testimony, we have, 
you know, concerns, we look forward to reviewing that 
application process, and hope that when we have a chance to 
review it that it is clear, and transparent. We want a level 
playing field.
    Senator Murray. How will we know, since this is just a 1-
year pilot project that trucks are getting access equally?
    Mr. Worthington. Mexican trucks?
    Senator Murray. And U.S. trucks, yes.
    Mr. Worthington. I'm sure there will----
    Senator Murray. You know, there's a fair playing field, 
since it's going to be 6 months before U.S. trucks are allowed 
into Mexico, we'll just have a few months to evaluate, what 
should we be looking for?
    Mr. Worthington. The United States Department of 
Transportation is going to vet those applications, and I trust 
they'll do a good job.
    Senator Murray. Mr. Hoffa, a question for you, in your 
testimony, you talked about a very poor assessment of a system 
in Mexico that produces drivers who are overworked and 
underpaid, we've heard you comment about that.
    But you also raised a concern which this committee tried to 
address several years ago on section 350 relating to drug and 
alcohol testing? I would like to ask you, what measures you 
think should be put into place to be sure that Mexican drivers 
have met the same drug and alcohol testing requirements as 
United States drivers?
    Mr. Hoffa. Well, I think it's, you know, we know what our 
rules are here. If you get a CDL and you're a driver here in 
the United States, you have to have a physical, you have to 
have a driving test, a written test, you have to be, you have 
to have a drug test. I'm amazed the testimony that I hear 
today--that we hear today, we heard today--that there are no 
labs in Mexico. And then they're saying that they're going to 
take--what, the specimen? That they take in Mexico, and they're 
going to send it to a lab up here? And obviously, it raises the 
chain of custody, which is the biggest issue--who's specimen is 
it? And we're sending those from somewhere deep in the heart of 
Mexico to some lab in the United States, what are we, 
overnighting it back and forth? What about the physical? What 
doctors are going to be doing those physicals in Mexico?
    I think the testimony today here from the Chairman and the 
Inspector General was very disturbing, that after 15 years, 
they don't have a lab to do tests that was acceptable to us. 
So, what I think is, that, you know, the pressure is really on 
the Mexican Government, they have failed miserably, they talk 
about NAFTA, they say we ought to open the borders, but where 
have they been for 15 years? They couldn't establish a lab, 
they couldn't put a computer in, they couldn't get a series of 
clinics to do certifiable tests or physicals? That couldn't be 
done in 15 years? Where have they been all of this time? And 
yet, they're the first ones knocking on our door saying, ``Let 
us in, we want to drive all over the United States.''
    I think that the problem goes back to the Mexican 
Government that they have not overseen this, and now they're 
putting the pressure on the United States to say, ``Open the 
borders, even though we don't meet those tests.'' I think when 
they do do what we have here, when they get labs down there 
that are certifiable, when they get doctors that are 
certifiable, where we can make sure that the specimen that they 
take is the right specimen, then we can look at this. I think 
right now it's clear that this is really a smoke and mirrors 
deal, this is the elephant's trunk into the tent, they're going 
to have a cream of the crop, maybe pick a couple hundred trucks 
to say, ``Oh, look at these new trucks, we're all set.'' And it 
doesn't represent the 5 million trucks that come across our 
border. I think that we should be disturbed by what we heard 
here today, not satisfied.

                     ADDITIONAL PREPARED STATEMENTS

    Senator Murray. Well, thank you very much, and I really 
appreciate all of you taking your time, we do have your written 
testimony, we do have some additional questions from other 
members who we want to submit to you, and we'd ask that you get 
those back to us.
    Also, a statement from the American Insurance Association 
and the U.S. Chamber of Commerce will be included for the 
record.
    [The statements follow:]

        Prepared Statement of the American Insurance Association

    Senators Murray and Bond, the American Insurance Association 
represents more than 400 insurers that provide nearly 30 percent of the 
commercial vehicle insurance in the United States. Many of these 
companies also have global operations.
    AIA has long supported free trade agreements, including NAFTA. But 
for trade agreements to be perceived to be mutually beneficial, and 
hence maintain their public support, the public must feel that its 
safety is not jeopardized. Unfortunately, the recently declared ``pilot 
test'' in which Mexican motor carriers would be free to operate 
throughout the United States, raises many questions that should be 
answered before we are convinced that it does not jeopardize safety and 
public support for free trade. It would, for example, take only one 
tragic crash involving a Mexican truck, which is operating as part of 
the pilot test, to undermine the public's support for the 
transportation components of NAFTA and erode public support for 
international trade, in general.

              IMPORTANT SAFETY CONCERNS REMAIN UNRESOLVED

    While there has apparently been some improvement in narrowing the 
gap in safety between U.S. and Mexican motor carriers, the fact is that 
significant safety concerns continue. An out of service rate of 20 
percent, as indicated in the U.S. Department of Transportation's own 
website materials, is not an acceptable level of performance. Should 
consumers be satisfied if their phones, TVs, furnaces, computers or 
lights didn't work every fifth time? Much less should we be tolerant of 
an out of service rate of 20 vehicles out of 100 vehicles stopped for 
inspections, because lives are directly at stake.
    Specific questions abound. What is the effectiveness of the 
enforcement of hours of service, maintenance and other safety standards 
in Mexico? Are the safety standards themselves as high or higher than 
ours? How will our law enforcement personnel really know the hours that 
were driven by a foreigner driver before entry into the United States? 
Will they be forced to rely on notoriously incomplete, even falsified, 
paper logs? These are just a few of the many safety questions that 
should be answered before the pilot test is commenced.

                     SIGNIFICANT DATA ISSUES REMAIN

    Even assuming safety levels are adequate, and there is no evidence 
to suggest they are, how will insurance underwriters gather necessary 
information to assess the much greater risk posed by foreign based 
vehicles enabled under the ``pilot test'' to now operate in downtown 
Washington, in mid-town Manhattan, on the freeways around Chicago and 
Los Angeles or on congested suburban side streets? Existing operations 
within the commercial zone involve far less hazard and risk than do 
operations throughout the United States. As a result, commercial zone 
experience does not provide sufficient data to assume the same level of 
safety will be maintained when the operations are national in scope.
    Despite some improvements in data collected and shared by 
governments, insurance underwriters do not have ready access to the 
information they need to underwrite Mexican trucks, even though this is 
the same information they routinely need and use to underwrite U.S. 
motor carriers. When the human and economic stakes are so high, as they 
are for large trucks, insurers need to learn as much as they can about 
the risk so they can provide loss control services to reduce the risk 
and price it accurately. Adequate information to do so with regard to 
Mexican motor carriers is not available in a comparable way to that in 
the United States.

                  THE PILOT TEST RAISES MANY QUESTIONS

    The recently announced ``pilot test'' was declared without a prior 
opportunity for stakeholders to discuss it. In any event, we have no 
idea as to how success or failure will be measured. Further, what if 
something tragic happens during the test, a multiple casualty crash, 
for example? Will the test be immediately suspended? Clearly, there are 
legitimate concerns that should be addressed if the ``pilot test'' is 
to serve as a legitimate test.

                               CONCLUSION

    For all of these reasons, we support a thorough Congressional 
review of the ``pilot test'', and its suspension, until all legitimate 
safety, data and procedural questions are answered. Thank you.
                                 ______
                                 
           Prepared Statement of the U.S. Chamber of Commerce

    The U.S. Chamber of Commerce is pleased to present this written 
testimony on the remarkable success of the U.S.-Mexico trade 
partnership and the costs imposed by the long delay in implementation 
of the cross-border trucking provisions of the North American Free 
Trade Agreement (NAFTA). The Chamber strongly supports the pilot 
project announced by U.S. Transportation Secretary Mary Peters on 
February 23, 2007, to allow trucks to operate across the U.S.-Mexico 
border in keeping with U.S. commitments.
    In the Chamber's view, implementing the cross-border trucking 
provisions of NAFTA is long overdue. The recently announced pilot 
project is an important step to enhance North America's 
competitiveness, reduce congestion and pollution at the border, and 
promote economic growth. Questions about safety have been fully 
answered, and every truck entering the United States must meet every 
U.S. safety requirement.
    Free and fair trade has played a key role in our Nation's economic 
growth and development since it was founded, and NAFTA played an 
important role in the accelerated economic growth our Nation has 
enjoyed since it entered into force in 1994. Trade between the United 
States and Mexico has nearly quadrupled from $81 billion in 1993 to 
$332 billion in 2006. The trucking industry is critical to this trade 
partnership since trucks transport over 80 percent of the value of our 
trade with Mexico.
    However, beginning in 1995, the United States has failed to abide 
by its commitment under NAFTA to open the U.S.-Mexico border to cross-
border trucking. The difficulties that stem from this barrier to trade 
should not be underestimated. Current rules maintain a cumbersome, 
environmentally damaging, and costly system that represents a brake on 
further growth in mutually beneficial commerce. The time has come for 
our countries to open our borders to a modern cargo transportation 
system that will allow our economic partnership to reach the next level 
of success.

                            THE STORY SO FAR

    NAFTA gave U.S. and Mexican carriers the right to pick up and 
deliver international freight into the neighboring country's border 
states beginning in December 1995. This market access was scheduled to 
expand to the entire territory of the United States and Mexico by 
January 2000. The United States failed to comply with its commitments 
on both of these occasions.
    NAFTA also included measures to permit U.S. and Mexican carriers to 
invest across the Rio Grande. Starting in December 1995, U.S. and 
Canadian investors were supposed to be allowed to invest in Mexican 
trucking companies or terminals providing exclusively international 
freight services up to a 49 percent ownership cap. NAFTA laid out a 
schedule to raise this cap to 51 percent in 2001 and 100 percent in 
2004.
    By the same token, Mexican carriers were to be allowed to invest 
and fully own U.S. trucking companies for the purpose of transporting 
international cargo within the United States beginning in 1995. The 
United States finally moved toward implementation of these provisions 
on June 5, 2001, when President George W. Bush issued a memorandum 
instructing the U.S. Department of Transportation to begin accepting 
and processing applications by Mexican nationals for the purpose of 
establishing U.S. trucking companies.
    A NAFTA dispute settlement panel in February 2001 determined that 
the United States had violated its obligations on cross-border 
trucking. At the time, analysts calculated that the United States could 
be slapped with retaliatory duties totaling between $1 billion and $2 
billion for every year Washington refuses to allow cross-border 
trucking.
    In 2004, the attorneys general for California, Arizona, Oklahoma, 
Massachusetts, Illinois, New Mexico, Oregon, Washington and Wisconsin 
filed briefs with the Supreme Court, opposing the administration's 
effort to open U.S. roads to Mexican trucks and asserting that air-
quality reviews must precede any such move under the Clean Air Act. 
Noting that Mexican trucks would be subject to all U.S. environmental 
and safety regulations in any event, the administration argued that 
extensive delays and higher costs could result if such additional 
reviews were required. The Supreme Court agreed with the 
administration.

                         CROSS-BORDER TRUCKING

    In the Chamber's view, the dispute over cross-border trucking has 
threatened our relationship with Mexico, our second-largest export 
market. Cross-border trucking today was described in a coalition letter 
signed by the U.S. Chamber of Commerce and other business organizations 
as ``archaic and convoluted. . . . Currently, a shipment traveling from 
the United States to Mexico, or vice versa, requires no less than three 
drivers and three tractors to perform a single international freight 
movement. Through interline partnerships, a U.S. motor carrier handles 
freight on the U.S. side, and a Mexican carrier handles the freight on 
the Mexican side, with a `middleman' or drayage hauler in the middle. 
The drayage driver ferries loads back and forth across the border to 
warehouses or freight yards for pickup or subsequent final delivery 
within the designated border commercial zone.''
    The upshot is congestion, air pollution, and higher prices for both 
consumers and business. The fraught logistics of the existing system 
often compel trucks to return home with empty trailers or with no 
trailer at all. Our border infrastructure is seriously overburdened, 
and the entire system is quickly becoming a real brake on further 
growth in trade.
    These problems are particularly severe for U.S. companies that 
operate ``just-in-time'' manufacturing facilities in Mexico. These 
operations were established with a clear expectation that 
transportation services would be able to deliver inputs from the United 
States or elsewhere to facilities in Mexico according to schedule. Our 
mutually beneficial trading relationship with Mexico will plainly 
suffer--with costly effects for U.S. business--if we fail to ensure the 
expeditious delivery of materials to these manufacturing facilities by 
modernizing the cumbersome transportation system upon which our trade 
with Mexico depends.

                         SAFETY: A VITAL ISSUE

    Safety is plainly one of the most important issues at play in this 
dispute. Ensuring the safety of all trucks on American roads was a top 
priority of the U.S. trade officials who negotiated NAFTA. The Congress 
approved NAFTA because it was broadly satisfied with the fruits of 
their labors.
    And why shouldn't we be? Under NAFTA, every truck entering the 
United States is required to meet each and every U.S. safety 
requirement. In fact, Mexican motor carriers applying for U.S. permits 
will be required to provide far more detailed information regarding 
their ability to meet U.S. safety requirements than their American or 
Canadian counterparts. Any lingering concerns over the safety of these 
carriers from Mexico and their trucks and drivers can surely be 
addressed in the proposed rules for implementing NAFTA.
    While safety is an overriding concern, the United States can 
certainly address this issue while keeping its international 
obligations and expanding upon the mutually beneficial trading 
relationship with Mexico. Failure to try would send a troubling message 
about the difference in our treatment of Canada and Mexico, our two 
closest neighbors and largest export markets.
    Finally, it is imperative that Congress make available the required 
funds to ensure that safety enforcement inspections of trucks on the 
U.S.-Mexico border are carried out with all due seriousness. The U.S. 
Chamber strongly supports providing necessary funding to hire 
additional safety inspectors to be stationed at the border and to build 
and maintain adequate border inspection facilities.

                               CONCLUSION

    Because NAFTA has already eliminated most tariffs and other 
barriers to trade with Mexico, improving our transportation 
infrastructure is one of the best things we can do to keep this 
partnership on track. Implementing NAFTA's trucking provisions offers 
the opportunity to fix the cumbersome, environmentally damaging, and 
costly transportation system upon which our trade with Mexico depends. 
Growing inspection capabilities at the U.S.-Mexico border will ensure 
that trucks will be able to operate on both sides of the U.S.-Mexico 
border with safety and efficiency.
    In the final analysis, this issue revolves around whether the 
United States will keep its word. We should be mindful that the United 
States made a commitment under NAFTA to work with Mexico to modernize 
our cross-border transportation system. The U.S. Chamber urges the 
Congress to work with the administration to assist in implementing 
NAFTA's cross-border trucking provisions and show the world that 
America keeps its commitments.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Murray. But thank you, all of you, for your time 
and testimony today.
    [The following questions were not asked at the hearing, but 
were submitted to the Departments and witnesses subsequent to 
the hearing:]

               Questions Submitted to Hon. Mary E. Peters
              Questions Submitted by Senator Patty Murray

    Question. Secretary Peters, one of the requirements that will be 
the same for both U.S. drivers and Mexican drivers is that they get a 
certificate of medical fitness from a physician. This issue is critical 
to maintaining safety on our highways. Some observers have questioned 
whether there are adequate safeguards, either in the United States or 
in Mexico, to guarantee that truck drivers are truly medically fit.
    Do you have any concerns about the validity of these medical 
fitness certificates, when they are issued in Mexico?
    Answer. No, I do not have any concerns about the validity of the 
medical fitness of Mexican drivers.
    In order to obtain the Mexican CDL (Licencia Federal de Conductor) 
a driver must meet the requirements established by the Ley de Caminos, 
Puentes y Autotransporte Federal (LCPAF or Roads, Bridges and Federal 
Motor Carrier Transportation Act) Article 36, and Reglamento de 
Autotransporte Federal y Servicios Auxiliares (RAFSA, or Federal Motor 
Carrier Transportation Act) Article 89, which state a driver must pass 
the medical exam performed by the Secretariat of Communications and 
Transportation (SCT), Directorship General of Protection and Prevention 
Medicine in Transportation (DGPMPT).
    The same medical exam is performed on all transportation operators 
(airline pilots, merchant mariners, and locomotive operators). It is 
conducted by government doctors instead of the private physicians 
performing the exam on U.S. drivers.
    Question. What measures have you placed to ensure that these 
certificates are taken seriously by the medical profession in Mexico?
    Answer. The SCT in cooperation with the DGPMPT will only issue a 
Mexican CDL to a driver who has successfully completed all requirements 
mandated by Mexican Law, including passing the medical exam.
    Question. Subparagraph (b) of section 350 includes specific 
requirements to ensure that the drivers of hazmat trucks originating in 
Mexico are subject to the same regulations as those originating in the 
United States. Following the passage of section 350, the Patriot Act 
added new requirements for truckers carrying hazardous materials. DOT 
had stated definitively that during the pilot program no Mexico-
domiciled carriers will be granted the authority to transport hazardous 
materials.
    When do you anticipate the DOT and the Mexican authorities coming 
into compliance with this requirement?
    Answer. In August 2006, the Transportation Security Administration 
(TSA) issued a regulation requiring Mexican and Canadian drivers 
entering the United States with hazardous materials to undergo a 
background check equivalent to the background check requirement for 
U.S. drivers with a hazardous materials endorsement.
    In this rulemaking, TSA determined that the background check 
required to obtain a FAST (Free and Secure Trade) Card was equivalent 
to the background check for U.S. drivers.
    In the coming months, DOT will work with SCT to finalize an 
agreement as required in the law that these regulations are 
substantially the same as those applicable to U.S. drivers.
    Question. Will you be launching your own pilot project at that 
point just for hazardous materials trucks or will you just open the 
border to hazmats without a pilot project?
    Answer. As required in the recently passed Supplemental Funding 
bill (Public Law 110-28), DOT will conduct a second, separate 
demonstration project specifically for Mexico-domiciled transporters of 
hazardous materials in accordance with the guidelines and procedures 
followed during the initial demonstration project.
    The second demonstration project will build on what we learn from 
the current program and will include the publication of notices and 
specific information in the Federal Register, as required by section 
350 and the standards for pilot programs in 49 U.S.C. 31315(c).
    Question. The Inspector General has raised the issue about the 
readiness of FMCSA to evaluate and inspect buses, both in the 2005 
follow-up audit and again in his testimony today. As in the case of 
hazmat trucks, your testimony states that bus passengers will not be 
able to cross the borders during the period of the pilot program.
    You say specifically, that bus passengers will not be allowed to 
cross the border. Does this mean that the buses themselves will be able 
to come across?
    Answer. No, ``bus'' means both the commercial motor vehicle and any 
passengers transported therein. No buses, whether transporting 
passengers or not, are included in the demonstration project.
    Question. When the pilot program concludes, will buses and bus 
passengers be able to cross the border with unlimited restrictions?
    Answer. As required in the recently passed Supplemental Funding 
bill, DOT will conduct a second, separate demonstration project 
specifically for Mexico-domiciled transporters of passengers in 
accordance with the guidelines and procedures followed during the 
initial demonstration project.
    The second demonstration project will build on what we learn from 
the current program and will include the publication of notices and 
specific information in the Federal Register, as required by section 
350 and the standards for pilot programs in 49 U.S.C. 31315(c).
    Question. The Inspector General's report cites a concern that 
facilities at the border are not adequate to perform comprehensive 
inspections of buses. DOT is not allowing buses to participate in the 
pilot project.
    Secretary Peters, is it possible that you will open the border to 
long-haul buses before the IG believes you have the capacity to inspect 
them?
    Answer. We will not expand existing cross border bus authority to 
new Mexico-based carriers of passengers wishing to operate beyond the 
commercial zones and municipalities until we have satisfactorily 
addressed the recommendations/requirements to perform safety 
inspections of buses.
    Question. This subcommittee needs to be focused on more than just 
the safety record of Mexican trucks. We need to be focused on the 
safety of all trucks. One issue that bothered me greatly during our 
debate in 2001, and bothers me still today, is the fact that more than 
20 percent of trucks that are inspected in this Country are immediately 
put off the road for safety problems.
    Secretary Peters, you pointed out that, as a result of the 
increased inspection resources on the border, we have now lowered the 
out-of-service rate for Mexican trucks down to 21 percent--roughly the 
same rate as we experience with U.S. trucks.
    Why should the America public consider it acceptable to have more 
than one out of every five trucks on the road be in such unsafe 
conditions that a Federal inspector will immediately take them out of 
service?
    Answer. The American public should not consider the unsafe 
operations of any commercial vehicle to be acceptable.
    It is important to recognize that the out-of-service rate resulting 
from roadside inspections is the result of inspections targeted at 
vehicles recognized to be the highest risk. It is not a representative 
sample.
    FMCSA and our State partners use the Inspection Selection System 
(ISS) to target high-risk carriers for roadside inspections. ISS uses 
as a chief component the SafeStat algorithm that has been proven 
effective at identifying unsafe motor carriers.
    Question. What is your agency doing to dramatically improve the 
safety practices in this industry?
    Answer. FMCSA's mission is to save lives and reduce injuries by 
preventing commercial motor vehicle crashes. Everything the agency does 
is in furtherance of this mission.
    The largest share--$489 million or 93 percent--of our budget 
focuses on reducing large truck and bus crashes. In addition to our own 
efforts, we partner with the States by providing them grants to enforce 
commercial truck and bus safety laws, with special attention to 
motorcoach companies and carriers registered as hauling hazardous 
materials.
    FMCSA's oversight programs are producing results. In fiscal year 
2006, FMCSA and our State partners conducted 15,177 compliance reviews. 
These compliance reviews resulted in 4,195 enforcement actions being 
initiated. FMCSA found 1,035 companies deficient to the extent that we 
placed their operations out-of-service. We know from analysis of our 
compliance review programs that after a compliance review, carriers 
improve their safety operations. We estimate that the compliance 
reviews conducted in 2004 resulted in over 2,700 fewer crashes, 
approximately 1,900 fewer injuries, and over 100 fewer fatalities.
    In addition to conducting reviews of carrier operations, FMCSA and 
our State partners also conducted over 3 million roadside inspections 
of high risk carriers' vehicles during fiscal year 2006. As a result of 
these inspections, we placed some 220,000 drivers out of service until 
serious violations could be remedied. We also removed approximately 
547,000 unsafe vehicles from our highways. Again, we know from previous 
analysis that roadside inspections prevent crashes and save lives. We 
estimate that roadside inspections conducted in 2005 prevented over 
18,000 crashes, about 13,000 injuries, and some 700 fatalities.
    While we recognize there is still much work to be done to make our 
highways safer, FMCSA is proud of the safety impact resulting from 
these programs.
    Question. Secretary Peters, under the provisions of NAFTA, both 
U.S. and Mexican carriers will only be allowed to haul international 
cargo. They will not be allowed to haul cargo between cities in Mexico 
if they are a U.S. carrier, or between cities in the United States if 
they are a Mexican carrier.
    How does the agency plan to enforce this provision? What keeps a 
Mexican carrier that has hauled a load to Minneapolis from hauling 
another load from Minneapolis to Kansas City on its way back to the 
Mexican border?
    Answer. The provisional operating authority granted to a Mexico-
domiciled motor carrier to operate beyond the commercial zone and 
municipalities is limited to the transportation of international 
freight.
    Commercial vehicles found to be operating beyond the scope of their 
provisional operating authority will be placed out of service, and the 
motor carrier may be subject to penalties.
    FMCSA has trained all State truck inspectors regarding enforcement 
of operating authority and conducted significant outreach to the law 
enforcement community to ensure they are aware of these provisions and 
examine Mexican trucks during inspections to determine if they are 
violating these regulations.
    Additionally, we have trained and will continue to train State and 
local law enforcement agencies on the detection of domestic point-to-
point transportation (cabotage) during stops of commercial motor 
vehicles for traffic violations and to conduct roadside vehicle/driver 
inspections. This training, aimed at law enforcement agents who are not 
full-time truck inspectors, but may encounter a Mexican truck during a 
traffic stop, is being conducted in association with the International 
Association of Chiefs of Police.
    FMCSA's training on enforcement of operating authority has been 
successful. In 2006 the States of California, Arizona, New Mexico, and 
Texas discovered 2,328 instances (from 951,229 inspections) where a 
carrier was found to be operating outside the scope of its operating 
authority. While these carriers may have been operating outside the 
scope of their authority for reasons other than cabotage (operating 
beyond the commercial zones or having not received authority), these 
data show a strong awareness of this issue among State and Federal 
enforcement personnel.
    FMCSA will also use logbooks and associated supporting documents 
such as bills of lading during compliance reviews to determine if a 
Mexican carrier has been operating beyond the scope of its authority by 
performing cabotage.
    Question. Will DOT or DHS be monitoring how long a truck has 
actually been in this country, to determine if they have been in the 
country for an unusually long period of time?
    Answer. DHS will continue to screen cargo and vehicles from Mexico 
before admitting them to the United States. U.S. Customs and Border 
Protection (CBP) has vigorous screening procedures in place for 
commercial trucks entering the United States.
    We will conduct additional security screening on these drivers. 
Mexican nationals are required to present an entry document, and if 
traveling outside the 25-mile border zone, he or she will be issued a 
Form I-94 in accordance with US VISIT procedures that include biometric 
and security requirements.
    Mexican nationals are currently required to present an entry 
document, which may be the Laser Visa (DSP-150, or Border Crossing 
Card) or a nonimmigrant visa (class B-1 or B-2) inside a Mexican 
passport. If the person is traveling outside the 25-mile zone, he or 
she will be issued a class B-1 or B-2 Form I-94 for a period of time 
required to deliver the load, and then return to Mexico, but not to 
exceed 6 months. Form I-94 will be issued to the applicant in 
accordance with US VISIT procedures, which satisfy security, antifraud, 
and biometric requirements.
    DOT and DHS will continue to partner in this effort to ensure 
safety and security requirements are completely addressed and satisfied 
prior to the carrier being allowed to proceed to an interior location 
in the United States.
    Question. Earlier this year, a smuggler named Tyrone Williams was 
sentenced to life in prison for his role in the deaths of 19 people he 
was smuggling across the southern border in a truck. The truck was 
locked, had no air conditioning, and was packed with more than 70 
people. Before they were discovered, they had been scratching at the 
truck's insulation and screaming for help. This incident in 2003 
represents a failure of our inspection process.
    Just last month, border agents found 40 people packed into another 
truck under stifling conditions. They were found in Texas at a 
checkpoint 75 miles away from the U.S. border with Mexico, and there 
were no injuries. That was a success of our inspection process.
    Secretary Peters, what will the DOT be doing to work with DHS to 
make sure that people aren't killed in their attempt to cross the 
border?
    Answer. Both the State and Federal inspectors working for DOT and 
DHS will be in contact with every Mexico-domiciled motor vehicle 
participating in the demonstration project, to ensure that both the 
driver and vehicle operating in the United States are in compliance 
with applicable U.S. safety standards.
    DHS/CBP retain the primary role in detection of alien smuggling, 
and are actively engaged in the detection and prosecution of alien 
smuggling organizations. The CBP and the Undersecretary Against 
Organized Crimes in Mexico City continue to intercept vehicles 
containing aliens attempting to enter the U.S. using immigration entry 
documents belonging to another person. Recently, this intensive bi-
national cooperation resulted in the dismantling of an extensive alien 
smuggling organization.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan

    Question. Can you describe Mexico's truck safety enforcement 
program? For example, does the Mexican DOT conduct roadside safety 
inspections? What Out-of-Service data is generated from these 
inspections? Does the Mexican DOT conduct periodic safety audits of 
Mexican carriers? Are there built-in triggers (number of violations by 
a carrier or company drivers) that would cause the Mexican DOT to make 
an on-site safety inspection of a carrier?
    Answer. While we are happy to provide information regarding 
Mexico's truck safety enforcement program, it is critical to note that 
when a truck enters the United States the driver and vehicle must 
comply with all U.S. truck safety regulations and will be subject to 
inspection by Federal or State inspectors both at the roadside and 
during follow-up compliance reviews.
    Mexico does have a roadside inspection program. According to the 
SCT during 2005-2006, they conducted 25,480 inspections based upon 
their NOM-068-SCT-2-2000, their mechanical and safety norm 
(regulation). Of these inspections, 1,158 inspections resulted in an 
out-of-service determination.
    The Direccion General de Autotransportes Federal (DGAF), an agency 
with the SCT, does conduct safety audits of Mexican motor carriers. 
Among the criteria used to determine whether a motor carrier receives 
an audit are the number of violations cited against a motor carrier as 
a result of roadside inspections, creditable complaints, and accidents.
    Question. Is there any attempt by Mexico DOT to enforce the logbook 
requirement for Mexican drivers? If so, what is the violation rate of 
drivers in Mexico not carrying logbooks? I understand that 15 percent 
of the drivers in the commercial zones that are checked are cited for 
not carrying the required logbook.
    Answer. While we are happy to provide information regarding 
Mexico's hours-of-service regulations, it is critical to note that a 
Mexican driver who enters the United States must comply with U.S. 
hours-of-service regulations and will be subject to inspection by 
Federal or State inspectors. These inspectors are experienced at 
checking logbooks for violations and falsification using a variety of 
tools.
    On March 29, 2000, Mexico's then President Zedillo published a 
presidential decree in the Diario Official amending the Traffic Rules 
on Federal Highways to require the use of driver hours-of-service 
logbooks by all Federal motor carrier drivers--and not just by 
hazardous materials drivers, as before.
    The presidential decree added, among others things, article 62 B, 
which states: (1) that carriers must provide their drivers an hours-of-
service logbook; (2) the minimum elements that must be recorded in the 
logbook in a printed or electronic form (carrier name and address, 
motor carrier service classification, vehicle make/year/license plate 
tag, logbook completion date, driver name, driver license number and 
expiration date, origination/destination/route, hours of departure/
arrival/driving/on service without driving due to unscheduled stops/
out-of-service/resting, exceptions when driver may exceed hour-of-
service limits, driver and carrier representative signatures); (3) that 
drivers must obey the hours of service established in the Federal Labor 
Law \1\, and International Treaties, Agreements and Covenants; (4) that 
drivers of vehicles registered with the Secretaria de Communicaciones y 
Transportes (SCT) must carry an hours-of-service logbook for the last 7 
days; (5) that carriers must keep their drivers' hours-of-service 
logbooks for the last 60 days; and that the carriers or drivers that do 
not comply with the hours of service logbook requirements will be fined 
an amount equal to as much as 400 days of the minimum wage.
---------------------------------------------------------------------------
    \1\ Mexican Labor Law establishes, inter alia: (1) daily hours-of-
service limits of 8 hours for the day shift (6 a.m.-8 p.m.), 7 hours 
for the night shift (8 p.m.-6 a.m.) and 7.5 for the mixed shift; (2) 
that during a continuous work day, workers must rest for at least one 
half hour; (3) that if the worker cannot leave the workplace for rest 
or meal breaks, the corresponding time must be counted as part of the 
hours of service; (4) a daily overtime allowance of up to 3 hours but 
only 3 times a week (maximum 9 hours per week total), which must be 
paid at double the hourly rate; (5) that workers are not required to 
work more than the established overtime limit, and that any additional 
overtime in excess of 9 hours per week must be compensated at triple 
the hourly rate and the employer may be subject to sanctions; and (6) 
after six workdays, workers are allowed one day of paid rest (in 
addition to mandated holidays and vacation), which should be Sunday; if 
work must be performed on Sunday, the worker should receive the Sunday 
hourly rate, plus an additional 25 percent.
---------------------------------------------------------------------------
    According to the General Directorship of Federal Motor Carriers 
(DGAF), at terminals and roadside, DGAF and General Directorship of 
Protection and Preventive Medicine in Transportation (DGPMPT) 
inspectors, with the assistance of the Federal Preventive Police (PFP), 
enforce Mexico's driver hours-of-service logbook regulations. Drivers 
are required to carry the hours of service logbooks for the last 7 
days. DGPMPT physicians inspect drivers for fatigue symptoms at 
terminals and the roadside. During a compliance review at the carrier's 
terminal, DGAF inspectors audit drivers' logbooks for the last 60 days.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby

    Question. As this Pilot program is proceeding, what are going to be 
the benchmarks by which you measure your success? What are the 
expectations of this program? How will you determine success or 
failure? What are you trying to achieve?
    Answer. The Department of Transportation (DOT) intends to use a 
variety of benchmarks to evaluate the Cross-Border Trucking 
Demonstration Project including: the crash rates of demonstration 
project participants; convictions of drivers for violation of U.S. 
traffic safety laws; driver and vehicle out-of-service rates; 
violations discovered during pre-authorization safety audits; and 
compliance with U.S. drug and alcohol requirements.
    Additionally, DOT has appointed an independent panel to evaluate 
the safety impact of Mexico-domiciled motor carriers operating beyond 
the border commercial zones. The synthesis of the data analyzed will 
guide the Secretary of Transportation on future decisions concerning 
the operation of Mexico-domiciled motor carriers beyond the border 
commercial zones.
    The evaluation will provide an assessment of whether the safety 
performance of Mexico-domiciled carriers operating beyond the border 
commercial zone in the United States differs from the performance 
exhibited by U.S.-domiciled carriers.
    DOT is attempting to demonstrate the effectiveness of the safety 
programs implemented by DOT, with guidance from section 350 of the 2002 
Appropriations Act, so that DOT can fulfill its NAFTA obligations while 
maintaining the safety on our highways.
    Question. What efforts have been made to make truckers in the 
United States aware of this program? How much interest has there been 
from American trucking companies wanting to take advantage of this 
program? How many Mexican companies have expressed an interest?
    Answer. The Department began this program by making a very public 
set of announcements along the U.S./Mexico border in El Paso, Nogales, 
and Otay Mesa and by issuing a press release. In the months that have 
followed, Departmental and FMCSA officials have spoken about the 
demonstration program before industry groups and made themselves 
available to print, radio, and television journalists.
    On May 1, 2007, FMCSA published a Federal Register Notice 
requesting comments on the Cross-Border Trucking Demonstration Project. 
Additionally, DOT and FMCSA have published information concerning the 
demonstration project on their websites.
    Since February 2007, approximately 30 U.S. motor carriers have 
contacted FMCSA requesting information about participating in the 
demonstration project.
    Since May 2002, 745 Mexico-domiciled motor carriers have submitted 
applications for authority to operate beyond the border commercial 
zones.
    Question. How is the monitoring of the Mexican trucking companies 
actually going to take place? Is the Department staffed and prepared to 
handle the increased numbers of inspections? How can you guarantee that 
our own trucks will be safe on America's highways with the added 
responsibility of providing inspections for the Mexican trucks?
    Answer. Any Mexico-domiciled motor carrier that participates in the 
demonstration project is required to submit to and successfully 
complete a pre-authorization safety audit (PASA). The PASA is designed 
to ensure that the motor carrier has adequate motor carrier management 
safety systems and controls.
    Further, any Mexico-domiciled motor carrier that is granted 
provisional authority to operate beyond the border commercial zones is 
subject to an 18-month heightened roadside inspection program. The 
heightened roadside inspection program is designed to closely monitor 
the on-the-road safety performance of the motor carriers and to 
expedite enforcement actions taken against motor carrier that are found 
to be in violation of safety regulations.
    In addition, these motor carriers will be required to display a 
valid Commercial Vehicle Safety Alliance (CVSA) safety decal for at 
least 4\1/2\ years after receiving provisional authority to operate 
beyond the border commercial zones. CVSA safety decals are valid for a 
maximum of 3 months, and a motor carrier's vehicle must successfully 
complete a 39-point safety inspection in order to obtain a decal.
    DOT is staffed and prepared to conduct the safety inspections 
associated with the demonstration project. Approximately 550 Federal 
and State personnel are situated along the U.S./Mexico border and 
inspect Mexico-domiciled motor carriers. Due to the 100 motor carrier 
limit to the demonstration project, DOT does not anticipate a 
significant increase in the number of drivers and vehicles requiring 
inspection.
    The resources to oversee the safety of Mexican motor carriers have 
been provided by the Congress through the 2002 Appropriations Act and 
other appropriations law, in addition to the other resources provided 
the Agency to monitor the safety of U.S. and Canadian trucking 
companies. In fact, FMCSA is prohibited by section 350 of the 2002 
Appropriations Act from diverting to our Mexican safety programs funds 
appropriated for overseeing the safety of U.S. trucks. It is worth 
noting that, using the resources allocated, FMCSA has for the past 2 
years achieved the lowest Large-Truck Fatality Rate in 30 years.
    Question. How are you going to monitor the comings and goings of 
the trucks from Mexico? How are you going to make sure they go where 
they say they are going, and do what they say they are going to do? Do 
you have a system in place to track the whereabouts of Mexican trucks 
or will they have free rein over our highway system after they cross 
the border?
    Answer. FMCSA employees and our State partners will monitor all 
trucks as they cross the border and perform checks of driver licenses 
and CVSA decals.
    FMCSA will use entry and exit records from Customs and Border 
Protection to monitor Mexican truck activity in the United States.
    FMCSA will also use records such as logbooks and associated 
supporting documents such as bills of lading during compliance reviews 
to determine if a Mexican carrier has been operating beyond the scope 
of its authority by performing point-to-point hauling within the U.S. 
(cabotage).
    DOT will not restrict demonstration project participants to 
predetermined regions, routes or schedules. However, as previously 
mentioned, FMCSA will monitor the movement of the trucks engaged in the 
demonstration project.
    Question. Is this program going to encourage U.S. trucking firms to 
relocate to Mexico to take advantage of a cheaper labor force and more 
lax regulation? What is the impact of this program on the U.S. trucking 
industry and its labor force?
    Answer. The Cross-Border Trucking Demonstration Project is designed 
to implement the trucking provisions of the NAFTA. It will authorize 
Mexico-domiciled motor carriers to transport international freight to 
and from the United States. It does not authorize domestic point-to-
point transportation (cabotage). DOT does not anticipate U.S. trucking 
firms relocating to Mexico because as such they would be prohibited 
from providing domestic point-to-point transportation in the United 
States.
    The Department anticipates that the Cross-Border Trucking 
Demonstration Project will have a negligible effect on the U.S. 
trucking industry and labor force. The international shipments 
authorized to be transported by Mexican trucking companies comprise 
only a small percentage of the daily freight transportation in the U.S. 
In addition, the demonstration program will be limited to 100 carriers. 
There are over 700,000 interstate motor carriers in FMCSA's database.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

    Question. Madam Secretary, New Mexico's economy is significantly 
impacted by cross border trade. Commercial truck traffic is vital to 
this trade and I believe allowing Mexican trucking companies that 
comply with all U.S. requirements to operate outside of the 25-mile 
border zone may bring great benefits to both the New Mexican and 
Mexican economies.
    However, we must ensure that any action taken by your Department, 
in cooperation with the Mexican Government, the Department of Homeland 
Security, and other interested parties, makes the safety of your new 
program a priority. Ensuring the safety of American highways must 
continue to be of the utmost importance.
    How will your Department ensure that Mexican trucks traveling into 
the United States are safe?
    Answer. Any Mexico-domiciled motor carrier that participates in the 
demonstration project is required to submit to and successfully 
complete a pre-authorization safety audit (PASA). The PASA is designed 
to ensure that the motor carrier has adequate motor carrier management 
safety systems and controls.
    Further, any Mexico-domiciled motor carrier that is granted 
provisional authority to operate beyond the border commercial zones is 
subject to an 18-month heightened roadside inspection program. The 
heightened roadside inspection program is designed to closely monitor 
the on-the-road safety performance of the motor carriers and to 
expedite enforcement action against motor carriers that are found to 
violate safety regulations.
    In addition, these motor carriers will be required to display a 
valid Commercial Vehicle Safety Alliance (CVSA) safety decal for at 
least 4\1/2\ years after receiving provisional authority to operate 
beyond the border commercial zones. CVSA safety decals are valid for a 
maximum of 3 months, and a motor carrier's vehicle must successfully 
complete a 39 point safety inspection in order to obtain a decal.
    DOT is staffed and prepared to conduct the safety inspections 
associated with the demonstration project. Approximately 600 Federal 
and State personnel are situated along the U.S.-Mexico border and 
inspect Mexico-domiciled motor carriers.
    Question. How often will Mexican companies be required to submit to 
safety audits to retain their certification to operate on U.S. roads?
    Answer. Mexican motor carriers participating in the demonstration 
project are required to submit to a PASA once.
    However, the participants are subject to an 18-month heightened 
roadside inspection program designed to closely monitor the on-the-road 
safety performance of the motor carriers and to expedite enforcement 
action against motor carriers that are found to violate safety 
regulations.
    Additionally, the participants are subject to a compliance review 
within 18 months of receiving provisional authority to operate beyond 
the border commercial zones. If a participant motor carrier fails to 
achieve a satisfactory safety rating as a result of the compliance 
review, the participant's authority is subject to suspension and/or 
revocation.
    Question. How many inspection teams from the Motor Carrier Safety 
Administration are being devoted to this program?
    Answer. DOT is staffed and prepared to conduct the safety 
inspections associated with the demonstration project. Approximately 
600 Federal and State personnel are situated along the U.S.-Mexico 
border and inspect Mexico-domiciled motor carriers.
    FMCSA has dedicated 32 teams of auditors and investigators to 
conduct PASAs and compliance reviews. Each team consists of one auditor 
and one investigator. These teams are part of the 600 personnel 
mentioned above.
    Question. When does the Department of Transportation expect the 
program to conduct on-site safety audits of Mexican trucking companies 
to be fully implemented?
    Answer. To date, FMCSA has completed 32 PASAs where the motor 
carrier has successfully completed the audit.
    FMCSA has conducted an additional six PASAs where the motor carrier 
did not successfully complete the audit.
    FMCSA anticipates completing 100 successful PASAs by mid-Summer 
2007.
                                 ______
                                 
            Questions Submitted to Hon. Calvin L. Scovel III
              Questions Submitted by Senator Patty Murray

    Question. Mr. Scovel, in your report you cited a concern that there 
is not adequate facilities at the border to perform comprehensive 
inspections of buses as such DOT is not allowing buses to participate 
in the pilot project.
    Do you see aggressive efforts on the part of DOT to create the 
capacity to adequately inspect buses at the border?
    Answer. The Federal Motor Carrier Safety Administration has taken 
action to address our prior findings regarding the capacity to conduct 
bus inspections at the southern border. However, before we can 
characterize the Department's efforts as aggressive or otherwise, we 
need to obtain FMCSA's response on our latest findings in this area.
    Our January 3, 2005,\1\ report disclosed that, while buses are 
currently inspected at commercial truck crossings, sufficient staff was 
not available at some designated bus crossings to meet section 350 
requirements for verifying the driver's commercial license and 
inspecting vehicles that have expired Commercial Vehicle Safety 
Alliance (CVSA) decals. In response to our report, FMCSA worked with 
the U.S. Customs and Border Protection Service to identify mutually 
acceptable procedures and implemented a Southern Border Bus Inspection 
Plan. The Inspection Plan identified the ports of entry in each 
southern border State along with a description of their respective bus 
inspection issues and the planned strategies for addressing those 
issues.
---------------------------------------------------------------------------
    \1\ OIG Report Number MH-2005-032, Follow-up Audit of the 
Implementation of the North American Free Trade Agreement's (NAFTA) 
Cross Border Trucking Provisions, January 3, 2005. OIG reports are 
available at our web site: www.oig.dot.gov.
---------------------------------------------------------------------------
    In our current report, which we expect to issue soon, we observed 
bus inspections at a major border crossing. We identified physical 
space and capacity issues that prevented FMCSA and the State motor 
carrier inspectors from conducting bus inspections during high volume 
holiday periods. This important issue was not identified in FMCSA's 
Southern Border Commercial Bus Inspection Plan. Additional potential 
issues with bus inspections, such as lack of a ramp on which to conduct 
inspections, were brought to our attention during contacts with 
inspectors at other, randomly selected border crossings. We are 
recommending that FMCSA ensure that adequate space is available to 
conduct bus inspections as required by section 350 criteria, by working 
on a site-specific basis with the U.S. Customs and Border Protection 
Service to modify the Southern Border Bus Inspection Plan. We will 
request that FMCSA provide specific actions planned in response to this 
report.
    Question. The Inspector General has raised the issue about 
readiness of FMCSA to evaluate buses, both in the 2005 follow-up audit 
and again in his testimony today. As in the case of hazmat trucks, 
Secretary Peters' testimony states that bus passengers will not be able 
to cross the borders during the period of the pilot program?
    Mr. Scovel, can you comment on this issue and measures that you 
think need to be addressed when it comes to cross-border bus traffic?
    Answer. Our January 3, 2005 report \1\ disclosed that, while buses 
are currently inspected at commercial truck crossings, sufficient staff 
was not available at some designated bus crossings to meet section 350 
requirements for verifying the driver's commercial license and 
inspecting vehicles that have expired Commercial Vehicle Safety 
Alliance (CVSA) decals. In response to our report, FMCSA worked with 
the U.S. Customs and Border Protection Service to identify mutually 
acceptable procedures and implemented a Southern Border Bus Inspection 
Plan. The Inspection Plan identified the ports of entry in each 
southern border State along with a description of their respective bus 
inspection issues and the planned strategies for addressing those 
issues.
    In our current report, which we expect to issue soon, we will note 
that in fiscal year 2005, Federal and State inspectors performed 27,262 
bus inspections in the 4 southern border States. In September 2006, we 
observed bus inspections at a major border crossing. While the 
inspections met the established standards, we identified physical space 
and capacity issues that prevented FMCSA and the State motor carrier 
inspectors from conducting bus inspections during high volume holiday 
periods. This important issue was not identified in FMCSA's Southern 
Border Commercial Bus Inspection Plan. Additional potential issues with 
bus inspections, such as lack of a ramp on which to conduct 
inspections, were brought to our attention during contacts with 
inspectors at other, randomly selected border crossings.
    Based on this work, one measure FMCSA needs to take is to update 
the Southern Border Commercial Bus Inspection Plan to address the 
issues we have raised. These issues need to be addressed to ensure that 
Mexican bus carriers granted long-haul authority are not able to to 
avoid vehicle or license inspections, as required by section 350, 
during busy periods at this crossing.
    In addition, any future inclusion of buses in the demonstration 
project would need to recognize the differences in bus operations at 
the border, specifically the fact that buses are permitted to enter the 
United States at separate bus crossings and at a time when commercial 
trucks are restricted.
    Approximately, 250,000 buses crossed the southern border in 2005 so 
the amount of traffic is significant. Given this situation, applying 
the ``check every truck every time'' criteria being used in the present 
demonstration project would be challenging. In our January 3, 2005, 
audit we recognized that issues such as the handling of passengers 
during inspections meant that alternative methods might be appropriate 
for handling inspections, and such alternatives would need to be 
specified before including buses in the demonstration project. Section 
350 itself makes no specific mention of bus inspection procedures. 
Thus, any future demonstration project that included buses would need 
to address the methods to be used for bus inspections.

                         CONCLUSION OF HEARING

    Senator Murray. And this subcommittee will now stand in 
recess until Thursday, March 15 when we will take testimony on 
the Federal Housing Administration within HUD.
    [Whereupon, at 11:40 a.m., Thursday, March 8, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
